<html>
<title> - REAUTHORIZATION OF THE MAGNUSON- STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 106-1085]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1085

                    REAUTHORIZATION OF THE MAGNUSON-
                   STEVENS FISHERY CONSERVATION AND 
                             MANAGEMENT ACT

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 14, 1999

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


77-584              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Staff Director
                  Martha P. Allbright, General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                                 ------                                

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                   OLYMPIA J. SNOWE, Maine, Chairman
TED STEVENS, Alaska                  JOHN F. KERRY, Massachusetts
SLADE GORTON, Washington             DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN B. BREAUX, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held December 14, 1999...................................     1
Statement of Senator Breaux......................................     5
Statement of Senator Snowe.......................................     1

                               Witnesses

Anderson, Wilma, Executive Director, Texas Shrimp Association....    41
    Prepared statement...........................................    44
Brown, Bob, Vice Chancellor, Governmental Affairs, Alumni and 
  Development, University of New Orleans.........................     1
Claverie, Maumus, Member, Gulf of Mexico Fisheries Management 
  Council........................................................   108
Cox, Felix, Commercial Fisherman.................................   115
Dalton, Penelope, Assistant Administrator for Fisheries, National 
  Marine Fisheries Service, National Oceanic and Atmospheric 
  Administration; accompanied by William Hogarth, Ph.D., 
  Southeast Regional Administrator, National Marine Fisheries 
  Service, National Oceanic and Atmospheric Administration; and 
  Joseph Powers, Ph.D., Southeast Science Center.................     7
    Prepared statement...........................................    10
Dorsett, Chris, Gulf Restoration Network, New Orleans, Louisiana.   117
Emerson, Peter M., Senior Economist, Environmental Defense Fund..    58
    Prepared statement...........................................    59
Fischer, Myron, Offshore Charter Captain, Port Fourchon, 
  Louisiana......................................................    48
    Prepared statement...........................................    51
Loga, Steve, President, Tuna Fresh, Inc., Dulac, Louisiana.......    89
    Prepared statement...........................................    92
Loup, Steve, Recreational Fisherman, Glenn, Louisiana............   116
Lyons, R. Michael, Manager, Environmental Affairs, Louisiana Mid-
  Continent Oil and Gas Association..............................    76
    Prepared statement...........................................    78
Miller, Frederic L., Chairman, Government Relations Committee, 
  Coastal Conservation Association...............................    94
    Prepared statement...........................................    97
Perret, William S. ``Corky'', Director, Office of Marine 
  Fisheries, Mississippi Department of Marine Resources..........    84
    Prepared statement...........................................    86
Robin III, Charles, Commercial Fisherman, St. Bernard, Louisiana.   119
Roussel, John E., Assistant Secretary, Office of Fisheries, 
  Louisiana Department of Wildlife and Fisheries.................    16
    Prepared statement...........................................    18
Shipp, Robert, Ph.D., Chairman, Gulf of Mexico Fishery Management 

  Council........................................................    25
    Prepared statement...........................................    26
Simpson, Larry B., Executive Director, Gulf States Marine 
  Fisheries Commission...........................................    20
    Prepared statement...........................................    22
Spaeth, Robert, Executive Director, Southern Offshore Fishing 
  Association, Inc...............................................   110
    Prepared statement...........................................   112
Torrance, Tim, Commercial Fisherman, Larose, Louisiana...........   125
Varisich, George, President, United Commercial Fishermen's 
  Association, Chalmette, Louisiana..............................   122
Waters, Donald, Pensacola, Florida...............................   118
Werner, Wayne, Commercial Fisherman, Galliano, Louisiana.........    53
    Prepared statement...........................................    55
Wilson, Charles A., Ph.D., Professor, Chairman, Department of 
  Oceanography and Coastal Sciences, Louisiana State University..    80
    Prepared statement...........................................    82

                                Appendix

Jones, Bob, Executive Director, Southeastern Fisheries 
  Association, prepared statement................................   141
Miller, Frederic L., letter dated February 13, 2001, in response 
  to questions submitted by Hon. Olympia J. Snowe, via Melissa 
  Murphy.........................................................   141
Response to written questions submitted by Hon. John B. Breaux 
  to:
    Penelope Dalton..............................................   136
    Frederic L. Miller...........................................   137
    John Roussel.................................................   138
    Dr. Robert Shipp.............................................   139
    Dr. Chuck Wilson.............................................   139
Response to written questions submitted by Hon. Olympia J. Snowe 
  to:
    Penelope Dalton..............................................   129
    Peter Emerson................................................   133
    Myron Fischer................................................   132
    R. Michael Lyons.............................................   134
    William S. ``Corky'' Perret..................................   134
    John Roussel.................................................   130
    Dr. Robert Shipp.............................................   131
    Larry B. Simpson.............................................   135

 
                    REAUTHORIZATION OF THE MAGNUSON-
            STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT

                              ----------                              


                       TUESDAY, DECEMBER 14, 1999

  U.S. Senate Subcommittee on Oceans and Fisheries,
        Committee on Commerce, Science, and Transportation,
                                                   New Orleans, LA.
    The Subcommittee met, pursuant to notice, at 9:03 a.m., in 
room 101, Training Resources and Assistive Technology Center, 
University of New Orleans, Hon. Olympia S. Snowe, Chairman of 
the Subcommittee, presiding.
    Staff members assigned to this hearing: Sloan Rappoport, 
Republican Counsel; Rick Kenin, Republican Coast Guard Fellow; 
and Margaret Spring, Democratic Senior Counsel.

          OPENING STATEMENT OF HON. OLYMPIA S. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Good morning. The hearing will come to 
order.

STATEMENT OF BOB BROWN, VICE CHANCELLOR, GOVERNMENTAL AFFAIRS, 
       ALUMNI AND DEVELOPMENT, UNIVERSITY OF NEW ORLEANS

    Mr. Brown. Good morning, ladies and gentlemen and the 
distinguished Senators Breaux and Snowe.
    My name is Bob Brown, and I am the Vice Chancellor for 
Governmental Affairs, Alumni and Development here at the 
University. And it is an extraordinary pleasure for us to 
welcome you to our university.
    It is particularly a good feeling because you are going to 
address, without question, some very powerful matters that have 
much to do with the state of the economy in Louisiana and 
Maine, and indeed, around the Nation and around the world. It 
is important in Louisiana, of course, because, like Maine, the 
industry is a very important and powerful one for us. And we 
are just delighted that you are here.
    My boss, Chancellor O'Bryan, is away on a very important 
mission. I am the chief development officer, and he is actually 
asking someone for money this morning, and we consider that to 
be a very powerful thing.
    I want to do just a couple of things before you get into 
the hearing. First of all, I want to introduce and acknowledge 
my colleague, Vice Chancellor Shirley Laskey. She is the senior 
administrator who has primary responsibility for our Federal 
relations, and works extremely hard with our delegation in 
Washington, and particularly with Senator Breaux and with his 
staff.
    Ms. Naomi Moore, the lady in blue, is the woman who 
handled, and will continue to handle, all of the logistics for 
you as you go through your day. And she said to me that I 
should make a very important announcement. The ladies' and 
men's rooms are outside of this room and turn right and go down 
the hall, and they will be the last two doors on your left.
    So we hope you have a very productive day. We hope that it 
leads to some very important work down the line as the two 
Senators move these efforts through the Congress. And we hope, 
finally, that you have very happy holidays.
    Thank you very much.
    Senator Snowe. Vice Chancellor Brown, I want to thank you 
on behalf of the Subcommittee and Senator Breaux for allowing 
us to be here today, and for lending us your beautiful 
facilities. We thank you for your hospitality and your staff 
who have helped to assist us in making this possible. I wish 
you well for all that you do on behalf of the people of 
Louisiana.
    Senator Breaux. Thank you, Robert. We appreciate it very 
much. Thank you, Vice Chancellor.
    Mr. Brown. Thank you.
    Senator Snowe. Good morning. First of all, I want to thank 
Senator Breaux for inviting me and the subcommittee to this 
beautiful city of New Orleans, and his State, to discuss the 
future of our fisheries. Maine and Louisiana have a lot in 
common. We both have many miles of beautiful coastline, proud 
fishing traditions that date back for generations, and 
crustaceans that we are very proud of.
    But, be that as it may, we are very fortunate to have 
someone of Senator Breaux's capabilities and in-depth 
knowledge, leading back to his tenure as chair of the Fisheries 
Subcommittee in the House of Representatives. Senator Breaux 
has been a leader on fisheries issues for almost 30 years and 
he has a remarkable ability to work across party lines.
    It has been a privilege to work with John on many issues, 
including the important issue of the health of our fisheries. 
It is not a Democrat issue. It is not a Republican issue. We 
work together on this, and many issues of concern to the people 
of this country, and certainly to our respective States.
    We must continue the tradition of bipartisanship on 
fisheries issues. And I am going to be working with Senator 
Breaux and other members of the Subcommittee on the 
reauthorization of the Magnuson-Stevens Act. And I know that 
John, over the years, has played an integral role in past 
reauthorizations of the Act.
    I want to welcome all of you here today, our witnesses in 
particular, and everybody else who has taken the time to be 
here. Let me note that many of you have travelled long 
distances to offer your views and positions on this 
reauthorization.
    I do not have to tell you that Magnuson-Stevens is the 
principal Federal law governing marine fisheries management. 
This is the third hearing to be held by the Subcommittee as 
part of an exhaustive review of the statute and its 
implementation by the administration.
    The enactment of the Fishery Conservation and Management 
Act of 1976 began a new approach to Federal marine fisheries 
management. The Act, as you know, is administered by the 
National Marine Fisheries Service and eight regional fisheries 
management councils. Their actions establish the rules under 
which the fishing industry operates. They determine the harvest 
quotas, season length, gear restrictions, and license 
limitations, decisions which have serious implications for 
those of you who fish and work in the Gulf.
    That is why difficult management decisions cannot be made 
in a vacuum. You are the ones whose livelihood is at stake. 
Your voice must be heard in the decisionmaking process. As 
such, it is critical that all sectors of the fishing community 
receive fair and balanced representation, to ensure that you 
play a strong role in the management of this process.
    In July, in Washington, D.C., we met to examine a broad 
array of issues concerning fisheries management. Mr. Wayne 
Swingle, who is Executive Director of the Gulf of Mexico 
Fishery Management Council, provided us with an overview of the 
topics that we will have the opportunity to discuss in more 
detail today.
    In September, the subcommittee held a hearing in Maine. We 
heard about how the implementation of the Act affected 
fishermen in New England. And I will be holding additional 
hearings next year, in Seattle, Alaska, and Massachusetts, to 
help us obtain a consensus on what changes should be made to 
help ensure a healthy future for our fisheries. After all, 
there is no doubt that fisheries are very important for many 
States and the Nation as a whole.
    In 1998, commercial landings by U.S. fishermen were over 
9.2 billion pounds of fish and shellfish, worth $3.1 billion. 
Further, the recreational fishing catch was 195 million pounds. 
In my own State of Maine, fishing is more than a job; it is a 
way of life. Up and down the Maine coast, our communities have 
long and rich fishing heritage. As a result of my work with 
Senators Breaux, Hutchison, and Lott on the Commerce Committee, 
I have learned that the same could be said of the Gulf Coast.
    The Gulf produces a substantial amount of seafood. In 1998 
alone, Gulf States landed over 1.5 billion pounds of fish, 
worth over $700 million. Louisiana has four ports in the top 
ten nationwide in terms of landings. And then, of course, you 
have Mississippi, Alabama, Texas, and Florida, all of which 
have fishing ports with substantial landings, worth millions 
and millions of dollars.
    While many regions are dependent on commercial and 
recreational fisheries that are strong and robust, others have 
not fared as well. Their fish stocks have declined, and 
communities in those regions are feeling the economic impact. 
And throughout the reauthorization process, we will examine 
ways to bring about healthy fisheries and healthy fishing 
communities.
    As you all know, one of the goals of the Magnuson-Stevens 
Act was to provide a mechanism to determine the appropriate 
level of catch to maximize the benefit to the Nation, while 
still protecting the long-term sustainability of the fisheries. 
It is a balancing act among competing interests of commercial 
and recreational fishermen. And we will also hear of the need 
for participation of non-fishing interests when managing public 
resources.
    The Sustainable Fisheries Act was enacted in 1996. And the 
goals and objectives of that Act reflected significant changes 
to the original legislation. Proper implementation of these 
provisions is of great concern to many different groups. 
Accordingly, there is considerable interest in the activities 
of the regional councils in the National Marine Fisheries 
Service.
    The most substantial change that occurred in the 1996 Act 
was the mandate to stop overfishing and restore overfished 
stocks. The councils were given a timetable to achieve this 
goal. And today's witnesses will be able to give firsthand 
reports about the level of success the Gulf Council has had in 
meeting this requirement.
    Finally, the councils and the National Marine Fisheries 
Service were also told to increase the emphasis on the 
socioeconomic impacts that regulations have on fishing 
communities. Because of the high level of overfishing, 
management measures will be required in a variety of fisheries. 
It is essential, therefore, that we remember to preserve the 
fishermen as well as the fish.
    There have been numerous criticisms that the National 
Marine Fisheries Service and councils have not taken adequate 
measures to address the financial hardship that tough 
management will inevitably cause. Today, we will hear the 
impact that this has had on fishermen and fishing communities 
here in the Gulf.
    The Sustainable Fisheries Act also imposed a moratorium on 
the creation of new individual fishing quota programs. Today's 
witnesses will offer recommendations to address such programs 
in the future.
    The final paradigm shift that was incorporated in the 1996 
Act included provisions to minimize bycatch and to restore and 
protect fish habitat. Based on concerns that certain fish 
stocks have declined due to loss of their surrounding habitat, 
the Act established a national program to facilitate long-term 
protection of essential fish habitats. Many have argued that 
these provisions have not been properly implemented, and we 
will be discussing this problem with our witnesses here today.
    During my trips home to the State of Maine, and during the 
recent hearing on the Magnuson-Stevens Act, many people 
affected by this legislation have indicated to me time and 
again that there is too little flexibility in the Act, that it 
is not being properly implemented by the National Marine 
Fisheries Service, and that contrary to its mandate, the best 
science is not being used in management decisions. And I know 
from reviewing the testimony that will be presented here today, 
many of you share similar concerns.
    As we move forward in this process, we must make sure that 
sustainable fishing and good management becomes the norm and 
not the exception. Clearly, this reauthorization will have 
major implications for the future health and management of our 
fisheries, in all of our communities throughout this country.
    So I welcome all of you here today. I appreciate your 
ability to be here to express your concerns. It will be an 
evolving process throughout this next year. But we obviously 
have a timetable to reauthorize the Magnuson-Stevens Act, so we 
are going to embark on an ambitious program. We need to make 
sure that we hear all of your concerns throughout the 
reauthorization process.
    With that, I would like to recognize my good friend and 
colleague, Senator Breaux.

          STATEMENT OF HON. JOHN BREAUX, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Breaux. Thank you very much, Madam Chair. And 
welcome to New Orleans and welcome to the Gulf. We are 
delighted to have our Chairperson of the Subcommittee in the 
Senate for a hearing in our area to hear firsthand of the 
concerns, and all of the potential and actual problems that we 
have experienced since the last time that Congress visited this 
area.
    I think we are fortunate to have Senator Snowe as Chair of 
this important Subcommittee, because she also comes from a 
maritime area, the State of Maine, with a great history of both 
fishing and maritime industry. And while we are many miles 
apart in geographic distance, we are very close together on 
many of the concerns the people of our respective areas share.
    I have got to tell the story, Madam Chair, of the two 
Cajuns who won this ice fishing trip, all expenses paid, to the 
State of Maine, to go ice fishing in Maine in the middle of the 
winter. These two South Louisiana Cajuns had never been north 
of Shreveport before, but they took the trip up to Maine in the 
dead of winter. And they went to the local sporting goods store 
to buy equipment so that they could go ice fishing, which they 
had never done before.
    So they go into the store and they buy gloves and they buy 
hats and they buy boots. And they ask if the owner had any ice 
picks. And he said, sure, and they said, we'll take a dozen. So 
they went out and came back about three hours later, and they 
said, we want another dozen ice picks. And the store owner 
said, well, yes, I guess I can sell you another dozen. So he 
sells them the second dozen ice picks.
    And then, about two hours later, they come back in. They 
want another dozen ice picks. The store owner just had to ask 
them, he said, men, I do not understand you all. You come to 
the store and you buy three dozen ice picks. You all must be 
catching a lot of fish. And the two Cajuns said, catching a lot 
of fish--heck, we ain't even got our boat in the water yet.
    [Laughter.]
    Senator Breaux. So while we have a lot in common, there are 
some differences as well. And what we are trying to do is to 
get the boats in the water and keep them fishing, from both a 
commercial and a recreational standpoint. It is an absolute 
challenge. I have been involved in these issues for such a long 
time, and to try and properly manage the resources of this 
Nation for all of the legitimate users is indeed an absolutely 
complicated, and almost impossible, task.
    I see some of these people in the room who have been 
friends of mine for so long, representing all sides of the 
issues. I know that fisheries management has always been a very 
difficult thing to do. We created the regional fishery 
management councils because we wanted the decisions to be made 
on a local level, closest to the people, as opposed to having 
them all made in Washington by bureaucrats who often do not 
have firsthand knowledge of what is happening.
    So it is a delicate balance to have a Federal role, a local 
role, and a private sector role and to make it all work. No one 
is ever going to be satisfied. Our job is to make sure that 
everybody is treated fairly, knowing that the end results will 
never be to the liking of any particular group, each of which 
would of course like to have decisions more tilted toward their 
particular interest. I know that our job is very difficult--and 
that the Council's job is very difficult--in trying to 
carefully balance all of these considerations.
    Let me just conclude by saying, as Senator Snowe has 
acknowledged, how important this Gulf fishery is to this 
region. Larry Simpson, who has been around for a long time, had 
some really interesting statistics attached to the end of his 
testimony. And just for the benefit of everybody, the coastline 
of the Gulf of Mexico is 1,630 miles. That is longer than the 
Pacific coast. That is longer than the coastline from 
California to the State of Washington. And it is equivalent to 
the distance from Newport, Rhode Island, to Miami, Florida.
    Nearly 40 percent of the total U.S. commercial fishing 
landings come from the Gulf. For the whole United States of 
America, 40 percent come right from the Gulf of Mexico. It is 
really an absolutely amazing area that we have. At the same 
time that we have one of the greatest fishing areas in the 
world, we have also one of the most productive areas for 
energy, which also creates conflicts between these groups.
    So much of the oil and gas for this Nation is produced 
right here in the Gulf of Mexico, and provides energy for 
people all over the United States and all over the world. 
Ninety-seven percent of all offshore gas production is right 
here in the Gulf. And the shrimp industry is the second most 
valuable fishery in terms of dollars, only next to Alaska 
salmon--however, I prefer shrimp, of course.
    [Laughter.]
    Senator Breaux. But, anyway, those are the statistics.
    Senator Snowe. Did you tell that to Senator Stevens?
    Senator Breaux. Yes, quietly.
    [Laughter.]
    Senator Breaux. We are delighted our Chairperson is here, 
and we welcome her knowledge of this issue. And we are 
delighted for all of the people who are participating, 
particularly our first panel, and we look forward to hearing 
your testimony.
    Thank you.
    Senator Snowe. Thank you.
    Before I welcome our first panel, I would like to introduce 
to you our staff: Sloan Rappoport and Rick Kenin, from my 
Subcommittee staff; Margaret Spring from the Subcommittee 
minority staff. They have traveled from Washington to be here 
today. Also John Flynn from Senator Breaux's D.C. staff, and 
Steve Kozak, from Senator Kerry's office, is here as well.
    So if you have any additional problems, they are sitting 
right behind us.
    Senator Breaux. With the real answers.
    Senator Snowe. Right, with the real answers.
    I would like to welcome the members of our first panel: Ms. 
Penny Dalton, Assistant Administrator of the National Marine 
Fisheries Service. She is accompanied by Bill Hogarth, National 
Marine Fisheries Service Southeast Regional Administrator. We 
also have John Roussel, Assistant Secretary of the Office of 
Fisheries, at the Louisiana Department of Wildlife and 
Fisheries.
    The next witness will be Mr. Larry Simpson, Director of the 
Gulf States Marine Fisheries Commission. And our final witness 
on panel one will be Dr. Shipp, who is Chairman of the Gulf of 
Mexico Fishery Management Council.
    We welcome all of you here today. Thank you. We have a 
number of witnesses here today. We ask that you limit your oral 
presentations to about five minutes so that we can proceed, and 
we will place your full written statements in the record. Thank 
you.
    Ms. Dalton.

   STATEMENT OF PENELOPE DALTON, ASSISTANT ADMINISTRATOR FOR 
FISHERIES, NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC 
AND ATMOSPHERIC ADMINISTRATION; ACCOMPANIED BY WILLIAM HOGARTH, 
   PH.D., SOUTHEAST REGIONAL ADMINISTRATOR, NATIONAL MARINE 
      FISHERIES SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
  ADMINISTRATION, AND JOSEPH POWERS, PH.D., SOUTHEAST SCIENCE 
                             CENTER

    Ms. Dalton. Good morning. Thank you for inviting me to New 
Orleans to testify on the Magnuson-Stevens Act and on issues of 
concern to fishermen in the southeastern United States. I am 
Penny Dalton, Assistant Administrator for Fisheries of the 
National Oceanic and Atmospheric Administration. Accompanying 
me is Dr. Bill Hogarth, our Southeast Regional Administrator. 
Also with us is Dr. Joe Powers, from the Southeast Science 
Center, in case there are technical questions.
    As you know, marine fisheries make a significant 
contribution to coastal economies of the Gulf and South 
Atlantic. Senator Snowe has given the statistics on the 
importance of commercial fisheries. And in addition, Southeast 
recreational fisheries are the largest in the Nation. In 1998, 
5.8 million saltwater anglers around the United States took 53 
million trips and caught 284 million fish.
    Sport fishermen in the Southeast accounted for more than 60 
percent of those trips, and more than 44 percent of the fish 
caught nationwide. While these figures are substantial, they 
are less than they could be. Current harvest levels are about 
18 percent lower than the long-term potential yield.
    Today, over 334 species of fish, corals, crabs, and other 
shellfish are managed under 19 fishery management plans 
developed by the Gulf of Mexico, South Atlantic and Caribbean 
Fishery Management Councils. Of these stocks, about 8 percent 
are overfished or approaching overfished status; 7 percent are 
not overfished; and there are another 85 percent whose status 
is unknown.
    Our 1994 report to Congress lists four species managed by 
the Gulf Council, by the South Atlantic Council, one jointly 
managed species, and three species managed by the Caribbean 
Council as overfished. The councils have submitted amendments 
to existing fishery management plans to rebuild these 
overfished species and increase long-term yields of all 
fisheries under their management.
    Their efforts are starting to pay off, with signs of 
recovery for some overfished stocks. For example, South 
Atlantic king and Spanish mackerel recently were removed from 
the list of overfished species. Gulf Spanish mackerel also have 
been taken off the overfished list. These improvements are a 
result of close coordination by the councils of State and 
Federal efforts to reduce fishing mortality.
    The Gulf of Mexico shrimp fisheries also have benefited 
from cooperative management. Although the annual yield is 
governed in part by environmental factors, two cooperative 
closures--the Tortugas shrimp sanctuary in Southern Florida, 
and the brown shrimp closure off Texas--have contributed to 
increases in shrimp landings.
    The Tortugas closure provides for a reserve for pink shrimp 
adjacent to harvest grounds, thus ensuring availability of the 
resource during the fishing season. The Texas closure enhances 
total landings by delaying the opening of the season until 
shrimp have attained a larger size. These closures were 
developed by the Gulf Council, Florida and Texas, and 
implemented by NOAA Fisheries in Federal waters.
    The Magnuson-Stevens Act provides a national framework for 
conserving and managing the wealth of fishery resources found 
in U.S. Federal waters. In 1996, Congress revised the Magnuson-
Stevens Act, in the Sustainable Fisheries Act, to address such 
issues as assessing the social and economic impacts of 
management, rebuilding overfished stocks, minimizing bycatch, 
and identifying and protecting fish habitat.
    One of NOAA Fisheries' highest priorities is to improve our 
social and economic analyses. The Magnuson-Stevens Act requires 
a fishery impact statement. And a new standard on fishing 
communities makes clear our mandate to consider the social and 
economic impacts of management programs.
    In addition, analyses are required by other laws, such as 
the Regulatory Flexibility Act and the National Environmental 
Policy Act. This is an important part of the decisionmaking 
process, and affects our choice of fisheries management 
actions. For instance, the South Atlantic Council's snapper/
grouper plan reduced quotas for snowy grouper and golden tile 
fish by 40 percent. But to lessen the impact on fishermen, the 
plan phased in the reduction over a three-year period.
    In the Gulf of Mexico, the red snapper fishery has become 
the focal point for both overfishing and bycatch discussions. 
The management of red snapper is complicated, because the 
species is long lived and requires a very lengthy rebuilding 
program. In addition, bycatch of juvenile fish in shrimp trawls 
has reduced the capacity of the red snapper resource to 
recover.
    To stop overfishing in the red snapper fishery, we now have 
limited entry in the commercial sector and closures when 
commercial and recreational quotas are reached. This past 
summer, we met with stakeholders to discuss options for 
managing red snapper and reducing bycatch in the shrimp 
fishery.
    Based on the meetings, the Gulf Council now has proposed an 
interim final rule that would allow the recreational season to 
extend from mid-April to the end of October, with a four fish 
bag limit. The commercial season would run for ten days 
monthly, starting in February, until the quota is met. I just 
got word this morning that the rule has gone to the Federal 
Register.
    Since 1998, shrimpers have used bycatch reduction devices, 
or BRDs, to reduce their bycatch of red snapper by about 40 
percent--a significant achievement. Over the next three years, 
we would like to see reductions of 50 to 60 percent through 
improvements in BRD technology.
    NOAA Fisheries will work closely with the industry and the 
Gulf and South Atlantic Fisheries Development Foundation to 
develop new and more effective BRDs to minimize both bycatch 
and shrimp loss. In addition, we are working with the councils 
to revise the BRD certification process, so that a larger 
variety of BRDs are available, allowing fishermen to select one 
that fits their specific fishing conditions.
    Yet, despite these continuing efforts, we still have a long 
way to go to rebuild red snapper. A recent assessment indicates 
that further harvest and bycatch reductions are likely to be 
necessary because of poor recruitment and other factors. On the 
positive side, in the past two years, fishermen have reported 
red snapper catches along the west Florida coast, an area where 
fish had not been caught for many years. This expansion of the 
range of the fish could be a response to reductions in fishing 
mortality.
    Turning to highly migratory species, this past April, NOAA 
Fisheries completed a fishery management plan for Atlantic 
tunas, swordfish and sharks. Several groups have filed suit, 
challenging the bycatch and rebuilding provisions of the HMS 
plan. A stay of the suit has been negotiated if NOAA Fisheries 
publishes a proposed rule by December 15th, to reduce bycatch 
in these fisheries.
    That rule has been filed and, over the next few months, we 
will gather public comments, including extensive public 
hearings so that a final rule can be published by May 1. The 
time and area closures in the proposed rule are similar to 
those in the legislation recently introduced by both of you, 
Representative Saxton, and others.
    Another issue is continuing constituent concerns about 
Magnuson-Stevens Act provisions to conserve and enhance 
essential fish habitat. Responding to those concerns, NOAA 
Fisheries has worked to build on existing environmental review 
processes to implement the provisions. NOAA Fisheries has 
conducted close to 2,500 consultations to date with Federal 
agencies on EFH. The majority of these consultations have been 
in the Southeast, mostly in Florida and Louisiana.
    In addition, we are working closely with marine industries, 
such as oil and gas, to identify locations and construction 
methods that minimize any habitat damage and mitigate impacts. 
Our results so far have been to minimize the regulatory impacts 
on both the agencies and the public.
    The EFH program is complemented by our efforts to restore 
and maintain healthy fisheries and coastal habitats under the 
Coastal Wetlands Planning, Protection, and Restoration Act. 
CWPPRA has directed many millions of dollars to projects that 
have improved habitats used by young shrimp.
    With respect to reauthorizing the Magnuson-Stevens Act, we 
are still working to understand and effectively implement the 
changes to fishery management policies and procedures made in 
1996. Consequently, we would propose no major changes to the 
Act at this time. However, we have established an internal 
agency task force that has identified some changes to the law 
that may be useful to make the management process more 
efficient and to resolve some relatively minor problems. These 
revisions are discussed in my written statement.
    In addition, we look forward to working with congressional 
members on high-priority policy issues, such as observer 
programs, individual fishing quotas, and funding and fee 
authorities. We will continue to work closely with fishermen, 
the councils, and our stakeholders to resolve problems 
affecting our Nation's fisheries.
    Thank you.
    [The prepared statement of Ms. Dalton follows:]

  Prepared Statement of Penelope Dalton, Assistant Administrator for 
  Fisheries, National Marine Fisheries Service, National Oceanic and 
  Atmospheric Administration; accompanied by William Hogarth, Ph.D., 
 Southeast Regional Administrator, National Marine Fisheries Service, 
  National Oceanic and Atmospheric Administration, and Joseph Powers, 
                    Ph.D., Southeast Science Center

    Madame Chair and members of the Subcommittee, thank you for 
inviting me to New Orleans to testify on the implementation and 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act), and to speak on issues of 
concern to fishermen in the Southeastern United States. I am Penny 
Dalton, Assistant Administrator for Fisheries for the National Oceanic 
and Atmospheric Administration.

Building a Foundation for Sustainable Fisheries--Southeastern United 
States

    As you know, Southeastern commercial and recreational fisheries are 
valuable national resources. In 1998, Southeastern commercial fishers 
harvested close to 1.8 billion pounds of fish, shellfish, and 
crustaceans, producing over $722 million in dockside revenue. The 
Southeastern recreational fisheries are the largest in the Nation. 
Nationally, in 1998, 5.8 million saltwater anglers took 53 million 
trips and caught 284 million fish. Southeastern recreational fishermen 
accounted for more than 60 percent of the number of trips and more than 
44 percent of the number of fish caught nationwide. While the seafood 
and marine recreational fishing industries make substantial 
contributions to the Southeastern economy, current harvest levels are 
less than what they potentially could be. Current production is about 
18 percent less than the long-term potential yield.
    From a regional perspective, consider that as of 1998, over 334 
species of fish, corals, crabs, and other crustaceans are managed under 
19 fishery management plans developed by the Gulf of Mexico, South 
Atlantic, and Caribbean Fishery Management Councils. In the 1999 Report 
to Congress, four finfish species managed by the Gulf Council, 15 by 
the South Atlantic Council, one jointly managed by the Gulf and South 
Atlantic Councils, and two finfish and one mollusk species managed by 
the Caribbean Council were declared overfished. The Councils have 
submitted amendments to their existing fishery management plans 
governing these overfished species with the goal of rebuilding these 
stocks and increasing long-term yields of all fisheries under their 
management.
    In the Southeast, state and federal fisheries management efforts 
are starting to pay off, with initial signs of recovery for some 
overfished stocks. For example, South Atlantic groups of king and 
Spanish mackerel have recently been removed from the list of overfished 
species in the Southeast region. This was possible through close 
coordination by the Gulf and South Atlantic Councils of state and 
federal efforts using traditional fisheries management to reduce 
fishing mortality. Spanish mackerel in the Gulf of Mexico have 
undergone a similar and favorable transition and Gulf group king 
mackerel are in the process of recovery.
    The Gulf of Mexico shrimp fisheries have also benefitted from 
cooperative state and federal management actions. Although the annual 
yield is somewhat governed by environmental factors, two cooperative 
shrimp closures, the Tortugas shrimp sanctuary off southern Florida and 
the brown shrimp closure off Texas, have contributed to increases in 
shrimp landings. The Tortugas closure provides a safe haven for pink 
shrimp adjacent to the harvest grounds and thus ensures availability of 
the resource during the harvest season. The Texas closure controls 
harvest by delaying the opening of shrimp season until shrimp have 
attained a larger, more economically valuable size. Consequently, total 
landings are enhanced. Shrimp landings in the Gulf of Mexico were 
higher in 1998 by 12 percent over 1997. These closures were developed 
by the Gulf of Mexico Fishery Management Council, Florida, and Texas, 
and implemented by NOAA Fisheries in the exclusive economic zone (EEZ).
    In the Gulf of Mexico, red snapper is an important recreational and 
commercial fishery. An overfished stock, the management of red snapper 
is complex and controversial, and the completion of the rebuilding 
process is not expected for many years. NOAA Fisheries has recognized 
over the years that the bycatch of juvenile red snapper in shrimp 
trawls has impacted the health, stability, and rebuilding of that 
resource. Bycatch reduction devices (BRDs) required in the fishery 
since 1998 have reduced bycatch by about 40 percent, which is a 
significant achievement. Over the next three years, we hope to realize 
greater reductions of up to 50 to 60 percent through improvements in 
BRD technology. NOAA Fisheries is working closely with industry and the 
Gulf and South Atlantic Fisheries Development Foundation to develop new 
BRDs and to refine existing BRDs such as the Jones-Davis BRD, which can 
achieve reductions of 60 percent. In addition, NOAA Fisheries is 
working with the Councils to revise the BRD certification process so 
that a larger variety of BRDs is available to industry, and fishermen 
can select devices most appropriate to specific fishing conditions, 
thus optimizing efficiency and cost effectiveness.
    Yet, in spite of the fact that fishing mortality has been reduced 
through state and federal management efforts using a combination of 
BRDs, limited entry in the commercial fishery, and closures when 
commercial and recreational quotas are reached, we still have a long 
way to go. A recent assessment of the health of the stock reports that 
further harvest reductions are likely to be necessary, given poor 
recruitment classes and other factors. NOAA Fisheries scientists 
estimate that without further reducing bycatch mortality of red snapper 
in shrimp trawls, red snapper populations cannot be rebuilt to 
sustainable levels. On the positive side, over the past two years, 
fishers have reported red snapper catches along the west Florida 
coast--an area where fish had not been caught for many years. This 
expansion of the range of the fish could be a population response to 
the reduction in fishing mortality, including bycatch reductions, in 
both the commercial and recreational sectors.
    In the waters off the Southeastern United States, installation of 
BRDs in shrimp trawls also is being used to recover the overfished 
Atlantic weakfish stock. This action, combined with restrictions on the 
directed Atlantic weakfish fisheries, is producing early signs of 
recovery for this species.
    Recognizing that serious problems remain with some fishery 
resources, we are cautiously optimistic about the future of 
Southeastern fisheries. We must protect the gains certain fish stocks 
have made, focus on improving yields over the long term, and identify 
additional measures that would move depleted stocks toward recovery. It 
is clear that fishery management can work. When we reduce mortality, 
biomass increases; and at some point, when nature cooperates, good year 
classes enter the fishery. However, we remain cautious as we face the 
challenges before us. We must work with the Councils, States and 
fishermen to maintain management plans that work, adjust our course 
where plans are not effective, and minimize to the extent possible the 
impacts on communities and the fishing industry as we make the 
transition to sustainable fisheries. I appreciate the commitment of 
members of the Southeast delegation and Southeastern fishing 
communities to this transition. I look forward with you to restoring 
fish stocks that support a vibrant fishing industry and healthy coastal 
economies.

Implementation of the Sustainable Fisheries Act

    As we approach the close of the 20th Century, we are at a crucial 
point in fisheries management, with considerable work ahead of us. In 
the 23 years since the enactment of the Magnuson-Stevens Act, we have 
seen the complete Americanization of fisheries in federal waters, the 
expansion of the U.S. fishing industry, declines in many fishery 
resources, and the rise of public interest in fisheries issues. We have 
seen some successes from our management actions, including rebuilding 
of Spanish mackerel, the initial rebound of a few depleted stocks like 
Gulf of Mexico red snapper and Georges Bank haddock, and the continued 
strong production of fish stocks off Alaska. However, as of 1999, 11 
percent of U.S. living marine resources are overfished or are 
approaching overfished, 14 percent are not overfished, and there is 
another 75 percent whose status is unknown. In the Southeast, about 8 
percent of living marine resources are overfished or are approaching 
the overfished status, 7 percent are not overfished, and there is 
another 85 percent whose status is unknown. We at NOAA Fisheries are 
working to rebuild fish stocks to levels that could sustain fisheries 
of greater economic value. From a national perspective, scientists 
estimate that we could increase U.S. fishery landings up to 6.8 billion 
pounds by rebuilding all fisheries and maintaining harvests at optimal 
yields.
    The Magnuson-Stevens Act provides the national framework for 
conserving and managing the wealth of fishery resources found within 
the 197-mile-wide zone of federal waters contiguous to the United 
States (except for the coastal waters for Texas and the Gulf of Mexico 
coast of Florida where state waters extend out to 9 nautical miles). In 
1996, Congress ushered in a new era in fisheries management, making 
significant revisions to the Magnuson-Stevens Act in the Sustainable 
Fisheries Act (SFA). The SFA addresses a number of conservation issues. 
First, to prevent overfishing and rebuild depleted fisheries, the SFA 
caps fishery harvests at the maximum sustainable level and requires 
fishery management plans to rebuild any overfished fishery. NOAA 
Fisheries now reports annually on the health of marine fisheries and 
identifies fisheries that are overfished or approaching an overfished 
condition. Second, the SFA refocused fisheries management by 
emphasizing the need to protect fisheries habitat. To enhance this 
goal, the SFA requires that management plans identify habitat that is 
necessary to fish for spawning, feeding, or growth. The new law also 
clarifies our existing authority to comment on federal actions that 
affect essential fish habitat. Third, to reduce bycatch and waste, the 
SFA adds a new national standard requiring that conservation and 
management measures minimize bycatch and the mortality of bycatch that 
cannot be avoided. It also calls for management plans to assess bycatch 
and to take steps to reduce it.
    The new conservation requirements may have far-reaching effects on 
recreational and commercial fishing and on fishermen, their families 
and communities. To address this concern, the SFA establishes a new 
national standard 8 that requires, consistent with conservation 
objectives, that fishery management plans ensure sustained 
participation of fishing communities and minimize adverse impacts. In 
addition, a national standard has been added to promote the safety of 
human life at sea. Finally, the SFA provides a number of new tools for 
addressing problems relating to the transition to sustainable 
fisheries, including amendments to provide for fisheries disaster 
relief, fishing capacity reduction programs, vessel financing, and 
grants and other financial assistance.

Implementation of the Sustainable Fisheries Act

    NOAA Fisheries takes seriously its new mandates under the SFA. We 
are continuing to work to ensure that SFA requirements are implemented, 
and that conservation and management measures fully protect the 
resource and provide for the needs of fishing communities and the 
Nation. A great deal of work remains to be done. We are laying a better 
foundation for future fisheries management, yet the benefits of the 
changes made by Congress in 1996 will take years, perhaps decades, to 
realize. In addition, the management decisions that we face are 
becoming ever more complex and contentious, and good solutions are hard 
to come by. We need to direct resources and effort to the scientific 
and technical aspects of our work. We also must build consensus with 
the public and among various stakeholders to facilitate progress in 
developing management programs that will move us toward the goal of 
healthy and sustainable marine resources.
    The SFA imposed a deadline of October 11, 1998 for amendments to 
each of the 39 existing fishery management plans to implement its 
changes. Despite the Councils' best efforts, there were some proposed 
amendments that did not satisfy the requirements, for which the 
analyses were inadequate, or that did not minimize socioeconomic or 
environmental impacts to the extent possible and achieve management 
objectives. NOAA Fisheries disapproved or partially approved those 
amendments and is working closely with the Councils to improve them, 
particularly in the areas of assessing social and economic impacts, 
rebuilding overfished stocks, minimizing bycatch, identifying and 
protecting fish habitat, and improving the scientific basis for 
management. I will outline some of the work we are doing in each of 
these areas:
    Social and economic analysis: One of NOAA Fisheries' highest 
priorities is to improve our social and economic analyses. These 
analyses are required by a number of laws in addition to the Magnuson-
Stevens Act, including the Regulatory Flexibility Act, the National 
Environmental Policy Act, and Executive Order 12866. The requirement of 
the Magnuson-Stevens Act to include a fishery impact statement, and the 
new standard on fishing communities, also make clear our mandate to 
consider the social and economic impacts of any management program. 
This consistently has been an important part of the decision-making 
process and has affected our choice of fisheries conservation and 
management actions. For instance, in the South Atlantic Council's 
Snapper Grouper FMP, Amendment 6 reduced the quotas for snowy grouper 
and golden tilefish in the EEZ by 40 percent in each case. To lessen 
the impacts on fishermen, the amendment phased in the reduction over a 
3-year period (13.33 percent a year). In the South Atlantic and Gulf 
king mackerel fishery, the use of varying trip limits is proving 
effective in keeping the season open as long as possible and 
stabilizing prices.
    To strengthen our social and economic analysis capabilities, we 
will issue revised Regulatory Flexibility Act guidelines to our 
employees at the end of the year, hire more economists, sociologists, 
and anthropologists, and work with other federal agencies and states to 
improve our data collection. As a result, economic, social, and 
biological considerations will be better integrated to assist fisheries 
managers in making the best possible decisions to balance conservation, 
the fishing industry, and community needs.
    Rebuilding overfished stocks: NOAA Fisheries is committed to ending 
overfishing and rebuilding stocks. This has proven to be a very 
difficult task, in part because of the complex biological structure of 
fisheries and complicated calculations of maximum sustainable yield, 
and other fishery parameters. In the Southeast, 16 fishery management 
plans are in effect with three more in the development stage. For each 
of the species covered by these plans, NOAA Fisheries scientists are 
working hard to determine measurable biological population parameters, 
based on biomass, on which to base appropriate targets for managing 
toward long-term sustainable population levels.
    Also, NOAA Fisheries has taken the lead in preparing management 
plans and rebuilding programs of wide-ranging fishes like tunas and 
billfish. This past April, NOAA Fisheries completed a fisheries 
management plan for Atlantic tunas, swordfish, and sharks (HMS Plan) 
and an amendment to the billfish fishery management plan (Billfish 
Amendment) that contained rebuilding programs. Numerous and substantial 
changes were incorporated in the final rule to implement the HMS Plan 
and Billfish Amendment, based on the thousands of public comments 
received by the agency. Several groups have filed suit challenging the 
bycatch and rebuilding provisions of the HMS FMP and Billfish 
Amendment. A proposed rule designed to reduce bycatch in the HMS 
fisheries is part of the requirements of the negotiated stay, and 
should be published by mid-December. We will be making a considerable 
effort to gather public comments on the proposals, including extensive 
public hearings. The time and area closures in the proposed rule are 
similar to those in the legislation recently introduced by Senators 
Breaux and Snowe, Representative Saxton, and others.
    Minimizing bycatch: Minimizing bycatch continues to be a very high 
priority for NOAA Fisheries in the Southeast. The Gulf of Mexico, South 
Atlantic and Caribbean Fishery Management Councils are in the process 
of amending their respective fishery management plans accordingly. NOAA 
Fisheries believes that outreach and education are a critical component 
of reducing bycatch, and is working closely with industry to develop 
new gear, and to promote clean fishing practices in all of the fishing 
sectors. For instance, the Southeast Region conducted workshops this 
year, through the South Atlantic and Gulf of Mexico Fisheries 
Development Foundation, to improve the dissemination of information on 
the construction and use of BRDs in Atlantic and Gulf fisheries. These 
workshops, designed to encourage dialogue among fishermen and with NOAA 
Fisheries personnel on various aspects of BRD use (e.g., solving BRD 
installation and use problems, BRD certification protocol, and 
measuring methods for bycatch reduction), have included discussion of 
NOAA Fisheries-sponsored observers to monitor and assess the progress 
in reducing finfish bycatch in the shrimp fishery.
    Essential Fish Habitat: I am well aware of your constituents' 
concerns over the increased emphasis of the Magnuson-Stevens Act on 
conserving and enhancing essential fish habitat (EFH). I wish to 
emphasize the agency's intention to minimize impacts on fishermen and 
non-fishing industries, while ensuring the long-term viability of the 
fish stocks. In the Southeast, EFH was designated for over 400 marine 
species, under 19 fishery management plans, managed by the Gulf of 
Mexico, South Atlantic and Caribbean Fishery Management Councils. In 
addition, EFH has been identified for species managed by the Mid-
Atlantic Council that range as far south as Florida. Additionally, 
highly migratory species, whose range includes the Southeast, are 
managed directly by NOAA Fisheries. Where data were available, EFH was 
identified for each individual species and life stage using the best 
available scientific information. Because of the great number of 
managed species and the wide diversity of habitats utilized by the 
various life stages of those species, habitats identified as EFH range 
from low salinity marsh and estuarine habitats to the limits of the 
EEZ.
    Within the categories of EFH, subareas have been designated as 
``habitat areas of particular concern'' or HAPCs. The Gulf of Mexico, 
South Atlantic and Caribbean Fishery Management Councils did an 
excellent job of using available scientific information to identify 
areas that provide extremely important habitat for federally managed 
fisheries or that represent resources that are unique or critical to 
sustaining the production of important fisheries. Examples of HAPCs 
include the Apalachicola National Estuarine Research Reserve, Flower 
Garden Banks National Marine Sanctuary, the Florida Keys National 
Marine Sanctuary, and habitats or regions of particular ecological 
value, such as seagrass and coral reef habitats and the Oculina Bank 
reef area. Such areas do not always require restrictions on fishing, 
but we must carefully examine potential threats and, where appropriate, 
take management actions to avoid adverse impacts.
    The EFH provisions of the Magnuson-Stevens Act address impacts from 
both fishing and non-fishing activities. In response to fishing gear 
threats, each Council has considered measures to reduce the adverse 
impacts of fishing activities to EFH. Past management measures have 
included prohibitions in the use of certain or all gear types in areas 
of sensitive marine habitats or restrictions to size and number of some 
gear types in selected habitats. To address non-fishing activities, 
NOAA Fisheries has conducted close to 2,500 consultations to date with 
federal agencies whose actions may adversely affect EFH. The majority 
of those consultations have been in the Southeastern states, mostly in 
Florida and Louisiana. These reviews have been accomplished by 
integrating EFH consultations into existing environmental review 
processes as a way to minimize regulatory impacts on federal action 
agencies and the public. We expect the number of consultations to 
increase as outreach efforts with federal agencies continue to build 
awareness of the EFH statutory requirements. In addition, we are 
working closely with such industries as the oil and gas industry in 
planning the least damaging locations, construction methods, and the 
minimization and mitigation of impacts.
    NOAA Fisheries is using all of its habitat mandates to protect and 
restore EFH. The EFH consultation authority included in the SFA has 
improved interagency coordination, with benefits to fish habitat. For 
example, negotiations with the Minerals Management Service on oil and 
gas exploration activities in the western Gulf of Mexico yielded an 
agreement that is good for all Gulf species and that is more efficient 
for both agencies.
    Our restoration authorities are also important to rebuild and 
maintain healthy fisheries and coastal habitats. The Coastal Wetlands, 
Planning, Protection and Restoration Act (CWPPRA) has directed many 
millions of dollars to projects that have improved estuarine and 
coastal habitats used by young shrimps and red drum. The Big Island and 
Atchafalaya Sediment Diversion Projects, sponsored by NOAA Fisheries, 
have resulted in the creation of 1,200 acres of delta wetlands by 
restoring freshwater and sediment delivery processes to the 
northwestern portion of the Atchafalaya River delta. Designed to 
promote natural delta expansion over time, the projects over the next 
20 years should create an additional 3,000 acres of wetlands.
    The newer Community Based Restoration Program (CBRP) offers us 
opportunities to work with private partners to test restoration 
techniques and to restore priority sites. In an effort to restore lost 
wetland habitats in Florida, NOAA Fisheries formed a partnership with 
the Tampa Bay Watch to fund the Tampa Bay High School Wetland Nursery 
program. This innovative program recruits high school students to build 
wetland nurseries on-campus to grow salt marsh grasses for Tampa Bay 
restoration efforts. Offering students hands-on experience in habitat 
restoration activities, the program also provides a free source of salt 
marsh grasses, and a pool of enthusiastic volunteers. New funds in 
fiscal year 2000 will enable the CBRP to evaluate options and to focus 
on highest-priority community restoration opportunities as a major step 
toward enhancing Gulf of Mexico habitats important to managed species. 
Whether restoration is a large CWPPRA project or a community-based 
effort, much of our work relates directly to species and habitats of 
interest to Gulf fisheries and fishing communities.
    Improving technical and scientific information and analyses: NOAA 
Fisheries is committed to using the best possible science in the 
decision-making process, and to incorporating biological, social, and 
economic research findings into fisheries conservation and management 
measures. Meeting our responsibilities under the Magnuson-Stevens Act 
and other applicable laws requires collection of a considerable amount 
of data. We will continue to support a precautionary approach in the 
face of scientific uncertainty. At the same time, we are expanding our 
own collection efforts and our partnerships with the states, interstate 
commissions, industry and others to collect and analyze critical data. 
Within the Southeast, NOAA Fisheries is active in two innovative state-
federal partnerships to improve the quality and quantity of information 
for marine resource stewardship. One of these partnerships is the 
Fisheries Information Network, a cooperative state and federal data 
collection and management program for the Southeast region. The Gulf 
States Marine Fisheries Commission coordinates this program within the 
Southeastern United States. The second is the Atlantic Coastal 
Cooperative Statistics Program (ACCSP), a cooperative effort among 
federal and state fisheries managers, scientists, and commercial and 
recreational fishermen to coordinate and improve data collection and 
data management activities on the Atlantic coast. The Atlantic States 
Marine Fisheries Commission coordinates this program within the 
Atlantic coastal states. Such federal-state partnerships are an 
important mechanism for providing reliable fisheries statistics while 
sharing resources and reducing duplicative efforts. Reliable fisheries 
statistics will allow the management process to work successfully, 
increasing commercial and recreational fishing opportunities and 
ensuring jobs for fishermen--not only for today, but for years to come.

Reauthorization Issues

    We are still working to understand and effectively implement the 
changes to fishery management policies and procedures made by the SFA. 
Consequently, we would not propose major changes to the Magnuson-
Stevens Act at this time. However, we have established an internal 
agency task force to evaluate SFA implementation, and the group has 
identified some revisions of existing provisions that may be useful to 
make the management process more efficient and to resolve some 
relatively minor problems. We currently are reviewing various issues 
raised by the task force, the Councils, and some of our stakeholders. 
Among the issues identified are the following:
    Review process for fishery management plans, amendments and 
regulations: The SFA attempted to simplify and tighten the approval 
process for management plans and regulations. However, one result of 
that effort has been two distinct review and implementation processes--
one for plans and amendments and another for implementing regulations. 
This essentially uncouples the review of plans and amendments from the 
process for regulations, and as a result, the decision to approve or 
disapprove a plan or amendment may be necessary before the end of the 
public comment period on the implementing regulations. We are 
considering amendments that would modify the process to address this 
issue.
    In addition, the Committee may wish to consider reinstating the 
initial review of fishery management plans and amendments by the 
Secretary. Considerable energy and staff resources are expended on 
plans or amendments that are ultimately disapproved because of serious 
omissions and other problems. At present, two to three months must 
elapse before the Secretary makes his determination, and if the 
amendment is then disapproved, it can be months or longer before the 
Council can modify and resubmit the plan or amendment. While the 
initial review was eliminated by the SFA to shorten the review process, 
reinstating Secretarial review may actually provide a mechanism to 
shorten the time it takes to get a plan or amendment approved and 
implemented.
    Restrictions on data collection and confidentiality: The Magnuson-
Stevens Act currently restricts the collection of economic data from 
processors. Removal of this restriction could improve the quantity and 
quality of information available to meet the requirements of the laws 
requiring social and economic analysis. In addition, the SFA changed 
the term ``statistics'' to ``information'' in the provisions dealing 
with data confidentiality. The change has raised questions about the 
intended application of those provisions, particularly with respect to 
observer information, and Congressional clarification would be useful.
    Coral reef protection: Special management areas, including those 
designated to protect coral reefs, hard bottoms, and precious corals, 
are important commercial resources and valuable habitats for many 
species. Currently, we have the authority to regulate anchoring and 
other activities of fishing vessels that affect fish habitat. Threats 
to those resources from non-fishing vessels remain outside agency 
authority except when associated with a Federal action that would 
trigger EFH consultation or where addressed in regulations associated 
with a national marine sanctuary. We suggest amending the Act to 
clarify, consolidate, and strengthen NOAA Fisheries' authority to 
regulate the actions of any recreational or commercial vessel that is 
directly impacting resources being managed under the Magnuson-Stevens 
Act.
    Caribbean Council jurisdiction: The current description of the 
Caribbean Council limits its jurisdiction to Federal waters off Puerto 
Rico and the U.S. Virgin Islands. As a result, the Council cannot 
develop fishery management plans governing fishing in Federal waters 
around Navassa Island or any other U.S. possession in the Caribbean. 
Jurisdiction of the Caribbean Council could be expanded to cover 
Navassa Island, by including ``commonwealths, territories, and 
possessions of the United States'' within the description of that 
Council's authority.
    Council meeting notification: To meet the notification requirements 
of the Magnuson-Stevens Act, Councils spend tens of thousands of 
dollars a year to publish meeting notices in local newspapers in major 
and/or affected fishing ports in the region. By contrast, fax networks, 
mailings, public service announcements, and notices included with 
marine weather forecasts are much less expensive and could be more 
effective in reaching fishery participants and stakeholders. The 
Committee may wish to consider modifying notification requirements to 
allow Council use of any means that will result in wide publicity.
    We look forward to working with Congressional members on high-
priority policy issues such as observer programs, individual fishing 
quotas, and funding and fee authorities, although, at this time, we 
have no specific recommendations for changes in the Magnuson-Stevens 
Act to address these issues. We will continue to work closely with the 
Southeast delegation; Gulf of Mexico, South Atlantic, and Caribbean 
Fishery Management Councils; and our stakeholders to resolve problems 
affecting Southeastern United States fisheries.
    Madame Chair, this concludes my testimony. Thank you for the 
opportunity to discuss the implementation and reauthorization of the 
Magnuson-Stevens Act. I am prepared to respond to any questions you and 
members of the audience may have.

    Senator Snowe. Thank you.
    Mr. Roussel.

 STATEMENT OF JOHN E. ROUSSEL, ASSISTANT SECRETARY, OFFICE OF 
   FISHERIES, LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES

    Mr. Roussel. Chairman Snowe, welcome to Louisiana. And 
Senator Breaux, welcome home.
    My name is John Roussel. I am the Assistant Secretary of 
the Louisiana Department of Wildlife and Fisheries, Office of 
Fisheries. Thank you for the opportunity to appear before you 
today.
    My testimony addresses six issues, the first of which I 
feel is the biggest fisheries management challenge facing the 
councils, the States, and the Nation; that is the need for 
sound science. The foundation of sound science is long-term, 
reliable data generated from well-designed data collection 
programs.
    Although we have improved our data collection efforts over 
the years through State and Federal cooperative efforts, we are 
far from where we should be. Virtually every discussion 
regarding the status of fish stocks at all levels of the 
council process include much debate about the assumptions that 
must be made in the absence of scientific information.
    The five Gulf States, in concert with their Federal 
partners and the Gulf Council Marine Fisheries Commission, have 
developed a comprehensive data collection program for the Gulf 
of Mexico region called GulfFIN, which has been partially 
funded for the past two years. If this program were fully 
operational, it would provide a solid foundation for sound 
science in the Gulf and we strongly support full funding for 
this program.
    We all know that compliance with regulations is an 
essential component for the success of any fishery management 
program. We feel that the most efficient way to achieve a 
sufficient level of compliance with Federal fishery programs is 
through enhancement of State enforcement programs, working 
cooperatively with the National Marine Fisheries Service, law 
enforcement, and the United States Coast Guard.
    Currently, the States in the Gulf receive no Federal 
funding for enforcing regulations associated with the Magnuson-
Stevens Act. Yet, State enforcement agencies produce more than 
70 percent of all the cases initiated for violations of the 
Act. All of the Gulf States support very large commercial and 
recreational fisheries within their waters, and have clearly 
demonstrated their expertise and effectiveness at enforcing 
State-managed fisheries.
    The existing State enforcement programs are best postured 
to provide increased officer presence, which we think is a key 
factor in ensuring regulation compliance. The reauthorized Act 
should include language establishing a mechanism for joint 
State enforcement agreements in the Gulf region and authorized 
funding for such agreements.
    Currently, there is continuing confusion regarding the 
definitions of overfishing, overfished, and the application of 
maximum sustainable yield, or MSY, as used in the Act. Both 
overfishing and overfished are defined the same in the Act. And 
MSY is not defined in the Act. It is essential that the 
reauthorized Act make a clear distinction between overfishing 
and overfished if Congress intended there to be a difference. 
MSY must also be consistently defined and applied. We recommend 
that a national panel of fisheries experts should be convened 
to develop definitions that clearly express Congress' intent 
regarding the use of these terms.
    Red snapper is one of the high-profile species in the Gulf, 
and reauthorization of the Act must include measures that will 
stabilize regulation of this fishery. The recent history of red 
snapper management has provided anything but a setting in which 
a reasonable person could understand what the current 
regulations are and what the near-future regulations will be.
    One major problem caused by the Act is the required use of 
the recreational allocation as a quota, and the automatic 
closure of recreational fishing when that quota is reached. 
This portion of the Act should be rescinded until the Federal 
Government funds an appropriate recreational quota monitoring 
program.
    The reauthorized Act should not contain a prohibition on 
the Gulf Council's consideration of individual fishing quota 
programs for red snapper. This tool, and any others that may be 
helpful in the management of this fishery, must be allowed full 
study and debate.
    Recent stock assessments indicate that recovery of red 
snapper will be difficult without further significant reduction 
of red snapper bycatch by the shrimp industry. This will be the 
struggle of the next decade in the Gulf. Adequate funding must 
be made available to, first, further examine the bycatch 
impact; and, second, to continue technology development for 
bycatch exclusion and shrimp retention.
    The Louisiana Department of Wildlife and Fisheries is 
supportive of the concepts contained in the 1996 EFH provisions 
of the Act, which highlight the importance of preserving fish 
habitat when balancing developmental needs with environmental 
needs. We support and encourage the use of existing procedures 
for review and consultation, whenever possible, to implement 
these provisions. We think that it is important to use the 
existing procedures.
    The 1996 amendments to Section 306 added language that 
addresses a State's authority to regulate fishing vessels 
outside the boundaries of the State. However, there is still an 
impediment to a State regulating vessels operating in Federal 
waters off its shores in the absence of a Federal management 
plan. Language similar to that in Section 306(a)(3)(c) should 
be considered to address this situation.
    This concludes my testimony, and I thank you again for the 
opportunity to share these views regarding reauthorization of 
the Act.
    [The prepared statement of Mr. Roussel follows:]

 Prepared Statement of John E. Roussel, Assistant Secretary, Office of 
       Fisheries, Louisiana Department of Wildlife and Fisheries

    My name is John Roussel. I am the Assistant Secretary of the 
Louisiana Department of Wildlife and Fisheries, Office of Fisheries. 
Thank you for the opportunity to appear before you today and welcome to 
Louisiana.
    My testimony today will address five issues: Sound Science, Law 
Enforcement, Definitions of Overfishing/Overfished/MSY, Red Snapper/
Shrimp Management, Essential Fish Habitat and State Jurisdiction.

SOUND SCIENCE

    The Act recognizes that collection of reliable data is essential to 
the effective conservation, management and scientific understanding of 
the fishery resources of the United States, however, this is the 
biggest challenge facing the councils and the states. Developing 
measures to eliminate overfishing is relatively easy. Determining 
whether a fish stock is overfished or if overfishing is occurring is 
not so easy. Many years of data are required to adequately determine 
the status of a fish stock and to evaluate the effects of management 
measures. Although we have improved our data collection efforts over 
the years through state and federal cooperation and coordination we are 
far from where we should be.
    The Act specifies that conservation and management measures shall 
be based on ``the best scientific information available.'' Although 
this may appear to be a high standard, in practice it is high only if 
well-designed and fully funded data and information collection programs 
are in place. Sections 401-407 provide for data collection and there 
has been recent partial funding of the GulfFIN initiative. However, all 
of our fishery management plans identify the need for improved data 
collection. Virtually all discussions of the status of fish stocks at 
all levels of the Council process include much debate about the 
assumptions that must be made in the absence of scientific information. 
There must be a full commitment to adequately funding well designed 
data collection programs, otherwise we will not be able to fulfill our 
obligation to the nation to realize the full potential of the nation's 
fishery resources. Full funding of the GulfFIN initiative, at $7 
million annually, would go a long way towards addressing our data and 
information needs in the Gulf.

STATE BASED LAW ENFORCEMENT

    Compliance with regulations is essential for the success of natural 
resource management programs. The only efficient way to achieve a 
sufficient level of success and compliance with federal management 
programs is through an enhancement of state enforcement programs, 
working cooperatively with National Marine Fisheries Service law 
enforcement and the United States Coast Guard.
    Currently the States in the Gulf receive no federal funding for 
enforcing regulations associated with the Magnuson-Stevens Act, yet 
state enforcement agencies produce more than seventy percent of all the 
cases initiated for violations of the Act. By comparison, the United 
States Coast Guard receives upwards of $25 million annually for 
Magnuson-Stevens Act enforcement for only a portion of the Gulf, while 
initiating only thirty percent of the cases. This funding discrepancy 
threatens the existence and effectiveness of the Act. The National 
Marine Fisheries Service (NMFS) enforcement is severely understaffed 
with 10 to 12 federal agents and therefore is capable of providing only 
minimal impact in the Gulf of Mexico. The United States Coast Guard 
(USCG) serves as a multiple mission agency whose priorities often 
preclude them from emphasizing fishery enforcement.
    All of the Gulf states support very large commercial and 
recreational fisheries within their waters and have clearly 
demonstrated their expertise and effectiveness in enforcing state-
managed fisheries. The enforcement efforts of the states should be 
sufficiently federally funded on a long-term basis to increase 
compliance with this important Act. The failure to supply adequate 
enforcement funding sets the stage for management failure.
    Enforcement officer presence is the key factor in ensuring 
regulation compliance. The level of officer presence must be adequate 
to detect a sufficient number of violations to deter any purposeful 
violations of the law so that the effects of undetected violations are 
insignificant. Additional officer presence will increase compliance by 
fishery participants, increase monitoring of landings, increase 
effectiveness of dockside inspections, and provide increased ability to 
respond to complaints of illegal activities. The existing state 
enforcement organization and infrastructure is best postured to provide 
increased officer presence. Providing long-term enforcement funding to 
the states represents the greatest value in spending the federal tax 
dollar.
    Language calling for joint enforcement project agreements tailored 
specifically to the Gulf of Mexico region, but similar to that 
contained in Section 403 of S. 1420 should be implemented. Funding for 
the Gulf of Mexico region joint project law enforcement agreement 
should be authorized to be appropriated for $18 million for each of 
fiscal years 2000 through 2004.

DEFINITIONS OF OVERFISHING/OVERFISHED/MSY

    Currently there is confusion regarding the definitions of 
overfishing, overfished and MSY. Both overfishing and overfished are 
defined the same in the Act and Maximum Sustainable Yield is not 
defined in the Act.
    It is essential that the reauthorized Act make clear the 
distinction between the definitions of overfishing and overfished. 
Maximum Sustainable Yield (MSY) must also be consistently defined. A 
national panel of fisheries science experts should address these key 
definitions.

RED SNAPPER/SHRIMP MANAGEMENT

    Red snapper has been one of the high profile species managed in the 
Gulf. Reauthorization of the Act must include measures that will 
stabilize regulation of the red snapper fisheries and allow the species 
to recover from its overfished status.
    Fisheries management is best accomplished with long-term, 
consistent regulations that the public can learn, plan for and comply 
with. The recent history of red snapper management has provided 
anything but a setting in which a reasonable person could understand 
what the current regulations are and what the near future regulations 
will be. Much of the instability has been the result of the 1996 
amendments to the Act. The Louisiana Wildlife and Fisheries Commission 
is empowered to set seasons and size limits for this species and has 
attempted to maintain a high degree of consistency with federal 
regulations. Our Commission has considered red snapper action items on 
its monthly agenda more than a dozen times in the three years since the 
passage of the Sustainable Fisheries Act - more than any other single 
species of fish or wildlife. Most of these actions have been size limit 
changes, bag changes and season changes. The public relies on the 
Louisiana Department of Wildlife and Fisheries' annual commercial and 
recreational fishing pamphlets to guide its lawful fishing behavior. 
These have become out of date for red snapper almost as soon as they 
become available. For a state with only a 3-mile territorial sea and 
minimal red snapper catch in state jurisdiction, this instability has 
become excessively burdensome.
    One major problem caused by the Act is the required use of the 
recreational allocation as a quota and automatic closure of 
recreational fishing when that quota is reached. This portion of the 
Act should be rescinded until the federal government funds an 
appropriate recreational quota-monitoring program.
    The reauthorized Act should not contain a prohibition on the Gulf 
Council's consideration of individual fishing quota programs for red 
snapper. This tool and any others that may be helpful in the management 
of this fishery must be allowed full study and debate.
    The management of red snapper under the provisions of the Act 
includes the management of the shrimp fishery of the Gulf. The recent 
stock assessments indicate that the recovery of red snapper to healthy 
levels will be difficult without further significant reduction of red 
snapper bycatch by the shrimp industry. This will be the struggle of 
the next decade. Louisiana stands to bear some of the largest impacts 
of management decisions as we account for forty percent of the Gulf 
shrimp landings and sixty five percent of the Gulf commercial red 
snapper landings. Adequate funding must be made available to further 
examine the bycatch impact and to continue technology development for 
bycatch exclusion and shrimp retention.

ESSENTIAL FISH HABITAT

    The Louisiana Department of Wildlife and Fisheries is supportive of 
the concepts contained in the 1996 EFH provisions. Proposed habitat 
modifications that may significantly impact essential fish habitat are 
being scrutinized with the value of these habitats in mind. It has been 
our experience within the last year that existing procedures of review 
and consultation have generally been used to satisfy these guidelines. 
It seems that the EFH amendment has helped to make the importance of 
preserving fish habitat one of the issues to be taken into account in 
the larger picture of balancing developmental needs with environmental 
needs.

STATE JURISDICTION

    The 1996 amendments to Section 306 added language to address a 
state's authority to regulate a fishing vessel outside the boundaries 
of the state. However, there is still an impediment to a state 
regulating vessels operating in federal waters off its shores in the 
absence of a federal management plan.
    An example of the problem occurs in an area off the central coast 
of Louisiana, beyond our state territorial waters, which from time to 
time is a productive oyster area. This area is generally productive 
when our more traditional inshore and near-shore oyster producing areas 
are experiencing reduced productivity. Louisiana has successfully 
regulated vessels registered and licensed by our state, but continues 
to be unable to regulate vessels not registered or licensed by our 
state. Because of the relatively limited occurrence of oysters in the 
federal waters of the Gulf there is little incentive for federal 
management plan development. Similar situations with other species, 
which predominantly occur in state waters and for which there is no 
federal management plan, may occur. Language similar to that in Section 
306(a)(3)(c) should be considered to address this situation.
    This concludes my testimony and I thank you again for the 
opportunity to offer these views regarding the reauthorization of the 
Magnuson-Stevens Act.

    Senator Snowe. Thank you very much, Mr. Roussel.
    Mr. Simpson.

STATEMENT OF LARRY B. SIMPSON, EXECUTIVE DIRECTOR, GULF STATES 
                  MARINE FISHERIES COMMISSION

    Mr. Simpson. Thank you. Good morning, Madam Chair and 
Senator Breaux. My name is Larry Simpson. I am Executive 
Director of the Gulf States Marine Fisheries Commission.
    Thank you for the opportunity to speak again with you today 
regarding the need for a regionally based, State-Federal 
cooperative programs for the collection and management of data 
for marine and estuarine fisheries resources. This issue has 
really been the top priority of the Commission for the last 10 
years. And it is evident by the Fisheries Information Network, 
the so-called FIN, which has been established during that time.
    Most recently, Congress has been supportive of our efforts, 
by providing partial funding to implement this regional 
program. And while we have currently demonstrated improvements 
to data collection efforts in the Gulf recreational data 
collection programs, if we are able to strengthen the 
appropriation to the full amount required, we could provide the 
data tools necessary to address the many complex technical, 
infrastructural, and administrative issues associated with 
collecting and managing fisheries data that face us now and 
into the future, which both of you mentioned in your opening 
comments.
    The Commission predates the Magnuson-Stevens Act of 1976, 
having been created in 1949 by Public Law 81-66 and State 
legislation. I have personally served on the Gulf Council as a 
nonvoting member since 1978. This is the longest continuous 
service in the Nation by a council member. Only Wayne Swingle, 
who you mentioned, of the Gulf Council staff, has been around 
the system longer than I have, and only by one year. Now, I 
only say that just to indicate that I have been around and have 
seen and worked with State agencies, NMFS, and the council with 
regard to marine resources and their management needs.
    In 1996, the Sustainable Fisheries Act provided for the 
establishment of a national program for fisheries data by 
requiring the development of vessel registration systems, VRS, 
and fishery information systems, FIS. And I would like to 
comment on the report that Congress submitted in 1998, entitled 
Proposed Implementation of the Fishing Vessel Registration and 
Information System.
    It is important to remember that in the Gulf of Mexico 
region, the Commission began development of such a program well 
in advance of that SFA language. And, to a great extent, the 
FIN forms a backbone of what I consider the proposed actions 
contained in the report. I would also like to point out that we 
largely agree with the content of the report. We commend 
Congress for the foresight in passing these measures.
    I want to inform you where we are taking action on items 
contained in that report and the current status of those 
actions, and highlight areas where we have resolved issues 
identified in the report, or disagree with items. The 
Commission feels that FIN should serve as a vehicle through 
which VRS and FIS is implemented. And, pretty much, NMFS is 
recommending the same implementation strategy.
    Regarding confidentiality, there was a concern in the 
report. The Commission developed a memorandum of agreement on 
data confidentiality which came into force in 1993. And we 
think that addresses the concerns raised.
    We strongly endorse the development and management of a 
vessel registration system. However, we are on record as not 
necessarily endorsing the mechanism of using the U.S. Coast 
Guard as a data base management entity for that system. We have 
concerns that fisheries needs would maybe, not quite adequately 
be addressed with the Coast Guard handling that system, since 
their mission is a little bit different.
    Regarding commercial data improvements, FIN has determined 
that trip level resolution should be the basis for commercial 
data collection. Florida and Louisiana have implemented a trip 
ticket program, and efforts are underway in Texas and 
Mississippi and Alabama, in preparation for implementation of 
those kinds of programs.
    I think it is important to mention that no efforts to 
fundamentally change any program for data collection are free. 
And we support, obviously, increases for data collection and 
management--mainly emphasis, as well as money. We think that 
the biological sampling component is a very important part of 
the overall data collection program. And you get primarily age 
data and you get hard parts, otoliths (ear bones), scales, 
length and weight measurements. Those play into what is needed 
in the management arena.
    The Commission and the member States have begun an 
initiative to establish standardized protocols for this. And 
let me hasten to say that in a fully State-Federal cooperative 
program, State and interstate species both should be 
prioritized highly.
    It indicates in the report that the data base design and 
architecture has not quite yet been developed. At the time of 
the report, that was partially true, but we are working closely 
with our counterparts in ACCSP, the Atlantic Coast, and we are 
currently working with Mr. Roussell's office, in Louisiana, for 
commercial trip ticket integration of their data into this 
system.
    Of significant importance is that the Commission should 
serve as the centralized data management center for the Gulf of 
Mexico. Enhanced enforcement, as Mr. Roussell said, is very 
important. And I will wind it up by saying that the Commission 
is committed. That is evidenced by the actions we have taken 
over the last several years. And we continue to conduct 
activities that will lead us to full implementation.
    We ask you to support the issues of sound and timely data 
for the future difficult decisions. And it is safe to say that 
all of the easy stuff has been done. The hard questions are 
before us. And that is going to require a wealth and depth of 
data that we have not seen heretofore.
    Thank you.
    [The prepared statement of Mr. Simpson follows:]

Prepared Statement of Larry B. Simpson, Executive Director, Gulf States 
                      Marine Fisheries Commission

    My name is Larry B. Simpson and I am the Executive Director of the 
Gulf States Marine Fisheries Commission. Thank you for the opportunity 
to speak with you today regarding the need for regionally based, state-
federal cooperative programs for the collection and management of data 
for marine and estuarine fisheries resources. This issue has been a top 
priority of the Commission for the last 10 years and is evident in the 
Fisheries Information Network structure that has been established 
during that time. Most recently, the Congress has been supportive of 
our efforts by providing partial funding to implement this 
comprehensive regional program. While we have currently demonstrated 
improvements to data collection efforts in the Gulf, if we are able to 
increase the appropriation to the full amount required, we could 
provide the data tools necessary to address the many complex technical, 
infrastructural, and administrative issues associated with collecting 
and managing fisheries data that face us all now and into the future.
    The 1996 Sustainable Fisheries Act (SFA) provided for the 
establishment of a national program for fisheries data by requiring the 
development of a Vessel Registration System (VRS) and a Fisheries 
Information System (FIS). I would like to comment on the Report to 
Congress, submitted in 1998, entitled ``Proposed Implementation of a 
Fishing Vessel Registration and Fisheries Information System.'' It is 
important to remember that, in the Gulf of Mexico region, we began the 
development of such a program well in advance of the SFA language, and 
to a great extent the Fisheries Information Network forms the backbone 
of the proposed actions contained in the VRS/FIS report.
    It should be pointed out that we largely agree with the content of 
the VRS/FIS report. I want to inform you where we are taking action on 
items contained in the report, the current status of those actions, and 
highlight areas where we have resolved issues identified in the report 
or disagree with items contained therein.

        <bullet>  With the establishment of the FIN several years ago, 
        the GSMFC passed a formal resolution to the effect that the FIN 
        should serve as the vehicle through which the VRS/FIS is 
        implemented. As you will note in the report, NMFS is 
        recommending that same implementation strategy.
        <bullet>  The GSMFC developed a Memorandum of Agreement on data 
        confidentiality, which came into full force in 1993, including 
        as signatories the States of Texas, Louisiana, Mississippi, 
        Alabama, and Florida; the GSMFC, and the Southeast Regional 
        Office of the National Marine Fisheries Service (NMFS). This 
        agreement largely addresses confidentiality concerns raised in 
        the report.
        <bullet>  We strongly endorse the development and management of 
        a vessel registration system; however, we are on record as not 
        endorsing the mechanism of using the U.S. Coast Guard as the 
        data base management entity for the system. While we are on 
        record as objecting, we are not raising this issue again for 
        resolution. I just felt that you should be aware of our 
        concerns and position.
        <bullet>  Through the FIN, the partners determined earlier that 
        trip-level resolution should be the basis for commercial data 
        collection. That means that we agree to establish trip ticket 
        programs in each state. Florida and Louisiana have implemented 
        trip ticket programs, and efforts are underway in Texas, 
        Mississippi, and Alabama in preparation for implementation of 
        trip ticket programs.
        <bullet>  As a general comment, we agree that substantial 
        increases in funding will be required to fully implement a 
        national program. Having said this, I am not totally sure that 
        the funding levels used in the report accurately reflect 
        reality. I know that the funding made available to the GSMFC 
        and states in the Gulf region has an effect on the funding 
        levels in the report, but I am unsure what that effect is. 
        Suffice it to say, the funding issue probably needs to be 
        revisited on an annual basis, as things evolve. Let me also say 
        that we support substantial increases for data collection and 
        management.
        <bullet>  We agree that the biological sampling component of 
        our data program needs to be supported. Additional funding and 
        resources are required to adequately address the required level 
        of biological sampling, primarily age data. Regarding 
        techniques used to analyze otoliths for age data, the GSMFC, 
        its member states, and the NMFS have begun an initiative in the 
        Gulf region to establish standardized protocols for collecting 
        otoliths and preparation and interpretation of otolith samples. 
        Completion of that task should adequately address aging issues 
        for stock assessment purposes. Additionally, we are moving 
        toward the development of a statistically based biological 
        sampling procedure; however, the three species listed, king and 
        Spanish mackerel and red snapper, are all federally managed 
        species. In a fully state-federal cooperative program, state 
        and interstate species should also be prioritized highly.
        <bullet>  The report states that the Gulf region has not yet 
        begun to consider data base design and architecture. At the 
        time of the report, that was partially true; however, we have 
        since established that the FIN will work cooperatively with our 
        Atlantic coast counterpart (ACCSP) to use largely the same data 
        management system. We have recently implemented a project to 
        establish the data management system in the GSMFC office and 
        will be integrating Louisiana's trip ticket data into the 
        system. Assuming success of this initial effort, the other 
        state trip ticket programs will be added as soon as they are 
        implemented.
        <bullet>  Of significant importance is the decision on the part 
        of the GSMFC and its member states that the GSMFC will serve as 
        the centralized data management center for the Gulf of Mexico. 
        This decision was based largely on the model provided by the 
        Pacific Fisheries Information Network (PacFIN) and the Pacific 
        Recreational Fisheries Information Network (RecFIN). We have 
        already begun to pursue this approach with computer hardware 
        and software purchases and technical staff to manage the 
        system.

    I would also like to comment on several sections of S. 1420 as they 
are relevant to fisheries management. Section 402. Information 
Management System is of extreme importance to the Commission and its 
member states, and directly relates to the development and 
implementation of the FIN. As stated early, the GSMFC has been 
intimately involved in coordinating the collection and management of 
both recreational and commercial fisheries to improve management, 
providing to the public better stewardship of the nation's valuable 
marine resources. As you know, cultural and economic impacts emanate 
from fishery management actions. It is our goal to provide sound data, 
through the FIN, for not only federal management actions but state 
management as well. Fisheries are shared with respect to jurisdiction 
and authority, and it is most important that these revenues are 
directed to commonly held programs and issues.
    In addition, the GSMFC, through the endorsement of our Law 
Enforcement Committee which is made up of the Chief Officers in each 
state and our federal partners, supports Section 403 of the bill, 
calling for enhanced enforcement and prosecution of state and federal 
regulations in the Exclusive Economic Zone (EEZ). This additional 
presence and manpower will have positive effects on nationally held 
marine resources, thereby increasing the contribution back to U.S. 
citizens who hold ultimate ownership of these resources that are held 
in the public trust by state and federal fisheries agencies.
    In closing, the GSMFC and its member states have exhibited 
significant leadership in establishing a state-federal cooperative 
program for the collection and management of fisheries data for the 
Gulf of Mexico. Our commitment is evident in the actions taken over the 
last several years, and we continue to conduct activities that will 
lead us to full implementation. As mentioned earlier, additional 
funding will be necessary to realize our full potential. Thank you 
again for the opportunity to speak with you today, and I look forward 
to working with you in the future to improve fisheries management in 
our Nation's coastal waters.

Gulf of Mexico--Important Facts

        <bullet>  The Gulf of Mexico receives drainage from two-thirds 
        of the continental United States, largely through the 
        Mississippi River.
        <bullet>  It boasts almost half of the nation's coastal 
        wetlands and five of the top ten U.S. fishing ports.
        <bullet>  Gulf shrimp are the nation's second most valuable 
        fishery, trailing only Alaska salmon.
        <bullet>  Seventy-two percent of the country's offshore oil and 
        97 percent of our offshore gas production comes from rigs in 
        the Gulf.
        <bullet>  Over half of the Gulf Coast shellfish growing areas 
        have been closed.
        <bullet>  Marine debris on Gulf Coast beaches has averaged 
        better than one ton per mile--and almost two tons per mile 
        along some stretches of the Texas coastline.
        <bullet>  With a coastline of approximately 1,630 miles, the 
        U.S. Gulf Coast is longer than the U.S. Pacific Coast from 
        California to Washington, and is equivalent to the distance 
        from Newport, Rhode Island, to Miami, Florida.
        <bullet>  The coastal wetlands of the northern Gulf provide 
        habitat for four to seven million migratory waterfowl every 
        winter.
        <bullet>  Nearly 50 species of fishes or shellfish are 
        harvested for commercial and recreational consumption in Gulf 
        waters including oysters, shrimp, crabs, snapper, flounder, 
        mackerel, tuna, and swordfish. Over 200 different species have 
        been captured in sampling trawls.
        <bullet>  Nearly 40 percent of total U.S. commercial fisheries 
        landings are from Gulf fisheries.
        <bullet>  The marshes and estuaries along the Gulf Coast serve 
        as nurseries or spawning grounds for 98 percent of the fishes 
        caught in the Gulf of Mexico.
        <bullet>  Nearly half of all U.S. import/export tonnage passes 
        through Gulf waters.
        <bullet>  Four of the country's ten busiest ports are in the 
        Gulf of Mexico--New Orleans, Houston, Corpus Christi, and 
        Tampa--and six Gulf ports are among the top ten U.S. ports 
        handling crude oil.
        <bullet>  Some 33 major river systems drain into the Gulf, 
        carrying pesticides, fertilizers, garbage, and other effluent 
        from half of the country.
        <bullet>  Louisiana's wetlands are disappearing at the rate of 
        over 30 square miles a year.
        <bullet>  Four of the top five states in the country in total 
        surface water discharge of toxic chemicals are Gulf States - 
        Alabama, Mississippi, Louisiana, and Texas.
        <bullet>  The human population of the Gulf Coast is growing; it 
        is estimated that between 1960 and 2010 the population of 
        Florida and Texas will have grown by 226 percent and 121 
        percent, respectively.
        <bullet>  Per capita consumption has increased to 15 pounds in 
        1993 with an ever-increasing population.
        <bullet>  The Gulf of Mexico, with a total area of about 
        600,000 square miles, is surrounded almost completely by the 
        United States, Mexico, and Cuba.
        <bullet>  The 21 major estuaries along the Gulf Coast account 
        for 24 percent of all estuarine area in the 48 contiguous 
        states, and 55 percent of the marshes.
        <bullet>  Over 50 million people visit the state of Florida 
        each year and spend upwards of $25 billion.
        <bullet>  Over one million people a year visit Gulf Islands 
        National Seashore which is located in Alabama and Mississippi.
        <bullet>  In the Gulf region of the state of Louisiana, tourism 
        expenditures amount to over $3 billion annually.
        <bullet>  About $5 billion in tourism-related expenditures are 
        made in the Texas Gulf region each year.
        <bullet>  Of 346 million pounds of shrimp landed in the United 
        States in 1990, over 70 percent was landed in the Gulf.
        <bullet>  Of 201.8 million pounds of crabs landed in the United 
        States in 1990, 45.5 million pounds were landed in the Gulf.
        <bullet>  The Gulf States contributed approximately 10.6 of the 
        29.2 million pounds of oysters landed in 1990, and Louisiana 
        accounted for approximately 75 percent of this.
        <bullet>  Off the Gulf Coast of Florida, 11.4 million pounds of 
        grouper worth $19.3 million were landed in 1989. Florida 
        landings also included 4.0 million pounds of snapper worth $7.9 
        million. Louisiana landings of snapper were 2.1 million pounds 
        worth $4.4 million.
        <bullet>  Louisiana fishers caught 8.6 million pounds of 
        yellowfin tuna worth $16.3 million; in Texas, 3.1 million 
        pounds of yellowfin tuna were landed worth $6.2 million.
        <bullet>  In 1989, total Gulf landings of shark were 11.5 
        million pounds, for which fishers were paid $5.5 million.
        <bullet>  In 1985, 4 million residents of the Gulf States 
        fished the Gulf of Mexico for sport. Texas led all other states 
        with nearly 1.7 million residents fishing the Gulf, followed by 
        Florida with more than 1.5 million, Louisiana with 550,000, 
        Alabama with 130,000, and Mississippi with 80,000. Residents 
        and non-residents took more than 24 million fishing trips in 
        the Gulf. More than 80 percent of the recreational catch was in 
        inland waters or within offshore state waters.
        <bullet>  On November 11, 1947, the Kerr-McGee Oil Company 
        completed the first commercial well drilled completely beyond 
        the sight of land. Today, the Gulf of Mexico is the most active 
        area in the world for offshore oil and gas activities, and the 
        industry has placed more than 3,600 platforms on the Gulf of 
        Mexico Outer Continental Shelf.
        <bullet>  In the next two decades, the population in almost 
        one-third of Gulf Coastal counties will increase by more than 
        30 percent.

    Senator Snowe. Thank you, Mr. Simpson.
    Dr. Shipp.

  STATEMENT OF ROBERT SHIPP, PH.D., CHAIRMAN, GULF OF MEXICO 
                   FISHERY MANAGEMENT COUNCIL

    Dr. Shipp. Thank you, Senator Snowe and Senator Breaux. It 
is a genuine honor to speak to you this morning.
    I have been in fisheries biology for nearly 30 years now. I 
have been on the Council for eight and a half years, twice as 
the chair. But in addition to that, I do have another job. I 
also chair the Department of Marine Sciences at the University 
of South Alabama, which is a graduate program heavily oriented 
toward fisheries statistics and marine ecology and systems 
ecology. I also am a science advisor for the Coastal 
Conservation Association of Alabama, which is a recreational 
group.
    And I heard some of you talking about eating at Emeril's 
last night. I want to point out that when Emeril comes to 
Mobile, he eats at Justine's, which is my son's restaurant. My 
son owns the restaurant. I own the debt. And the restaurant is 
heavily dependent on a source of fresh Gulf seafood. So I have 
a perspective from academia, from recreational fisheries, as 
well as commercial fisheries.
    This morning I want to focus, because time is limited, on 
but a single issue regarding reauthorization of SFA. And that 
issue is the relationship between the intent of Congress and 
the guidelines as developed by the National Marine Fisheries 
Service, and the resultant actions and burdens put on the 
councils.
    During the last reauthorization, Congress did pass a number 
of laudable changes, which were designed to prevent stock 
collapse. And I do not think anyone argues with the intent of 
those. However, the implementation of those changes, through 
the guidelines developed by NMFS, have proven totally 
unrealistic and practically impossible to achieve in many 
instances.
    I believe the guidelines do not reflect the intent of 
Congress, but rather a theoretical exercise in fisheries 
management to test the validity of various simulation models. 
This, combined with a strict, literal legal interpretation of 
these guidelines, has forced the councils to enact management 
measures that have imposed severe hardship on practically every 
user group and stakeholder, at least in the Gulf of Mexico.
    I will cite but a couple of examples, but I am prepared to 
cite many, many more if necessary. The first example is the 
requirement that stocks be rebuilt in 10 years if biologically 
possible. And admittedly, in NMFS's defense, that language is 
pretty clear in the Magnuson-Stevens Act, that if these stocks 
can be built within 10 years, the guidelines state that all 
actions, including a total moratorium on harvest of that stock, 
must occur. And yet, if the biology necessitates more than 10 
years, then there is a great deal of flexibility that can be 
put into place.
    I do not think Congress meant that you needed to close an 
entire fishery if it could be built in nine years, but if you 
were given three more years to do it, there would be very 
minimal impact on the various user groups and the associated 
economies. This is one of those examples where we are really in 
a box because of the strict legal interpretation.
    The second example, though, is one that is really close to 
home, and you have already heard it alluded to by the previous 
members of the panel. And that is the rebuilding of the red 
snapper stocks. This is a difficult and a complex issue. But 
let me reduce it to the problem of the projected MSY, maximum 
sustainable yield, as defined by the guidelines.
    Depending on which model one employs, the biomass needed to 
support this MSY is from two billion to four billion pounds, 
and an annual maximum sustainable yield of well over 100 
million pounds. But never in the history of that fishery has 
the yield approached even one-fifth of that number, even in the 
19th century, when it was virtually a virgin stock. 
Nevertheless, the draconian measures necessary to attain this 
theoretical goal in about the year 2033 would cut the current 
yield by more than half and virtually eliminate the fishery, 
both commercial and recreational as we know it, and in the 
process cost the associated coastal tourist industry well over 
$100 million annually.
    To the credit of the Council's stock assessment panel and 
the Council itself, the lack of the appropriate stock recruit 
relationships for red snapper has been recognized, and 
projections based on better studied stocks have been used as 
proxies, giving a somewhat more realistic scenario. But even 
this will be invalid when the more stringent NMFS 
interpretation for MSY under guidelines is put in place. 
Incidentally, red snapper stocks have been improving for almost 
a decade with the less stringent measures that are currently in 
place.
    For this most fundamental problem, I think the solution is 
simple. The councils and Congressional staffers, as well as 
NMFS, all need to be involved in interpretation of the 
congressional intent. The guidelines should be a product of 
these groups to avoid placing the councils in the untenable 
role of implementing impossible management measures.
    Thank you, both.
    [The prepared statement of Dr. Shipp follows:]

  Prepared Statement of Robert Shipp, Ph.D., Chairman, Gulf of Mexico 
                       Fishery Management Council

Mr. (Madame) Chairman and committee members:

My name is Bob Shipp, and I chair the Gulf of Mexico Fishery Management 
Council.

    It's an honor to speak to you. I offer a brief background on 
myself, so you'll know where I'm coming from. I hold a Ph.D. in fish 
biology, and have been a fishery scientist for more than 30 years. I 
chair the Department of Marine Sciences at the University of South 
Alabama, serve as a science consultant for the Alabama Coastal 
Conservation Association, and have been on the Gulf Council (twice it's 
chair) for eight and a half years. I fancy myself a great seafood chef, 
and my son, who really is a great professional chef, owns a fine dining 
restaurant in Mobile, serving primarily fresh seafood. I don't own the 
restaurant, only all the debt. Thus I have an academic, recreational, 
and commercial perspective on marine fishery resources.
    I want to focus on but a single issue regarding reauthorization of 
SFA, and that is the relationship between the ``intent of Congress,'' 
the ``interpretation'' of that intent by the National Marine Fisheries 
Service, and the resultant role and actions of the Councils.
    During the last reauthorization phase, Congress passed some truly 
laudable changes in the SFA, aimed at preventing collapse of severely 
over fished stocks as well as continuing the rebuilding of those stocks 
that had bottomed out and were on the road to recovery. The goal, of 
course, was to ultimately reach a level of optimal productivity and 
sustainability, for which the principle of MSY (maximum sustainable 
yield) was adopted.
    However, put briefly, the implementation of those changes, through 
the ``Guidelines'' developed by the NMFS have proven totally 
unrealistic and practically impossible to achieve. I believe the 
``Guidelines'' did not reflect the intent of Congress, but rather a 
theoretical exercise in fisheries management to test the validity of 
various simulation models. This, combined with a strict literal legal 
interpretation of these guidelines, has forced the Councils to enact 
management measures that have imposed severe hardship on practically 
every user group and stakeholder, at least in the Gulf region.
    I will cite but a couple of examples to demonstrate, but am 
prepared to offer many more if requested.
    First, if the biology of a stock is such that rebuilding can occur 
within ten years, then, according to NMFS Guidelines, all means 
necessary must be taken to accomplish this. All means necessary 
includes a total moratorium on harvest of any type. Did Congress intend 
that a stock that can be rebuilt in, say, eight years, must be rebuilt 
in eight years, with total cessation of all harvest, even if an entire 
economy, recreational, commercial, and associated industries be 
destroyed? I don't think so. If rebuilding in, say, twelve years would 
accomplish the same rebuilding objectives but with minimal economic 
impact, would that not be Congress' intent?
    Second, (an issue close to home), the rebuilding of red snapper 
stocks. This is a difficult and complex issue, but let me reduce it to 
the problem of the projected MSY. Depending on which model one employs, 
the Bmsy (biomass needed to support maximum MSY) is from 2 to 4 billion 
pounds, and the annual MSY well over 100,000,000 pounds. But never in 
the history of that fishery has the yield approached even one fifth of 
that number, even in the nineteenth century when it was virtually a 
virgin stock. Nevertheless, the draconian measures necessary to attain 
this theoretical goal (in about the year 2033) would cut the current 
yield by more than half, and virtually eliminate the fishery, both 
commercial and recreational, as we know it, and in the process cost the 
associated coastal tourist industry well over a $100,000,000 annually. 
To the credit of the Council's Stock Assessment Panel and the Council 
itself, the lack of the appropriate stock/recruit relationship for red 
snapper has been recognized, and projections based on better studied 
stocks have been used as proxies, giving a somewhat more realistic 
scenario. But even this will be invalid when the more stringent NMFS 
interpretation for MSY under the ``Guidelines'' is put in place. 
Incidentally, red snapper stocks have been improving for almost a 
decade with the less stringent measures that are currently in place.
    For this most fundamental problem, I think the solution is simple. 
The Councils and Congressional staffers, as well as NMFS, all need to 
be involved in interpretation of Congressional intent. The 
``Guidelines'' should be a product of these groups to avoid placing the 
Councils in the untenable role of implementing impossible management 
measures.
    My time is up, but I would be pleased to elaborate or answer any 
questions you may have.

    Senator Snowe. Thank you, Dr. Shipp.
    Let us start right there. Ms. Dalton, I would like to have 
you respond to Dr. Shipp's statements. The underlying issue 
here, of course, is the fact that there is a lack of good 
science. We are talking about science that will be the 
foundation for all of these decisions. There is a lack of data 
collection.
    I noticed in your statement that you did mention the fact 
that this was going to be one of your priorities. But the 
question is, is it a priority for the National Marine Fisheries 
Service to provide the strong support for good data collection 
to make sure that we have a sound decision? Now on red snapper 
stock assessment, in reviewing everybody's testimony, it is 
clear that there is a very strong difference of opinion as to 
what drives the goal under the MSY. And we recognize that.
    But, again, it goes back to credibility. My fishermen say 
that all the time. We need to have the very best science to 
make these very difficult decisions. So what is the agency 
doing? I would like to have you respond to Dr. Shipp's 
question. I think it is a very important one, and one that is 
fundamental to what I think is going to drive this process. 
That means having the agency behind the process, not driven by 
lawsuits, but rather by the best science available to make the 
best decisions possible for the fisheries and the fishing 
community.
    Ms. Dalton. I think if it was possible to do a moratorium 
on lawsuits, no one would be happier about it than I would be. 
Unfortunately, that is part of the reality of the world that we 
are living in.
    It is interesting with red snapper, because we probably 
have more data on red snapper than we do on many other stocks 
in the Southeast Atlantic. About 85 percent of the stocks that 
we manage in the Southeast Atlantic actually are in the unknown 
status.
    The issue of the guidelines and MSY is a really difficult 
one for me. I spent many years on the other side of the table. 
And as a lot of the staffers know, I had some disagreements 
with those guidelines when they were developed. When I came to 
the agency, I had a choice. I could either struggle to try to 
deal with the guidelines or treat them as exactly what they 
are--guidelines.
    In most instances when we are dealing with or establishing 
the overfishing definitions in the various different fishery 
management plans, we have tried to agree to things like the use 
of SPR as a proxy for fishing mortality and to go back to the 
council and tell them that we also need to have a biomass 
estimate. We do not have the information for all the stocks to 
be able to do that, but we recognize the need to go ahead and 
manage fisheries.
    So I guess that has been part of the way we have dealt with 
it. In recent months, with red snapper, we have a particular 
problem because, as Dr. Shipp has indicated, while the current 
harvest levels do not jeopardize the stock, they are not 
providing for adequate recovery. At the same time, we know that 
the stock is recovering.
    Bill and I have talked about this a lot. We probably need 
to sit down with both the council and with the States that are 
involved and pull in technical staff and see how to deal with 
this pragmatically. The important thing is that the stocks are 
coming back and we continue to see progress.
    Senator Snowe. As I mentioned earlier, Senator Breaux and I 
have initiated a GAO investigation into the two standards, 
National Standard 2 and National Standard 8, one in science and 
one on the socioeconomic impacts. We have reached this point 
because of the level of frustration among all of our 
constituencies with respect to these two particular issues and 
the agency's failure to enforce those two standards.
    I do believe that the agency plays a very key role in 
advancing this issue and making sure that we do not put the 
cart before the horse when it comes to making these decisions 
without having the sound science to support the decisions. It 
is very important to the credibility of the issue, to the Act, 
and to everything that it represents.
    I would like to hear from Mr. Roussel, Mr. Simpson and Dr. 
Shipp. What do you think we ought to do in this Act to ensure 
that the agencies get the best science possible for these 
decisions?
    Mr. Roussel. Madam Chair, I might make a comment. And it is 
going to get a little bit philosophical, but I think it may 
provide a framework to go forward in a positive fashion. One of 
the things that I think has happened recently with fisheries is 
we have relied on what is the true weakness of science and not 
actually focused our attention on what are the strengths of 
science. The strengths of science are understanding what has 
happened. The weakness of science is trying to predict the 
future. When you deal with complex systems, it is very 
difficult to predict the future.
    I think the management structure that exists now, which is 
shooting for biomass targets and things that require prediction 
from models, which we cannot verify, has really focused all of 
our energy in the wrong direction. I think what we should do is 
take a step back and go to an adaptive management program, 
where you rely on observations of what has happened to drive 
your decisions for the next step.
    Senator Snowe. Do you think we should be funding observer 
programs?
    Mr. Roussel. I think data collection from the fisheries is 
a very vital component. When I talked about GulfFIN, it has a 
fishery dependent component. In fact, that is basically what it 
is, by and large. Observer coverage is really a small aspect, I 
guess, of the point I am trying to make.
    I think if we learn by making observations and make 
incremental decisions based on what we know happened, that is a 
more prudent approach than what we seem to be taking now, which 
is predicting a projected target and trying to get there.
    Senator Snowe. Has it been your experience that the 
information that is used to make these decisions has not been 
up to date? I hear that a lot from my fishermen--that the 
information is not up to date. Generally, it is a year old or 
two years old. That is why observer programs, for example, are 
one good way to get the most up to date information available.
    Mr. Roussel. Well, one thing that is hard sometimes for lay 
people to understand is that the rigors of scientific study 
require that there be some constraints on how those data are 
collected. And that automatically interjects a lag in the 
information available. I am not sure there is a reasonable way 
to address that. But I do think, with technology advances that 
are made now, that process should be accelerated.
    You may have situations where data collected on board a 
vessel can be transmitted almost instantly back to shore to be 
used. So there are some opportunities to do that. But we must 
recognize that, at least from the scientific perspective, there 
are some rigors and some standards that you have to meet for it 
to qualify, basically, as scientific information. And that does 
create some lag.
    Senator Snowe. Mr. Simpson.
    Mr. Simpson. Basically, going back to your broader 
question, Madam Chairman, I think the framework is basically 
there. I think the outline to get what you want exists within 
programs and laws and so forth. I think what has been lacking 
to some degree is involving the States a little bit more 
intimately in that cooperative data collection. And I think we 
are making some good strides toward that.
    Going back to your comment about the timeliness and old 
data and so forth, I am not sure that the best interests of 
society, fisheries, and fishermen are served by having a 
complete census, real time, of all data. Weyerhauser does not 
go in and count every tree when they buy a tract of land, but 
they have some sophisticated sampling techniques that let them 
know how much money is going to come out of that general area.
    So it is not necessary to burden, I think, everybody with a 
complete census. It is just a matter of emphasis and common 
sense, and some of the things that Mr. Roussell was mentioning, 
that needs to be addressed.
    Senator Snowe. And also confidence in the techniques that 
are used, whatever they may be?
    Mr. Simpson. True. I am not going to get into the 
modelling. I will leave that to Dr. Shipp. That is specialized. 
I do not think it is a science but somewhat of an art, but that 
is a little beyond me.
    Senator Snowe. Dr. Shipp.
    Dr. Shipp. Thank you, Senator Snowe.
    I agree totally with John on the adaptive management 
approach and what has happened in the past. I also want to 
suggest that we should set our goals more short term rather 
than long term. Bill Hogarth and I have talked about this.
    I would like to make an analogy. Down here on the coast, as 
Senator Breaux knows, we live through a horrendous hurricane 
season every year. And when those tropical depressions form off 
the coast of Africa, you can get a model to tell you where it 
might hit in 14 days. And their data are really a lot better 
than the fisheries data. But you do not respond 14 days ahead. 
You wait till it is two or three or four days ahead to start 
making your plans. And I think that analogy holds with 
fisheries. It is ridiculous and absurd to look to the year 2033 
and try to make projections out there.
    The last point is that the dynamics of this snapper 
fishery, as well as many others, are changing radically. I 
brought with me the 1885 report to the Commissioner of 
Fisheries. And in that report, a year and a half was spent in 
the Western Gulf, looking for red snapper stocks. There were 
none there.
    What has happened is the habitat change has been immense, 
due to the rigs to reefs program. The structure that has been 
put down, and now half the fishery is in the Western Gulf. And 
those sorts of information sources are really not being 
utilized to the full extent. So I really agree with John that 
adaptive management is the way to go.
    Senator Snowe. How do industry sponsored stock assessments 
work into the council process? I know one was done with respect 
to the red snapper, which contravened the assessment of the 
National Marine Fisheries Service. So how does that work? Can 
it fit into the process, or is it suspect and viewed as biased?
    Dr. Shipp. Well, it is a little bit suspect, but a number 
of years ago there was some independent analysis done on the 
stock assessment process. And, in general, people agreed with 
the theories behind it. And even, I think, the industry stock 
assessments do not disagree with the theories. It is really the 
lack of baseline data.
    I mentioned the stock recruit relationship. And, put 
simply, that produces a graph that goes straight up. No one 
knows where that graph starts to bend over, where the stocks 
reach a maximum biomass--there are just no data for that. And 
the industry models as well as the NMFS models are pretty much 
in agreement--an agreement that they do not know where they go. 
They do not know, into the future, what is going to happen.
    Senator Snowe. Senator Breaux.
    Senator Breaux. Thank you, Madam Chair. And I thank the 
panel for their testimony. And I appreciate you all being here.
    Ms. Dalton, I was extremely, deeply disappointed in the 
National Marine Fisheries Service's announcement yesterday of 
the proposed rulemaking to close areas of the Atlantic and Gulf 
to longlining. Not because of what you announced, but because 
it is right in the middle of an effort by Senator Snowe, myself 
and a significant bipartisan majority of our committee to have 
legislation, which has already been introduced, to close 
180,000 square miles of these areas through a balanced buyback 
program with the longline industry, and in cooperation with 
many of the recreational industries. This legislative proposal 
attempts to achieve a result which I think would be extremely 
effective, much more effective than the NMFS rulemaking. And 
your agency issued its proposal without letting us know about 
this, and that is just unacceptable. I mean that is just not 
the way we do business, and I am deeply disappointed.
    Number one, I do not think that your proposed regulations 
included any economic assessment of the industry, judging from 
this one-page announcement. Your closed areas will have a very 
severe economic impact on small businessmen. I do not think 
that you are going to be able to come anywhere close to 
achieving this type of a closure with your regulatory proposal 
once you consider, eventually, the economic impact. It is going 
to be dramatically reduced. It is going to be much less 
effective than our legislation.
    So, having said all those nice things about it, why the 
heck did you all do it?
    Ms. Dalton. Basically, again, litigation is driving it. I 
apologize for the communication.
    Senator Breaux. No, the lack of communication.
    Ms. Dalton. The lack of communication on this. There 
certainly was no intent to keep the court order secret.
    Senator Breaux. Well, how did that happen? Let us be 
perfectly clear.
    Ms. Dalton. I honestly do not know.
    Senator Breaux. You are the agency, you are right there in 
the same city I am. Senator Snowe is Chairman of this 
Subcommittee. We were working with your people on legislation, 
and I thought in good faith. We brought in recreational 
fishermen, sat down with longliners, discussed a buyback 
program, wrote the bill, introduced it. You all know that. And 
then, last night, we get a fax, saying you all pulled the rug 
out from everybody. What happened?
    Ms. Dalton. Well, we have done briefings on the Hill.
    Senator Breaux. You did briefings on this announcement on 
the Hill?
    Ms. Dalton. Yes.
    Senator Breaux. With whom?
    Ms. Dalton. Last week, with most of the folks in back of 
you.
    Senator Snowe. May I just interrupt here?
    These groups that John was referring to were working in a 
good faith effort--the agency included. Nobody was informed. It 
is after the fact. You proposed the rule yesterday, did you 
not, or last night?
    Senator Breaux. Last night.
    Ms. Dalton. Well, the rule has been under development.
    Senator Snowe. But the point is your agency was working in 
consultation and concurrently with those groups.
    Ms. Dalton. Well, we were not involved in drafting the 
legislation. We provided analyses early on to support some of 
those proposed areas initially.
    And again, this HMS community is not a very large 
community. Certainly everyone in the community knew about the 
lawsuit. I quite honestly thought that most of the industry 
members knew about the court order. I was clearly wrong. And we 
clearly should have communicated it to you. And for that, I 
apologize.
    Senator Snowe. Let me just add one more thing. My staff was 
just telling me that the briefing occurred two months after the 
agency entered into the agreement, one week before the rule was 
published.
    Ms. Dalton. When I realized that the folks on the Hill did 
not know that we had to do it, I scheduled a briefing for the 
next day. I know that this has been a problem, and we will try 
not to let it happen again.
    At this point, I do not disagree with you on the economic 
impact assessment. The other thing is, when you look at the 
proposal, it is really interesting--closing a huge area doesn't 
necessarily get you the reductions that you want in bycatches 
of billfish. In particular, if you close some areas, the 
proposal that we came up with will do a good job at reducing 
the bycatch of small swordfish and bluefin tuna. It does not do 
a very good job of reducing the bycatch of billfish. You do get 
some reductions in sailfish, but not in blue and white marlin.
    So it is out there now as a beginning because, you are 
right, we have no way to deal with the fishermen who fish in 
those areas. If they go to other places, which we have to 
assume that they will, then their bycatch of those species 
increases.
    So we need to work over the comment period to try to refine 
these analyses. When we reduce the closed area, we actually 
reduced bycatch in some of the species. We had to look at other 
factors like the turtle bycatch, which also is affected 
whenever you displace this fleet, and marine mammals, which 
probably is not as much of a problem.
    We did do economic analysis on it. We prepared an initial 
regulatory flexibility analysis. We will continue to refine 
that in the public comment period. So this was not intended to 
fly in the face of your legislative proposal. It was an 
agreement that we reached in order to stay the suit from moving 
forward. We were sued by environmental groups to implement 
bycatch reduction measures that we had already announced were 
necessary. And with our attorneys we determined this to be the 
best way to move forward with this. Again, I apologize for 
catching you off guard.
    Senator Breaux. There are two things here. Number one, I 
did not like the way it was handled. And we have discussed 
that. Number two, I do not like the substance of what you have 
done, because it is not going to stand up. When you said an 
economic study, have you done an economic study on the impact 
on the tuna industry? And what is the extent of it?
    Ms. Dalton. Our initial economic analysis suggests that 
there will be significant economic impacts on the industry.
    Senator Breaux. And how do you balance that with Section 8 
of the Act?
    Ms. Dalton. This is a proposed rule, and we have to do 
public hearings. We will hear from the public.
    Senator Breaux. Were the rule and your preliminary analysis 
not totally inconsistent? I mean can you not tell me it is 
going to have major economic impacts on an industry? That is 
one of the things you have to balance in making a proposal. 
Your proposal does not do that. Does it have a buyback proposal 
in it?
    Ms. Dalton. No.
    Senator Breaux. Does it reflect discussions with the tuna 
industry on this issue?
    Ms. Dalton. Most of the discussions that we have had have 
been in recent days.
    Senator Breaux. I am sorry?
    Ms. Dalton. Most of the discussions we have had have been 
recently.
    Senator Breaux. Were you in discussions with them before 
the proposal?
    Ms. Dalton. They were in discussions. There was a lot of 
analysis done out of the Southeast region to provide some of 
the information.
    Senator Breaux. Who did you meet with in discussions before 
the proposed rule was made in the industry?
    Ms. Dalton. Who were the discussions with? Some of the data 
analysis was done by the center.
    Senator Breaux. There were no discussions with the 
industry, right?
    Ms. Dalton. On this proposed rule? No. We discussed the 
legislation.
    Senator Breaux. Were there discussions with the people who 
filed suit against you?
    Ms. Dalton. Outside of the settlement discussions with the 
attorneys, no.
    Senator Breaux. Outside of the settlement discussions, no. 
But how about in keeping with the settlement discussions, did 
the lawyers for them, or the people who filed suit, discuss the 
proposed regulations?
    Ms. Dalton. Not the content of it. The only discussions we 
had were in the context of reaching a stay on the suit.
    Senator Breaux. Well, what you were doing then, you were 
negotiating with the people who filed suit against you, and 
left out the people who are mostly affected by the decision to 
close the industry.
    Ms. Dalton. But in the context of the proposed rule, the 
only discussions with them were on the timing of when we would 
come up with a proposed rule and when we would finalize that 
rule. We had already announced we would do a rulemaking. The 
content of the proposed rule was not discussed with them. The 
only part of it that was discussed was from the standpoint that 
it would address bycatch issues. That was the only thing.
    Senator Breaux. Well, I just think this is unacceptable. I 
think it is a bad procedure. I do not like the proposal because 
it is not going to work. It is not going to stand up to 
National Standard 8 of the Act, when it talks about the 
economic impact on the industry. What Senator Snowe and I tried 
to do was to reach an agreement legislatively that had an 
effective closure of 180,000 square miles of area, from 
longlining, but also address the needs of the industry for a 
buyback provision. That is by far a better and more sound way 
of handling this problem.
    And I hope that Senator Snowe and others who have sponsored 
the legislation agree that that type of an approach is a far 
better approach than what you have initially suggested.
    Ms. Dalton. I do not think that we disagree with you that 
the approach is a good one. And I think we tried, in the 
Federal Register notice, to acknowledge that approach and to 
say that we support those objectives. The bill also does some 
things, particularly in the Gulf area, that deal with gear 
conflicts that were outside of our ability to address. The 
analysis was based on bycatch and it did not deal with some of 
the gear conflict issues.
    So the area in the Gulf is more different than the area in 
the South Atlantic in terms of the area that is closed. That is 
partly because you have more flexibility in what you took into 
consideration.
    Senator Breaux. Well, I predict that you will hear more on 
this issue legislatively.
    Dr. Hogarth. Senator, may I add just one thing? Back in I 
think it was January, this rule was handled by the highly 
migratory species division, which is done at headquarters. The 
regions do not have any authority over highly migratory 
species. It is handled by the Secretary through a division in 
Silver Spring, MD.
    Back in I think it was January, when they put out the 
highly migratory species rule, it was a comprehensive rule. I 
think that was abandoned by the highly migratory group, because 
the comments suggested that the closed area was too small and 
did not do much good. Industry does have a part in the highly 
migratory rulemaking process; they did have an advisory panel, 
which they did discuss closures with, but I am not sure if it 
covered this detail.
    We got involved, at Penny's request, to look at some of the 
science, looking at a more refined area, and we looked at the 
data and tried to help with that process. But I just wanted to 
be clear to you that this is not a regional issue, but there 
are two different mechanisms for domestic fisheries and highly 
migratory species.
    Senator Breaux. What I hear you saying is you did not do 
it.
    [Laughter.]
    Senator Breaux. I got that in your first sentence.
    Dr. Hogarth. But it was a process that the highly migratory 
division went through to get comments. It was over different 
types of proposals. It was not, I do not think, something out 
of the clear blue or something that had been going on. But then 
the lawsuit put it in a timeframe that it had to be in the 
Federal Register by December 15th.
    Senator Breaux. Dr. Shipp, let me turn to another subject 
which is equally as important. Bad science or no science 
produces bad results. I think that is what we all can agree on. 
If we do not have good scientific information on what stock 
conditions are, you are going to end up with bad rules and bad 
regulations. In a lot of these areas, we have almost no science 
or some of the science is not good science. And the red snapper 
issue seems to be one that you mentioned and others have 
mentioned--the Texas Shrimp Association Executive Director, 
Wilma Anderson, talks about it extensively.
    I was really interested in your concise testimony. You say, 
depending on which model one employs, the biomass needed to 
support the maximum sustainable yield is from 2 billion to 4 
billion pounds, and the annual maximum sustainable yield on red 
snapper is well over 100 million pounds. But never in history 
have we ever approached even one-fifth of that amount.
    It seems to me that anybody just reading that, it does not 
seem like it makes a lot of sense. We are looking at a maximum 
sustainable yield that is one-fifth of the amount we have ever 
produced. How can we make management decisions based on that?
    Dr. Shipp. Well, that is the box that the council has been 
put in by the projection models. The simulation models that are 
used are really probably only good for 2 or 3 years. And even 
the modelers will tell you that. But you can run them out as 
far into the future as you want, and the law requires that we 
do that.
    And going back to your original statement about science, 
using this term ``best available science'' is a trap. I think 
inadequate science is worse than no science at all, because it 
forces you to make decisions that are bad decisions, just as 
you said. And this is a perfect example. Common sense tells you 
that if a virgin stock could not support one-fifth of this 
projected maximum sustainable yield, something is wrong with 
the science.
    Senator Breaux. Are you telling me that the decisions on 
the utilization of bycatch reduction devices, the BRDs, and the 
quota allocations on red snapper are, in your opinion, based on 
science that produces an MSY of well over 100 million pounds, 
and which is less than one-fifth of what we have ever caught in 
any one period?
    Dr. Shipp. I am not sure I totally understood your 
question. But if you are asking me, do I think the bycatch 
reduction devices are necessary----
    Senator Breaux. No, I am not asking that. Assuming that in 
order to reduce bycatch, we use these devices, and in order to 
save red snapper or produce more, we use those devices, and we 
also use quota allocations.
    Dr. Shipp. Right.
    Senator Breaux. Those are the two things we are doing. We 
say to fishermen, do not catch any more than 6 million pounds 
or 9 million pounds, and tell them to use BRDs on shrimp boats 
at the same time to reduce bycatch. But we make decisions to 
use those two mechanisms based on a number from a model that 
looks like it is out of whack.
    Dr. Shipp. That is correct. That is exactly correct. Not 
only that, but the council has defied the recommendations 
coming from those models because if the council had done what 
those models insisted needed to be done in 1990, we would have 
essentially closed the fishery back then. In 1990, they said 
that if we did not get the 60 percent reduction in bycatch and 
did not cut the quota to 2 million pounds, the stocks were 
going to collapse in five years. And the council, more or less, 
defied that, used a little wiggle room, a little common sense.
    Now, instead of that 2 million pound quota, we have a 10 
million pound, the bycatch reduction, along with the TED 
reductions that have accounted for far less bycatch reduction 
than was required in those models, and still the stocks 
continue to improve.
    Senator Breaux. You are right, there is a breakdown here. 
Is it because of the Act, the way it is structured? Is it 
because of the National Marine Fisheries Service guidelines? 
What is the problem?
    Dr. Shipp. It goes back to your original comment about 
inadequate science, good science, bad science. The science is 
inadequate. It is not necessarily bad. It is the only thing we 
have. When the Act requires that we project 30 years into the 
future--and that is basically what the Act says--and we do not 
have the science to do that, and we have only these models 
which defy all common sense and reason, but that is the only 
thing we have and that is what the lawyers tell us we have to 
use.
    Senator Breaux. Well, what can Senator Snowe and I do? If 
you were here where we are and you wanted to do something 
legislatively that would help address this problem of junk in 
and junk out, and concerns that bad science or no science 
produces bad results? What, if anything, could you do with your 
pen if you were in our place?
    Dr. Shipp. What I would do is set shorter-term goals, which 
is a euphemism for adaptive science. Let us implement these 
reasonable rules for three to five years. And then do a stock 
assessment and see where we are going. Rather than be 
constrained by a 30-year projection. That is what we should do.
    Senator Breaux. We operate under these 30-year timetables 
in the Federal Government. I tell you, it is a joke to project 
what the deficit or the surplus is going to be 30 years from 
now, or what Medicare is going to look like in the year 2035. 
Everybody who makes these sorts of estimates says that these 
are just taken from out of the blue, you know, pick a number.
    Dr. Shipp. But the estimates in this case impose 
regulations and impose limits on what we can do. That is the 
problem with it. We are bound by them.
    Senator Breaux. I think that is a very helpful suggestion.
    I thank you, Madam Chair.
    Senator Snowe. I think it is an important issue that we 
have to figure out how to address. It seems to be a universal 
opinion, if there is anything universal in the fishing 
industry, that we need to do something on the science question 
to give it credibility. Where do you base it on the 30-year 
projections?
    Dr. Shipp. The way the legislation is written, it has to do 
with how long the maturity age of the species is, or generation 
times. Unfortunately, red snapper lives 52 years at least. And 
therefore the generation time is a long, long time.
    Senator Snowe. Ms. Dalton, let's go back to the original 
issue--which goes to the heart of a number of the problems that 
we are facing, not only in the implementation of the Act, but 
also the intent--of building trust and credibility between an 
agency, Congress, and more importantly, the people who have to 
live by the rules, regulations, and legislation.
    For example, the fact that the agency failed to notify an 
important segment, on an issue that has been an unprecedented 
agreement between commercial and recreational fishermen to 
accept closures in an area, is really remarkable. To not 
consult, or even inform, the relevant industries is a betrayal 
of trust between an agency and the people who it affects most 
directly.
    To be honest with you, I think the agency is driven by 
lawsuits. I know the agency has more than 100 lawsuits, and I 
am beginning to think the agency needs new lawyers. I will not 
get into all of the other issues and areas that we have had to 
deal with because of lawsuits.
    There is no justification for not informing groups who were 
equally, if not more, affected by the decision and the 
agreement that you entered into. You keep saying there is a 
proposed rule, but you also entered into an agreement to 
publish a final rule by May 1st. So I do not want any 
rationalization here. And I think it is really unfortunate, 
because we are facing this time and time again with the agency. 
And it is all driven by these lawsuits.
    The people who file lawsuits almost immediately supersede 
any other interest, which is what has happened here. It is not 
right and it is not fair.
    Senator Breaux mentioned a very important issue--the 
buyout. This rule has the ability to undercut this legislation. 
That is the problem we are facing now. A buyout is important, 
we had to do that for the New England groundfish fishery. We 
had to make that commitment. There will be a significant 
economic impact on those fishermen who fish in the areas that 
are now going to be closed to the fisheries, without question.
    So even though you cannot provide a buy-out in the 
rulemaking process, what you have done by entering this legal 
agreement is obviate the need for the buy-out. We are going to 
face the question of is the legislation necessary now. It is 
going to make our job extremely difficult. But it is the 
credibility and trust that concerns me more.
    It is similar to disparate assessments. I realize people do 
not agree on the facts, but the fact is that the agency has not 
been behind its mission to get the facts and the best science. 
That is why we have had to order a GAO investigation into 
National Standards 2 and 8, on the science and the 
socioeconomic impacts. You say you are going to make those a 
high priority, but they simply have not been a priority for 
this agency. That is the problem we are facing.
    Our job is to restore credibility. We have problems with 
this Act and we have to deal with them. But if you have got an 
agency that just keeps making decisions based on how to best 
defend lawsuits, then we have got some serious problems on our 
hands.
    I have just one other area that I would like to explore, 
and then I have a number of other questions which I will 
submit. Some non-fishing entities have referred to the 
essential fish habitat consultation process as bureaucratic 
blackmail.
    Now, I would like to know how the process works. I know 
that NMFS does consult with other agencies. But what has 
ultimately occurred, from what I understand, is that there have 
been complaints of potential delays in the permitting process 
as a result of this consultation requirement.
    How do you think that NMFS should work to improve this 
process, so we do not have unnecessary delays, and so we have 
the appropriate consultation? Are you monitoring the time it 
takes to approve applications during the process of these 
procedures?
    Ms. Dalton. We have other requirements under other laws, 
again, to assess the impacts on the environment. So we are 
trying to piggyback the EFH consultations on those existing 
requirements, for things like the Clean Water Act, and other 
statutes.
    To date, we have done 2,500 consultations. Most of them 
have gone without noticeable complaints, at least not ones that 
have gotten back to my office. And we think that the process is 
going fairly well. One of the things that we are going to be 
trying to do is ``one-stop shopping''--we have done a pilot 
program in California.
    One-stop shopping would entail combining all of the 
permitting processes for activities that are going on in things 
like the marine sanctuaries with EFH consultations to try to 
bring them together so that it is not a painful process for the 
Federal agencies that are required to consult with us.
    Senator Snowe. Dr. Shipp, Mr. Simpson, Mr. Roussel, do you 
care to comment on this process, what could be done to improve 
it?
    Dr. Shipp. Your concerns are speed. And I think giving 
voice to the fish may necessitate giving a little more 
consideration. I appreciate the expedited views and so forth, 
but in the past the fish had not had a voice.
    Senator Snowe. And the fish are what this Act is all about. 
But the question is about balance. Do you think it is balanced 
now?
    Dr. Shipp. EFH?
    Senator Snowe. Yes.
    Dr. Shipp. Pretty much.
    Mr. Simpson. I would agree.
    Mr. Roussel. I would agree. I am not aware of any specific 
delays. I have heard some people express concerns about delays, 
but actually seeing specific delays, I am not aware of them. 
Now, that does not mean that it does not exist. My agency is 
not actively involved in that process, and that is why, in my 
testimony, I suggested that we try as much as possible to use 
existing review procedures and consultation procedures and not 
duplicate those procedures.
    Senator Snowe. And one other area I would like to discuss 
is habitat information. Now, I understand that in 26 of the 40 
species that went before the Gulf Council, information was 
available but the NMFS was still in the process of getting more 
information on the remainder of the species. Is that correct?
    Dr. Shipp. I would have to defer to Dr. Hogarth, because I 
do not know.
    Dr. Hogarth. I am not sure I understood the question.
    Senator Snowe. As I understand it, when the Gulf Council 
submitted their amendment to NMFS, habitat information from 
NMFS was only available for 26 of the 40 species, so it was 
partially approved.
    Dr. Hogarth. Right.
    Senator Snowe. I understand that NMFS is now in the process 
of doing more research on the remaining species. Is that 
correct?
    Dr. Hogarth. That is correct. We are trying to get enough 
information.
    Senator Snowe. So what is the time line for that?
    Dr. Hogarth. Senator, I do not know. I can get that to you. 
But I am not aware, because we are working on several issues 
for the council.
    Senator Snowe. I see. Do you folks put a time line on 
getting that information?
    Dr. Hogarth. We usually try to give the council a deadline 
so that they can actually have a council meeting to work down 
the MSY and biomass. I am not sure of the timeframe, but we can 
submit that to you.
    [The witness did not provide the information.]

    Senator Snowe. OK. Senator Breaux.
    Senator Breaux. I just have one other question for Mr. 
Roussel, our witness from Louisiana. I mentioned this issue to 
Senator Snowe. You said that the States in the Gulf receive no 
Federal funding for enforcement operations of the Federal Act. 
You also mentioned the Coast Guard receives up to $25 million 
for enforcement and only do about 30 percent of the cases. I am 
not knocking the Coast Guard, because their priorities are in a 
lot of other things, search and rescue, and they do a terrific, 
wonderful job in pollution control and everything else.
    We only have about 10 to 12 Federal agents that are having 
an impact on the Gulf. We do a lot of work out there. How many 
people do we have from just our one State in the Gulf 
participating in enforcement activities and enforcing the 
Federal Act?
    Mr. Roussel. Senator Breaux, I could not quote you exact 
numbers. I can just tell you that it is dozens and dozens of 
people in strictly the coastal area that engage in those 
activities. I can mention this, that in Louisiana, our 
enforcement agents make 30,000 contacts with commercial 
fishermen per year, and 32,000 contacts, that is face-to-face 
contacts, with recreational fishermen.
    Senator Breaux. Is that dealing with the Magnuson-Stevens 
Act?
    Mr. Roussel. That is dealing with fisheries types of 
situations.
    Senator Breaux. And we get no compensation, the States do 
not get any compensation for the law enforcement activities 
under the Magnuson-Stevens Act?
    Mr. Roussel. No compensation whatsoever. There is no reason 
for a separation or division between Magnuson and State 
fisheries management and enforcement, because fishermen 
participate in both of those fisheries basically 
simultaneously. We feel like the State enforcement programs' 
presence in the field, their infrastructure and their 
organization, creates a tremendous springboard to get some 
efficient enforcement of Federal regulations.
    Senator Breaux. Do your agents do anything outside the 3 
mile state waters boundary or do you wait until they come in?
    Mr. Roussel. Most of the enforcement activities are within 
the 3 miles. We do occasionally venture outside of the 3 miles. 
But recognize that a lot of the enforcement activities can be 
done dockside and can be done when those participants are 
returning back to dock.
    Senator Breaux. Well, there may be something we can look at 
in that area.
    Thank you very much.
    Senator Snowe. Thank you.
    One further question I want to explore, because it is one 
of the issues in this reauthorization, is the moratorium on 
ITQs which expires next October. Dr. Shipp.
    Dr. Shipp. I have very strong feelings that the ITQ is the 
way to go, certainly with the red snapper, the grouper, and the 
mackerel fishery in the Gulf. And I will just comment that I 
was on the council when we developed the ITQ system. The 
process began, and I would say probably 70 to 80 percent of the 
commercial fishermen were opposed to it. By the time the 
hearings process was over, they were almost all in favor of it, 
once they learned about it. In fact, for health and safety, it 
is almost a dire necessity that we do that.
    Senator Snowe: Mr. Roussel.
    Mr. Roussel. My only comment, Senator, is I do not support 
the prohibition on considering ITQs. I may not share Dr. 
Shipp's views that that is the way to go, but I think it should 
have full study and debate. The situation now is just that the 
Gulf Council is basically prohibited from even considering it.
    Senator Snowe. So it should be an option available to the 
councils?
    Mr. Roussel. Correct.
    Dr. Shipp. Yes.
    Mr. Roussel. I am a believer in preserving all of your 
options.
    [Laughter.]
    Senator Snowe. Thank you. Yes, I think we could identify 
with that.
    Thank you all very much, I appreciate it.
    We will now proceed with our second panel of distinguished 
witnesses. Our first will be Ms. Wilma Anderson. Ms. Anderson 
is the Executive Director of the Texas Shrimp Association. Mr. 
Myron Fischer operates a charter boat and is a Louisiana member 
of the Gulf Council. We will hear from Mr. Wayne Werner, who is 
a commercial fishermen and also serves on the council's 
advisory panel. And Mr. Pete Emerson, of the Environmental 
Defense Fund, who will be the final witness of the panel.
    May we have some order, please.
    We would like to limit your testimony to five minutes so 
that we can ask you questions. We will start with Ms. Anderson.

 STATEMENT OF WILMA ANDERSON, EXECUTIVE DIRECTOR, TEXAS SHRIMP 
                          ASSOCIATION

    Ms. Anderson. Thank you, Senator.
    I am Wilma Anderson, Executive Director of the Texas Shrimp 
Association. And we are based out of Aransas, Texas. We have 
approximately 963 offshore trawlers, that is the big vessels, 
that is our membership, and about 38 of the shore-side 
facilities. Our membership does consist of boats throughout the 
Gulf of Mexico, mainly Texas-based boats though.
    I think it is great that you all are here to let us all 
tell you what we think about what is going on with fisheries. 
There are going to be pros and cons. Generally speaking, for 
shrimp, shrimp is in a very healthy state. And that is 
generally a result of the management practices that have been 
implemented to manage it. Unlike other fisheries, because 
shrimps have productivity, there is no great threat to 
overfishing. And the greatest threat to shrimp reproduction is 
loss of habitat in development, pollution and subsidence.
    TSA has long been an advocate for protecting the essential 
fish habitat for shrimp in Texas bays and the estuaries where 
our shrimp live. Despite the loss of approximately 9,800 square 
kilometers of the offshore shrimp fishery of trawlable bottom 
to a large dead zone, oil and gas platforms, bottom 
obstructions, natural and artificial reefs, sanctuaries and 
closed areas, the industry has viewed these adverse effects on 
our fishery, per se, as protected habitat and refuge areas from 
the various trawl fisheries for a large fraction of juvenile 
red snapper and other valuable species.
    TSA has advocated enhancement programs for these areas of 
lost trawlable bottom as a more practical alternative to BRDs. 
We believe that the loss of these areas has and will continue 
to be a significant mitigation to bycatch reduction, a measure 
which the Gulf Council and NMFS have refused to recognize.
    Economic Data: NMFS and the Gulf Council are really in the 
dark age of economics and have no concept of the economic value 
or how regulatory impacts affect the fisheries they manage. As 
an example, over the debate of the BRDs, researchers for the 
Gulf Council and NMFS stated that the profit margin of shrimp 
vessels was 51 percent, and therefore the industry could absorb 
the 7 to 10 percent shrimp loss caused by BRDs without 
difficulty.
    First of all, we could not conceive that any business in 
the United States was operating on a 51 percent profit margin. 
When we filed data during the rulemaking process to correct 
this erroneous conclusion, NMFS refused to consider it because 
it was not presented to the council first. This response was 
ridiculous because the council had already approved the 
amendment on the 51 percent profit margin and had forwarded it 
to the NMFS for rulemaking.
    Cumulative regulatory effects must be a part of the 
rulemaking process. This has become a high priority for all of 
the fisheries. For the shrimp industry, cumulative impact is a 
major concern of the shrimp fishery because shrimp have but 
one-year life cycles. If not harvested within that timeframe, 
the resource and revenue is nonrecoverable, creating a loss to 
the fishery and the Nation.
    Cumulative regulatory impacts on the shrimp fishery, from 
turtle excluder devices and bycatch reduction devices, have 
reduced the profit margin of the typical shrimp vessel to about 
3 to 5 percent of its gross income. Under cumulative 
regulations, the shrimp industry incurs yearly approximately 33 
percent of a non-recoverable benefit of a consumable resource 
in revenue.
    Peer-reviewed science or political science? We are kind of 
lost on that subject. Congress mandated that bycatch in marine 
fisheries be minimized to the extent practicable. In the early 
1990's, it was stated that the red snapper population was 
severely overfished, and the primary cause for the decline was 
the directed fishery. It was then determined that the 
inadvertently caught red snapper in shrimp trawls must reduce 
bycatch mortality of age 0 and age 1 juvenile red snapper by 60 
percent to assist in the recovery program and to avoid a 
shutdown of the directed fishery. Bycatch reduction devices 
became the focus and the shrimp fishery became the scapegoat.
    To what extent do shrimp vessels inadvertently catch 
juvenile red snapper in areas of the Gulf? Shrimp trawl bycatch 
characterization studies revealed that red snapper represented 
.005 percent of the bycatch, a hairline crack on a graph. 
Bycatch studies revealed croaker and long spine porgy still 
dominate the shrimp trawl bycatch following two decades of 
fishing.
    Our consultant prepared and submitted the following 
analysis and peer-reviewed reports to the Gulf Council and NMFS 
for consideration when the bycatch issue was coming down and 
debated. Our analysis revealed significant flaws in the manner 
in which NMFS estimated the impact and size of shrimp trawl 
bycatch. It was overestimated.
    The calculation of the effectiveness of BRDs was over-
exaggerated. The reduction in mortality by BRDs would be 
approximately 25 to 28 percent. The red snapper stock 
calculation, a biological estimate of the resiliency of the 
fishery, was wrong.
    Overfishing objectives for the red snapper management plan, 
expressed either as OY or MSY, requires that the stocks should 
grow from the current level of about 30 million pounds to 
between 3 billion to 4 billion pounds.
    There is no biological evidence that the red snapper 
fishery was ever this large. And we doubt, as we issued this 
statement to NMFS, that any credible scientist would be willing 
to stake his or her reputation that it could grow to this size 
or that the ecology of the Gulf could sustain such a stock 
biomass. Nonetheless, this stock objective, expressed as 20 to 
26 percent SPR, is the legal mandate for this fishery.
    In the early 1990's, when BRDs were being examined in 
laboratory conditions, NMFS decided that the red snapper 
population was growing, even without bycatch reduction. The 
council and NMFS continued to increase the TAC, from 4 to 9.12 
million pounds, to meet the needs of the ever-increasing 
directed red snapper fishery.
    Recently, the Gulf Council recommended, and it appears NMFS 
will support, a 9.12 million pound TAC for the year 2000, even 
though the stock assessment panel of scientists that serve the 
council recently advised that the annual quota should be set at 
no more than 6 million pounds and, under one scenario, at zero 
quota, for the next 30 years, in order to allow the stocks to 
achieve the specified MSY/OY.
    If the 9.12 million pound TAC recommended for the year 2000 
is not reduced to 6 million pounds, we, as an industry that is 
highly affected by this, plan to file suit challenging this 
conservation failure. It is wrong for the Gulf Council and NMFS 
to decide if the red snapper population is so depleted that the 
ineffective BRDs must remain a mandate at great expense to the 
shrimp fishery, but the directed red snapper fishery should not 
be curtailed to lessen their economic impact.
    A mandate for ineffective BRDs has made the shrimp fishery 
a strong advocate for bringing the red snapper population to 
the point that it is no longer overfished. And we demand that 
responsible parties for the overfished state, the directed red 
snapper fishery, must be curtailed and equally share in the 
recovery program.
    At this point, we have completely lost confidence in the 
ability of the Federal fishery management process to operate in 
a manner consistent with sound science and accurate information 
on a fair and equitable basis. The shrimp fishery is going to 
be subject to more bycatch restrictions and further mandatory 
actions, because BRDs are not meeting the mandate of what they 
have required. NMFS now advises the council that they must 
aggressively consider other means to achieve bycatch reduction 
in addition to BRDs, extending BRD coverage, bycatch quotas, 
closing areas and seasons.
    For many years, the shrimp fishery has voluntarily carried 
observers and cooperated in data collection programs, 
economics, shrimp fishing effort, bycatch data, and gear 
technology. Now the council and NMFS are discussing making all 
of this mandatory, and the shrimp industry probably has the 
greatest data base of any fishery in the United States today.
    We view what the council and NMFS are discussing as 
mandatory observers, logbooks for more data collection, vessel 
permits, operator permits, and a vessel monitoring system to 
enable tougher enforcement action against the shrimp fleet 
simply to be used in a sanctioning manner. This we highly 
disagree with.
    We have had some bad experiences by being big cooperators, 
taking observers on board, but we now are facing an observer 
who has filed suit against one of our boats for a $950,000 
settlement. Under essential fish habitat, because shrimp are 
highly dependent on the quality of our coastal environment, we 
supported changes to the Magnuson-Stevens Act that would 
improve protection of essential fish habitat. Unfortunately, 
the essential fish habitat program has been spun totally out of 
control.
    Again, the major focus in the Gulf of Mexico is shrimp 
trawl damage to essential fish habitat. We have totally lost in 
this concept the loss of 9,800 square kilometers of trawlable 
bottom, and the fact that shrimp trawlers do not trawl beyond 
the 40 fathom contour voids the myth of such clear cutting of 
the Gulf floor.
    Thank you for allowing me to testify. I would be happy to 
answer any questions.
    [The prepared statement of Ms. Anderson follows:]

       Prepared Statement of Wilma Anderson, Executive Director, 
                        Texas Shrimp Association
Madam Chairman and Members of the Committee:

    My name is Wilma Anderson and I am the Executive Director of the 
Texas Shrimp Association (``TSA''). The membership of TSA is comprised 
of owners of approximately 963 offshore shrimp trawling vessels which 
operate throughout the Gulf of Mexico, and 38 associate member 
shoreside facilities, i.e., unloading plants, fuel and ice docks, 
processing plants, suppliers, repair and maintenance services, 
shipyard, propulsion equipment sales and service, lenders, grocery 
chains, etc. Consequently, the shrimp vessels and shoreside facilities 
in the Gulf of Mexico qualifies as small businesses subject to the 
protection afforded such businesses under the Regulatory Flexibility 
Act (``RFA''), as amended in 1996 by the Small Business Regulatory 
Enforcement and Fairness Act.
    The most recent report available about the fishery is a 1989 report 
by Kearney/Centaur, under contract with the National Fisheries 
Education and Research Foundation, a report estimating that the Gulf 
shrimp industry generated direct annual impacts amounting to $2.95 
billion in sales, resulting in $1.41 billion in income and supported 
162,520 jobs. When both direct and indirect effects are taken into 
account, economic activities were estimated to be $5.21 billion in 
sales, $2.05 billion in income, and 189,653 jobs. The industry is 
especially important to small coastal communities as a source of 
employment, a generator of dependent support and supply business 
activity, and as a major contributor to the economic base of fishing 
port municipalities.
    I wish to thank the Subcommittee for the opportunity to testify 
today on the implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act. Perhaps no other segment of the 
American commercial fishing industry has felt the changes brought about 
by the 1996 Amendments to that Act as the Gulf of Mexico shrimp fleet. 
Based on our experience, we believe that we are in a unique position to 
offer meaningful criticism of just how well the marine fishery 
management process is working or is not working.
    In summary, we have completely lost confidence in the ability of 
the federal fishery management process to operate fairly and in a 
manner consistent with sound science and accurate information. Based on 
our experience in the debate over whether bycatch reduction devices 
(``BRDs'') are ``practicable'' for the protection of juvenile red 
snapper, TSA has found that the Gulf of Mexico Fishery Management 
Council (``GMFMC'') and the National Marine Fisheries Service 
(``NMFS'') (1) are unwilling to listen to any honest argument as to the 
need for BRDs, (2) are not committed to using the best scientific 
information available if it interferes with a pre-ordained conclusion, 
(3) apply a double-standard to the management of fisheries in the Gulf 
of Mexico, and (4) have adopted overfishing goals that seek to increase 
fish stocks to levels never known in history, ignoring the 
environmental changes in the Gulf of Mexico ecosystem. Moreover, the 
Department of Commerce has allowed the fishery management process to be 
skewed such that the eastern Gulf now controls fishery management 
decisions in the Exclusive Economic Zone (``EEZ'') to the disadvantage 
of other states, in particular the State of Texas. The decisions by the 
Gulf Council and NMFS have injured not only the shrimp fleet but also 
the recreational for-hire sector of the Texas recreational fleet.

Shrimp and Shrimp Fishing in the Gulf of Mexico

    Before discussing the facts behind these experiences, let me first 
describe the current condition of the shrimp fisheries in the Gulf of 
Mexico. Shrimp are an annual crop, dependent on the environmental 
conditions in the bays and estuaries of the Gulf for their sustained 
growth. TSA has long been an advocate for protecting the essential fish 
habitat of shrimp in Texas. Each year, as the shrimp grow in size, they 
move out from the internal waters to the Gulf of Mexico. To prevent 
growth overfishing, waters in Texas and the EEZ (beach out to 200 
miles) are closed to shrimping from May 15th--July 15th. This allows 
the shrimp to grow to a greater size and are thus more valuable when 
harvested. The shrimp are then harvested as long they can be caught. 
Unlike other fisheries, shrimp have no great threat of recruitment 
overfishing i.e., the overharvest of reproductive capacity. 
Reproduction is dependent on environmental conditions in estuarine 
waters. Pollution and loss of nursery ground due to development is the 
greatest threat to shrimp reproduction.
    Generally, as a result of current management practices, the stocks 
of shrimp are in relatively good health. And we also note that the 
condition of the marine environment in general, including birds, marine 
mammals, sharks, and other wildlife, appears to be quite sound at 
present, although we have lost considerable estaurine habitat due to 
developments, pollution and subsidence. Further, we have lost offshore 
habitat due to the very large dead zone (1800 sq kilometers) at the 
mouth of the Mississippi River.
    The 3800 some-odd oil platforms, other bottom obstructions, natural 
and artificial reefs, sanctuaries and closed areas in the Gulf have 
rendered large areas (over 8,000 sq kilometers) of the Gulf bottom 
untrawlable. Despite the loss of trawlable bottom and its adverse 
effects on our industry, per se, we believe that these habitats are 
critical to maintaining healthy reef fish stocks. We further believe 
that these habitats have also been responsible for attracting and 
giving protection from the various trawl fisheries to a large fraction 
of the juvenile red snapper and other valuable species. TSA has 
advocated enhancement of these lost trawlable areas so that a larger 
fraction of the valuable species are afforded habitat and refuge, as a 
more practical alternative to BRDs. TSA also feels that the loss of 
trawlable areas is a significant mitigation measure by the shrimp 
fishery--a measure which the Gulf Council and NMFS have refused to 
recognize as a contribution to bycatch reduction.
    It is now apparent that in the Gulf of Mexico, the Kemp's ridley 
sea turtle population, now listed as endangered, is on the road to 
recovery following a turnaround in 1985. The improvement of this sea 
turtle's status is a clear indication that progress has been made 
through substantial funding for the protection of the primary nesting 
beach at Rancho Nuevo, Mexico.
    But in contrast, the Gulf of Mexico shrimp fishing industry, still 
one of the largest in the nation, has fallen on hard times. Competition 
from imports, cost increases, and pervasive government regulations have 
reduced the size and composition of the shrimp industry over the last 
ten years. We estimate that the offshore shrimp fishing effort today 
has been substantially reduced as compared to what it was in the 1980s. 
Furthermore, the cumulative regulatory effects have reduced the profit 
margin of the typical shrimp vessel to about 3-5 percent of its gross 
income. These numbers are based on a study of our industry being 
conducted by researchers at Texas A&M, using actual accounting data 
from our vessel owners. A few years ago during the debate over BRDs, 
researchers for the Gulf Council stated that the profit margin of 
shrimp vessels was 51 percent and therefore the industry could absorb 
the 7-10 percent shrimp loss caused by BRDs without difficulty. When we 
filed data seeking to correct this erroneous conclusion during the 
rulemaking process, NMFS refused to consider it because it was not 
presented to the Council first. It seems the agency just doesn't care.
    In short, the membership of TSA feels it is under siege, a 
particular target of today's notion of political correctness, the 
desire of environmental and recreational interests to exclude 
commercial fishers from the nation's marine resources, and an 
indifferent NMFS which lacks the courage to insist upon good science 
and accurate information if it creates political problems. We 
constantly ask ourselves if this nation truly wants diversity in its 
economic activities or encourages many ways of life. We now see 
ourselves as a minority, subject to the increasing tyranny of the 
majority. Is the Magnuson-Stevens Act the vehicle for our industry's 
destruction? Is this what Congress intended in the Sustainable 
Fisheries Act?

Hard Science or Political Science?

    Congress mandated that bycatch in marine fisheries be minimized 
``to the extent practicable.'' The first major fishery to test this 
issue is the red snapper fishery. Shrimp vessels inadvertently catch 
juvenile red snapper. To reduce this bycatch, the Gulf Council and NMFS 
determined that BRDs would be ``practicable'' if the devices could 
reduce age 0 and age 1 juvenile red snapper mortality by 44 percent 
when compared to the mortality during 1984-1989. At the time the Gulf 
Council and NMFS began considering BRDs in the early 1990's, it was 
said that the red snapper population was severely overfished. The 
shrimp fishery became suspicious of the data that was beginning to 
appear on shrimp fishing effort and shrimp trawl bycatch. At a 
substantial cost that was funded by the shrimp fishery, consultants 
were hired to review NMFS' data base.
    During the debate over the status of the red snapper stocks, the 
actual impact of shrimp trawl bycatch, and the practicability of BRDs, 
we submitted scientific arguments based on the scientific work of Dr. 
Benny Gallaway of LGL Ecological Associates, Inc. All of Dr. Gallaway's 
presentations were then submitted to referreed scientific journals, 
were peer-reviewed and then published. Many of his analyses found 
significant flaws in the manner in which NMFS estimated the impact and 
size of shrimp trawl bycatch (it was overestimated), in the calculation 
of the effectiveness of BRDs (NMFS has exaggerated their 
effectiveness), and the red snapper stock calculations (NMFS' 
biological estimate of the resiliency of the fishery was wrong). 
Moreover, Dr. Gallaway pointed out that the overfishing objectives for 
the red snapper management plan, expressed either as Optimum Yield 
(``OY'') or Maximum Sustainable Yield (``MSY''), requires that the 
stocks grow from the current level of about 30 million pounds to 
between 3 and 4 billion pounds. Under NMFS' biological assessment, such 
growth is required before the red snapper stock will no longer be 
considered overfished.
    The Subcommittee should note that there is no biological evidence 
that the red snapper population in the Gulf of Mexico was ever this 
large. We doubt that any credible scientist would be willing to stake 
his or her reputation that it could grow to this size or that the 
ecology of the Gulf of Mexico could sustain such a stock biomass. 
Nonetheless, this stock objective, expressed as 20 to 26 percent 
spawning potential ration (``SPR''), is the legal mandate for this 
fishery.
    Despite our best efforts to contribute to this debate by improving 
the scientific basis for decision, the Gulf Council and NMFS have 
totally ignored Dr. Gallaway's peer-reviewed science. As of this date, 
NMFS has refused to recalibrate its computer program, which is the 
guiding force in the management of this fishery, to reflect Dr. 
Gallaway's corrections. We stand on the sideline, dumbfounded at the 
agency's stubborn behavior. NMFS employees have ``circled the wagons'' 
to protect a pre-ordained decision, and a promise to develop useful 
BRDs (with $14 million in expenditures) so that more fish could be made 
available for the directed fisheries.
    Ironically, during the time during which BRDs were being examined 
in laboratory conditions, NMFS decided that the red snapper population 
was indeed growing, even without bycatch reduction. The agency then 
increased the total allowable catch of red snapper from 4 to 9.12 
million pounds. The Gulf Council, dominated by recreational fishing 
interests, was jubilant. Then, in 1998, after mandating BRDs, NMFS 
conducted a study that demonstrated that BRDs are not as effective as 
predicted. In fact, the mortality reduction attributable to the shrimp 
fleet, which will suffer at least $100 million in cost to use BRDs, was 
only about 25-28 percent, a number that coincided almost exactly with 
Dr. Gallaway's prediction.
    Where are we today? Today shrimp vessels must use BRDs, which are 
difficult to operate, cause considerable loss of shrimp ranging from 9 
to 24 percent and increased fishing gear cost. NMFS has concluded that 
BRDs do not currently meet the required mortality reduction of 44 
percent, and therefore, given this history, one would expect NMFS to be 
willing to abandon the BRD policy, and look for more realistic bycatch-
reduction approaches. Not so. Their most recent recommendations to the 
Council included extending the BRD mandate to cover federal waters east 
of Cape San Blas, Florida. They also recommended that other actions be 
aggressively taken. These included things like imposing bycatch quotas 
and closing areas and seasons in addition to BRDs. The need to 
recommend these additional actions speaks to the ineffectiveness of 
BRDs and the fact that BRDs are a failed policy. Furthermore, it 
appears to be the general conclusion of the agency that BRDs, given the 
costs and expected benefits to the directed fisheries, do not create a 
net economic benefit to the Nation, but an economic loss. So much for 
the practicability of BRDs.

The Management Double Standard

    A close investigation of the condition of the red snapper 
population will show that recreational fishing on the resource has been 
burgeoning in the eastern Gulf of Mexico. While the shrimp fleet has 
been declining and the commercial red snapper fleet held in check, 
recreational charter for-hire and private recreational fishing has 
expanded considerably. Between 1981 and 1998 just the charter boat 
sector that fishes in Federal waters has expanded from 516 to 1286 
vessels. The number of charter boats only fishing state waters is 
unknown, but are no doubt growing in number as well.
    The red snapper is a prize catch for recreational interests. Sadly, 
however, the resource concern that has led to BRDs and tight controls 
over the commercial fleet has not applied to recreational fishing. 
During the last ten years, the actual harvest of red snapper by the 
recreational fleet has regularly exceeded the quota for the fleet, 
sometimes by double. Congress finally mandated that recreational 
fishing on red snapper cease when the quota is reached. However, in 
1997, the quota was exceeded by at least 17 percent according to NMFS 
calculations.
    The Gulf Council and NMFS do not plan to reduce directed fishing on 
the red snapper, despite the heavily overfished status and the fact 
that BRDs which they said would assist in the recovery stage do not 
work. The Gulf Council and NMFS also did not subtract the 1997 quota 
overrun from the 1998 TAC nor did they subtract the 1998 overrun from 
the 1999 TAC. The Gulf Council has recommended and it appears NMFS will 
support the Council recommendation for a 9.12 million pound TAC and 
that the TAC be set for a two year time frame (Year 2000-2001) rather 
then reviewed on an annual basis. The stock assessment panel of 
scientists that serve the Gulf Council recently advised that the annual 
quota should be set at no more than 6 million pounds and, under one 
scenario, at zero quota for the next thirty years, in order to allow 
the stock to achieve the specified MSY/OY. Despite telling a federal 
judge that the total allowable catch of red snapper could be safely set 
at 9.12 million pounds because BRDs would reduce juvenile mortality by 
60 percent, NMFS has indicated support for continuing the annual catch 
level at 9.12 million pounds, despite the recommendations of the 
scientific panel. And the agency has now admitted that BRDs, even under 
the best of conditions (which haven't been seen yet), might only 
achieve about 40 percent reduction in mortality. Furthermore, NMFS has 
yet to approve the new, likely more stringent definition of MSY/OY for 
this fishery required by the Sustainable Fisheries Act.
    What is wrong here? What is wrong that the Gulf Council and NMFS 
have decided that the red snapper population is so depleted that 
ineffective BRDs, that cost over $100 million, must be mandated for the 
shrimp fleet, but that the directed fishing should not be curtailed. 
The mandate for BRDs has made TSA a strong advocate for bringing the 
red snapper population to the point that it is no longer overfished, 
and we demand that the responsible party for the overfished state, the 
directed red snapper fishery must be curtailed and equally share in the 
recovery program. If the fishery is in bad enough shape that BRDs are 
necessary, then the excessive directed harvests must be stopped. That 
is simple conservation logic. But it is logic that the Gulf Council and 
NMFS, who seem to have a different political agenda, have refused to 
embrace by reducing the annual quota. Needless to say, we are outraged 
by this double standard and see no authority in the Magnuson-Stevens 
Act for such inequitable treatment.
    I am sure that the Subcommittee will hear more about this sad state 
of events when NMFS announces its determination with respect to the 
annual quota for 2000. If it is not reduced from 9.12 million pounds to 
6 million pounds, we plan to file suit challenging this conservation 
failure. We are totally bewildered that the environmental groups that 
advocate conservation are mute when it comes to the annual quota, but 
are strong advocates for BRDs.

Mandatory Observers: More Police Action

    For many years, TSA has helped organize voluntary data collection 
programs for acquiring data on the shrimp fisheries and on the 
perceived bycatch problem. Now, however, the Gulf Council and NMFS have 
been discussing mandatory observers, logbooks for more data collection, 
vessel permits, operator permits and a Vessel Monitoring System (VMS) 
to enable tougher enforcement actions against the shrimp fleet. Here 
again, no comparable action is being considered for the recreational 
fishing fleet.
    We believe that the system works best when we can play a role in 
data collection. Because we can share in the method and results, we 
feel confident that the agency will not use the data in order to 
support its own political objectives. However, observers create very 
difficult liability problems for our small vessels; a lawsuit by a NMFS 
observer is now pending against one of our vessels that seeks a 
$950,000 settlement.
    Although we are probably the most heavily regulated fisheries in 
the world, our government has told us that more regulations are coming. 
We are going to be not much different than the peaceful demonstrators 
at the WTO meeting in Seattle when the riot police went to work in the 
streets. We do not see a comparable effort on the fast-expanding 
recreational fleet. Their bycatch, and it is significant because over 
50 percent of the red snapper that must be discarded by the 
recreational fleet because of size limits, dies after release. This 
bycatch is not included in the quota. While NMFS and the Coast Guard 
are putting the shrimp fleet under a regulatory microscope, other 
sectors of the fishery are left alone. Did Congress intend that fishery 
management was to be conducted this way?

Essential Fish Habitat

    Because shrimp are highly dependent on the quality of our coastal 
environment, we supported changes to the Magnuson-Stevens Act that 
would improve the protection of essential fish habitat. Unfortunately, 
the essential fish habitat program has spun out of control. In the 
first instance, everything has been defined as Essential Fish Habitat. 
Second, very little credible data is available to understand the impact 
of fishing activities on Essential Fish Habitat, or other activities. 
Nonetheless, environmental activists have sued NMFS seeking to impose 
new fishing restrictions that they claim are necessary to protect 
Essential Fish Habitat. These groups are using what can only be 
described as ``activist'' or junk science--science that has not been 
peer-reviewed, and is primarily prepared to obtain contributions by 
claiming the most outlandish problems. We do not believe that Congress 
intended this kind of program when it embraced the Essential Fish 
Habitat provisions in the Sustainable Fisheries Act.
    To give you some idea about what is happening on this subject, the 
Earth Justice Legal Defense Fund, on behalf of several environmental 
groups, sued NMFS claiming that nearly every Council's actions on 
Essential Fish Habitat has been deficient in their view. These groups 
then proposed a settlement of the case on the basis that NMFS would 
agree to new regulatory actions that address certain pet complaints of 
the groups. In effect, NMFS and the Justice Department have been asked 
to agree to a bypassing of the normal rulemaking process to give a 
small minority control of Essential Fish Habitat policy. We are 
participating in that suit and have advised the Justice Department that 
any such settlement is deeply offensive and denies to those who would 
be regulated the fundamental benefits of due process. We hope that this 
Subcommittee will not allow regulations to be implemented by judicial 
settlements agreed to only by the Justice Department and NMFS.

Magnuson-Stevens Act: Incidental Harvest Research

    NMFS, in its 1995 Gulf Bycatch Report to Congress, shows the same 
species that dominated the bycatch in the shrimp fishery in the 1970s 
still dominate the catch following two decades of fishing. The Atlantic 
croaker dominates the bycatch in the nearshore white shrimp grounds, 
while the longspine porgy dominates offshore.
    Over 99 percent of this shrimp trawl bycatch consists of organisms 
which, like the target shrimp, have a 1 or 2 year life cycle and are 
characterized by high rates of reproduction and annual mortality rates 
of 90 percent or more. These are the same life history attributes that 
enable the target shrimps to withstand high levels of take without loss 
of overall productivity.
    Red snapper represents only .005 percent of the shrimp trawl 
bycatch. It is not but a hairline crack on the graph. It becomes 
impressive in numbers only when the low catch rates of red snapper are 
multiplied by NMFS' over estimate of 6 million hours of shrimp fishing 
effort. Not only are the effort estimates flawed but a majority of 
total fishing effort occurs in habitat where red snapper do not occur.
    The imposed gear technology is a failure. BRD reduction in fish and 
shrimp catch generally occurs within minutes of when the shrimp and 
bycatch would otherwise be deposited on the deck. A majority of the 
catch loss occurs at the end of the tow when the vessel slows to haul 
in the net, and again at the surface when the codend is lifted. Thus, 
red snapper and most other organisms are expelled from the net at the 
end of the tow and at the surface. At this time, the expelled red 
snapper and other organisms show signs of stress and disorientation. 
The BRD functions simply as a hole in the net and an enticement for 
predators to aggregate and feed extensively on the catch as it is 
expelled. This chumming effect attracts large predators such as sharks 
that rip large holes in the net, sometimes tearing the entire codend 
from the net resulting in a complete loss of tow. Our crews are unable 
to observe when a BRD twists or flips closing off the codend resulting 
in a complete loss of tow. However, NMFS plays or ignores these 
problems.
    Thank you for the opportunity to provide our views to you. I 
apologize for the fact that we do not have a lot of good news to give 
you. Instead, I can only offer the views of a group of people who feel 
under regulatory assault, and that no one in the fishery management 
process is willing to listen to them, even when we come equipped with 
better science and information than that used by the regulators. We 
only hope that our comments will lead to meaningful changes in the way 
the Councils and NMFS operate. However, at the moment, we are very 
pessimistic.

    Senator Snowe. Thank you, Ms. Anderson.
    Mr. Fischer.

  STATEMENT OF MYRON FISCHER, OFFSHORE CHARTER CAPTAIN, PORT 
                      FOURCHON, LOUISIANA

    Mr. Fischer. Thank you, Madam Chair, Senator Breaux. I 
would like to thank you all for giving me the opportunity to 
speak on issues pertaining to the Magnuson-Stevens Act. I 
appreciate this Subcommittee coming forward to listen to the 
views of those of us who are making a living on water, to 
witness our fisheries firsthand.
    My name is Myron Fischer. I am a full-time charter captain, 
operating out of Port Fourchon, Louisiana. I have been licensed 
by the U.S. Coast Guard since 1976. I am a graduate marine 
biologist, and I presently sit on the Gulf of Mexico Fishery 
Management Council.
    I am going to address specific portions of the Act that I 
feel need attention. The first item, in Section 301, states: 
Conservation and management measures shall be based upon the 
best scientific information available--National Standard 2.
    What is the best available science? Ms. Penny Dalton spoke 
a second ago, and said, ``We do not know the status of roughly 
75 percent of the species we manage.'' If we do not even know 
if they are overfished, much less have sufficient knowledge 
needed to plug into the intricate modelling necessary to make 
educated fishery decisions, what do we do?
    If we do not have enough data to come to logical 
conclusions, and when the calculated conclusion appears 
illogical, what are fishery managers to do? The phrase echoed 
is: We have to use the best available science.
    If the best available science is so incomplete it would 
result in management decisions that would be ludicrous, then 
should the science be omitted? I request your Committee 
elaborate on the phrase ``best available science,'' and that it 
be used as a guideline in the absence of genuine data, rather 
than a rigid principle.
    Section 403, on observers: Observers are an essential part 
in the gathering of solid data. I think last night or the night 
before, I was reading a draft on HMS. It stated that--and these 
people have to turn in a logbook, and it is required to be 
submitted and filled out within so many hours of the set--that 
when observers are on board the boat, the bycatch and various 
catches is substantially different than what they turn in, in 
normal instances. So observers are necessary.
    But protocol is also necessary to guarantee that these 
observers carry themselves in proper conduct while aboard a 
vessel. Involved in the structure of the guidelines must be 
language assuring vessel owners that they bear no liability for 
injuries sustained by Federal employees. With the repressed 
profits in today's fisheries, many fishing vessels just simply 
sail without liability insurance. In the charter industry, 
insurance carriers specify a maximum amount of persons aboard a 
vessel. The addition of the observer may void your coverage.
    I recommend to this Committee, in order for fishermen to 
better receive observers, that language be installed in this 
section, either removing the liability from vessel owners, 
which we cannot do, or that NMFS provide liability coverage for 
observers.
    On bycatch: In the definition of bycatch, I think this is 
very important: We have a phrase under the definition, brief 
mention is made to the phrase ``recreational catch and release 
fishery management program.'' To avoid confusion in the 
interpretation of this phrase, the Act should spell out the 
definition of a recreational catch and release program as 
intended, and not let various managers inject their own 
ideology into what Congress intended.
    I pray that the intent of Congress was to allow 
recreational anglers to target various species and practice 
conservation by releasing that portion of their catch that they 
choose not to keep without the effects of bycatch and the 
ramifications of such dangling over them.
    Quota versus allocation: I would request the Committee use 
caution in making changes to future amendments. Changing the 
word ``allocation'' to ``quota'' has impaled serious injury to 
the charter and recreational industry. If the intent of 
Congress was to manage the recreational sector under a quota 
system, then the mechanism to install such a system must first 
be in place. The use of the outdated MRFSS data collection 
methods fall very short of the goal involved in quota 
management.
    As opposed to the commercial real count method, MRFSS data 
does not even surface until 6 months after collection. Using 
this data in real time projections is impossible. The present 
red snapper model uses a 4-year average to calculate fishery 
closure, and does not incorporate weather or other social 
changes. It is disgraceful to mandate quota closures without 
first installing accurate methods of calculating harvest.
    On precautionary approach: For a term that does not even 
reside inside the Act, but possibly created by NMFS, we find 
ourselves burdened by this phrase. Sure, we all want to be 
precautionary, but to what degree? The commercial fishermen, 
the recreational fishermen, the conservationists and fishery 
managers may all have different ideas on the correctness.
    If Congress intends for fishery managers to live by the 
phrase ``precautionary approach,'' then define it and identify 
it. Otherwise let us remove it from the decisionmaking theory. 
We all want to be precautionary, but its usage precludes the 
social and economic needs along our coast. We all want to err 
on the side of caution, but Congress did not install this 
statement. And if you feel it should be a guideline for 
managers, then define its limits and illustrate its usage. 
Otherwise instruct NMFS not to create their own phraseology.
    I have one last issue I would like to bring up. It is not a 
portion of the Act; it is a spinoff of the system. We hold 
hearings on an issue. People come forward and they testify. 
Science and socioeconomic panels insert their conclusions. 
Advisory panels add their perspective. The public makes its 
comments. Commercial and recreational recommendation, along 
with conservation groups, give their testimony.
    After considerable deliberation, the council votes. The 
measure goes forward. And even if it is very timely, like this 
last framework on red snapper, it stalls. The public complains. 
Commercial and recreational fishermen lose faith in the 
process. And no one wins.
    We have to have something a little more expedient on 
getting these measures out. A delay can just kill an issue that 
everyone works so hard on. All the sides came together, and it 
was killed by a delay in an office.
    I have a few other items I was going to mention, but my 
time is coming up. So, Senator Snowe, Senator Breaux, I thank 
you all again for giving me the opportunity to address the 
Committee. I hope any guidance you may have received from my 
testimony will direct you all into producing a better Act, 
which will allow harvest, while rebuilding the country's 
fisheries, without being detrimental to both the fish and 
fishermen.
    Thank you all.
    [The prepared statement of Mr. Fischer follows:]

    Prepared Statement of Myron Fischer, Offshore Charter Captain, 
                        Port Fourchon, Louisiana
    Madam Chair and members of the Committee, I would like to thank you 
for granting me this opportunity to speak on issues involving the 
Magnuson-Stevens Fishery Conservation and Management Act. My name is 
Myron Fischer. I am a full time charter captain operating out of Port 
Fourchon, Louisiana and have been licensed by the United States Coast 
Guard since 1976. At forty-eight years of age, I have been on water my 
entire life. I am a graduate Marine Biologist and I presently sit on 
the Gulf of Mexico Fisheries Management Council.
    I appreciate this committee coming forward to listen to the views 
of those and myself that makes a living on water and witnesses our 
fisheries firsthand. My testimony will highlight present portions of 
the Magnuson-Stevens Act that need attention from your Committee.
Sec. 301 (a) 98-623 (2) Conservation and management measures shall be 
based upon the best scientific information available. National Standard 
2.
    What is the best available science? Ms. Penny Dalton spoke to this 
Committee in July and testified that we don't know the status of 64 
percent of the species we manage. We do not even know if they are 
overfished, much less have sufficient knowledge necessary to plug into 
the intricate modeling necessary to make educated fishery decisions. 
When we don't have enough data to come to a logical conclusion, and 
when the calculated conclusion appears illogical, what are fishery 
managers to do? The phrase echoed is ``we have to use the best 
available science''. If the best available science is so incomplete 
that it would result in managing decisions that would be ludicrous, 
then should the science be omitted? I request your committee elaborate 
on the phrase ``best available science'' and that it be used as a 
guideline in the absence of genuine data rather then a rigid principle.

SEC 302 97-453, 99-659, 101-627, 102-582, 104-297 (b) VOTING MEMBERS 
(1)(B) The Regional Director of NMFS. . .shall be the voting member.
97-453, 101-627, 104-297 Emergency actions and Interim Measures.

(2) (A) the Secretary shall promulgate emergency or interim measures. . 
.by unanimous vote.

(2) (B) the secretary may promulgate emergency or interim measures. . 
.less then unanimous vote.

    As long as the Regional Director votes on issues, this portion of 
the Act is useless. The Regional Director ALWAYS votes against 
emergency or interim measures to preserve the Secretary's ability to 
not be mandated into carrying out the measure. I am sure the original 
authors did not anticipate such a ploy by ranking officials of National 
Marine Fisheries Services and the Commerce Department. The Regional 
Director takes an active role in the approval or disapproval of 
practically all items voted on by the various councils. The 
participation of these directors in the deliberation of issues and 
policy is essential. However, I feel that either the director's vote 
should be totally removed from council process or at the least, their 
vote on issues involving Emergency or Interim Measures withdrawn.

104-297 SEC. 403 Observers

    Observers are an essential part in the gathering of solid data. 
Protocol is necessary to guarantee that observers carry themselves in 
proper conduct while aboard a vessel owned by a citizen of this 
country. Involved in the structure of these guidelines must be language 
assuring vessel owners that they bear no liability for injuries 
sustained by such a federal employee. With the repressed profits in 
today's fisheries, many fishing vessels simply sail without liability 
insurance. In the charter industry, some insurance carriers specify a 
maximum amount of persons aboard a vessel. To maximize profits, 
typically every seat is sold to paying clients. The addition of an 
observer may violate insurance requirements and void insurance for the 
entire trip. Even with proper insurance, a boat owner or captain may 
spend much of his earned income litigating an injury case with someone 
he did not even want aboard his vessel. Without liability guarantees, 
vessel owners will always shun away from observers aboard their vessel. 
I recommend to this committee, in order for fishermen to better receive 
observers, that language be installed in this section removing 
liability from vessel owners and operators in regards to observers or 
that NMFS provide liability coverage observers.

SEC. 301 (a) 104-297 Conservation and management measures shall, to the 
extent practicable, (A) minimize bycatch and (B) to the extent bycatch 
cannot be avoided, minimize the mortality of such bycatch. National 
Standard 9.

SEC 304 104-297 (g) Atlantic Highly Migratory Species_(2) Certain fish 
excluded from ``Bycatch'' definition. Fish harvested in a commercial 
fishery. . . that are not regulatory discards and that are tagged and 
released alive . . .shall not be considered bycatch for the purpose of 
this act.

    Was this language instituted by the tuna lobby to insure that any 
billfish tagged and released are not counted as bycatch? When a 
recreational angler releases a billfish, it is usually done so with 
utmost care. These anglers are proud of both their catch and their 
release tactics. Stories of towing and supporting a billfish until 
sufficient oxygen is back in the fish's system are common among 
recreational circles. The survival rate of recreationally caught 
billfish is stated to be high. On the other hand, data illustrates very 
high mortality on longline caught fish due to the methods involved with 
the fishery. The catch rate realized in one set aboard one longline 
vessel could surpass the entire annual catch of the recreational 
industry. Ironic, language in the initial Billfish Amendment had these 
recreationally released fish listed as bycatch. The authors chose to 
define ``recreational catch and release program'' (104-297) in a manner 
that would count all recreationally released fish, even those tagged in 
research programs as bycatch. Fortunately, after considerable public 
input, the final language cleared up this matter. To avoid confusion in 
the interpretation of this phrase in the future, the act should spell 
out the definition of a ``recreational catch and release program'' as 
intended and not let various managers inject their own ideology into 
what Congress intended. I pray that the intent of Congress was to allow 
recreational anglers to target various species and practice 
conservation by releasing that portion of their catch that they do not 
choose to keep without the effects of bycatch and the ramifications of 
such dangling over them. Conversely, allowing billfish captured in the 
longline industry relief from inclusion in bycatch is total 
mismanagement. In addition to defining ``catch and release program'', I 
highly recommend removal of the portion of this act that permits the 
labeling of commercially caught billfish to not be considered bycatch.

Quota vs. Allocation

    I would request the committee to use caution in making changes to 
future amendments. Changing the word ``allocation'' to ``quota'' has 
impaled serious injury to the charter and recreational industry. If the 
intent of Congress was to manage the recreational sector under a quota 
system, then the mechanism to install such a system must first be in 
place. The use of the outdated MRFSS data collection methods fall very 
short of the goal involved in quota management. As opposed to the 
commercial ``real count'' method, MRFSS data doesn't even surface until 
six months after collection. Using this data in real time projections 
is impossible. The present red snapper model uses a four-year average 
to calculate the fishery closure and does not incorporate weather or 
other social changes. It is disgraceful to mandate quota closures 
without first installing accurate methods of calculating harvest.

Precautionary approach

    For a term that does not even reside in the Act, we certainly find 
ourselves burdened by this phrase. This is a phrase created by National 
Marine Fisheries Service in regards to their interpretation of National 
Standard 1. Of course managers should be precautionary, but how 
precautionary should their approach be? Precautionary enough to insure 
that a fishery will not be devastated? Precautionary as to allow 
participants to harvest fish and still have the fishery populations 
increase? Or precautionary to the point where we simply restrict all 
harvest until the population has reached some un-measurable arbitrary 
number? All these are precautionary, but at different levels. The 
commercial fishermen, recreational fishermen, conservationist, and 
fishery managers may all have different ideas of the correct approach. 
If Congress intends for fishery managers to live by the phrase 
``precautionary approach'', then identify and define it; otherwise 
let's remove it from decision-making ideals. We all want to be 
precautionary, but its usage precludes the social and economic needs 
along our coast. We all want to err on the side of caution, but 
Congress did not install this statement and if you feel it should be 
the guideline of managers, then define its limits and illustrate its 
usage.

Section 303, 104-297 Individual Fishing Quotas

    Congress choose very wisely to place a moratorium on the issuance 
of Individual Fishing Quotas. While it may be very unfair to have 
portions of the commercial sector engaged in a derby fishery, I hope 
the councils can seek other remedies other then IFQ's for this 
situation. The fishery in question on the Gulf Coast is the Red Snapper 
industry. Many state that this is one of the most mis-managed species 
under council jurisdiction. After sixteen amendments to the initial 
plan, one could speculate that analogy. To differ, the Red Snapper TAC 
has risen 400 percent, size limits have increased five times, 
commercial and recreational sectors are catching their respective 
quotas quicker, recruitment is up and the fishery is a true success 
story. The apparent problem is that those on water see this success 
quicker then the biologist and statisticians. The best available 
science is holding the reins back on fishermen by creating the 
commercial derby and recreational closures. I feel optimistic that 
science will catch up with the real world and the need for Individual 
Fishing Quotas will fade. Presently, I support the ban on IFQs as I 
feel there are many unanswered questions on this subject. As answers 
come forth, I may feel a need to change my perspective. Enforcement of 
IFQs is one hurdle we have to overcome. Another, in the light of 
possible limited entry into the charter industry, is involving IFQs 
into that sector. Unlike the commercial industry, a charter captain has 
to market himself and wait for the telephone to ring before he can make 
a trip. Open season, calm seas, and the fish biting don't guarantee 
charters. Conversely, the phone ringing during closed season doesn't 
help either. I am a charter captain. Could I expect you to delegate me 
an automatic ``piece of the pie.''
    Senator Snowe and Senator Breaux, I thank you again for giving me 
the opportunity to address this committee. I hope any guidance you may 
have received from my testimony will direct you into producing a better 
act which will allow harvest while rebuilding this country's fisheries 
without being detrimental to both the fish or fishermen.

Thank you.

    Senator Snowe. Thank you, Mr. Fischer.
    Mr. Werner.

  STATEMENT OF WAYNE WERNER, COMMERCIAL FISHERMAN, GALLIANO, 
                           LOUISIANA

    Mr. Werner. Madam Chair, Senator Breaux, I would like to 
first thank you. I am the only commercial fisherman on any of 
these panels. So I really would like to thank you for that.
    My name is Wayne Werner, from Galliano, Louisiana. I am an 
owner-operator of the fishing vessel Wayne's Pain. I would like 
to thank the U.S. Senate for the chance to speak on the 
Magnuson-Stevens Act.
    When the red snapper season opens for the new millennium, 
the historical dependents in our fishery will be entering their 
10th year of derby fishing. This means one more year of high 
mortality, dangerous fishing habits, low market prices, and 
profit margins being devoted to fuel supplies, ice plants and 
grocery outlets. These are atrocious conditions in which to 
make a living for our crews and families.
    If weather is inclement, fishermen feel forced to fish 
their way through it. Just last September, the entire snapper 
fleet went fishing with a tropical wave in the Gulf of Mexico. 
NOAA Weather Service was reporting the conditions were 
favorable for tropical development in the next 24 hours. I was 
there, trying to get my share of red snapper, telling myself, 
this is a disaster waiting to happen. Fortunately, development 
did not occur that day. Believe me, it is just a matter of 
time.
    The commercial red snapper industry needs a license 
limitation ITQ designed to protect the existing fishermen in 
our fishery. Financially depleted by regulations and derbies, 
our industry needs an ITQ system with the same eligibility 
requirements as our license limitation system today. The 
qualifiers should remain in place for the first 5 years before 
becoming an open access ITQ. This would ensure financial 
stability throughout the system before going public.
    With the average age of our captains being over 50 years, I 
cannot emphasize enough how unappealing a race for fish looks. 
The snapper industry should be allowed to develop their own ITQ 
system. ITQs are a financial decision for fishermen, and 
deserve proper input from the industry.
    The protection necessary in a red snapper ITQ system is for 
one main reason: the recreational fishery wants our snappers. 
The red snapper referendum mandates that when the recreational 
share of the quota has been filled, the fishery should be 
closed. The Gulf Council does not seem to think this is the 
proper way to run the fishery.
    This was best illustrated recently at the November Gulf of 
Mexico Fisheries Management Council meeting. The Gulf Council 
felt that instead of closing the recreational sector, they 
could take 33 percent of the commercial allocation, giving the 
recreational fishery 75 percent of the total allowable catch. 
Studies have been put into motion to reallocate our red 
snappers.
    A question each Senator should ask is: Should less than 1 
percent of the population of the United States have access to 
75 percent of the American-caught red snappers? This is a 
fairness issue for the American consumer.
    Two years ago, the Gulf Council voted to reallocate 3 
percent of the commercial king mackerel quota to the 
recreational sector. This issue should be addressed by the 
Magnuson-Stevens Act. Another issue being addressed in 
Magnuson-Stevens is tracking the recreational catch. The 
commercial sector feels that mandatory reporting for charter 
boat landings is necessary in the for-hire section. A snapper 
stamp should be used to better track the purely recreational 
catch rate. The National Marine Fisheries Service needs to do a 
better job in this area.
    Spawning potential ratio levels are being set to establish 
maximum sustainable yield. How are fishermen supposed to have 
confidence in a system where high SPR levels result in low 
catch per unit efforts, inability to fill quotas, and only 
small fish available to win fishing tournaments? In contrast, 
you have fisheries with low SPRs, where CPUEs are considered at 
maximum levels. Quotas are filled rapidly, and tournaments are 
won by large fish.
    In the red snapper model, when a red snapper is two years 
old, it has the same chance of survival as a 10-year-old. In a 
computer model, this is assumed, whereas in real world 
experience, impossible. Natural mortality rates in a zero to 
two-year old fish is 47 percent, the lowest in the United 
States fisheries. I question bycatch rates also. Shrimpers only 
cover 15 percent of the bottom, yet kill 88 percent of all 
juvenile snappers, according to the National Marine Fisheries 
Service.
    With no tracking system in place, many fish sales were on a 
cash basis. The National Marine Fisheries Service had no idea 
how many fish were actually being harvested. When permits 
became required, many fishermen could not qualify due to tax 
and recordkeeping problems. This incomplete and inaccurate data 
is the basis for SPR.
    Even with all the problems in the data, I would not support 
a quota increase under derby conditions, including a 15-inch 
size limit. Due to the recruitment in the red snapper fishery, 
the commercial sector likely harvests the 4.65 million pounds 
allotted, and discards another 2.5 million pounds of 13- to 15-
inch snappers. Fish do not discriminate against user groups. 
The Gulf Council is raising the recreational size limit to 16 
inches to help extend the season. With such a large increase in 
recruitment, the release mortality in the recreational sector 
will rise dramatically.
    In summary, I would like to see the following addressed in 
the Magnuson-Stevens Act:
    One, a license limitation ITQ, with input from commercial 
fishermen. Two, the makeup of the Gulf Council includes no 
commercial fishermen representation at this time. Three, to 
better track the recreational catch in the reef-fish fishery. 
Four, reallocation and discrimination in the council system. 
This includes discrimination against the 200 million people, 
consumers, that do not and cannot fish, represented by 
commercial fishermen. Five, SPR and MSY, the National Marine 
Fisheries Service expects the population of red snapper to be 
five billion, and I would like to say that Mike Seripa, who 
does the computer model, had told me five billion recently.
    Is there enough ecology to support MSY? I hope Congress 
will look into some of these problems and take the appropriate 
actions.
    [The prepared statement of Mr. Werner follows:]

       Prepared Statement of Wayne Werner, Commercial Fisherman, 
                          Galliano, Louisiana

    My name is Wayne Werner of Galliano, Lousiana. I am the owner/
operator of the fishing vessel ``Wayne's Pain''. I would like to thank 
the U.S. Senate for the chance to speak on the Magnuson-Stevens Act.
    When the Red Snapper season opens for the new millennium, the 
historical dependents in our fishery will be entering their tenth year 
of ``derby'' fishing. This means one more year of high fishing 
mortality, dangerous fishing habits, low market prices, and profit 
margins being diverted to fuel suppliers, ice plants, and grocery 
outlets. These are atrocious conditions in which to make a living for 
our crews and families.
    If the weather is inclement, fishermen feel forced to fish their 
way through it. Just last September, the entire snapper fleet went 
fishing with a tropical wave in the Gulf of Mexico. NOAA Weather 
Service was reporting that conditions were favorable for tropical 
development in the next 24 hours. I was there, trying to get my share 
of the Red Snapper quota, telling myself that this is a disaster 
waiting to happen. Fortunately, development did not occur that day; 
believe me, its just a matter of time.
    The commercial Red Snapper industry needs a License Limitation ITQ 
system designed to protect the existing fishermen in our fishery. 
Financially depleted by regulations and derbies, our industry needs an 
ITQ system with the same eligibility requirements as our license 
limitation system today. The qualifiers should remain in place for the 
first five years, before becoming an open access ITQ; this would ensure 
financial stability throughout the system before going public. With the 
average age of our captains being over 50 years, I cannot emphasize 
enough how unappealing a race for fish looks. The snapper industry 
should be allowed to develop their own ITQ system. ITQs are a financial 
decision for fishermen, and deserve proper input from our industry.
    The protection necessary in a Red Snapper ITQ system is for one 
main reason: the recreational fishery wants our snapper. The Red 
Snapper Referendum mandates that when the recreational share of the 
quota has been filled, that fishery should be closed. The Gulf Council 
does not seem to think that this is the proper way to run the fishery.
    This was best illustrated recently at the November Gulf of Mexico 
Fisheries Management Council meeting. The Gulf Council felt that 
instead of closing the recreational sector, they could take 33 percent 
of the commercial allocation, giving the recreational fishery 75 
percent of the Total Allowable Catch. Studies have been put into motion 
to reallocate Red Snapper.
    A question each Senator should ask themselves is: Should less than 
1 percent of the population of the United States have access to 75 
percent of American-caught Red Snapper? This is a fairness issue for 
the American consumer.
    Two years ago, the Gulf Council voted to reallocate 3 percent of 
the commercial King Mackerel quota to the recreational sector. This 
issue should be addressed by the Magnuson-Stevens Act. Another issue 
that should be addressed in Magnuson-Stevens is mandatory reporting for 
charter boats landings that is necessary in the for-hire section. A 
Snapper Stamp should be used to better track the purely recreational 
catch rate. National Marine Fisheries Service needs to do a better job 
in this area.
    Spawning Potential Ratio levels are being set to establish Maximum 
Sustainable Yield. How are fishermen supposed to have confidence in a 
system where high SPR levels result in low Catch Per Unit Effort, 
inability to fill quotas, and only small fish available to win fishing 
tournaments? In contrast, you have fisheries with low SPRs, where CPUEs 
are considered at maximum levels. Quotas are filled rapidly, and 
tournaments are won by large fish.
    In the Red Snapper model, when a snapper is 2 years old, he has the 
same chance of survival as a fish that is 10 years old. In the computer 
model, this is assumed, whereas in real world experience, impossible. 
Natural mortality rates in 0 to 2 year old fish is 47 percent, the 
lowest in the United States fisheries. I question bycatch rates also. 
Shrimpers only cover 15 percent of the bottom, yet kill 88 percent of 
all juvenile snapper, according to NMFS.
    Overwhelming public testimony about science on Red Snapper has been 
negative. The most common complaint heard is ``something is wrong'' and 
``garbage in, garbage out''. The science just doesn't correspond to the 
amount of snapper available.
    Time does not allow for me to continue to address this issue with 
you today. Please take the time to look over the attached comments 
which further discuss the subject of Red Snapper and the way it is 
regulated.
    I would like to thank the U.S. Senators here today for holding 
these hearings on the Gulf Coast in order to address the problems and 
issues that affect so many people's lives.
                                 ______
                                 
    The following is additional information on the subjects that I will 
be discussing at the Senate-Committee hearings on Magnuson-Stevens. 
Most of this information is based on my involvement on Advisory Panels 
and attendance at 37 Gulf Council meetings, as well as personal 
experience in the Red Snapper fishery.

    Four years ago I testified before this committee against the ITQ 
system as proposed by the Gulf Council.
    The commercial industry felt this system was designed as a Buy-out 
project. The Gulf Council developed this ITQ without accepting any 
input from commercial fishermen. Overwhelming public testimony against 
this ITQ meant nothing to the Gulf Council, as nothing has changed in 
the four years since Amendment 8, I would still stand against that 
particular ITQ system.
    Remaining in the Red Snapper ``derby'' is a situation that 
historical dependents in the fishery have a hard time dealing with. One 
of the problems created by derbies is discard mortality. For instance, 
I may need a couple of hundred pounds of snapper to finish my trip 
limit. Do I ride an hour or two farther from the dock...or do I kill 
200 to 300 pounds of undersized snapper and stay competitive with the 
fleet? I am certainly not the only fisherman that faces this dilemma.
    Profit margins are another major concern. Derbies have reduced my 
prices for snapper by an average of 85 cent per pound. Compounded with 
a 2000 lb. trip limit, some trips involve running for 8-10 hours. Your 
trip limit is caught in 45 minutes to an hour, and you drive back 
another 8-10 hours. This creates much more wear and tear than normal 
operation, and consumes more fuel as well. Back at the dock, one hour 
to unload and head back offshore. Which, in turn, creates another 
problem: Sleep Deprivation. Crewmen have fallen overboard, asleep at 
the rail. I have had crewmen break down--they just couldn't go on--worn 
out. These are just a few examples of the conditions that I refer to as 
``atrocious'' in my oral testimony.
    It doesn't surprise me that the commercial fishermen do not get a 
fair shake from the Gulf Council. The make-up of this Council, in the 
12 years that I have attended their meetings, has been a majority of 
recreational representation. The so-called ``commercial'' 
representatives on this Council have been fish dealers, importers and 
one of two state representatives. There has never been a hook-and-line 
commercial fisherman on this Council. Every Red Snapper fisherman I 
speak to is of the same opinion; we have no representation on this 
Council.
    In order to get a proper ITQ system in place, it would take 
Congressional assistance in forcing the Gulf Council to allow fishermen 
to develop this system.
    In September, the Gulf Council requested that Congress lift the Red 
Snapper Referendum. This shows just how much they care about the 
commercial fisherman's opinion.
    The commercial red snapper fishermen deserve an ITQ that is 
representative of our fishery, including the 51 percent-49 percent 
split, allocated by the Gulf Council ten years ago.
    When the Red Snapper Referendum mandated a recreational closure, 
the Gulf Council found it necessary to raise the quota from 6 million 
to 9 million pounds. In contrast, during the years prior to 1996, the 
commercial fishing seasons were getting shorter and shorter, but this 
did not seem to be a problem worthy of being addressed by the Gulf 
Council.
    Being managed by a lower standard sometimes makes you feel like a 
second-class citizen in the eyes of the Council system. Now, with MSY 
restraints, the Gulf Council is left with only one option in order to 
keep the recreational sector open with a 4 fish bag limit: 
Reallocation, or as commercial fishermen refer to it, Steal the fish. 
This is purely an economic decision, and is in direct violation of the 
5th National Standard.
    Conservation is necessary to all fisheries. Fishermen cannot make a 
living without fish. Prior to mandatory logbook reporting, the catch 
histories are questionable to say the least. The best example of just 
how questionable NMFS' catch history records are, look at the June 1999 
Red Grouper Stock Assessment. On page 18, it shows the 1950-1976 
Estimated Cuban Landings from the Florida West Coast. I would like to 
quote from page 20: ``None of the Cuban fleet's catch of grouper were 
exported, but rather remained in that country for domestic 
consumption''. Considering the United States' relationship with the 
Cuban government during those years, this data is preposterous.
    While framing Amendment 1 to the Reef Fish Management Plan, the 
Gulf Council wanted to prohibit the use of longlines inshore of 50 
fathoms in the western zone of the Gulf of Mexico. At the request of 
Red Snapper fishermen, this restriction later included buoy fishing. 
NMFS was unaware that this fishing method even existed.
    To track some of the historical reef fish catch, NMFS used a TIP 
(trip interview program) reporting system between 1982 and 1991. I was 
surveyed only one time during this time period.
    In the mid to late 1980's two factors influenced the catch history 
in the commercial fishery, but were never accounted for. The captains 
and crews on oil supply boats and oilfield crew boats sold large 
amounts of Red Snapper. At the fish house where I sold my Red Snapper, 
I observed eight to ten people (who were not commercial fishermen) per 
week selling 200-400 pounds of snapper at a time.
    With no tracking system in place, many fish sales were on a cash 
basis. NMFS had no idea how many fish were actually being harvested. 
When permits became required, many fishermen could not qualify or 
establish a catch history because of tax and record keeping problems. 
This incomplete and inaccurate data is the basis for SPR.
    Even with all the problems with the data, I would not support a 
quota increase under derby conditions, including a 15 inch size limit. 
Due to the recruitment in the Red Snapper fishery, the commercial 
section likely harvests the 4.65 million pounds allotted, and discards 
another 2.5 million pounds of 13 to 15 inch snapper. Fish do not 
discriminate against user groups. The Gulf Council is raising the 
recreational size limit to 16 inches to help extend the season. With a 
large increase in recruitment, the release mortality in the 
recreational sector will rise dramatically.
    In summary, I would like to see the following addressed in 
Magnuson-Stevens:

    1. LA license-limitation ITQ system with input from commercial 
fishermen.
    2. LThe makeup of the Gulf Council: Recreational and Commercial, 
including no commercial fishermen representation.
    3. LTo better track the recreational catch in the Reef Fish 
fishery.
    4. LReallocation and discrimination in the Council system. This 
includes discrimination against the 200 million people (consumers) that 
do not/cannot fish, represented by commercial fishermen.
    5. LSPR and MSY: NMFS expects the population of Red Snapper to be 5 
billion; is there enough ecology to support MSY?

    I hope Congress will look into some of these problems and take 
appropriate action.

Thank you.

    Senator Snowe. Thank you very much, Mr. Werner.
    Mr. Emerson.

STATEMENT OF PETER M. EMERSON, SENIOR ECONOMIST, ENVIRONMENTAL 
                          DEFENSE FUND

    Mr. Emerson. Madam Chair, Senator Breaux, my name is Pete 
Emerson. I work for the Environmental Defense Fund in Austin, 
Texas.
    The Environmental Defense Fund is a member of the Marine 
Fish Conservation Network. The Network's agenda and 
conservation goals are attached to my testimony. I appreciate 
this opportunity to offer my perspective on fishery policy 
issues in the Gulf of Mexico.
    The fisheries and marine ecosystems of the Gulf are truly 
unique and valuable public resources. Your important work in 
reauthorizing the Magnuson-Stevens Act can help people in this 
region solve resource problems that are important to all 
Americans.
    In my written testimony I ask Congress to help our managers 
by providing a full range of fishery management tools, 
encouraging the evaluation and use of marine protected areas, 
and reducing external threats to Gulf fisheries and ecosystems. 
Among all of the concerns, EDF's highest priority is the reef 
fish fishery, helping to put an end to the derby fishing, 
rebuilding stocks, resolving allocation problems between 
sectors, and reducing environmental damage.
    We believe that these negative outcomes--derbies, 
overfished stocks, conflicts among fishermen, quota overruns, 
and bycatch waste--feed on each other, and that they must be 
dealt with jointly before much progress can be made on ocean 
conservation and resource stewardship goals. We also realize 
there is a huge amount of work to be done, and there are 
probably no shortcuts.
    But Congress can help. Congress can help by removing 
prohibitions on individual fishing quotas, and giving the Gulf 
Council the flexibility to design an appropriate management 
program for the reef fish fishery. The Council might get 
started by reviving the ITQ program for red snapper that was 
shelved in 1996, and then extending it to other important reef 
fish, and to the for-hire recreational sector.
    In my view, it would be desirable to take advantage of work 
expended in developing the initial ITQ program. A lot of effort 
went into structuring a program based on information obtained 
before the commercial fishery was distorted by extreme derby 
conditions. Capitalizing on this experience might help jump 
start a new program.
    Whatever happens next, we need to help the Council gain 
broader stakeholder participation, and our Council will need 
flexibility in several areas to avoid making mistakes in 
redirecting fishing effort between species or creating new 
derbies; to concurrently manage the commercial and recreational 
sector and allow transferability of quota shares between those 
sectors; to recover the government's cost of running the 
program; to assess the socioeconomic impacts of the program; 
and, if necessary, to find ways to compensate those individuals 
who are harmed as a direct result of management reform.
    In addition, the comprehensive ITQ program should be 
scrutinized to demonstrate that it will save fish and help 
protect the marine ecosystem. Conservation benefits would be 
expected from reduced bycatch, since it will no longer be 
necessary to discard fish subject to a long closed season while 
fishing continues for other species and from the elimination of 
minimum size limits. Conservation will also gain as a result of 
better monitoring and enforcement to keep the catch within 
quota limits, less effort in the fishery, and a stronger 
``stewardship ethic'' as fishermen share in the productivity of 
future stocks.
    If we can get to ``yes'' on a carefully designed ITQ 
program in the reef fish fishery, then we have a real chance to 
step forward for conservation and long-term use of the fishery 
that will benefit all Americans. Such an outcome would be a big 
improvement over current management.
    Madam Chair, Senator Breaux, to realize this improvement, 
we need, as you know, support from Congress, as I have outlined 
in my talk here today and in my written testimony. With that 
support, I feel confident that people here in the Gulf region 
will be able to work together and to make decisions that will 
move us closer to meeting the objectives of the Act.
    Thank you for the opportunity to testify on behalf of the 
Environmental Defense Fund.
    [The prepared statement of Mr. Emerson follows:]

       Prepared Statement of Peter M. Emerson, Senior Economist, 
                       Environmental Defense Fund

    Madam Chair and members of the Subcommittee, thank you for the 
opportunity to testify today on reauthorization of the Magnuson-Stevens 
Act. My name is Pete Emerson. I work for the Environmental Defense Fund 
in Austin, Texas. We are a public interest group dedicated to 
protecting the environmental rights of all people to clean air and 
water, healthy food and flourishing ecosystems. We have more than 
300,000 members worldwide, including 38,000 members living in states 
bordering the Gulf of Mexico.
    The Environmental Defense Fund is privileged to serve on the 
Executive Committee of the Marine Fish Conservation Network. As you 
know, the Network is a coalition of more than 80 environmental groups, 
sport and commercial fishermen, and marine scientists working to 
improve our nation's fisheries laws. The Network's agenda and goals are 
attached to my testimony. I urge the members of this Subcommittee to 
consider them thoroughly.
    I will use today's opportunity to provide my perspective on key 
fishery policy issues in the Gulf of Mexico that reauthorization might 
address.

The Gulf of Mexico--A Special Place

    The fisheries and marine ecosystems of the Gulf of Mexico--or, 
``America's Sea''--are truly unique and valuable public resources. They 
are important to all Americans.
    Gulf of Mexico mangrove forests, sea grass beds, salt marshes, and 
offshore reefs are home to a diverse array of marine life. Here in the 
United States and abroad, seafood consumers enjoy the region's abundant 
harvest of shrimp, crabs, oysters, and finfish. The commercial fishery 
in the Gulf--our second largest by volume and dockside value--lands 
more than 1.5 billion pounds of product annually, worth about $700 
million. And, Gulf shrimp make up our nation's single most valuable 
stock. The commercial fishing industry employs more than 55,000 people 
as fishermen, processors, and wholesalers.
    Recreational activities are enjoyed by millions of people year-
round, and recreational demand in the region is growing. Three million 
sport fishermen catch at least 100 million fish from the Gulf each 
year, accounting for more than one-third of all marine recreational 
fishing in the U.S. Tourists from near and far spend billions of 
dollars on the Gulf coast to vacation, fish, and enjoy unique coral 
reefs, endangered sea turtles, and a wide variety of bird life.

Resource Management Problems Persist

    Amidst these positive factors there are, however, significant 
resource problems that trouble the Gulf of Mexico. These problems make 
life difficult for federal and state resource managers and stakeholders 
alike. They may be of particular interest to the Subcommittee because 
they prevent our nation from realizing the greatest long-term benefit 
from the use and preservation of the Gulf's fisheries and other natural 
resources.
    Six Gulf fish species--red snapper, vermilion snapper, Nassau 
grouper, gag grouper, jewfish, and king mackerel--are currently 
classified as ``overfished'' or ``approaching an overfished 
condition.'' Five of these are members of the region's valuable multi-
species reef fish fishery, including the very popular red snapper. 
Preventing overfishing and successfully rebuilding this fishery is a 
difficult challenge.
    Current fishery management regulations hurt fishermen and coastal 
communities economically and even increase the hazards of fishing. 
Bycatch waste is too high in some fisheries. A huge ``dead zone'' off 
the Louisiana and Texas coast threatens vast areas of essential fish 
habitat. Managers often do not have adequate fisheries and economic 
data to do their jobs, and there is a need for broader public 
participation in government planning and decision-making.
    In reauthorizing the Magnuson-Stevens Act, the Congress can help 
the Gulf of Mexico Fishery Management Council, the National Marine 
Fisheries Service, and concerned citizens solve some of these problems. 
In particular, we need statutes that provide a full range of fishery 
management tools and help responsible managers develop strategies to 
introduce new conservation measures and reduce external threats to Gulf 
fisheries and ecosystems.

Putting an End to Derby Fishing

    At a recent meeting of red snapper stakeholders, sponsored by the 
Southeast Region Administrator, commercial fishermen were nearly 
unanimous in calling for an end to destructive ``derby'' fishing; 
businessmen in the for-hire recreational sector and sportsmen deplored 
early season closings; and everyone was troubled by increased bycatch 
waste due to regulatory discards resulting from minimum size limits and 
long closed seasons. Today, the Gulf Council finds it very difficult to 
address these problems, and to allocate a limited catch among competing 
fishermen, because it is prohibited from using an important fishery 
management tool.
    To help managers better address these problems, the Congress may 
remove the prohibitions on individual fishing quotas and give the Gulf 
Council the flexibility needed to design a comprehensive individual 
transferable quota (ITQ) program for the reef fish fishery. An ITQ 
program would end the economically destructive red snapper derby, 
significantly reduce bycatch by eliminating long season closures, help 
prevent overfishing of healthy stocks, and speed rebuilding of 
overfished stocks. Carefully designed, such a program will meet the 
Network's conservation principles concerning the use of individual 
fishing quotas.
    The Council will need flexibility and time to design an ITQ program 
that might ultimately include all reef fish species and allow for 
transferability of quota shares between commercial and recreational 
sectors.
    A comprehensive ITQ program may be accompanied by fees levied on 
ITQ holders to cover the program's administrative, management and 
enforcement costs. Additional fees and Congressional appropriations may 
be required to provide funds for other needs in the fishery. Such needs 
might include retiring excess vessel capacity to ensure that it does 
not enter adjacent fisheries, and compensating individuals who are 
economically injured as a direct result of management reform. The 
Council will need to work closely with fishermen and other stakeholders 
to avoid mistakes like re-directing fishing effort and, if possible, to 
identify and find appropriate ways to compensate real economic damage.
    The ITQ program--like all other management programs--ought to be 
reviewed regularly to document its conservation benefits and economic 
performance. Furthermore, while ITQ permit-holders may take legal 
action against private parties who unlawfully damage the fishery, they 
would not be able to claim that ITQ shares are a compensable property 
right and seek payment from the government if management rules change.
    Adopting a comprehensive ITQ program and getting rid of derby 
fishing will allow fishermen to solve certain issues themselves, like 
deciding when to fish and reallocation of the catch between sectors. 
Returning control of these decisions to fishermen will lighten the 
burden on government regulators. With better working conditions, I 
believe fishermen will find it easier to work cooperatively with 
government regulators on planning and enforcement and with 
environmentalists on resource stewardship goals.

Winning Support for New Conservation Tools

    Confronted with rising demands on marine resources and the reef 
fish fishery, new conservation tools may be necessary.
    The Gulf Council is required to minimize bycatch and bycatch 
mortality, but rates of regulatory discards as a result of minimum size 
limits are high, and they are increasing. Also, mortality rates of 
discarded reef fish are high, estimated to be 20 to 33 percent or even 
higher. In recent years, in the recreational gag grouper fishery, the 
number of undersized gag killed as bycatch exceeds the number of gag 
landed by sportsmen. And, more than 50 percent of the red snapper 
caught by recreational fishermen are discarded because they are 
undersized. This problem is exacerbated because the Gulf Council has 
recently adopted high red snapper minimum size limits to lengthen the 
recreational season, causing fishermen to catch and discard many fish 
in pursuit of a four-fish bag limit. In addition, juvenile red snapper 
are killed in shrimp trawls even though shrimpers have adopted bycatch 
reduction devices throughout most of the Gulf and reduced their bycatch 
mortality.
    To help managers better address these problems, the Congress may 
strengthen national policies to put priority on implementing new 
conservation tools, such as marine reserves. A system of marine 
reserves--created to satisfy particular conservation objectives--would 
allow fishermen to avoid bycatch waste, help prevent overfishing, and 
enhance rebuilding of stocks. More money should be spent on developing 
the science needed to design effective marine reserves that boost fish 
production and achieve other conservation goals. NMFS and the Council 
should be encouraged to establish marine reserves for multi-species 
fisheries associated with reefs and rocky structures. Marine reserves 
should serve as the preferred option to manage those fisheries for 
which traditional management measures are not working. The Council will 
also need a sufficient level of funding to design, implement and 
enforce marine reserves.
    With marine reserves in-place, minimum size limits in the reef fish 
fishery may be reduced or eliminated because the natural community 
structure of the population would be maintained inside the protected 
area, ensuring an ample source of recruits. In addition, shrimp trawl 
bycatch could be reduced by setting aside areas where large numbers of 
juvenile red snapper and shrimp are found together.
    Marine reserves can also help managers solve other problems that 
are difficult to address using traditional management tools. The Gulf 
Council recently proposed using marine reserves (``closed fishing 
areas'') to prevent overfishing of gag grouper. After a year of 
deliberation, the Council concluded that marine reserves held the best 
chance of preserving the dwindling number of gag males and the 
remaining spawning aggregations. Also, marine reserves would provide 
the Gulf Council with an opportunity to be more precautionary in its 
management of fisheries. Marine reserves provide insurance against 
scientific uncertainty, management errors and extreme ecosystem 
fluctuations that could devastate troubled fishery populations.
    The Council and NMFS should have flexibility to design and 
implement marine reserves that protect the reef fish complex and its 
natural habitat. Design and implementation options should be evaluated 
to ensure they are not unnecessarily biased against commercial or 
recreational fishing, or other uses. To help marine reserves work, it 
may be necessary to establish a vessel monitoring program and introduce 
prohibitive penalties for poaching such as suspension or loss of a 
fishing permit. Marine reserves, and all new fishery management tools, 
should be reviewed regularly and monitored to document their 
performance in meeting their conservation goals.
    As new and innovative conservation tools become increasingly 
necessary to manage Gulf fisheries, the Congress may wish to urge that 
Council membership become more representative of the broad range of 
interests in the region--including fishermen, consumers, biologists, 
environmentalists and academics.

Reducing External Threats to the Gulf

    Gulf of Mexico fisheries are also being adversely affected by non-
fishing related impacts. Essential fish habitat is degraded as a result 
of excessive levels of nutrients entering the Gulf from farm and urban 
run-off into the Mississippi River. Nutrients foster algae blooms that 
result in depletion of oxygen in Gulf waters. Over the past several 
years, a ``dead zone'' measuring more than 6,000 square miles has been 
documented each summer at the mouth of the Mississippi River off the 
coasts of Louisiana and Texas. The dead zone damages benthic 
communities--an important part of the Gulf food web--and kills all 
marine life unable to leave the oxygen-depleted zone.
    To address this problem, Congress may support federal programs to 
reduce nutrient run-off upstream. One such program, the USDA's 
Conservation Reserve Enhancement Program, helps the federal government 
join forces with states to pay farmers to turn marginal farmland into 
buffers of trees and grasses to trap and filter sediment and other farm 
run-off before it pollutes nearby rivers and streams. Congress may also 
enhance the EFH consultation requirement, currently in the Act, by 
providing that federal agencies must ensure that their actions are not 
likely to adversely impact essential fish habitat.

Summary

    Reauthorizing the Magnuson-Stevens Act provides an opportunity to 
address problems in the Gulf. The Congress may act to provide a full 
range of fishery management tools and encourage government managers to 
introduce new conservation measures and reduce external threats to the 
Gulf. Well-designed programs based on this authority would help us move 
closer to achieving the objectives of the Act.

                                                 Attachment

                  The Marine Fish Conservation Network

    The Marine Fish Conservation Network (Network) is a coalition of 
national and regional environmental organizations, commercial and 
recreational fishing groups, and marine science groups dedicated to 
conserving marine fish and promoting their long-term sustainability.
    The Network's primary objective is to make conservation the number 
one priority of fisheries management. In furtherance of this objective, 
the Network has analyzed existing federal fisheries management policies 
to determine whether changes are needed to ensure that such policies 
adequately promote marine fish conservation. The Magnuson-Stevens Act 
is the principal mechanism for conserving and managing living marine 
resources off our coasts, and for the reasons discussed below, the 
Network has determined that significant changes are necessary to 
improve the law's effectiveness.
    The Network has prepared ``A National Agenda to Protect, Restore, 
and Conserve Marine Fisheries,'' which explains the problems with 
current federal policies and what changes are needed to protect, 
restore, and conserve marine fish.

                       Introduction to the Issues

    Marine fish are a precious natural resource of enormous ecological, 
economic, and social value. They are major components of ocean 
ecosystems, as well as an important source of food, employment, and 
recreation. Healthy marine fish populations contribute significantly to 
the national economy and enhance our quality of life, but only if used 
and managed wisely.
    In 1976, Congress passed the Magnuson Fishery Conservation and 
Management Act, empowering eight regional fishery management councils 
and the National Marine Fisheries Service (NMFS) to serve as stewards 
of our living marine resources. Nearly a quarter century later, many of 
this country's fisheries are depleted or in decline. In response to 
rampant overfishing, bycatch (the incidental capture of non-target fish 
and other marine animals), loss of habitat, and other threats to our 
fisheries, Congress passed the Sustainable Fisheries Act (SFA) in 1996. 
This landmark legislation amended the newly renamed Magnuson-Stevens 
Act with strict new mandates to stop overfishing, rebuild all 
overfished stocks, minimize bycatch, and protect essential fish 
habitat.
    Even with the SFA in place, overfishing continues because of, among 
other reasons, prolonged rebuilding periods for overfished populations. 
Uniformly, fishery managers have failed to effectively reduce bycatch, 
or to reduce the harmful effects of fishing on marine habitats. NMFS 
reports that approximately one out of three U.S. fisheries, where the 
status is known, are overfished, many of these severely. The status of 
approximately two-thirds of the remaining managed marine fish is 
unknown. These dismal statistics highlight the critical need in fishery 
management to get serious about rebuilding the nation's fisheries to 
sustainable levels. These problems should be considered in the upcoming 
reauthorization of the Magnuson-Stevens Act. Amendments are necessary 
to make conservation the number one priority of fisheries management.

                  Essential for Sustainable Fisheries

    The Marine Fish Conservation Network believes, for the reasons 
discussed below, that substantial changes in the Magnuson-Stevens Act 
are essential to protect, restore, and conserve the nation's marine 
fish.

The goals of the Network are to:

        <bullet>  Conserve Marine Ecosystems
        <bullet>  Eliminate Overfishing of All Species
        <bullet>  Avoid Bycatch
        <bullet>  Protect Essential Fish Habitat
        <bullet>  Ensure Adequate Observer Coverage and Data Collection 
        in All Fisheries
        <bullet>  Ensure Broad Public Representation on Regional 
        Fishery Management Councils
        <bullet>  Improve U.S. Management of Highly Migratory Species
        <bullet>  Ensure New Conservation Principles for Implementing 
        Individual Fishing Quotas are Adopted Before Lifting the 
        Moratorium
                             Network Goals

                       CONSERVE MARINE ECOSYSTEMS

    Fishery managers and scientists recognize the need to expand 
traditional single-species fishery management planning to include 
ecosystem considerations. This includes, but is not limited to, 
interactions between key predator and prey species within an ecosystem, 
as well as the habitat needs of living marine resources and other 
limiting factors in the environment.
    Commonly referred to as ecosystem-based management, this concept 
supports the precautionary approach to fishery conservation, especially 
when the ecosystem effects of fishing are uncertain. The precautionary 
approach requires managers to act to avoid likely harm before causes 
and effects are clearly established. We strongly believe that the key 
to an effective ecosystem approach is to manage fish more 
conservatively.
    It is widely believed that some fishery declines and difficulties 
in restoring overfished populations are due, at least in part, to 
fishing caused disruptions of ecosystems. Under existing law, fishery 
managers do have limited authority to consider ecosystem interactions, 
including predator-prey relationships, in management plans. The 
principal reason ecosystem relationships are not being adequately 
considered is a lack of guidance regarding the information that is 
needed, clear direction regarding the principles and policies that 
should be applied, and most importantly, how such principles and 
policies should be integrated into fishery management decisions.
    To address these concerns, the Magnuson-Stevens Act should be 
amended to: require councils to develop a Fishery Ecosystem Plan (FEP) 
for each major ecosystem within their jurisdiction; require all fishery 
management plans or amendments to be consistent with the appropriate 
FEP; require consideration of ecosystem impacts, including predator-
prey interactions when setting catch levels; and appropriate sufficient 
new funds to assist the councils and NMFS in applying ecosystem 
principles to fisheries research and management under the Magnuson-
Stevens Act.

                  Eliminate Overfishing of All Species

    The Magnuson-Stevens Act mandates that conservation and management 
measures must prevent overfishing. But in too many cases, managers 
still react to overfishing after it occurs and continue to interpret 
the law and regulations to allow overfishing. Managers are extending 
periods allowed for rebuilding to the maximum allowable time, 10 years, 
under the Magnuson-Stevens Act and, in some cases, beyond those limits. 
This ``risk-prone'' management increases the likelihood that stocks 
will not be rebuilt in even 10 years.
    NMFS continues to interpret the prohibition on overfishing to allow 
overfishing of fish caught in association with other populations of 
fish that are not themselves overfished. Only when a fish species is 
threatened with extinction does NMFS require protection for these 
``mixed stock'' fisheries.
    Contrary to Congressional intent, NMFS continues to define 
``conservation and management'' in a way that places at least equal 
emphasis on preserving present profits as on conserving fish resources 
for the future. Some managers also use scientific uncertainty as an 
excuse to allow overfishing to continue in order to minimize short-term 
economic impacts. Consequently, the long-term sustainability and 
economic productivity of U.S. fish populations continues to be 
jeopardized.
    Fishing for some species, during particularly vulnerable life 
stages has placed those fish at risk. Grouper and snapper, for example, 
have been known by fishermen for years to spawn in the same locations 
and at the same times. Historically, the difficulty for even the best 
fishermen to return each year to the same location provided some 
limited protection for the fish, but improved navigation technology has 
removed that protection. Removal of this safeguard contributes to 
overfishing and delays or prevents timely rebuilding of fish 
populations. These vulnerable fish populations need to be identified 
and protected.
    To address these concerns, the Magnuson-Stevens Act should be 
amended to: prohibit overfishing of all stocks in a mixed stock 
fishery; require councils to emphasize biological and ecological 
factors over economic factors in decision making and drafting of 
fishery management plans (FMPs); require that each council provide 
added protection for stocks during spawning and other particularly 
vulnerable life stages; and mandate the application of the 
precautionary approach to fisheries management by requiring that 
management measures include a safety margin to buffer against 
scientific uncertainty.

                             Avoid Bycatch

    Bycatch is the indiscriminate catching of fish and marine life 
other than those a fishing vessel intends to capture. This includes 
fish that are not the target species, sex, size, or quality. It also 
includes many other fish and marine life that have no economic value 
but are ecologically important, such as starfish, sponges and skates. 
Primarily, bycatch results from fishing practices and gear that are not 
selective. In addition to visible mortality, fish and other sea life 
are sometimes killed or injured when passing through or escaping 
fishing gear, and through ``ghost fishing'' from abandoned or lost 
gear.
    Environmental problems caused by bycatch include overfishing, 
increased scientific uncertainty regarding total fishing mortality, and 
potentially serious changes in the functioning of ecological 
communities. Economically, bycatch equates to lost future fishing 
opportunities as a result of mortality of commercially valuable fish.
    In the SFA, Congress required action to address bycatch problems 
for the first time. However, the councils and NMFS have uniformly 
failed to take sufficient action to avoid bycatch. They have relied 
upon past actions to satisfy the new legal obligation, recommended 
insufficient action, or have not bothered to address the issue at all.

    To address these concerns, the Magnuson-Stevens Act should be 
amended to:

        <bullet>  strengthen national policies to put priority on 
        avoiding bycatch in marine fisheries;
        <bullet>  refine the definition of bycatch to more specifically 
        address the root cause of this problem: non-selective fishing 
        gear; and
        <bullet>  develop a more specific set of requirements to hold 
        fishery managers accountable for implementing national bycatch 
        avoidance standards.

                     Protect Essential Fish Habitat

    Essential fish habitats (EFH) are those waters and substrates on 
which fish are dependent to reach maturity and reproduce. The SFA 
requires action to describe, identify, conserve, and enhance EFH. The 
law and regulations require councils ``to prevent, mitigate, or 
minimize'' identified adverse effects from fishing unless it is not 
practicable to do so. Most councils say that the fisheries under their 
jurisdiction do not adversely impact EFH or that they did not have 
enough information to take action. Unfortunately, NMFS accepted these 
excuses. The ``to the extent practicable'' language in the law's EFH 
requirement is clearly being used as a loophole to avoid action, as is 
the familiar ``lack of information'' refrain.
    The SFA requires NMFS to provide federal agencies with 
recommendations on how to minimize, mitigate, or avoid adverse impacts 
from federally permitted activities on EFH. Compliance with these 
recommendations is voluntary. This consultation requirement needs to be 
strengthened to more fully protect EFH.

    To address these concerns, the Magnuson-Stevens Act should be 
amended to:

        <bullet>  require regional fishery management councils to 
        prohibit fishing activities that may adversely affect EFH 
        unless a council determines that the closure is not necessary 
        to protect EFH;
        <bullet>  adopt the precautionary approach to habitat 
        protection by prohibiting the introduction of new fishing gear 
        or the opening of closed areas unless EFH damage is assessed 
        and minimized; and
        <bullet>  enhance the EFH consultation requirement by providing 
        that federal agencies must ensure that their actions are not 
        likely to adversely impact EFH.
Establish and Fund Mandatory Fishery Observer and Enforcement Programs 
    Objective observation and data collection are vital to effectively 
manage marine fish and fisheries. Managers' ability to address the 
problems of overfishing, bycatch, and degradation of EFH can be limited 
by lack of accurate and reliable information on a fishing vessel's 
catch, including bycatch. This information is important to meet the 
objectives of the Magnuson-Stevens Act by promoting sustainable 
fishing.
    Currently, most regulations must be enforced at sea. With a small 
force of agents burdened with a mounting number of rules to enforce and 
fishers to enforce them upon, violators know the chances of being 
caught are slim. As a result, compliance with fishery laws is often 
poor.

    To address these concerns, legislative changes are needed to:

        <bullet>  establish a mandatory fishery observer program for 
        all federally managed fisheries;
        <bullet>  fund observer programs with a user fee based on value 
        and applied to all fish landed and sold in the United States; 
        and
        <bullet>  increase funding for monitoring and enforcement 
        activities.

              Reform Regional Fishery Management Councils

    Although regional fishery management councils are charged with 
managing the nation's marine fish for all Americans, representatives of 
fishing interests dominate the councils. Interests of the general 
public, as well as non-consumptive users of marine fish, such as 
divers, are not adequately represented on the councils.
    Marine fish are public resources. Decisions regarding their 
management should be made in the public interest, not simply the 
economic interest of the fishing industry. Accordingly, representatives 
of the public interest must sit on regional fishery management 
councils.

    To address these concerns, the Magnuson-Stevens Act should be 
amended to:

        <bullet>  ensure that councils are more broadly representative 
        of the public interest as they make decisions regarding the 
        conservation and management of public resources; and
        <bullet>  require governors to consult with conservation groups 
        before nominating individuals to a council.

               CONSERVE ATLANTIC HIGHLY MIGRATORY SPECIES

    NMFS is responsible for conserving Atlantic highly migratory 
species like tunas, swordfish, marlins, sailfish, and coastal and 
pelagic sharks. All of these species with the exception of sharks, are 
also managed under multilateral agreements through the International 
Commission for the Conservation of Atlantic Tunas (ICCAT).
    In 1990, the Magnuson-Stevens Act and Atlantic Tunas Convention Act 
(ATCA) were amended to preclude U.S. fishery managers from issuing 
regulations, which have the effect of ``decreasing a quota, allocation 
or fishing mortality level,'' recommended by ICCAT. Since then, NMFS 
has done little more than implement ICCAT quotas and allocate them 
among domestic user groups. Moreover, where no ICCAT recommendations 
exist, no precautionary measures have been taken.
    Although ICATT sets quotas, measures to implement the quotas and 
minimize bycatch mortality, such as area closures and gear 
modifications, must be implemented through domestic regulations. NMFS, 
however, interprets the law to prevent the U.S. from unilaterally 
reducing bycatch if it would affect the ability to fill the U.S. quota.

    To address these concerns, the Magnuson-Stevens Act should be 
amended to:

        <bullet>  give the U.S. greater discretion and flexibility in 
        the management of highly migratory species; and
        <bullet>  repeal language that prevents or hinders the U.S. 
        from implementing management measures that are more 
        conservative than those recommended under international 
        agreements.

    Similarly, the ATCA should be amended to:

        <bullet>  remove language limiting U.S. authority to conserve 
        highly migratory species.

                       Individual Fishing Quotas

    Individual fishing quotas (IFQs) grant the privilege to harvest 
certain amounts of fish to individuals. The SFA placed a moratorium on 
the submission, approval, or implementation of any FMP that creates an 
IFQ program until October 1, 2000.
    The Marine Fish Conservation Network supports extending the 
moratorium on IFQs until and unless Congress addresses all of the 
Network's conservation principles. Standards must be adopted that, 
among other things, clarify that IFQ programs:

        <bullet>  do not create a compensable property right;
        <bullet>  demonstrably provide additional and substantial 
        conservation benefits to the fishery;
        <bullet>  are reviewed periodically by an independent body to 
        determine whether the programs are meeting their conservation 
        goals; and
        <bullet>  are of a set duration, not to exceed 5 years, subject 
        to possible renewal if a program is meeting its conservation 
        goals, provided that in any reallocation of quota shares upon a 
        renewal, preference shall be given to those quota shareholders 
        that are meeting or exceeding IFQ program requirements, 
        including all conservation goals.

     Provide Adequate Funding for Fisheries Research & Conservation

    The status of nearly two-thirds of the species managed under the 
Magnuson-Stevens Act is unknown due in large part to lack of funding 
for basic research. Even where general population trends are known, the 
data are often imprecise, which can undermine the ability of managers 
to respond to overfishing in a timely and effective manner. There are 
critical gaps in fishery catch statistics, both in terms of the amount 
of information collected and the adequacy of the collection systems. 
These gaps deny managers essential information on the current levels of 
commercial and recreational harvest, as well as, fish discarded and 
landed. These research and information shortfalls are largely the 
result of chronic underfunding, as is the poor state of habitat and 
ecosystem-based studies.

    To address these problems, legislative changes are needed to:

        <bullet>  increase funding for management-related scientific 
        research and data collection; and
        <bullet>  if new appropriations are not available, re-
        prioritize existing funds and develop new, innovative sources 
        of funding.

    Senator Snowe. Thank you, Mr. Emerson.
    Let us talk about the ITQ for a moment. What do you think 
are the inherent advantages of an ITQ system over the current 
derby fishing and the license limitations systems?
    Mr. Emerson. From my point of view, one of the most 
important advantages of an ITQ program would be that it gets 
the incentives right. There is no longer a need to race for 
fish. There is every reason on the part of a fishermen, like 
Captain Werner, to fish in a low-cost, careful way. There is 
every reason for him to be a good steward of his favorite 
places that he goes to fish. There is not going to be a long 
closed season, or minimum size limits. Captain Werner talked 
about wasting 2.65 million pounds.
    Senator Snowe. In discard, yes.
    Mr. Emerson. Well, what about the fish that are wasted--now 
our season is closed maybe 300 days a year. Other people are 
fishing for vermilion snapper. What about all of those fish 
that are wasted? What is the estimate? Is it another 3 million 
pounds of red snapper that are wasted? I do not know what the 
number is, but it has got to be huge, based on what I have 
learned from fishermen.
    Senator Snowe. So you think there is an inherent benefit to 
having the ITQ system over the current system, or any other 
system?
    Mr. Emerson. Absolutely, with respect to the reef fish 
fishery, there are tremendous conservation benefits associated 
with a comprehensive ITQ program.
    Senator Snowe. Mr. Fischer, I know you do not agree with 
lifting the moratorium on the ITQ.
    Mr. Fischer. I do not agree, but my reasons can be swayed.
    [Laughter.]
    Mr. Fischer. I am being honest.
    Senator Snowe. You are keeping an open mind. We like that.
    Mr. Fischer. I did not get to verbally state this portion. 
I presently support the ban on ITQs, because I feel there are a 
lot of unanswered questions. But I also state that, as the 
answers come forth, I may feel a need to change my perspective. 
Enforcement and how we are going to make certain that if we are 
allowing 4.5 million pounds, is 4.5 million pounds caught, not 
4.5 million pounds of fish we registered, but 10 million pounds 
caught? That is just one of the many hurdles.
    User conflicts: Presently the commercial season is closed 
during the summer months, and this year, through September. The 
recreational fishery off our coast peaks during the summer 
months, so we do not see this user conflict. Actually, the two 
boats, I mean in the commercial and the recreational boat, come 
in contact very little.
    The other issue is it has to be allocated fairly. I have 
heard every possible scenario of why someone feels they will 
either be cut out or left out or why this one person got too 
much of a share. So it has to be allocated fairly.
    And I guess my last point, if it enters into the 
recreational for-hire sector, how is that going to be 
allocated? I understand they have some areas of the coast, some 
States, one or two States, which are now reporting their 
charter boat catches, in anticipation of a for-hire ITQ. Well, 
I think they are getting an unfair jump, because we are not 
reporting ours.
    The State of Louisiana does not require it. The Federal 
Government does not require it. So, we do not have the 
background log of what we have been catching. And I think when 
it has to be allocated, it has to be done fairly, not because 
someone had the foresight, in their State, to look into it in 
advance, anticipating this happening.
    Senator Snowe. Well, does the recreational sector generally 
have concerns about the ITQ system?
    Mr. Fischer. As far as it occurring to the recreational 
fishermen?
    Senator Snowe: Yes.
    Mr. Fischer. No, I do not think they would have any clue it 
is even being thought about.
    Senator Snowe. So you could see some advantages of ITQ, if 
it addressed the issues that you raised?
    Mr. Fischer. Yes. Actually, as far as the commercial 
industry now, I think it is the way to go. They get to choose 
when they want to fish, when the market price is highest, when 
they want to fish, when the seas are the calmest. There are 
quite a few advantages. And it lets them target other species 
during their peak, where there are overlaps. There are overlaps 
in the fishery, where red snapper may be open while another 
fishery is open. So they get to schedule what they want to do.
    I just have concerns at this time--you know, just like I 
said, just a minimal amount of concern--about enforcement and 
fairness in the allocation.
    Now, in the recreational fishery, I would not even know 
where--you have got people who might only want to fish a couple 
of days a year. Where in the world do they fit into this 
puzzle?
    The comment I do hear made often, and which was somewhat 
brought out today, is if the housewife in Nebraska wants to eat 
snapper, it has to come off a commercial boat. I agree with 
that. But if her husband wants to go fishing, he has to go on a 
charter boat.
    Senator Snowe. Thank you.
    Mr. Werner, do you want to comment?
    Mr. Werner. Oh, yes.
    [Laughter.]
    Mr. Werner. Today what we are dealing with is not just the 
derby in this one fishery. We are a multi-diversified fishery. 
We target five or six different species. Two of these are under 
quota systems, and now under trip limits. So we target one fish 
at a time, one fish at a time, one fish at a time, all the way 
throughout the year. We go from this fish to this fish to this 
fish to this fish.
    We are not just driving down our prices on the one fish, we 
are driving down the prices on all of our fish all year long. 
This has created a disaster in our price factors. I am getting 
85 cents a pound less than I did prior to this management 
scheme for my snappers. I am having a hard time. I am one of 
the people who is in this from beginning to end. I am having a 
hard time keeping my catch up.
    And the council system, with the way that they framed up 
this license limitation system, with such a low qualifier, lets 
people into the fishery for 5,000 pounds, and now they are 
fishing 50,000 pounds. And what has happened is, basically, 
slowly but surely, it is taking away from me.
    One of the highliners in our fishery is just taking it and 
taking it and taking it, until, before I know it, I will 
probably be at the back of the pack and no longer--this is just 
a terrible situation. I do not even know how to--I could go on 
for hours, it is so terrible.
    Senator Snowe. But obviously the current system has not 
worked for you?
    Mr. Werner. Oh, it does not work.
    Senator Snowe. That is an understatement?
    Mr. Werner. That is an understatement, yes, ma'am.
    Senator Snowe. Mr. Emerson, did you want to address the 
issue Mr. Fischer was raising about some of the hurdles that 
could potentially develop with an ITQ system and how they could 
be overcome?
    Mr. Emerson. Well, I think we need the flexibility here to 
address those concerns, and we need a process, with our 
Council, that is broad with respect to the participants. But my 
concept, or my vision, would be to expand the ITQ program from 
the commercial sector to the for-hire recreational sector, and 
then manage the purely recreational sector, either through a 
stamp program, as Captain Werner suggested, or continue with 
bag limits and minimum size limits the way we do now.
    But we need to compile necessary data in all the sectors 
where you are going to use an ITQ program. And so we have to 
start building that for the for-hire recreational sector. The 
Council is now looking at Federal permits for that sector. 
Logbook requirements are going to be needed so we can obtain 
the data. You are going to have to buildup to this. You cannot 
start it next week or really quickly. But we do need to get 
this process started and get some decision made about control 
dates and things like that, and then put the program together.
    Senator Snowe. Thank you.
    Ms. Anderson, you mentioned several things in your 
testimony that I wanted to explore. You have said, in your 
testimony, that the essential fish habitat program has spun out 
of control. Can you tell the committee where you think we 
should make some changes under the Magnuson-Stevens Act?
    Ms. Anderson. When I said it has spun out of control is----
    Senator Snowe. The way it is defined?
    Ms. Anderson. Pardon?
    Senator Snowe. The way it is defined?
    Ms. Anderson. No. What you wrote was not wrong. It is how 
it has been perceived and how it has been expanded on, that 
everything has become essential fish habitat. There is no place 
in the Gulf that is not essential fish habitat. And I think we 
have to look back at what I think Congress intended to do, 
which was to watch the estuaries and bays to see that we had 
our species coming back and that we were not going to go in 
there and, I will just use an example, decimate the shrimp 
industry because of our trawls. And that is where we are seeing 
we have got lawsuits now filed against NMFS, that they are 
demanding something be done about our shrimp trawls and bycatch 
again.
    But there are no data out there that show anything has 
really occurred from our shrimp trawls. We have been there for 
40 years, and really nothing has changed. But it is a new--I 
will just maybe put it bluntly--it is a new fundraiser for 
other people, a new avenue to jump on. And actually I think 
that is what has spun it out of control. I am not trying to be 
bold, but I have gone through the turtle process. I have gone 
through every process. And I am the biggest fundraiser I have 
found there to be in the Gulf of Mexico.
    [Laughter.]
    Senator Snowe. Senator Breaux.
    Senator Breaux. Thank you very much. And I thank the panel 
for their comments and their input, which are very, very 
important to this process.
    Mr. Fischer, being a fisherman, you fit right into our 
panel. But I was wondering, do you consider yourself a 
recreational fisherman or a commercial fisherman?
    Mr. Fischer. Well, legally we are considered recreational 
fishermen. We have to abide by the recreational guidelines. We 
are just taking the fishermen out for hire.
    Senator Breaux. It is sort of a combination.
    Mr. Fischer. It sure is.
    Senator Breaux. You have a commercial business that takes 
recreational fishermen out fishing.
    Mr. Fischer.  In some instances, I wonder if the Magnuson-
Stevens Act did not--even though they mentioned the phrase 
``charter head boat'' quite a few times--did not have the 
foresight to possibly look into it as a third category.
    Senator Breaux. That is why I asked the question. Because 
we are always talking about commercial fishermen and 
recreational fishermen, but you fit into a new category.
    Mr. Fischer. There may be benefits. There may be detriments 
to having a third category.
    Senator Breaux. It is just sort of a different 
classification. You are a commercial operation that takes 
recreational fishermen out. So it is kind of a combination of 
recreational and commercial operations. It seems that the 
charter boat industry has really increased substantially. I was 
looking at the numbers of charter vessels and head boats which 
have essentially doubled between 1989 and 1996, increasing a 
little over 70 percent.
    What about considering a moratorium or a limited entry for 
charter boats and head boats? I have argued for limited entry 
as a means of fisheries conservation all over this country. I 
always thought that for those who were already in the business, 
hearing that we are going to limit others' ability to enter a 
fishery would be welcome news. If I were a car salesman in a 
little town and they said no more car salesmen would be allowed 
in the town, I would be very happy with that.
    Is that an option as far as a management tool?
    Mr. Fischer. It is presently on the table for the Gulf 
Council. It has advantages. It has disadvantages. What is the 
goal? If the goal is to decrease or to control effort by the 
charter boat industry, by the for-hire industry, it would 
accomplish that. Or would it accomplish it, though?
    Senator Breaux. You have got all of these options for 
maintaining a certain amount of catch that is allowable, given 
the status of the species that are out there. If you allow 
anybody to come in at any time they want, you will have a 
smaller and smaller quota. Or you can choose limited entry and 
have fewer people in the business, but with a higher available 
catch quota.
    If you keep doubling like your industry is, and you are 
going to have a huge take by the charter boat industry on red 
snapper, the amount of quota available to each of your boats is 
going to come down and down and down. Or you can say, all 
right, we have got enough boats out there. Let us keep vessel 
capacity level for a while and limit the entry into the fishery 
and have more quota available to the fleet.
    Mr. Fischer. I think one of the problems is that the for-
hire boats are coupled with the purely recreational boats. I 
have seen where recreational boats double every seven years 
their population. Well, if you cap the for-hire and let the 
pure recreational continue to grow, and yet you are under a 
quota, they will be getting the increasing part of the pie, 
while the charter boats are capped.
    I think if you are going to do that, you have to 
incorporate the two together. Or else the recreational will 
just start taking away those fish.
    Senator Breaux. I take it, Mr. Werner, you are really 
knowledgeable. And I always have a great deal of respect for 
those of you who are out there every day fishing. It is a very 
tough business. And then to have to come in and talk about all 
this stuff. It is like alphabet soup--ITQs and all this stuff. 
This is my job, and I find it horribly confusing. To find a 
fishing boat captain out there who can also understand this 
stuff is truly amazing to me. I am impressed.
    I guess what we have got for the allocation of snapper is 
51 percent to commercial operations and 49 percent to 
recreational. I understand 70 percent of that 49 percent 
recreational share is to the charter boat industry. That is 
something the council has devised, I take it? Is that the 
council split?
    Mr. Werner. Yes.
    Mr. Fischer. The 70 percent is just the way it ends up, of 
the 51/49.
    Senator Breaux. OK.
    Mr. Werner. That was based on historical catch.
    Senator Breaux. I take it, Mr. Werner, you do not feel like 
commercial operations have fair representation on the council. 
I have been through this a number of times since we wrote this 
Act, trying to get a proper balance, and to try to not have 
people with conflicts on the council. On the other hand, if you 
get people who have absolutely no potential conflicts, you may 
get people who do not know anything about fish.
    [Laughter.]
    Senator Breaux. You could have a bunch of bankers and 
lawyers on the council who have never been fishing in their 
lives. They would not have any conflicts, but they would not 
know what they are talking about.
    Senator Snowe. They just eat them.
    Senator Breaux. Yes, they just eat them.
    [Laughter.]
    Senator Breaux. So you have got to have fishermen on the 
council to provide expertise. You have got to have some 
recreational representation and commercial industry 
representation on the council. But I take it the bottom line is 
that you feel the council is not balanced, and I want you to 
elaborate on that. We try very hard to encourage the 
appointment of people to ensure the council is balanced. I feel 
like Dr. Hogarth, who said, look, we do not have anything to do 
with that.
    [Laughter.]
    Senator Breaux. I used to wish we did have input, but I am 
sort of glad that Members of Congress do not make these 
appointments. It is the recommendation of the Governor, through 
the Secretary of Commerce, that determines council membership. 
We do not make the appointments. I want to make that clear.
    [Laughter.]
    Senator Breaux. But tell me about your concerns.
    Mr. Werner. I have been going to these council meetings for 
12 years. I have attended 37 full council meetings, at an 
average cost of $1,000 a meeting. So I have spent $37,000 going 
to these meetings.
    My representation has consisted of--and I am not going to 
put anybody down--but there are people like Mr. Corky Perret, 
who is a State representative, who does well and has always 
represented the commercial sector well. And then the rest of my 
representation are fish dealers and importers of fish. That is 
like having a fox guarding the chicken house. There is no other 
way to put it. Because there are two different agendas; the 
fish dealer's agenda and the fisherman's are two different 
things.
    And I have watched the votes on this council for 12 years. 
And I can pretty much tell you when a subject comes up, arises, 
and there is a vote on it, I can pretty much tell you who is 
going to vote for what before, based on whether it is a 
recreational or commercial issue. And we just really, the 
fishermen, and you can ask--there are several of them here 
today--to speak. You can ask every one of them if they think 
they have representation on that council. And I will guarantee 
you, you will not get one commercial fisherman to say that they 
do.
    Senator Breaux. Well, there is a continuing concern, to 
make sure that everybody who has an interest in the resource is 
represented on the council. Fisheries resources belong to the 
people of this country and everybody has an opportunity to 
utilize them. But the councils can only, I think, do a good job 
if they are in fact adequately balanced. I do not know how much 
more we can do to tighten up the law to ensure balance. We have 
got the word ``balance'' in this Act all over the place.
    Mr. Werner. I would like to make one comment on that. 
Whenever you set up this thing, now you have five State 
representatives, one from each State. And whatever the 
political agenda is in each State just determines how it goes. 
Well, over the last 12 years that I have been attending, we 
have Governor Foster and the State of Louisiana, and he is big 
on the GCCA and CCA, and the representation that is put up for 
that council is going to be the recreational standard.
    And all but two years that I have attended council 
meetings, the representation of that council has been a 
majority of recreational, all but two years.
    Senator Breaux. I appreciate the comments.
    Ms. Anderson, you have been in this business almost as long 
as I have, I guess. We have been doing this for a long, long 
time.
    Ms. Anderson. Yes, we have kind of faced each other quite a 
few times.
    Senator Breaux. We have been around on this for a long, 
long time, and I am glad to have you back before the Committee. 
But you have a statement in here that is really pretty strong, 
and maybe you could elaborate on it again. In summary: We have 
completely lost confidence in the ability of the Federal 
fishery management process to operate fairly and in a manner 
consistent with sound science and accurate information.
    And then you go on, because I really read your testimony 
and underlined it and all that kind of stuff, in yellow and 
everything else, and you are saying, in particular, that the 
bycatch reduction devices are not really working, that the red 
snapper estimates are too high, and also that you have concerns 
over the quotas that will be set on red snapper. I was really 
interested in that. You talked about the science: The stock 
assessment panel of scientists that serve the Gulf Council 
recently advised that the annual quota should be set at no more 
than 6 million pounds. NMFS has indicated support for 
continuing the annual catch level at 9 million pounds.
    From the shrimp industry's standpoint, the higher the 
allowable catch, the more they are leaning on the BRDs--bycatch 
reduction devices--to keep down the total catch. You think they 
are not doing a good job of that.
    Ms. Anderson. We think that is exactly what is happening. 
When they go higher with the TAC, then they work backward to 
see how much bycatch reduction they want from us to be able to 
justify that TAC. And it simply is we cannot get to the figure 
that they think we are going to get to. It is always a 
potential. We are never going to get past 25 to 28 percent 
mortality reduction in shrimp trawls with BRDs.
    Senator Breaux. What does the National Marine Fisheries 
Service estimate, a 44 percent reduction in mortality?
    Ms. Anderson. They have not even got that. I heard Ms. 
Dalton talk about 60 percent, 80 percent. But as I said in my 
statement, they cannot get it from BRDs, so now they want to 
address the other areas--the seasonal closures, area closures.
    Senator Breaux. What about that? Is there a potential, to 
look at mortality controls other than the BRDs?
    Ms. Anderson. That is, in addition to the BRDs, what is 
being discussed, because the BRDs will not achieve the 
reduction they are looking for. But what we are saying is if 
you are going to mandate those BRDs that are not reaching the 
objective that they were put out there to do, and your stock 
assessment says you cannot have more than a 6 million pound 
TAC, then if we have to stay in line, they must stay in line, 
and both have to share to rebuild this fishery. We are not 
seeing those same standards being applied out there.
    Senator Breaux. What would you have Senator Snowe and I do? 
What do you think, in reauthorizing the new Act, would be 
helpful in ensuring a better balance from the shrimp industry 
perspective?
    Ms. Anderson. I have always had a problem with the 
incidental harvest area, because it seemed like once the shrimp 
trawl bycatch surfaced, I do not think anybody really 
understands what the large percentage of that bycatch really 
is. It is not snapper. It is low value, non-edible species 
which have the same life cycle as shrimp. They are going to be 
an annual crop. They are going to come back. If they are not in 
our nets, they are going to die naturally anyway.
    But it just seems like we have gone totally out of control 
on the theory of bycatch, and not just the shrimp trawl 
industry, but the other trawl industries are really taking a 
beating. Because it seems like it is all focusing on the trawl 
area. We have argued that the bycatch mortality in regulatory 
discard has to be addressed.
    And then finally some just woke up the other day. Well, 
that is bycatch and it is going to have to be reduced. They 
thought it was catch and release, but it is not. And they have 
it listed at 20 percent. But when they went to the size 18-inch 
fish last year, that mortality factor was horrendous. It was 
more like anywhere from 60 to 80 percent off of Texas of dead 
fish floating, to try to attain an 18-inch. The boys could not 
do it. They just had to pull off.
    So what we have done is we continue to increase that size 
limit. That is increasing the discard mortality on the directed 
fishery side. And as they keep going up and up with the size 
limit, then I have got to keep trying to come up with more 
bycatch reduction, with .05 percent of ours, as our species 
composition, it just is not there to get from the shrimp 
industry. So something is wrong.
    But I will have to agree with Dr. Shipp's statement: it is 
all in the science and it is all in the model. In my personal 
opinion, I think red snapper is healthy. It is not in an 
overfished state. And I do not believe the shrimp trawl bycatch 
is affecting that species. It is the computer model that has 
put us all at odds against each other.
    Until it is corrected, I, protecting the shrimp industry, 
have no option but to have to fight about it. That is what I 
see.
    Senator Breaux. Mr. Werner, what is your comment on what 
Ms. Anderson just said about Dr. Shipp's evaluation of the 
science on red snapper?
    Mr. Werner. Well, the science on red snapper, you made the 
comment: junk in, junk out. That is the favorite statement of 
people who come to council meetings in the beginning. If there 
was any faith in the data, that would be one thing. But I do 
not see where--there has been thousands of people who have come 
forward to testify over time--I have not seen one person go up 
there and say: I agree with this. If we are all wrong and the 
one man that runs the computer model is right, so be it. But 
after thousands and thousands of people going up there, I have 
never seen anybody go up there and say: This computer model is 
correct. This is the way that this fishery should be run.
    Senator Breaux. Assuming we come up with pretty good data, 
which, I sure hope we can, is an ITQ system an option? Instead 
of having the derby all the time where everybody just catches 
as much as they can as soon as they can, it would seem like an 
ITQ system would be an advantage to someone like you.
    Mr. Werner. Oh, an ITQ, I am for an ITQ. I am against the 
ITQ--and Dr. Shipp made a comment that most of the people were 
in favor of the ITQ--that the Gulf of Mexico Fisheries 
Management Council developed. I was at that meeting. Eleven 
people testified against that ITQ and eight testified for it.
    Senator Breaux. That particular one?
    Mr. Werner. That particular type of ITQ system. I would 
just like to make that comment.
    Senator Breaux. You think the concept could work if it is 
done properly, but this particular one was not the right one?
    Mr. Werner. Absolutely.
    Senator Breaux. OK. I appreciate you all coming.
    Thank you, Mr. Emerson.
    Senator Snowe. Just one final question, Mr. Emerson. You 
mentioned that you thought the Magnuson-Stevens Act required 
substantial changes. That is in your testimony.
    Mr. Emerson. With respect to my interest in removing the 
prohibitions on IFQ's, which is the highest priority, I am not 
sure that the changes are substantial. I did not mean to give 
that impression. I think the changes are straight forward. 
Senator Breaux was looking for a place to put his pencil down 
and do something; I think that can be done right at Sections 
303(d) and 407(b). With those deletions, we could adopt a 
really sensible management program here in the reef fish 
fishery.
    I was interested in the discussion of good science, which 
is very important. Getting the best science is obviously a goal 
that we are all working toward. But getting the incentives 
right for people in the fishery and in the management process 
is just as important. In some respects, perhaps more important! 
You heard Captain Fischer respond when we had a little back-
and-forth here about some things that I said. Captain Fischer 
said, ``Well, I am flexible.''
    Let's create a situation in the fishery where we can make 
some deals between the commercial sector and the recreational 
sector and maybe even with the shrimp fishermen. I cannot see 
why we cannot do this, other than the incentives are not right.
    Senator Snowe. Well, I think it is unfortunate that the 
entire industry, which Wilma represents here today, feels that 
the process is not serving them.
    Mr. Emerson. Absolutely.
    Senator Snowe. Neither the science nor, in this case, the 
technology. And that is unfortunate. And we have got to bridge 
those gaps.
    Mr. Emerson. Yes.
    Senator Snowe. The question is going to be whether or not 
we should be fine tuning this legislation or making wholesale 
changes, and whether we should try to clarify what we have 
already done in the 1996 Act?
    Mr. Emerson. I did not intend to argue in my oral or 
written testimony for wholesale changes. I am talking about 
pretty specific deletions.
    Senator Snowe. Yes, very precise, limited changes in that 
respect.
    Ms. Anderson.
    Ms. Anderson. Well, of course, with the shrimp industry 
being an annual crop, we are not really looking at the ITQ 
system. But one thing I would certainly look at is what type of 
user fee anybody is going to look at. Because that could be 
horrendous and put that industry under. That is the only reason 
I would be scared of an ITQ system; unless Congress nails that 
down, you cannot exorbitantly hit this fishery to pay for the 
services. That is what is going to be the drawback, if you do 
not curb what they can charge or make it no fee at all. And I 
think the people will support it.
    Senator Snowe. We thank you all very much for your 
testimony. We appreciate it.
    We will now have our third panel. Mr. Michael Lyons is the 
Manager for Environmental Affairs, Louisiana Mid-Continent Oil 
and Gas Association; Dr. Charles Wilson is the Chair of the 
Department of Oceanography and Coastal Sciences at Louisiana 
State University; Corky Perret is the Director of Marine 
Fisheries at the Mississippi Department of Marine Resources; 
Mr. Steve Loga is a Commercial Longline Fisherman; and Mr. Fred 
Miller is from the Coastal Conservation Association.
    We welcome all of you. Please sit at the table.
    I would like to have you all limit your oral statements to 
five minutes. And we will place your full written testimony in 
the record.
    Mr. Lyons, why don't you begin.

STATEMENT OF R. MICHAEL LYONS, MANAGER, ENVIRONMENTAL AFFAIRS, 
        LOUISIANA MID-CONTINENT OIL AND GAS ASSOCIATION

    Mr. Lyons. Madam Chair, Senator Breaux, my name is Michael 
Lyons. I am the Manager of Environmental Affairs for the 
Louisiana Mid-Continent Oil and Gas Association.
    Mid-Continent is the trade association which has, for 75 
years, represented the oil and gas industry in Louisiana. We 
represent producers, transporters, refiners, and marketers of 
approximately 90 percent of Louisiana's oil and gas. My 
testimony this morning is also being endorsed by the American 
Petroleum Institute.
    Before I begin my remarks, I want to make two statements. 
One, I am honored to be here. I appreciate the invitation. It 
is my first time testifying before a congressional committee. I 
have testified before a number of local and state legislative 
committees. I appreciate the invitation.
    Second, I understand the pressure agencies work under in 
trying to meet legislative mandates. I respect their decisions, 
even if at times I disagree with those decisions. I know what 
they go through. I work with state agencies every day. And I 
know how difficult it is for them to meet legislative mandates. 
But sometimes they make mistakes. And that is what I would like 
to address today.
    We have closely followed the development of the essential 
fish habitat, or EFH, regulations over the past 2 years. 
Unfortunately, the vast majority of Louisiana's oil and gas 
activity is conducted in areas now classified as EFH under the 
generic amendment adopted by the Secretary of Commerce. In 
fact, the entire Gulf of Mexico and much, if not most, of 
Louisiana has been so classified.
    We have commented on the developing program at every 
opportunity, and will comment again pursuant to the recent call 
for comments by the Department of Commerce and noticed in the 
Federal Register.
    Our concerns can be summed up very simply. There is no need 
to subject the oil and gas industry to further regulation in 
Louisiana and the Gulf of Mexico. Our industry is among the 
most regulated industries in the world. And I make that 
statement after hearing several people testify this morning. I 
understand there are other industries out there that are highly 
regulated, too.
    I have never been to a Fishery Council meeting. I was never 
exposed to the Magnuson-Stevens Act until the provisions on 
essential fish habitat were added to the Act. The fact is that 
there are numerous programs in place today to protect habitat 
from adverse impacts associated with our activities. Habitat 
programs are administered by the EPA, the Corps of Engineers, 
the Coast Guard, the National Marine Fisheries Service, the 
U.S. Fish and Wildlife Service, and individual States. 
Oftentimes those agencies disagree in the implementation of 
these programs, and we sit on the sidelines waiting for a 
permit.
    In most cases, each of these agencies is authorized to 
participate in permit review under these various programs. So 
they not only have individual programs, but they participate in 
each other's programs and consultations, much as is done under 
the essential fish habitat provisions.
    I have witnessed, over the years, the development of two 
habitat protection programs specifically addressing oil and gas 
activity: the Corps of Engineers 404, Section 10 program, and 
the Louisiana Coastal Zone Management Program. I have witnessed 
long delays in permitting associated with the implementation of 
each of these programs.
    Along with these delays, and the costs associated 
therewith, has come ever-increasing mitigation costs. What has 
resulted in Louisiana is a no net loss of wetlands policy, 
approved by the Department of Commerce and others, which 
provides that we, the oil and gas industry, or any other 
developer, replace wetlands values which are adversely impacted 
by projects in areas subject to program jurisdiction. These are 
minimal impacts, realized only after we have avoided and 
minimized impacts to the maximum extent possible.
    In Louisiana, virtually every parcel of EFH is currently 
covered under one or both of these habitat protection 
regulatory programs. In other words, the EFH program is, for 
Louisiana, a completely duplicatory program. And 
``duplicatory'' is not the word. This is effectively the third 
layer of review that we go through.
    Indeed, the Department of Commerce currently participates 
in both the Coastal Zone Management Program and the Corps of 
Engineers 404 program. As a result, we suggest that all 
activities in these jurisdictional areas be exempted from the 
requirements of EFH review.
    Unfortunately, having experienced the growth of programs 
like these in the past, we fully expect delays and additional 
costs to result to permitees subject to the provisions of the 
generic EFH amendment. We have in fact already experienced 
these additional delays and costs.
    We have objected to the imposition of yet another habitat 
protection program in these areas, predicting just these types 
of unnecessary impacts. And our fears are being borne out 
today. Oil and gas companies are now subject to EFH review, 
which results in delays in permitting and additional costs 
above and beyond the 404 and CZM permit and mitigation costs.
    The Corps of Engineers has indicated to us that EFH has 
resulted in permit delays of approximately 2 weeks, on average. 
One permit reviewed for EFH impacts 182 miles up the 
Mississippi River from the coast; another, for a home site 
north of Baton Rouge, where I am from. Oil and gas platforms in 
the Gulf are now subject to EFH review. These platforms are 
widely recognized as improving habitat in the Gulf. I think 
several persons testified to that effect today.
    I was once told that if everything is made a priority, the 
net effect is that nothing is a priority. The Department of 
Commerce has, in effect, made everything a priority. One of our 
main objections to the generic amendment adopted by the 
Secretary of Commerce is that it identifies all of the Gulf of 
Mexico and vast areas of Louisiana--indeed, most of Louisiana--
as EFH. This is certainly not ``essential'' fish habitat, which 
should be prioritized and subjected to additional review and 
regulations. It places virtually all oil and gas activity in 
and off Louisiana within its purview. The Department has lost 
sight of the legislative intent to protect ``essential'' fish 
habitat as opposed to every fish habitat.
    Finally, when the generic amendment was proposed in 1998, 
we cited numerous areas of concern with language contained in 
the proposal. It was obvious that the drafters of the document 
were not familiar with oil and gas activities. Virtually all of 
these comments were rejected. As a result, and by the way of 
example, the document now states, in part, and I quote: 
Exploration and production activities should be located away 
from wetlands. Closed quote.
    Most of Louisiana's oil and gas activity is in fact located 
in wetlands. That is where the oil and gas is located. And if 
we are to produce it, we must do it in wetlands. I think I 
overheard a comment that the location of this hearing is in a 
wetland. This college was developed on a wetland. The city of 
New Orleans was developed in a wetland. Language such as this 
in the guidelines is appropriate.
    There are many other examples I could cite, where similar 
comments were rejected by the Fisheries Council, the National 
Marine Fisheries Service, and the Secretary.
    To summarize: (1) The interim final rule, designating vast 
areas of the U.S. as EFH, is inappropriate. We strongly 
recommend that the guidelines be narrowed in scope to that 
which is not adequately covered by other Federal and State 
programs, and which is truly unique or essential. (2) We 
recommend the Congress revisit the law, if the guidelines are 
not revised accordingly, to narrow the scope of the essential 
fish habitat program. (3) We recommend that the inappropriate 
rules or guidelines be removed. (4) We recommend that areas 
covered by existing Federal and State programs be specifically 
exempted from additional review.
    In closing, the EFH program will adversely affect not only 
oil and gas production projects, but coastal restoration 
projects, hurricane protection projects, and all types of 
development projects located within the jurisdiction of the EFH 
program. A significant percentage of Louisiana's economy, as 
well as that of other areas of the United States, will be 
impacted.
    In most instances, the effect will be duplicative and 
unnecessary. We have in place two successful, albeit largely 
duplicative, programs protecting habitat in Louisiana now; 
programs which the Department of Commerce participates in. We 
do not need yet another.
    Thank you.
    [The prepared statement of Mr. Lyons follows:]

Prepared Statement of R. Michael Lyons, Manager, Environmental Affairs, 
            Louisiana Mid-Continent Oil and Gas Association

    Good morning. My name is R. Michael Lyons and I am the Manager of 
Environmental Affairs for the Louisiana Mid-Continent Oil and Gas 
Association. Mid-Continent is a trade association which has, for 75 
years, represented the oil and gas industry in Louisiana. We represent 
producers, transporters, refiners, and marketers of approximately 90 
percent of Louisiana's oil and gas.
    We have closely followed the development of essential fish habitat 
(EFH) regulations over the past two years. Unfortunately, the vast 
majority of Louisiana's oil and gas activity is conducted in areas now 
classified as EFH under the generic amendment adopted by the Secretary 
of Commerce. In fact, the entire Gulf of Mexico and much, if not most, 
of Louisiana has been so classified. We have commented on the 
developing program at every opportunity and will comment again pursuant 
to the recent call for comments by the department and noticed in the 
Federal Register.
    Our concerns can be summed up very simply: There is no need to 
subject the oil and gas industry to further regulation in Louisiana and 
the Gulf of Mexico. Our industry is among the most regulated industries 
in the world. There are numerous programs in place today to protect 
habitat from adverse impacts associated with our activities. These 
programs are administered by the EPA, COE, Coast Guard, NMFS, USFWS, 
and individual states. In most cases, each of these agencies 
participates in permit review under these programs.
    I have witnessed over the years the development of two habitat 
protection programs specifically addressing oil and gas activity: the 
Corps of Engineers 404/Section 10 Program and the Louisiana Coastal 
Zone Management Program. I have witnessed long delays in permitting 
associated with the implementation of each of these programs. Along 
with these delays, and the costs associated therewith, has come ever-
increasing mitigation costs. The end result in Louisiana is a no net 
loss of wetlands policy, approved by the Department of Commerce and 
others, which provides that we replace any wetland values which are 
adversely impacted by a project in areas subject to program 
jurisdiction. These are minimal impacts realized after we have avoided 
and minimized impacts to the maximum extent possible. In Louisiana, 
virtually every parcel of EFH is currently covered under one or both of 
these regulatory programs. In other words, the EFH program is, for 
Louisiana, completely duplicatory. Indeed, the Department of Commerce 
currently participates in both these programs. As a result, we suggest 
that all activities in these areas be exempted from the requirements of 
EFH review.
    Unfortunately, having experienced the growth of programs like this 
in the past, we fully expect delays and additional costs to result to 
permittees subject to the provisions of the generic EFH amendment. We 
have, in fact, already experienced these additional delays and costs. 
We objected to the imposition of yet another habitat protection program 
in these areas, predicting just these types of unnecessary impacts, and 
our fears are being borne out today.

Several examples (which I shall detail in written comments):

        1. Oil and gas companies are now subject to EFH review which 
        results in delays in permitting and additional costs above and 
        beyond the 404 and CZM permit costs.
        2. The COE has indicated to us that EFH has resulted in permit 
        delays of approximately 2 weeks on average.
        3. One permit was reviewed for EFH impacts 182 miles up the 
        Mississippi River from the coast.
        4. Oil and gas platforms in the Gulf are now subject to EFH 
        review.

    We fully expect significant costs to result from these reviews in 
the form of delayed permitting and mitigation costs. These are, once 
again, totally duplicative of existing programs in which the Department 
of Commerce participates.
    I was once told that if everything is made a priority the net 
effect is that nothing is a priority. The Department of Commerce has, 
in effect, made everything a priority. One of our main objections to 
the generic amendment adopted by the Secretary of Commerce is that it 
identifies all of the Gulf of Mexico and vast areas of Louisiana as 
EFH. This is certainly not essential fish habitat which should be 
prioritized and subjected to additional review and regulation. It 
places virtually all oil and gas activity in and off Louisiana within 
its purview. Significant governmental costs will undoubtedly result 
simply from reviewing all activities potentially impacting EFH in the 
U.S. The additional paperwork will add significant costs, even if all 
the permits are approved without another condition. And we all know 
that won't happen. Conditions have already been attached to permits.
    As if normal delays aren't enough, there have already been threats 
of forwarding the permits to Washington, D.C. for advanced review. We 
have experienced this before in the COE 404 program. These delays, 
while rare, can be years in duration.
    When the generic amendment was proposed in 1998 we cited numerous 
areas of concern with language contained in the proposal. It was 
obvious that the drafters of the document were not familiar with oil 
and gas activities. Virtually all of these comments were rejected. So, 
the document now states in part: ``Exploration and production 
activities should be located away from...wetlands...'' Most of 
Louisiana's oil and gas activity is in fact located in wetlands. That's 
where the oil and gas is and if we are to produce it, we must do it in 
wetlands. There are many other examples I could cite where comments 
were rejected by the Fishery Council, the NMFS, and the Secretary.
    To Summarize: (1) The draft generic amendment designating vast 
areas of the U.S. as EFH is inappropriate. We strongly recommend that 
the guidelines be narrowed in scope to that which is not adequately 
covered by other programs and which is truly unique or ``essential''. 
(2) We recommend that Congress revisit the law to narrow the scope of 
the EFH program. (3) We recommend that inappropriate rules or 
guidelines be removed. (4) We recommend that areas covered by existing 
Federal and State programs be specifically exempted from additional 
review.
    In closing, the EFH program will adversely affect, not only oil and 
gas production projects, but coastal restoration projects, hurricane 
protection projects, all types of development projects located within 
jurisdictional EFH areas, and a significant percentage of Louisiana's 
economy--as well as that of other areas of the U.S. In most instances, 
the effect will be duplicative and unnecessary. We have in place two 
largely duplicative programs protecting habitat in Louisiana, programs 
in which the DOC fully participates. We don't need another.

    Senator Snowe. Thank you.
    Dr. Wilson.

  STATEMENT OF CHARLES A. WILSON, PH.D., PROFESSOR, CHAIRMAN, 
  DEPARTMENT OF OCEANOGRAPHY AND COASTAL SCIENCES, LOUISIANA 
                        STATE UNIVERSITY

    Dr. Wilson. Madam Chair and Senator Breaux, ladies and 
gentlemen, my name is Charles Wilson. I am Professor and 
Chairman of the Department of Oceanography and Coastal Sciences 
at Louisiana State University. I also am honored to have this 
opportunity to provide both written and oral testimony for this 
review of the Magnuson-Stevens Sustainable Fisheries Act as it 
concerns essential fish habitat.
    My experience with essential fish habitat activities in the 
Gulf of Mexico stem from various reading of published reports, 
my activities on a scientific and statistical committee for the 
Gulf of Mexico Fisheries Management Council, and most important 
is my personal research activities on life history and biology 
of a number of Gulf of Mexico fish species. I have reviewed the 
generic amendment produced by the Gulf of Mexico Fisheries 
Management Council regarding essential fish habitat, and I 
recently taught a graduate level class on sustainable 
fisheries, of which essential fish habitat was a primary topic.
    There are several levels of activity among fishery 
management councils concerning essential fish habitat, and I 
believe there has been reasonable progress toward implementing 
this new concept. I think the Alaska region is probably the 
most proactive, due to habitat activities under development 
prior to the implementation of the EFH language. All the 
management council regions are assembling essential fish 
habitat data bases through the use of geographic information 
systems. I will call this GIS.
    In the Gulf of Mexico region, GIS mapping activities have 
been undertaken by the Galveston Lab of the National Marine 
Fisheries Service. I strongly support this activity, and 
believe it will serve as a powerful tool to document and 
archive the various data bases related to fisheries monitoring 
and research. This will help fishery scientists to identify 
both essential fish habitat and future research needs.
    Pursuant to the implementation of the Act, the Gulf States 
Marine Fisheries Commission, in conjunction with the Gulf of 
Mexico Fisheries Management Council, produced their generic 
amendment for essential fish habitat that addresses, species by 
species, EFH issues. I think the authors did a thorough job of 
addressing species specific EFH issues and other criteria, such 
as threats and conservation, which were identified by the Act.
    But most disturbing, the amendment, which contains the 
current state of knowledge of essential fish habitat for 
species of concern in our region, raised my awareness of the 
glaring lack of information concerning habitat requirements for 
many species. As Mr. Roussel pointed out, good science is 
critical for all aspects of the Act, but most important is the 
essential fish habitat component.
    I have several suggestions regarding how we might improve 
the effectiveness of EFH activities. My first concern is the 
concept of essential versus nonessential. I think this is a 
very simple statement, but very difficult in principle to 
recognize. We now realize the difference between essential and 
nonessential is not a yes or no issue, but a continuum. 
Therefore, I think it is important that we define EFH using 
criteria that can be quantified. These tools need to be 
repeatable measures of habitat variables that we can use to 
establish a habitat value along this continuum.
    For example, there are a number of new digital techniques 
that lend themselves to habitat quantification and mapping--
side-scan sonar, other forms of acoustics, satellite, and 
airborne based remote sensing.
    The scientific literature contains reference to general 
essential fish habitat, habitat areas of particular concern, 
and critical fish habitat. These terms are useful but perhaps 
not sufficient for effective regulation. Critical fish habitat 
is derived from the Environmental Protection Agency, and has 
specific legal interpretation.
    Given the diverse life history of fishes, particularly 
those in the Gulf region, and the spatial and temporal variety 
of habitats used during their different life history stages, it 
is important we understand which habitat variables are most 
important at each life history stage and which are of lesser 
importance. Again, I reflect back on the value of good science.
    Effective, accurate criteria that place a given habitat 
along a continuum will be very important in developing future 
regulation. An example comes to mind, Senator Breaux, when you 
came to Louisiana in 1986 to help us launch our rigs to reef 
program, which has been very successfully run by the Department 
of Wildlife and Fisheries. We have since brought many oil and 
gas platforms into the artificial reef realm under the National 
Fishing Enhancement Act. Our research at LSU and at Wildlife 
and Fisheries indicates that these platforms harbor more fish 
than many of the regions of the Flower Garden Bank, which has 
been named a national marine sanctuary. So we do not have an 
effective way to index this difference. We need an index for 
this continuum.
    My second comment is that I think it is very important that 
essential fish habitat be multi-species based. Although we can 
establish essential fish habitat for species such as red 
snapper, in today's political environment we cannot discuss red 
snapper without discussing the term ``bycatch.'' EFH models 
being developed in the future must have methods for 
incorporating a multi-species philosophy.
    My third comment relates to archiving. The National Marine 
Fisheries Service and others should seek to establish a common 
GIS-based data archiving method. GIS has been used in many 
areas of the country. And these data bases may be in very 
different formats, and thus incompatibility becomes a concern. 
All data should be in a universal format that can be easily 
shared. This will allow users to converse in a common language 
when they are reviewing EFH, as well as other issues.
    My fourth comment concerns modeling. I think effective 
modeling is paramount to making essential fish habitat 
successful. We all recognize that modeling has become an 
important concept and a refined science in the 1990's. As 
modelers adapt new computer tools to the analysis of new EFH 
data, it is important that the government encourage and support 
that effort.
    My fifth comment concerns the threat of overregulation. The 
intent of EFH is very sincere. However, if not properly guided 
and guarded in its implementation, it could result in over-
management. It may lead us to impose unnecessary burdens on the 
dwindling fishing communities of the U.S., as well as 
unnecessary regulation for coastal communities. We must proceed 
with logical conservation efforts, based on good science, and 
not promulgate overregulation.
    My sixth comment concerns funding. As Mr. Perret said, in 
1996, current and future regulations must be developed with 
State, regional and Federal cooperation. Many of the species 
that are and will be managed are estuarine dependent and 
therefore, in many times, considered State resources. For EFH 
to become effective, it must have the cooperation of all 
regulatory and enforcement bodies, and the funding to go along 
with that effort.
    So, in closing, I make the observation that the Gulf of 
Mexico region is off to a good start in implementation of the 
EFH component of the Act. The background work is done. We need 
sound science for effective monitoring and research in the 
future.
    Thank you.
    [The prepared statement of Dr. Wilson follows:]

 Prepared Statement of Charles A. Wilson, Ph.D., Professor, Chairman, 
   Department of Oceanography and Coastal Sciences, Louisiana State 
                               University

Mr. Chairman, Members of the Subcommittee, Ladies and Gentlemen:

    My name is Charles A. Wilson. I am Professor and Chairman of the 
Department of Oceanography and Coastal Sciences and Professor in the 
Coastal Fisheries Institute, CCEER, Louisiana State University. I am 
pleased to have this opportunity to provide both written and oral 
testimony for this review of the Sustainable Fisheries Act (Act) as it 
concerns Essential Fish Habitat (EFH). My experience with EFH 
activities in the Gulf of Mexico stem from reading various published 
reports, my activities on the Scientific and Statistical Committee for 
the Gulf of Mexico Fisheries Management Council (GMFMC), and my 
research on the life histories of several GOM fish species. I have 
reviewed the generic amendment produced by the GMFMC this past year, 
and I recently taught a graduate level class called Sustainable 
Fisheries in which EFH was a primary topic.
    There are a variety of activities at fishery management councils 
concerning EFH and I believe there has been reasonable progress toward 
implementing this new concept. The Alaska region is the most proactive 
due to their habitat related activities under development prior to 
implementation of EFH language. All of the management council regions 
have EFH data bases being archived using the Geographic Information 
system (GIS). Locally (Gulf of Mexico), mapping activities (GIS) are 
underway by the Galveston Lab of the National Marine Fisheries Service. 
I support this activity and believe it will serve as a powerful tool to 
document, and archive in a GIS compatible format, the various data 
bases that exist related to fisheries monitoring and research. This 
will help us to identify areas for future research activities and 
clarify EFH.
    Pursuant to the implementation of the Magnuson-Stevens Act, The 
Gulf States Marine Fisheries Commission, working with the Gulf of 
Mexico Fisheries Management Council, produced a Generic Amendment for 
Addressing EFH that dealt, species by species, with EFH issues. The 
authors did a good job of addressing species specific EFH issues and 
other criteria called for in the Act (Threats, Conservation, etc.). The 
report contains current knowledge of EFH for species of concern of the 
Gulf of Mexico. The report raised my awareness of the poor scientific 
knowledge that exists concerning habitat requirements for many regional 
fish species.

    Below are some suggestions for improving the effectiveness of EFH 
activities.

        1. Essential versus Non-Essential: This is a very simple 
        statement, but a very difficult concept. We now realize that 
        the difference between essential and non-essential is not a yes 
        or no issue, but is a continuum; therefore, it is important 
        that we define EFH using criteria that can be quantified. These 
        tools need to be repeatable measures of habitat variables that 
        we can use to establish a habitat values along this continuum. 
        For example, there are a number of new digital techniques that 
        lend themselves to habitat quantification and mapping (side 
        scan sonar, hydroacoustics, satellite and airborne based remote 
        sensing). The scientific literature contains reference to 
        general EFH, Habitat Areas of Particular Concern, and Critical 
        Fish Habitat. These terms are useful, but perhaps not 
        sufficient for effective regulation. Critical Fish Habitat is 
        derived from the Endangered Species Act and has a critical 
        legal interpretation. Given the life history of many fish 
        species, particularly in the Gulf of Mexico, and the spacial 
        and temporal variety of life history stages, it is important 
        that we understand what (habitat) is most important at life 
        history stages and what is of lesser importance. Effective, 
        accurate criteria that place a habitat along a continuum will 
        be very important in developing future federal regulations. We 
        need an index for this continuum.

        2. It is important that EFH be multi-species based. Although we 
        can establish EFH for fish such as red snapper, in today's 
        political environment we do not discuss red snapper without 
        discussing shrimp bycatch. So EFH models being developed must 
        have methods for incorporating multi-species.

        3. NMFS and others should seek to establish a common GIS data 
        based archiving method. GIS is being used in many areas of the 
        country; these data bases can be in different formats and 
        incompatible; they should be in a format that can be easily 
        shared. This will allow users to converse in a common language 
        when reviewing EFH issues.

        4. Effective modeling is paramount to making EFH successful. 
        Modeling has become a critical concept and science in the 
        1990's; as modelers adapt new computer tools to EFH data, it is 
        important that the government encourage and support this 
        effort.

        5. I am concerned about the pending threat of over-regulation 
        associated with EFH. The intention of EFH is sincere; however, 
        if not properly guided and guarded in its implementation, it 
        could result in over-management. It may lead to unnecessary 
        burdens on the dwindling fishing communities of the U.S. as 
        well as unnecessary regulation for coastal communities. I am 
        not certain how to bring this about other than to bring it to 
        the attention of our regulating bodies; we must proceed with 
        logical conservation and not over-regulation.

        6. Current and future regulation must be developed with state, 
        regional, and federal cooperation. Many of the species that are 
        and will be managed are estuarine dependent and therefore are 
        at times state resources. For EFH to be effective it must have 
        cooperation of all regulatory and enforcement bodies.

    In closing, I make the observation that the GOM region is off to a 
good start in implementation of the EFH component of the Magnuson-
Stevens Act. The background work is done and I encourage the regulatory 
bodies which you represent to provide adequate and long term funding 
(for research, regulation, and enforcement) to make the Act work.
    Senator Snowe: Thank you.
    Mr. Perret.

      STATEMENT OF WILLIAM S. ``CORKY'' PERRET, DIRECTOR, 
      OFFICE OF MARINE FISHERIES, MISSISSIPPI DEPARTMENT 
                      OF MARINE RESOURCES

    Mr. Perret. Thank you very much, Senator Snowe. We 
certainly appreciate you being down here. And welcome to the 
Gulf Coast. I wish we had more time, so that we could show you 
a little bit more of all these natural resources we have.
    Senator Breaux, it is always a pleasure to be with you 
again, sir. Thank you for your efforts here, as well as your 
past efforts in fish and wildlife conservation.
    As an aside, one conservation measure that has been so good 
is steel shot and ducks. I was eating one the other night. I 
broke a tooth. So I am not feeling too well.
    [Laughter.]
    Mr. Perret. But, be that as it may, people are giving you 
background. I will do a little bit of the same, simply to show 
that I have had some experience in this area. I, too, have a 
couple of degrees, a Master's in fisheries. I have served as 
director of fisheries in two States. I have no interest in 
being in a third or a fourth.
    [Laughter.]
    Mr. Perret. I cast my first vote on the Gulf Council in 
either 1978 or 1979. And I think I have probably cast more 
votes than any living or dead member. So I guess I am as much 
to blame as anyone for all the council activities that may 
have, in some people's mind, not been beneficial to them or 
their interests.
    Today, I will only speak on essential fish habitat issues. 
The Congress has defined EFH in a pretty broad sense. And I 
quote: ``Those waters and substrate necessary to fish for 
spawning, breeding, feeding, or growth, to maturity.'' Again, 
very general terms. And heretofore the Act, for the most part, 
was strictly related to Federal waters, the EEZ, basically 3 
miles out to 200, although off Texas and the West Coast of 
Florida they have basically a 9-mile territorial sea. So now, 
with the essential fish habitat issue, it comes into State 
territorial as well as inland waters.
    And while this may be appropriate, habitat and fish know no 
political boundaries. I, as a States' rightist, have a little 
bit of concern about that. And that is, if it in any way is 
giving the Federal agencies any more authority in State waters. 
Mr. Lyons has commented very well on that, I think, from the 
habitat issue. There are a number of Federal programs and 
agencies and oversight involved with habitat, and this is one 
additional one.
    I am going to give you five comments and suggestions 
relative to essential fish habitat, but before I do that, I 
would like to comment very briefly on habitat in general and, 
more specifically, on that habitat basically from the 
Pascagoula River area to the Galveston Bay area, for a couple 
of reasons. One, I am more familiar with it and, two, that is 
indeed a productive fisheries area.
    Now, I am not taking anything away from those geographic 
areas in the other parts of the Gulf, but this is the coastal 
marshes and the areas that are so, so productive to fish and 
wildlife. In fact, one renowned Gulf scientist many, many years 
ago named that area the fertile fisheries crescent.
    Why is it so productive? It is so productive, again, 
because of the vast and extensive coastal vegetative wetlands. 
And when I testified before a Senate committee, I guess it was 
four years ago, on reauthorization, and I pointed out, 
mistakenly so, to Senator Stevens that Louisiana had the 
largest wetlands area in the United States, he quickly pointed 
out that Alaska was a little bit larger.
    But, nevertheless, these are the areas that are of extreme 
importance to most of our fishery resources of the Gulf of 
Mexico, because most of our fishery resources in the Gulf of 
Mexico are, at some time, dependent upon the estuarine areas in 
the States' areas of jurisdiction.
    The Mississippi River was a major player in contributing to 
the establishment of these coastal areas. The tremendous 
volumes of fresh water and silt that comes down the river were 
the building blocks for these vegetative wetlands.
    Problems are taking place in that these vegetative wetlands 
are disappearing. And depending on which expert you want to 
talk to, you can get various reasons. But in an 
oversimplification, the Mississippi River is levied basically 
all the way down, and sediment load is now going out into the 
Continental Shelf. We have the levies, and we no longer get the 
annual overflows that we once had.
    Local governments, State government and the Federal 
Government have recognized the problem with this, and there are 
things underway to try and alleviate some of the problems. That 
is, by the introduction of fresh water and silt.
    The five specific areas I would like to address relative to 
EFH, essential fish habitat, are, No. 1, man has created 
essential fish habitat with the artificial reef program. 
Senator Breaux and others, as Dr. Wilson mentioned, authored 
the National Fisheries Enhancement Act. Each Gulf State has an 
artificial reef plan. Yet, there is a Federal requirement that 
when the abandonment of these structures takes place, they must 
be removed. We should encourage them being put in specific 
artificial reef zones, because they are good habitat for fish 
and preferred areas to fish by many of our fishermen.
    Second, the Gulf Council amended its fishery management 
plans to include essential fish habitat. We, like NMFS, took 
everything from 200 miles on in, very generic. We submitted our 
amendment, and it contained information on the 26 major species 
that we manage. The amendment was disallowed in court, because 
we did not include minor species. We did not include the minor 
species because we did not have the information, we did not 
have the good science. Even if we had, we could not take 
anything else in. From 200 miles out, all the way in, is all 
inclusive.
    The broad definition has led to some problems in the 
permitting area. And I will just cite two examples. Mr. Lyons 
may have hit on the same one. One application was for a home 
site in Baker, Louisiana, which is around Baton Rouge, quite a 
ways from the Gulf of Mexico. In the public notice, it stated, 
and I quote, that EFH utilized by various life stages of red 
drum and penaeid shrimp would be affected. That is 100 or so 
miles from the coast.
    The second one was for a barge unloading terminal at 
Geismar, Louisiana, just south of Baton Rouge, so that they 
could do some unloading of crane barges on the levee of the 
Mississippi River, 184.5 miles from above head of passes at the 
mouth of the river. Again, this, and I quote, would be utilized 
by various life stages of red drum and penaeid shrimp.
    I submit that the only red drum and penaeid shrimp you 
might find in those areas would be in a fine restaurant or on a 
plate in someone's home.
    [Laughter.]
    Mr. Perret. It went a little bit too far.
    The identification of essential fish habitat in the 
estuarine areas has got to involve the States. It is the 
States' area of jurisdiction. The States have people that work 
in these areas on a daily basis. And any addressing of habitat 
areas must include the States, and needs to be included. It 
needs to include the States.
    I will close by saying that we are only in the beginning of 
the EFH regulatory process. It is probably too early to draw 
any definition conclusions. But because of the current broad 
definition, it is and has created some problems. And I think 
probably, in the generic approach, that it takes away from some 
of the critical areas that probably need to be a little bit 
better addressed.
    And, again, I thank you very much, both of you, and the 
staff, for taking your time to be down here.
    [The prepared statement of Mr. Perret follows:]

Prepared Statement of William S. ``Corky'' Perret, Director, Office of 
      Marine Fisheries, Mississippi Department of Marine Resources

    Senator Snowe and members of the Senate Subcommittee on Oceans and 
Fisheries; my name is William S. ``Corky'' Perret. I am Director of the 
Office of Marine Fisheries, Mississippi Department of Marine Resources, 
and a voting member of the Gulf of Mexico Fishery Management Council. I 
sincerely appreciate the opportunity to appear before you and to 
provide my input for your deliberations in reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA), and 
more specifically to the Essential Fish Habitat (EFH) provisions of 
this Act.
    Congress has defined EFH as ``those waters and substrate necessary 
to fish for spawning, breeding, feeding or growth to maturity''. The 
Act defines EFH in broad terms that take into account not only the 
Exclusive Economic Zone (EEZ) generally from 3 to 200 miles seaward, 
but also includes state territorial waters (0-3 miles for Louisiana, 
Mississippi and Alabama, and 0-9 miles for Florida's west coast and 
Texas) as well as inland (estuaries) waters of these states. Thus, 
while the Act generally deals only with the management of fishery 
resources in the EEZ of the United States, EFH now includes state 
waters. I suppose this is appropriate, (EFH is not constrained by 
political boundaries, and the states and federal government share 
jurisdiction) but I am 100 percent for state rights and am concerned 
whenever federal activity impacts state jurisdiction, especially in 
coastal areas, much of which is privately owned.
    First, I would like to briefly comment on the habitat and fisheries 
that we (states and Council) manage, and will further restrict my 
comments to the north central Gulf area. The Gulf Coast, with its vast 
complex of estuaries, has been recognized as one of the most productive 
fishery habitats in the world. Additionally, the Mississippi River, its 
distributaries, and lesser riparian systems with their freshwater 
introduction and accompanying nutrient-laden silts expand this fertile 
and productive fisheries area into the near offshore waters of the 
adjacent Gulf of Mexico. This is definitely essential fish habitat, and 
it is in the states' area of jurisdiction. Most Gulf fisheries consist 
of species that are estuarine dependent during some phase of their life 
cycle. These include as examples, penaeid shrimp (the United States 
most valuable fishery), menhaden (one our country's largest volume 
fisheries), oysters, blue crabs, red drum and spotted seatrout. The 
estuarine habitat that is crucial to our Gulf fisheries is located in 
the states' area of jurisdiction. As I stated in 1995, when I testified 
on the reauthorization of this Act, ``Habitat is the key to maintaining 
fisheries''. This statement is also true today. In reality, the 
controlling factor of a fish or animal population is governed by what 
man does to a species' habitat, and then what is done to that species. 
My definition of habitat also includes water quality and quantity. Why 
is fisheries production in the Gulf of Mexico so high? This 
productivity is high because of the vegetated coastal wetlands created 
by the Mississippi River system and its tremendous discharges of 
sediment laden waters, but these coastal areas are undergoing great 
change. The most notable of these environmental changes that affect the 
estuarine dependent species is the deterioration of the coastal 
vegetative wetlands. This deterioration provides a superior nursery 
environment that could account for recent increases in fishery 
production. However, this increase in fisheries production, at the 
expense of losses in wetland habitat, will, if continued, result in a 
decline of future fisheries yield. Some indicators suggest that we may 
now be at the peak of fisheries production, and a decline will begin in 
the next decade. Activities have been initiated to help combat these 
losses with projects designed to introduce fresh water and sediments 
into certain areas of the coast, to aid in sediment buildup and 
creation of vegetated wetlands. Activities of this type have been and 
are continuing to be supported and funded by local, state and federal 
governments.

    Following are my concerns and suggestions for your consideration:

        (1) Section 305 (b)(1)(A and B) of MSA requires that each 
        Regional Fishery Management Council submit amendments to the 
        fishery management plans (FMP's) that identify and describe EFH 
        for species under management. The Act requires further that 
        adverse impacts on EFH be identified as well as the actions 
        that should be considered to ensure the conservation and 
        enhancement of EFH as contained in the Act. ``National Marine 
        Fisheries Service (NMFS), in consultation with participants in 
        the fishery, must provide each Council with recommendations and 
        information regarding each fishery under that Council's 
        authority to assist it in the identification of EFH, the 
        adverse impacts on that habitat, and the actions that should be 
        considered to ensure the conservation and enhancement of that 
        habitat''.

        The Gulf Council developed a generic amendment that identified 
        and described EFH for the estuarine and marine life stages of 
        the stocks in its FMP's. The amendment also described threats 
        to EFH and management measures for enhancing EFH's. NMFS 
        partially disapproved the amendment, largely because the 
        Council only addressed EFH for those 26 dominant species for 
        which data were available. Minor stocks were not included 
        because data were not available. NMFS action places us in quite 
        a quandary. The Act clearly states that it is NMFS's 
        responsibility to provide EFH information to the Council, so 
        that the Council can do its job, not the other way around. In 
        preparation of the EFH Amendment the Gulf Council utilized the 
        best available information that could be obtained. Our 
        amendment recognized that certain data for some species were 
        not available; but even if this data had been available, it 
        would not include any additional habitat that is not currently 
        described in EFH for the 26 selected species, because EFH has 
        already been defined as all estuarine and marine habitat in the 
        Gulf of Mexico. (Figure 1.)

        (2) The definition of EFH in broad terms and NMFS' (Council's) 
        generic acceptance of EFH being the entire Gulf of Mexico (out 
        to 200 miles), the states' territorial and inland estuaries, 
        and watershed areas has imposed a tremendous regulatory burden 
        on fishery managers, fishermen, landowners, and anyone else 
        whose activities might take place in these areas. This generic 
        approach also dilutes attention that should be drawn to more 
        crucial areas that need protection. Better science (as 
        referenced in 3) to identify and reduce the scope of EFH would 
        benefit all users.

        (3) EFH identification, conservation and enhancement must 
        involve states. Activities of the states for assessing EFH in 
        their waters--whether by describing areas by vegetative or 
        substrate type and quantifying them by measurements, or 
        monitoring changing parameters such as salinity and temperature 
        that together form a set of conditions favorable for a 
        particular animal's success--should be encouraged, funded and 
        conducted in a coordinated effort. The description and 
        identification of EFH needs to be based on the best scientific 
        information available. A cooperative effort on the part of the 
        states and federal agencies needs to be undertaken to provide 
        this type of current information. A coordinated program similar 
        to the Gulf of Mexico Estuarine Inventory (GEMI) of the late 
        1960's could shed light on the status of nearshore habitat now 
        and in some ways compare it to what was found years ago. 
        Sustained productivity in a fishery, or decline, perhaps could 
        be linked to scientifically documented changes in coastal 
        habitats over 35 years. The GMEI data that resides in each of 
        the Gulf states provide a unique baseline to which current 
        conditions can be compared. Research of this type would greatly 
        improve our scientific understanding of EFH of managed species 
        thereby refining habitat requirements and the geographic scope 
        of EFH.

        (4) EFH consultations by the U.S. Army Corps of Engineers. The 
        existing interagency consultation process requires extensive 
        coordination among NMFS, the Councils, and federal action 
        agencies. I would also hope that in those areas of state 
        jurisdiction, that the process includes state resource agencies 
        as well as private landowners, who own the majority of coastal 
        land along the Gulf coast. The current process can result in 
        project delays, cost escalation and an additional layer of 
        bureaucracy. Rather than create a new consultation mechanism, 
        EFH consultation should focus more strongly on existing 
        procedures, interagency cooperation (state and federal) and 
        cooperative EFH creation and enhancement opportunities.

        The concerns by some that the EFH definition is too broad and 
        would lead to unnecessary project delays and costs appear to 
        have some validity. I cite the following two examples to show 
        how far the EFH process has reached.

        (a) Permit application No. ET-19-990-1622. Applicant proposed 
        to clear approximately 0.23 acres of private property to 
        prepare a home site. This property is located in East Baton 
        Rouge Parish, Louisiana, some 100-odd miles from the Gulf of 
        Mexico. Quoted in the public notice is, ``The applicant's 
        proposal would result in the destruction or alteration of NA 
        acre(s) of EFH utilized by various life stages of red drum and 
        penaeid shrimp''.

        (b) Permit Application No. 19-990-3891. Applicant proposes to 
        install and maintain a permanently moored crane barge and 
        Mississippi levee crossing, for a barge unloading and transfer 
        facility. This work would be done on the descending bank of the 
        Mississippi River some 184.5 miles above head of passes near 
        Geismar, Louisiana. Quoted in the public notice is, ``The 
        applicant's proposal would result in the destruction or 
        alteration of two acre(s) of EFH utilized by various life 
        stages of red drum and penaeid shrimp''.

        For these two examples, I submit that the finding of red drum 
        and penaeid shrimp in these areas would only occur if found on 
        a plate in a person's home or in one of the fine restaurants in 
        the area.

        (5) EFH has been created by man. Each Gulf state has a state 
        approved artificial reef plan and Gulf wide funds are being 
        utilized to create artificial reefs. These reefs provide 
        additional habitat for many species, and are preferred fishing 
        locations for a majority of offshore fishermen. Platforms put 
        in place for mineral operations have been beneficial as 
        artificial reefs. Current federal regulations, however, require 
        their removal after abandonment, unless permitted for 
        artificial reef deposition. The deposition of these structures 
        as artificial reefs should be encouraged provided it does not 
        negatively impact other fisheries.

    We are in the beginning stages of the EFH regulatory process. It is 
too early to draw definite conclusions, but the current generic nature 
of EFH designation lends itself to conflicts between NMFS, other 
federal agencies, states, private landowners, and the public. Conflicts 
among these groups could cause delays and increase costs for many 
needed activities in our coastal and marine environments.
    Again, I sincerely thank you for the opportunity to provide input 
to your Subcommittee on this issue that is so vital not only to our 
U.S. fisheries resources and their participants, but also to the 
overall well-being of our nation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 1. Map depicting the extent of Essential Fish Habitat in the 
Gulf of Mexico.

Source: N.M.F.S. Southeast Regional Office

    Senator Snowe. Thank you. We appreciate it.
    Mr. Loga.

 STATEMENT OF STEVE LOGA, PRESIDENT, TUNA FRESH, INC., DULAC, 
                           LOUISIANA

    Mr. Loga. Good afternoon. I am Steve Loga, President of 
Tuna Fresh, Incorporated, a company based in Dulac and Venice, 
Louisiana. I am also State and Regional Director of the Blue 
Water Fishing Association, representing U.S. commercial pelagic 
longline vessels from Maine to Texas.
    I would like to thank Senator Breaux and Senator Snowe, and 
all of the Senate cosponsors for introducing Senate Bill 1911, 
the Highly Migratory Species Conservation Act of 1999. I am 
grateful for the opportunity to present my views on what is an 
incredibly important bill to our industry.
    I would like to thank Senator Breaux in particular for his 
recognition that there still are some commercial fisheries left 
in Louisiana, and very important ones at that. For as long as 
my family and I can remember, you have been a strong, reliable 
voice for Louisiana commercial fishing interests. And we 
appreciate your continued fair and balanced approach to what 
are often politically difficult issues in the Gulf region.
    The pelagic longline fishery may be one of the least known, 
but it is one of the most important to fishery dependent 
communities throughout the Gulf region. This year alone, my 
company purchased over $20 million worth of fish, with much of 
that being landed in Louisiana, from 40 to 60 longline vessels, 
the bulk of which was yellowfin tuna.
    My company has a continuous payroll in excess of $120,000 
per month and, additionally, employs as many as 150 workers 
throughout various times of the year. We ship yellowfin tuna 
and other longline caught products to over 30 major cities 
nationwide. When you order tuna steak in any restaurant in 
America, it is almost certainly yellowfin tuna. And Venice and 
Dulac, Louisiana have become the No. 1 ports for yellowfin tuna 
in the Nation.
    I would also like to thank Senator Snowe especially for her 
championing the cause of commercial fishery dependent 
communities and for ensuring that the social and economic 
realities of such communities are not forgotten in the fishery 
management process. By championing the addition of National 
Standard 8 during the last reauthorization of the Magnuson-
Stevens Act, you reminded everyone that fisheries management is 
as much about managing fishermen, their families and 
communities as it is about managing fish.
    And what we appreciate most of all, Senator Snowe, is your 
persistent oversight, to ensure that these principles are not 
just on paper, but are put into practice every day by Federal 
fishery managers. In many ways, Senate Bill 1911 reflects your 
philosophy that healthy fish and a healthy fishing industry are 
not mutually exclusive goals.
    I know Senator Breaux shares this view, because it was his 
vision and leadership that brought the commercial and 
recreational industries together into a constructive dialog, 
with the recognition that we shared many of the same basic 
goals and concerns for the future of highly migratory species. 
This process culminated in an unprecedented memorandum of 
understanding, which I do have a copy that I submitted for the 
record, among some of the most important mainstream 
organizations in the sports fishing community and the pelagic 
longline industry, as represented by the Blue Water Fishing 
Association.*
---------------------------------------------------------------------------
    * The information referred to was not available.
---------------------------------------------------------------------------
    While the parties to this memorandum of understanding are 
to be congratulated, we deeply appreciate your willingness to 
recognize the inherent value of our memorandum of understanding 
by introducing legislation that reflects both its substance and 
spirit. Senate Bill 1911 is not just a good bill, it is the 
best possible solution that could be achieved under any 
process. And we sincerely hope that it will remain so as you 
progress through the legislative process.
    To this point, we want to stress that the content of Senate 
Bill 1911 could never have been achieved through the current 
National Marine Fisheries Service regulatory process--a process 
that has effectively relinquished the responsibility for 
fishery management to Federal judges. I understand that NMFS is 
now the defendant in nearly 100 Federal lawsuits. And if they 
try to do what your legislation does, they will undoubtedly add 
a few more.
    We hope that you will strongly discourage any efforts by 
NMFS to preempt and ruin this extraordinary opportunity by 
moving forward with their own separate rulemaking process--
which they have done already. While our memorandum of 
understanding had many specific objectives, the overall goal 
was to strike the optimum balance between the conservation need 
to reduce the bycatch of billfish and small swordfish in 
pelagic longline fisheries with the need to minimize social and 
economic disruptions to U.S. fishermen, their families and 
their communities.
    In other words, this was an exercise in finding the 
appropriate balance among the bycatch conservation goals of 
National Standard 9 and the social and economic goals of 
National Standard 8 of the Magnuson-Stevens Act. We believe 
that this optimum balance was achieved, and it is reflected in 
Senate Bill 1911.
    On the conservation side, the expected benefits of this 
bill are extraordinary. Over 52 percent of the small swordfish 
bycatch and 31 percent of the billfish bycatch in the U.S. EEZ 
occur in the time-area closure set forth in Senate Bill 1911.
    In order to achieve this extraordinary conservation 
benefit, however, the science indicated that a permanent year-
round closure of 80,000 square nautical miles of ocean to 
pelagic longline was necessary along the Southeast Atlantic 
coast. But the consequences of this action would be to 
completely destroy the fishing operations of about 68 longline 
vessels.
    In our view, Senate Bill 1911 provides the only fair and 
equitable means to address this problem. Consistent with the 
spirit and intent of National Standard 8, Senate Bill 1911 
provides compensation to those fishermen that would be forced 
to sacrifice their livelihoods in the name of swordfish and 
billfish conservation. The bill logically requires all three 
stakeholders, the commercial industry, the recreational 
industry, and the government on behalf of the public's 
interest, to share in the cost.
    In the Gulf of Mexico, the data indicated that billfish 
bycatch reductions could be achieved by moving the longline 
fishery farther offshore during the summer months, away from 
the areas with the highest concentrations of billfish. By 
carefully balancing the times and areas of these conservation 
closures with the need to provide enough room for the pelagic 
longline industry to prosecute a viable yellowfin tuna fishery 
further offshore, I think Senate Bill 1911 has again achieved 
that goal of National Standard 8 to both minimize the adverse 
economic impacts and to provide for the sustained participation 
of our Gulf fishing communities in this very important fishery.
    With that said, however, let me also share with you some of 
the perspectives down at the docks in the Gulf longline 
fishery. No commercial fishermen will ever be thrilled with the 
idea of having to draw circles around gigantic areas of the 
ocean and declare that guys fishing with hooks attached to 
commercial longline gear cannot fish in that circle, but the 
guys fishing with the same exact hooks attached to sport 
fishing gear can fish inside that circle.
    Of course, I think it is safe to say that they would be 
even less thrilled with the prospect of a longline ban. But 
that approach is completely irresponsible and without 
scientific merit.
    Despite these instinctive concerns, our Gulf yellowfin tuna 
longline industry is willing to do at least its share for 
swordfish and billfish conservation, by giving this approach a 
sincere try, while recognizing that it remains as yet untested 
and unproven.
    You have our commitment. But until the results of the 
experiment are in, our fishermen will remain necessarily 
cautious. The unanswered question for our fishermen is whether 
we will in fact achieve the fundamental objectives of our 
memorandum of understanding to reduce billfish and small 
swordfish bycatch mortality while preserving our ability to 
prosecute a healthy yellowfin tuna longline fishery outside the 
closed areas.
    That is why the research component of this legislation is 
so important to our industry. We feel that there is a great 
potential to achieve even greater billfish bycatch reductions 
than through vast time-area closures by making improvements to 
longline gear technology and fishing methods. We understand 
that is why the Gulf time-area closure set forth in Senate Bill 
1911 is temporary, and is linked to the results of this 
research. We appreciate this research being a major emphasis of 
your legislation and a priority of our coalition partners.
    Finally, I ask for your indulgence to say something nice 
about our industry that does not get said very much these days. 
Contrary to negative hype and rhetoric you may hear, U.S. 
pelagic longliners are among the most conservation minded 
people in the fishery management process today. They know that 
it is their own and their children's future that is at stake. 
They know it is in their best interest more than anyone else's 
to strive for the most effective conservation measures that can 
be sustained by their industry.
    That is why they initiated the process that led to this 
legislation. And that is why, time and time again, they are at 
the forefront of international conservation advocacy at ICCAT. 
Last month at ICCAT, it was again the U.S. pelagic longline 
industry that led the charge, and almost unilaterally made the 
conservation sacrifices necessary to achieve an international 
10-year rebuilding plan for North Atlantic swordfish. For one, 
I am proud to be a part of this industry.
    Again, I thank you for introducing this important 
legislation and for this opportunity to testify. I would also 
like to recognize and thank your Louisiana colleague, 
Congressman Billy Tauzin, for joining Congressman Porter Goss 
in introducing a companion bill to your bill in the House of 
Representatives.
    We look forward to continuing our work with you and your 
excellent staff to get this legislation enacted as soon as 
possible.
    Thank you.
    [The prepared statement of Mr. Loga follows:]

    Prepared Statement of Steve Loga, President, Tuna Fresh, Inc., 
                            Dulac, Louisiana

    Good afternoon, I am Steve Loga, President of Tuna Fresh, Inc., a 
company based in Dulac and Venice, Louisiana. I am also Secretary and 
regional director of the Blue Water Fishermen's Association, 
representing U.S. commercial pelagic longline vessels from Maine to 
Texas.
    I would like to thank Senator Breaux and Senator Snowe, and all of 
the Senate cosponsors for introducing S. 1911, the Highly Migratory 
Species Conservation Act of 1999. I am grateful for the opportunity to 
present my views on what is an incredibly important bill to our 
industry.
    I would like to thank Senator Breaux in particular for his 
recognition that there still are some commercial fisheries left in 
Louisiana and very important ones at that. For as long as my father and 
I can remember, you have been a strong and reliable voice for Louisiana 
commercial fishing interests, and we appreciate your continued fair and 
balanced approach to what are often politically difficult issues in the 
Gulf region.
    The pelagic longline fishery may be one of the least known, but it 
is one of the most important to fishery-dependent communities 
throughout the Gulf region. This year alone, my company purchased over 
$20 million dollars worth of fish, with much of that being landed in 
Louisiana from 40 to 60 longline vessels, the bulk of which was 
yellowfin tuna. My company has a continuous payroll in excess of 
$120,000 per month and additionally employs as many as 150 workers 
throughout various times of the year. We ship yellowfin tuna and other 
longline-caught fish to over 30 major cities nationwide. When you order 
tuna steak in any restaurant in America it is almost certainly 
yellowfin tuna, and Venice and Dulac, Louisiana have become the number 
one ports for yellowfin tuna in the nation.
    I would also like to thank Senator Snowe, especially for her 
championing the cause of commercial fishery-dependent communities and 
for ensuring that the social and economic realities of such communities 
are not forgotten in the fishery management process. By championing the 
addition of National Standard 8 during the last reauthorization of the 
Magnuson-Stevens Act, you reminded everyone that fisheries management 
is just as much about managing fishermen--their families and 
communities--as it is about managing fish. And, what we appreciate most 
of all, Senator Snowe, is your persistent oversight to ensure that 
these principles are not just on paper, but are put into practice every 
day by federal fishery managers.
    In many ways, S. 1911 reflects your philosophy--that healthy fish 
and a healthy fishing industry are not mutually exclusive goals. I know 
Senator Breaux shares this view because it was his vision and 
leadership that brought the commercial and recreational industries 
together into a constructive dialogue with a recognition that we shared 
many of the same basic goals and concerns for the future of highly 
migratory species. This process culminated in an unprecedented 
Memorandum Of Understanding among some of the most important, 
mainstream organizations in the sportfishing community, and the pelagic 
longline industry as represented by the Blue Water Fishermen's 
Association.
    While the parties to this MOU are to be congratulated, we deeply 
appreciate your willingness to recognize the inherent value of our MOU 
by introducing legislation that reflects both its substance and spirit. 
S. 1911 is not just a good bill, it is the best possible solution that 
can be achieved under any process, and we sincerely hope it will remain 
so as you progress through the legislative process. To this point we 
want to stress that the content of S. 1911 could never have been 
achieved through the current NMFS regulatory process--a process that 
has effectively relinquished the responsibility for fishery management 
to federal judges. I understand that NMFS is now the defendant in 
nearly 100 federal lawsuits and if they try to do what your legislation 
does, they will undoubtedly add a few more. We hope that you will 
strongly discourage any efforts by NMFS to preempt and ruin this 
extraordinary opportunity by moving forward with their own separate 
rule-making process.
    While our MOU had many specific objectives, the overall goal was to 
strike the optimum balance between the conservation need to reduce the 
bycatch of billfish and small swordfish in pelagic longline fisheries 
with the need to minimize social and economic disruptions to US 
fishermen, their families and their communities. In other words, this 
was an exercise in finding the appropriate balance among the bycatch 
conservation goals of National Standard 9 and the social and economic 
goals of National Standard 8 of the Magnuson-Stevens Act. We believe 
this optimum balance was achieved and is reflected in S. 1911.
    On the conservation side, the expected benefits of this bill are 
extraordinary. Over 52 percent of the small swordfish bycatch and 31 
percent of the billfish bycatch in the US EEZ occur in the time-area 
closures set forth in S. 1911.
    In order to achieve this extraordinary conservation benefit, 
however, the science indicated that a permanent, year-round closure of 
80,000 square nautical miles of ocean to pelagic longlining was 
necessary along the southeast Atlantic coast. But, the consequence of 
this action would be to completely destroy the fishing operations of 
about 68 pelagic longline vessels.
    In our view, S. 1911 provides the only fair and equitable means to 
address this problem. Consistent with the spirit and intent of National 
Standard 8, S. 1911 provides compensation to those fishermen that would 
be forced to sacrifice their livelihoods in the name of swordfish and 
billfish conservation. The bill logically requires all three 
stakeholders--the commercial industry, the recreational industry, and 
the government on behalf of the public's interest--to share in the 
cost.
    In the Gulf of Mexico, the data indicated that billfish bycatch 
reductions could be achieved by moving the longline fishery farther 
offshore during the summer months, away from areas with the highest 
concentrations of billfish. By carefully balancing the times and areas 
of these conservation closures with the need to provide enough room for 
the pelagic longline industry to prosecute a viable yellowfin tuna 
fishery further offshore, I think S. 1911 has again achieved the goals 
of National Standard 8 to both minimize adverse economic impacts and 
provide for the sustained participation of our Gulf fishing communities 
in this very important fishery.
    With that said, however, let me also share with you some of the 
perspective down at the docks in the Gulf longline fishery. No 
commercial fisherman will ever be thrilled with the idea of having to 
draw circles around gigantic areas of the ocean and declare that guys 
fishing with hooks attached to commercial longline gear cannot fish 
inside that circle, but guys fishing with the exact same hooks attached 
to sportfishing gear can fish inside the circle. Of course, I think it 
is safe to say they would be even less thrilled with the alternative of 
a longline ban--but that approach is completely irresponsible and 
without scientific merit.
    Despite these instinctive concerns, our Gulf yellowfin tuna 
longline industry is willing to do at least its share for swordfish and 
billfish conservation by giving this approach a sincere try while 
recognizing that it remains as yet untested and unproven. You have our 
commitment but, until the results of this experiment are in, our 
fishermen will remain necessarily cautious. The unanswered question for 
our fishermen is whether we will, in fact, achieve the fundamental 
objective of our MOU to reduce billfish and small swordfish bycatch 
mortality while preserving our ability to prosecute a healthy yellowfin 
tuna longline fishery outside of the closed areas.
    That is why the research component of this legislation is so 
important to our industry. We feel that there is great potential to 
achieve even greater billfish bycatch reductions than through vast 
time-area closures by making improvements to longline gear technology 
and fishing methods. We understand that is why the Gulf time-area 
closure set forth in S. 1911 is temporary and linked to the results of 
this research. We appreciate this research being a major emphasis of 
your legislation and a priority of our coalition partners.
    Finally, I ask for your indulgence to say something nice about our 
industry that doesn't get said very much these days. Contrary to the 
negative hype and rhetoric you may hear, U.S. pelagic longliners are 
among the most conservation minded people in the fishery management 
process today. They know that it is their own and their children's 
future that is at stake. They know it is in their best interests--more 
than anyone's--to strive for the most effective conservation measures 
that can be sustained by their industry. That is why they initiated the 
process that led to this legislation, and that is why time and time 
again they are at the forefront of international conservation advocacy 
at ICCAT. Last month at ICCAT it was again the US pelagic longline 
industry that led the charge and, almost unilaterally, made the 
conservation sacrifices necessary to achieve an international 10-year 
rebuilding plan for north Atlantic swordfish. For one, I am proud to be 
part of this industry.
    Again, I thank you again for introducing this important legislation 
and for this opportunity to testify. I would also like to recognize and 
thank your Louisiana colleague Congressman Billy Tauzin for joining 
Congressman Porter Goss in introducing a companion bill to your bill in 
the House of Representatives. We look forward to continuing our work 
with you and your excellent staff to get this legislation enacted as 
soon as possible.

    Senator Snowe. Thank you. Thank you very much, Mr. Loga.
    Mr. Miller.

STATEMENT OF FREDERIC L. MILLER, CHAIRMAN, GOVERNMENT RELATIONS 
          COMMITTEE, COASTAL CONSERVATION ASSOCIATION

    Mr. Miller. Thank you, Madam Chairman.
    My name is Fred Miller. I am an attorney from Shreveport. 
Like Senator Snowe, when I am down here, I am considered from 
being way up north.
    [Laughter.]
    Mr. Miller. I currently serve as Chairman of the Government 
Relations Committee for the Coastal Conservation Association, 
better known as CCA. This morning I would like to focus my 
testimony on three areas. First, I would like to tell you a 
little about CCA and how it operates. Second, I will address 
some of the issues we are concerned about in the upcoming 
Magnuson-Stevens Act reauthorization. And third is S. 1911, 
which Mr. Loga just spoke about, the legislation of which you 
and Senator Breaux are cosponsors.
    The Coastal Conservation Association is a leading marine 
recreational fishing group in the United States. Formed by a 
small group of sports fishermen in Houston in 1978, CCA has 
grown to a 15-State operation, with over 70,000 members. CCA 
learned long ago that Federal and International fisheries 
management were just as important to the local marine 
recreational fishermen as the conservation of the most local 
fish population.
    CCA pursues its conservation policies that are set by our 
State and National boards of directors. These boards consist of 
active volunteers concerned about the health of the Nation's 
fisheries. Our members in the Gulf are very interested in both 
red snapper and billfish.
    Recently, members of our Maine chapter met with you, 
Senator Snowe, and asked that you cosponsor S. 1911, and to 
include recreational fishing issues in your efforts to 
reauthorize the Magnuson-Stevens Act. I would like to thank you 
personally, on behalf of all of our members, for the attention 
you and your staff have shown about our concerns. And I would 
also like to thank my friend, Senator Breaux, for all the help 
he has been to all of the sportsmen in the State of Louisiana 
over the years, and particularly your help with S. 1911.
    CCA does not yet have a comprehensive position on the 
reauthorization of the Magnuson-Stevens Act. Our board will 
meet in February, and we will formulate our position at that 
time, and look forward to visiting with both of your staffs on 
those issues. However, we do have several issues that we can 
discuss today that need no further discussion among our 
membership before we can form a position.
    The first two issues that I would like to discuss involve 
the future of red snapper management. Red snapper management is 
one of the most complicated and controversial conservation 
issues in the country, as well evidenced by all of the 
testimony that you have heard here today. It involves the 
management of the directed fishery that at the moment has 51 
percent of a mere 9 million pound quota being caught by 132 
commercial vessels in a limited entry system. The remaining 49 
percent is caught by thousands of recreational anglers, using 
private and for-hire vessels.
    The Sustainable Fisheries Act includes two provisions that 
have become obstacles to the orderly management of the fishery. 
The first is the moratorium on the implementation of the ITQ 
system for vessel owners in the snapper fishery. CCA supports 
the furtherance of ITQs, and would recommend that the ITQ 
system be brought back into discussion as a viable management 
alternative of the snapper fishery in the Gulf.
    The moratorium, we think, makes no sense in the Gulf. If it 
makes sense some place else in the country, we do not believe 
that it makes any sense in the Gulf and the South Atlantic or 
the Southeast region, and should be allowed to expire for all 
fisheries in those two regions. In addition, we ask that the 
authority to authorize ITQs be clarified so that any interest 
may be eligible to purchase them on a willing buyer/willing 
seller basis. Entities outside the commercial sector should be 
allowed to retire the quota or transfer it to another sector.
    The second red snapper issue deals with the provision which 
requires a directed recreational fishery to be managed through 
a quota management system, similar to the kind used in most 
commercial fisheries. This is the most blatant anti-
recreational measure in the entire Act. It requires the red 
snapper recreational fishery to be over-managed and closed 
unnecessarily.
    No state fishery manager believes that recreational fishery 
management should be accomplished through the strict 
application of a quota, which, when reached, automatically 
closes the fishery. States do not use this system because 
recreational fisheries, unlike commercial ones, need to be 
managed differently to achieve stability, while maintaining 
conservation goals.
    Three fundamentals have to be understood to appreciate this 
difference. Recreational fisheries include thousands of 
participants. Some participants fish a lot. But most are part-
time and even occasional participants. They are used to 
seasons, minimum sizes and bag limits. They are not a highly 
regulated nor easily regulated group. As a result, they do not 
respond well to uncertainty in fishing regulations.
    The second fundamental flows from the first. Recreational 
catches are very difficult and expensive to count accurately. 
We have heard about the data and junk in and junk out. With 
respect to managing recreational fisheries on the data that is 
available, there is no real-time data. It is impossible to 
manage this fishery quota on the data, the MRFSS, that is 
available. NMFS cannot do this. They close this fishery on a 
guess. That is the best that they could ever hope to do.
    Last, the structure of the recreational sector is 
different. Recreational fishermen plan their year around their 
hobby. They gather friends, relatives and equipment to plan a 
fishing trip. If they charter a boat, they do it months in 
advance. This kind of activity is not compatible with reading 
the Federal Register to determine if the fishery has been 
closed, nor is it conducive to a long-term commitment on a 
charter when you do not know when the season will be opened or 
closed. It is detrimental to the recreational fishermen. It is 
likewise detrimental to the charter boat industry.
    CCA supports buying out excess capacity in the commercial 
industry. However, we do believe the commercial industry and 
the snapper fishery needs to be right-sized. We also support 
increased funding for the States for enforcement. I think we 
will find that increased funding for State enforcement will 
enable the Magnuson-Stevens Act to be better enforced rather 
than relying totally on the Coast Guard.
    With respect to S. 1911, I appreciate my friend Mr. Loga's 
comments. CCA got involved in the longline issue through the 
Blue Water Fishermen's Association. BWFA wanted to explore 
reducing the bycatch of billfish through closed areas if there 
was support for a buyout of the smaller vessels in the fleet. 
CCA was very interested in the concept. Our national board met 
three times on this issue, with very lively discussion going on 
in each one. And it was concluded in the final analysis that 
the approach taken in your bill was not only the right approach 
for the resource, but it was the only way that we could 
accomplish our basic conservation goals.
    The areas chosen for closure are a result of research done 
by the Billfish Foundation, which identified hot spots for 
billfish bycatch, and by the swordfish industry, which 
indicated areas where small swordfish catches are found. The 
data used to identify these areas shows that the closures will 
have a number of positive impacts on bycatch. The preliminary 
estimates are that it will reduce U.S. longline bycatch in the 
EEZ by 50 percent for sailfish, 45 percent for blue marlin, and 
20 percent for white marlin.
    In addition, it will have a positive impact on the bycatch 
of sharks, tunas, small swordfish, dolphin--or mahi-mahi--, 
wahoo, and other species. It will reduce the U.S. swordfish 
fleet by about one-third. Since these vessels also fish in 
other domestic fisheries from which they will be precluded, the 
buyout will have some positive impact on the snapper, shark, 
grouper, and mahi-mahi fisheries.
    Internationally, it will set a precedent, allowing the 
United States to negotiate the international closing of open 
ocean spawning and small swordfish areas. These closures will 
further assist in reducing the international fleet exploitation 
of billfish.
    CCA has always looked at resource issues to determine what 
gains can be made and how those gains will improve recreational 
fishing. We are not willing to stand back and avoid achieving 
improvements because someone else is responsible for the 
damage. We are willing to pay a share in the buyout of these 
displaced longline boats, because we are getting a benefit.
    I want to thank you again for allowing me to testify, and I 
appreciate your time. Thank you.
    [The prepared statement of Mr. Miller follows:]

    Prepared Statement of Frederic L. Miller, Chairman, Government 
         Relations Committee, Coastal Conservation Association

Good morning Madam Chairman:

    My name is Fred Miller and I am the Chairman of the Government 
Relations Committee for the Coastal Conservation Association (``CCA''). 
This morning I'd like to focus my testimony on three areas. First, I'd 
like to tell you a little about CCA and how it operates. Second, I'll 
address some of the issues we are concerned about in the upcoming 
Magnuson-Stevens Act reathorization, and third is S. 1911, legislation 
that you and Senator Breaux both cosponsored.
    The Coastal Conservation Association is the leading marine 
recreational fishing group in the United States. Formed by a small 
group of sportfishermen in Houston in 1978, CCA has grown to a fifteen-
state operation with over 70,000 members. Each of our states operates 
somewhat independently focusing on issues in the state that are 
important to marine recreational fishermen. However, like so much in 
fisheries management, conservation issues encompass a regional and 
national perspective, therefore, CCA learned long ago that federal and 
international fisheries management were just as important to the local 
marine recreational fishermen as the conservation of the most local 
fish population.
    CCA pursues conservation policies set by our state and national 
Boards of Directors. These boards are made up of active volunteers 
concerned about the health of the nations fisheries. CCA has been 
active in a number of conservation issues in the last twenty years, 
including: all of the east and gulf coast net bans; gamefish status for 
redfish, speckled trout, tarpon, striped bass, river shad, marlins 
spearfish and sailfish; and, the reduction of bycatch through the use 
of closed areas and technology. In the Gulf we are most interested in 
red snapper. We have also pushed for the improvement of the management 
system through the restructuring of state and federal management 
systems; the elimination of conflicts of interests by decision-makers, 
and the active involvement of our membership in the management process.
    Recently members of our Maine chapter met with you and asked you to 
cosponsor S. 1911 and to include recreational fishing issues in your 
efforts to reauthorize the Magnuson-Stevens Act. I'd like to thank you 
personally on behalf of all of our members for the attention you and 
your staff has shown to our concerns. I would also like to thank the 
senior Senator from Louisiana, Senator Breaux, for all of his help in 
recreational issues and particularly for his leadership in S. 1911.

MAGNUSON-STEVENS ACT

    CCA does not yet have a comprehensive position on the 
reauthorization of the Magnuson-Stevens Act but it will have one early 
next winter. We would like to brief you and your staff then. However, 
we do have some issues to raise with you now that need no further 
discussion among our membership before we can form a position.
    The first two issues I'd like to discuss involve the future of red 
snapper management. Red snapper management is one of the most 
complicated and controversial conservation issues in the country. It 
involves the management of a directed fishery that at the moment has 51 
percent of a mere 9 million pound quota being caught by 132 commercial 
vessels in a limited entry system. The remianing 49 percent is caught 
by thousands of recreational anglers using private and for-hire 
vessels. In addition, substantial mortality of juvenile snapper still 
exists in the bycatch of the shrimp fishery. Shrimp vessels are now 
required by federal law to carry bycatch reduction devices (BRDs) 
throughout most of the Gulf. In state waters, most of the Gulf States 
now have or are proposing measures to require their use. In addition, 
the Gulf Council is considering extending the use of BRDs to the 
eastern Gulf. These measures, along with a possible bycatch quota for 
the shrimp industry, offer substantial promise for the rebuilding of 
the red snapper stock.
    These measures have all been taken as a result of the Hutchison 
amendment to the Sustainable Fisheries Act (``SFA'') in 1996. That 
amendment allowed the Gulf Council to treat bycatch from the shrimp 
industry just like the bycatch of every other fishing fleet in the 
country. It allowed what Senator Breaux endorsed in principle in his 
floor statement the night before final passage--namely, allowing the 
councils, not Congress, to deal with complex fishery management 
problems. The SFA, however, included two provisions that have become 
obstacles to the orderly management of the fishery.
    The first is the moratorium on the implementation of an individual 
transferable quota (ITQ) system for vessel owners in the fishery. At 
the time the Act passed, the Gulf Council had adopted and the 
Department of Commerce had sent to the Federal Register a system to 
rationalize the harvest sector in this fishery. The continuation of the 
ITQ moratorium will only frustrate the full rationalization of this 
fishery. If the moratorium makes sense someplace else in this country, 
it doesn't make any sense here and we would ask that it be allowed to 
expire for all fisheries under the Gulf and South Atlantic Council's 
jurisdiction. In addition, we ask that the authority to authorize ITQs 
be clarified so that any interest may be eligible to purchase them on a 
willing buyer/willing seller basis. Entities outside the commercial 
sector should be allowed to retire the quota or transfer it to another 
sector.
    The second red snapper issue deals with section 407 (d), which 
requires the directed recreational fishery to be managed through a 
quota management system, similar to the kind used in most commercial 
fisheries. This is the most blatant anti-recreational measure in the 
entire Act. It requires the red snapper recreational fishery to be 
over-managed and closed unnecessarily. No state fishery manager 
believes that recreational fishery management should be accomplished 
through the strict application of a quota which, when reached, 
automatically closes the fishery. They don't use this system in the 
states because recreational fisheries, unlike commercial ones, need to 
be managed differently to achieve stability while maintaining 
conservation goals.
    Three fundamentals have to be understood to appreciate this 
difference. Recreational fisheries include thousands of participants. 
Some participants fish a lot, but most are part time and even 
occasional participants. They are used to seasons, minimum sizes and 
bag limits. They are not a highly regulated or easily regulated group. 
As a result, they do not respond well to uncertainty in fishing 
regulations. The second fundamental flows from the first. Recreational 
catches are very difficult and expensive to count accurately. Ask the 
National Marine Fisheries Service (``NMFS'') about the accuracy and the 
value of the MRFFS data as an in-season management tool. It is, at 
best, an estimate and not a very accurate one, unlike log data and 
landing statistics used in the commercial sector. Lastly, the structure 
of the recreational sector is different. Recreational fishermen plan 
their year around their hobby. They gather friends, relatives and 
equipment to plan a fishing trip. If they charter a boat, they do it 
well in advance. This kind of activity isn't very compatible with 
reading the Federal Register to determine if the fishery has been 
closed.
    The flexibility to manage recreational fishing is available in 
every fishery managed at the federal level except this one. Let's do 
what Senator Breaux suggested should be done in 1996. Let's leave to 
the councils the job of developing the right management measures for 
each of the region's fisheries and stop restricting them from doing 
their job.
    No management is successful without a strong enforcement program. 
CCA would like to endorse the concepts in the testimony from the State 
of Louisiana. Integrated enforcement by all of the federal and state 
arms is necessary to achieve sound conservation. Congress needs to 
support the state component of this network to allow them to be a 
functioning part of the system. In the Gulf it is absolutely necessary 
to have dockside enforcement if our conservation laws will be 
effective. To do that we need the cooperation and active support of 
state enforcement.
    Lastly, CCA supports buying out excess capacity in the commercial 
industry. On the whole we have not approved of the NMFS approach of 
reverse auctions which seemed to be disconnected with necessary 
conservation objectives. However, we do believe that the commercial 
industry does need to be right-sized. There are too many commercial 
vessels and in many places these vessels have a disproportionate share 
of the resource. Right sizing is necessary to achieve many of the 
conservation objectives and harvest reallocations necessary to benefit 
our marine resources in the next century. At a minimum, we need to 
authorize parties other than commercial fishermen to participate in 
buyouts. We need to consider mechanisms that would allow for the free 
market transfer of quota and the reallocation of quota based on 
something other than the present traditional economic factors. We 
intend to work with the Committee to fashion such an amendment.

S. 1911 ATLANTIC HIGHLY MIGRATORY SPECIES ACT OF 1999

    Let me take this opportunity to thank both of you on behalf of our 
membership for your help and leadership in this issue.
    CCA got involved in this issue through the Blue Water Fishermen 
Association. BWFA wants to explore reducing the bycatch of billfish 
through closed areas if there was support for a buyout of the smaller 
vessels in the fleet. CCA was very interested in this concept. Our 
national Board met three times on this issue and concluded that the 
approach taken in your bill was not only the right approach for the 
resource it was the only way we could accomplish our basic conservation 
goals. As a result, we instructed our General Counsel to enter into 
negotiations with Blue Water and to build a coalition of other like-
minded conservation groups. These negotiations led to a Memorandum of 
Understanding among CCA, BWFA, the American Sportsfishing Association 
and The Billfish Foundation, which was signed in August. The MOU 
contained many of the principles found in your legislation and formed 
the basis for the working relationship the participating groups have 
today.

The bill you introduced does the following:

        1. Permanently closes an area from the North Carolina/South 
        Carolina border to Key West, Florida to all pelagic longlining.

        2. Permanently closes an area off the Gulf coast from Panama 
        City, Florida to Mobile, Alabama to longlining from January 
        through Labor Day.

        3. For five years after enactment, it closes an area in the 
        Gulf from Cape San Blas, Florida to Brownsville, Texas from 
        Memorial Day to Labor Day from the beach out to at least 500 
        fathoms.

        4. Provides for a three-year research program with the longline 
        fleet to determine ways to further reduce bycatch by 
        longliners. This research will provide the basis for a 
        permanent solution for longline bycatch, which can be 
        implemented at any time by either the agency or the Congress.

        5. Offers to buy all fishing permits from 68 eligible vessels 
        on a willing buyer/willing seller basis. In order to be 
        eligible, a vessel must receive at least 35 percent of its 
        income from a permanently closed area.

        6. Vessels will be prevented from reflagging or fishing in any 
        other commercial fishery including state water fisheries.

        7. Vessel owners will be compensated by payment for all fishing 
        licenses (federal and state) and for forfeiture by the vessel 
        of its fisheries endorsement. Vessels not documented will be 
        prevented from being sold into any other commercial fishery.

        8. Total cost could approach $25,000,000. Funding will be 
        through the National Marine Fisheries Service--$15,000,000 if 
        appropriated funds and $10,000,000 provided by the Federal 
        Financing Bank. Funds will be provided only to vessel owners 
        who can document landings and their value. Owners will be paid 
        $125,000 for their permit packages and an additional payment 
        equal to one year's gross landings value not to exceed a total 
        of $450,000.

        9. The Federal Financing Bank will be repaid with $10,000,000 
        split 50/50 between the recreational community and the longline 
        industry.

        10. The longline industry will repay its obligation through a 
        surcharge collected at the dealer level. The recreational 
        community will repay its obligation through the issuance of a 
        federal license to vessels fishing for highly migratory species 
        in the closed areas. The bill establishes a system for states 
        to voluntarily elect to pay the debt for their fishermen.

        11. The bill will provide that the permits can be obtained at 
        any post office, retail outlet, on the Internet or through a 1-
        800 number system. The permits will issue to the boat and will 
        not be transferable.

        12. The bill includes requirements for vessel monitoring 
        devices and enhanced observer coverage.

        13. The research program will include a special emphasis off 
        the mid-Atlantic in the event of displacement there of existing 
        vessels as a result of the closed area.

    The areas chosen for closure are a result of research done by The 
Billfish Foundation, which identified hot spots for bycatch, and by the 
swordfish industry which identified areas where small swordfish catches 
are found. The data used to identify these areas shows that the 
closures will have a number of positive impacts on bycatch. The 
preliminary estimates are that it will reduce U.S. longline bycatch in 
the EEZ by 50 percent for sailfish, 45 percent for blue marlin and 20 
percent for whites. In addition, it will have a positive impact on the 
bycatch of sharks, tunas, small swordfish, mahi mahi, wahoo and other 
species. It will reduce the U.S. swordfish fleet by about one-third. 
Since these vessels also fish in other domestic fisheries from which 
they will be precluded, the buyout will have some positive impact on 
the red snapper, shark, grouper and mahi mahi fisheries.
    Internationally, it will set a precedent allowing the U.S. to 
negotiate the international closing of open ocean spawning and small 
swordfish areas. These closures will further assist in reducing the 
international fleet exploitation of billfishes.
    CCA and its partners have been praised and maligned for their 
efforts. Most of the criticism has been from groups that do not 
understand the legislation or are looking for solutions that are not 
attainable. I'd like to address some of those criticisms.
    ``Why are recreational fishermen buying out longliners who 
destroyed the fishery?'' One of the earliest votes taken by CCA on the 
negotiation was whether we as recreational fishermen were willing to 
pay for some of the buyout of the longline fleet. The vote was 
unanimous. CCA has always operated on a principle that we were willing 
to put our money where our conservation mouth is. We have had any 
number of instances in which CCA has directly participated in the buy-
out of gear and licenses through the contribution of funds by our 
members or as an organization. As an example here in Louisiana, we 
supported legislation that placed a surcharge on recreational fishing 
licenses to provide funds for commercial fishermen impacted by the net 
ban. In Texas, we made direct contributions to the state to buy-out bay 
shrimp licenses.
    CCA looks at resource issues to determine what gains can be made 
and how those gains will improve recreational fishing. We are not 
willing to stand back and avoid achieving improvements because someone 
else is responsible for damage. We are willing to pay because we are 
getting a benefit.
    ``There is no conservation benefit.'' Approximately 52 percent of 
the total small swordfish bycatch reported by US pelagic longline 
fishermen in the US EEZ occurs in the three proposed closed areas. 
Similarly, approximately 31 percent of the total billfish bycatch 
reported by US pelagic longline fishermen in the US EEZ occurs in these 
three areas combined. In addition, these closed areas will reduce the 
longline catch of other species including mahi mahi.
    ``The vessels have already left the areas being closed.'' Prior to 
entering into the MOU, The Billfish Foundation commissioned a study by 
Dr. Phil Goodyear to look at the biological effects of time and area 
closures on the reduction of bycatch in the tuna and swordfish longline 
fleets. Dr. Goodyear looked at thousands of data sets from longline 
vessels in the south Atlantic and the Gulf to determine where and when 
the greatest reductions could be achieved if areas were closed. That 
data was used to determine which areas should be closed. In addition, 
in the Gulf the objective was to address the area of the greatest 
billfish bycatch and the recreational and longline fleet interaction 
without displacing the longline fleet to new areas of the Gulf or the 
Caribbean.
    ``There will be displacement of the fleet to the mid-Atlantic 
bight.'' There are two issues here. The first is the impact of the 
vessels being bought out and the second is the potential for more 
effort in the mid-Atlantic as a result of the closed areas.
    A substantial portion of the negotiation over the MOU was spent 
discussing how to avoid the displacement of the eligible vessels to any 
fishery. The provisions in the bill, which restrict the vessels 
accepting the buyout from participating in any commercial fishery, were 
a result of those discussions. Vessels will be required to forfeit all 
of their state and federal fishery permits. In addition, the vessels 
will be required to permanently forfeit their fisheries endorsement, 
which will restrict any subsequent owner from placing the vessel in a 
commercial fishery. The vessels are also prevented from reflagging. 
Since these vessels are in limited entry systems this will reduce the 
number of licenses in the swordfish, tuna, shark and red snapper 
fisheries. None of these vessels will ever again carry a longline.
    ``This won't help get a rebuilding plan for swordfish.'' This bill 
is not intended as the exclusive measure to achieve a rebuilding plan 
for swordfish. The bill's aim is to reduce the harvest of small 
swordfish and billfish. However, it will greatly assist in the 
achievement of an Atlantic-wide recovery that was just negotiated at 
the recent ICCAT meeting in Rio. ICCAT agreed with the United States 
that it would adopt a ten-year rebuilding program for swordfish. That 
agreement came at some substantial cost to the domestic swordfish 
industry. In addition to taking a quota reduction, the domestic 
industry agreed to phase down its allowable discard of small swordfish. 
Without this concession by the industry, no deal approaching a ten-year 
rebuilding plan was possible.
    Taken as a whole, the U.S. industry will take a quota reduction 
approaching 20 percent over the next three years, while other fishing 
fleets from the EU and Japan will take considerably less of a cut. I 
believe that the existence and the potential for eventual passage of 
this legislation gave the industry the support to make this sacrifice.
    ``Why not let NMFS close areas?'' Earlier in my testimony I spoke 
of red snapper and the need to allow the Councils and not the Congress 
to manage fisheries. CCA strongly endorses this principle and has 
conducted its activities to ensure the minimum amount of federal 
interference in fisheries management. Given that, you might ask why we 
are supporting a legislative approach to the address longline bycatch 
when the National Marine Fisheries Service is in the process of 
proposing rules that will do just that. The reason is that NMFS does 
not have the authority under the Magnuson-Stevens Act to accomplish 
what can be accomplished through your bill. As Penny Dalton will tell 
you, the bill you have introduced goes well beyond what NMFS can 
accomplish through rulemaking.
    NMFS can clearly close areas to longlining, however, in doing so 
they must take several factors into consideration, including the 
economic impact on the longline fishery and the biological impact on 
other fisheries if the closed areas result in the displacement of 
vessels. They have no authority to buyout displaced vessels and 
therefore have to adjust the area they are proposing to mitigate the 
impact on the industry and other fisheries. This mix of considerations 
is best described by comparing the NMFS proposal for the Gulf of Mexico 
presented to the HMS AP in June and the S. 1911 Gulf closure. What NMFS 
proposed was to close an area in the Western Gulf from about Port Eads 
westward to the Mexican boarder for the months of June, July and 
August. This will have a significant biological benefit for billfish in 
the western Gulf and could have a positive impact on the spawning 
populations of bluefin tuna. It will, however, displace the entire 
western Gulf longline fleet to the eastern Gulf during that period. CCA 
members in Texas will enjoy substantially improved recreational 
billfishing and will be effectively free of any longline interaction. 
However, our members in Louisiana, Mississippi, Alabama and Florida 
will get to enjoy an even greater interaction with the longline fleet 
as they shift their effort to the east. Your bill is designed to 
prevent the lateral displacement of the fleet in the Gulf and by 
pushing the longline effort further offshore it creates separation of 
the two activities and produces a positive conservation effect.
    On the East Coast this is even more dramatic. Your bill proposes a 
permanent closure on the East Coast from Key West to North Carolina. It 
assumes that there will be a number of vessels displaced as a result 
and offers to buy them out of all commercial fishing rather than allow 
them to shift their effort. NMFS can close the same area or even one 
larger, but when they do, they will simply send the effort elsewhere 
either to the Gulf or the mid-Atlantic. The alternative would be to 
reduce the size of the closure thereby reducing the potential for 
displacement, but also reducing the conservation benefit. Neither of 
these two results is going to make recreational fishermen happy.
    The answer is absolutely clear to us. If we can get the kind of 
meaningful conservation that is in your bill then we wanted to be part 
of passing it. Thank you again for your leadership and allowing us to 
testify.

    Senator Snowe. Thank you all very much for your outstanding 
testimony.
    I will start with you, Mr. Miller and Mr. Loga, and we will 
work this way. Let us talk about the legislation, S. 1911, and 
where to go from here based on what has happened with the 
agency, the proposed rule that was issued yesterday, and a May 
2000 deadline for a finalized rule.
    Mr. Miller. I just put a copy of the proposed rule between 
Mr. Loga and me. I got it on the fax late, late yesterday 
afternoon.
    Senator Snowe. I think Senator Breaux and I both agree that 
it is really remarkable, or regrettable, that organizations 
like yours were not informed, since you had participated in 
developing this legislation and were not informed about this 
legally binding court order that was reached between the agency 
and the environmental groups that has now resulted in an 
ironclad rule by May of next year.
    Mr. Miller. That would appear to be what their constrained 
agreement is.
    Senator Snowe. Exactly. Mr. Loga, how many in your 
organization would have utilized the buyout option?
    Mr. Loga. I think there are about 68 vessels. I am not sure 
if all of them are in the organization, but they are longline 
vessels that are eligible for a buyout.
    Senator Snowe. Do you think this agreement is possible 
without a buyout?
    Mr. Loga. I do not think so. I do not know where you can 
displace some of these vessels that are only 40 to 45 feet. 
When you are closing down that much area of an ocean, I think 
it would be difficult for some of these vessels just to go 
outside the areas. Possibly some of the boats in the Gulf can 
move to other areas, but the East Coast boats, I see it 
impossible for those guys to be able to move 200 or 300 miles 
to fish.
    Senator Snowe. So you were very surprised about the result?
    Mr. Loga. I think that is probably an understatement. 
Having worked with the National Marine Fisheries Service 
working through this legislation, I was totally disappointed 
with what happened. I took a lot of flack at the docks with the 
boats, just simply by telling them we were working with 
National Marine Fisheries Service on this. And every one of 
them said the same thing: You cannot trust NMFS. You cannot 
trust NMFS.
    And the whole time I was sitting there telling them: No 
problem, guys. We have got this worked out. They are on our 
side this time.
    And last Monday, when I found out that they had I guess 
come to an agreement with another environmental group, I was 
shocked. I was totally surprised that this came up. I could not 
believe that it happened. I guess I probably could believe that 
I was not told, but I was even more surprised when I found out 
that you guys were not told. It is almost a slap in the face to 
all of us. We worked real hard.
    If you can imagine pulling the longline industry into one 
room with the Billfish Foundation, the CCA, the American Sports 
Fishing Association, and Blue Water, and having all of us not 
kill each other, but agree to something, it was amazing that we 
came up with this. I am really proud of everybody, how hard 
they worked on this whole thing.
    Senator Snowe. Well, you should be. We all are. It is 
extraordinary to bring such disparate groups together, who were 
willing to take these steps to preserve valuable highly 
migratory species and reach an agreement that ultimately 
affects the livelihoods of many. At the same time, I thought 
the legislation was a very fair and balanced approach, given 
what was at stake.
    Mr. Loga. I do not actually know where to go from here, 
with the National Marine Fisheries Service doing this. Is my 
next step to get an attorney, just to watch these guys and see 
what they are doing? Is that the way we are going to run the 
fishery management process today?
    I would hope that this legislation would go through. I 
would hope that National Marine Fisheries Service would back 
off of the proposed rule. A seven-month closure to our industry 
will devastate it. Just giving the western Gulf of Mexico as an 
example, they closed, basically, from Grand Isle, Louisiana, 
west to Brownsville, Texas in the Gulf of Mexico, in an effort 
to save billfish bycatch.
    Well, what they did was basically, the reported bycatch 
that was caught in that area was seven-tenths of 1 percent that 
the U.S. actually reported to ICCAT of billfish bycatch. What 
they also did by saving that seven-tenths of 1 percent is 
eliminate 72 percent of the yellowfin tuna fishery in the Gulf 
of Mexico.
    And not only did they eliminate that fishery, what they did 
was effectively move the boats from the western Gulf and put 
them in the eastern Gulf, where the problem of undersized 
swordfish was in the first place. I see no science at all 
behind this. And I cannot even believe that they would be that 
bold to do that. They effectively made the problem worse.
    Senator Snowe. Ms. Dalton was saying earlier that these 
areas were very similar to those legislation identified. What 
is your response to that?
    Mr. Loga. That is not correct. I do not have the exact 
coordinates on me, but basically it covers the entire EEZ, from 
90 degrees west, all the way down to 26. So it is a significant 
difference.
    Mr. Miller. Senator Snowe, the biggest problem that I see 
with the proposal is just as Mr. Loga says, it closes from the 
90 degree meridian west, which leaves everything else in the 
eastern Gulf open. Which will push the participants in the 
longline fishery to the east, which will create additional 
problems.
    The fundamental difference and the fundamental thing, and 
Senator Breaux pointed it out, is that NMFS cannot do anything 
about the displaced fishermen. All NMFS can do is push them 
around. They will push them to the east in the Gulf and they 
will push them to the north in the Atlantic.
    Your bill is going to give those folks an opportunity to, 
if they choose--it is not mandatory--if they choose, to opt 
out, to cash out and get out of the fishery, since they cannot 
fish in the closed areas. It will address the socioeconomic 
problems. NMFS has not addressed those. NMFS, if they got sued 
over not closing this area, they are going to get sued over 
this rule, because they did not address the socioeconomic 
issues.
    It is a faulty plan. It certainly flies in the face--it 
took--and I do not mean to say it took--nine months of work 
went into this memorandum of understanding that Mr. Loga has 
put in the record, nine months of work, unprecedented work, 
between very disparate organizations. One of the first times 
that the recreational community and the commercial fishing 
community have been able to sit down and agree on anything 
other than let us fight. It is unprecedented.*
---------------------------------------------------------------------------
    * The information referred to was not available.
---------------------------------------------------------------------------
    Your legislation is monumental. I am absolutely appalled at 
this rule that NMFS has pushed in at this 11th hour.
    Senator Snowe. We share your deep frustration.
    Mr. Lyons and Mr. Perret, may I ask you a question that you 
both mentioned. I also raised EFH issues earlier with Ms. 
Dalton. There did not seem to be any recognition that EFH was a 
problem, with regard to permitting delays or other 
implementation issues. You cited, Mr. Perret, in your testimony 
two examples of the types of permit applications that were 
delayed.
    What happened? What was the outcome of those two 
applications?
    Mr. Perret. I used two extreme examples to make my point. 
NMFS did not identify that as essential fish habitat. However, 
in the Corps' public notice process, the statements there, the 
detrimental impact to penaeid shrimp and red drum, that is just 
another agency who is commenting. If it is in the coastal area, 
they are going to comment anyway. But this is well above the 
coastal area. But those permits were not held up or were not 
denied because of the essential fish habitat on the Mississippi 
River levee and the home site in East Baton Rouge Parish.
    But, again, Mr. Lyons pointed out hurricane protection, 
coastal erosion type projects, some of them are being impacted 
by this essential fish habitat designation.
    Senator Snowe. So where are the delays, Mr. Lyons? I know 
there is duplication and there are consultation requirements. 
So is it the time required to consult among agencies? Are you 
having to go back over the same old ground, so to speak?
    Mr. Lyons. It is the additional review time required under 
these new essential fish habitat guidelines that concern us. I 
know of no permits that have been denied.
    Senator Snowe. They are delayed?
    Mr. Lyons. The problem that we have, and have had in past 
years, with Corps of Engineers permits and coastal zone permits 
is delay. And delay is money. For our industry, money is 
extremely important at this juncture in our history.
    If I might say, we need a domestic oil and gas industry. 
And we are losing that domestic oil and gas industry. And it is 
because, at least in part, of regulatory constraints. And I 
have seen, having been a second-generation oil person--my 
parents are from Crowley, my father was a geologist--the boom 
here and I see what is happening here now. And it does not have 
to happen.
    The Gulf of Mexico holds the most promise in the United 
States, reasonable promise, for energy development. We need to 
be able to develop the Gulf. But delays resulting from programs 
like this make companies look outside the United States. This 
is just one straw. I will admit, it is not the only straw. It 
is just one straw in a truckload of straw that makes people 
look elsewhere for development opportunities.
    So hopefully we will not see denial of permits. It is 
simply going to result in additional delays. And those delays 
are very, very important. There is no reason, for example, to 
look at a permit in Baton Rouge as affecting essential fish 
habitat, 182 miles north of the coast of Louisiana.
    When we heard the term ``essential fish habitat,'' we 
thought we were talking about discrete areas that were 
essential and critical to fish development. These other areas 
are already covered by the Corps of Engineers program and the 
coastal zone program. They are adequately covered, and NMFS 
participates in those discussions. They fully participate in 
every coastal zone permit that is issued in the State of 
Louisiana, every Corps of Engineers permit that I know of. So 
there is no need to have an additional opportunity for delay.
    Senator Snowe. Thank you.
    Dr. Wilson, you mentioned defining essential and 
nonessential fish habitat, if it can be quantified. The 
question is, can it be?
    Dr. Wilson. I think so.
    Senator Snowe. We have heard this recommendation in some of 
our other previous hearings. How would we go about that?
    Dr. Wilson. Well, as I had mentioned, there are a number of 
new techniques coming online using acoustics, side-scan sonar, 
dual-beam hydro acoustics, and satellite remote sensing. And I 
think that that can establish an index to qualify the habitat, 
and then we can look at fish life history stages and fish 
abundances associated with those various areas, and develop 
indexes along this continuum.
    But just to say that the entire Gulf of Mexico is essential 
fish habitat has pretty significant ramifications for the 
future.
    Senator Snowe. Do you think that the EFH provisions should 
be changed in the Act?
    Dr. Wilson. I think it would be helpful, yes.
    Senator Snowe. A distinction between essential and 
nonessential?
    Dr. Wilson. Well, a distinction along some continuum. But I 
do not know whether you want four, five, six, eight, ten, 
different levels.
    Senator Snowe. Is the definition in the Act too broad, or 
is the implementation the problem?
    Dr. Wilson. I think it is a little bit of both actually. I 
know the National Marine Fisheries Service, during some 
preliminary rulemaking, was trying to develop some index 
continuum. But I think a lot more work needs to be done in that 
area.
    Senator Snowe. Can you explain how the habitat areas of 
particular concern are treated? Is focusing on HAPCs a better 
way of approaching it?
    Dr. Wilson. Well, that at least gives it a priority. I saw 
that was used in the New England Council's definition of some 
groundfish habitat. And they identified some areas where 
reproduction of cod was taking place and maybe scallop beds 
occurred. That certainly helps to say, well, this is real 
important habitat as opposed to the fact that fish occur here. 
It does not make it as important. But I think certainly a lot 
of work needs to be done. And we go back to good science for 
that, of course.
    Senator Snowe. Senator Breaux.
    Senator Breaux. Thank you, Madam Chair. I am going to be 
checking some essential duck habitat tomorrow.
    [Laughter.]
    Mr. Perret. Watch that steel shot when you eat that duck.
    [Laughter.]
    Mr. Perret. Or do you use lead?
    [Laughter.]
    Senator Breaux. Let me just follow up on the same line of 
thought here. I think you all make a good point. We should be 
required to determine what essential fish habitat is. Just to 
say the entire Gulf is essential means there is nothing that is 
not essential. I think you are right, it was an effort to try 
and get special attention to areas of special importance, but 
not just to say the entire Gulf is EFH. It loses its 
effectiveness if it is just a blanket statement that everything 
that is wet is an essential fish habitat.
    Mr. Lyons' comment is that on every permit for activities 
in the Gulf of Mexico for instance, the National Marine 
Fisheries Service already has had the opportunity to comment 
under other laws. And NMFS can say no, they do not want you to 
build a platform here because this is essential fish habitat. 
It is interesting that most of the rigs themselves eventually 
become essential fish habitats, as shelter for smaller fish in 
the food chain that live near the rigs, and food for larger 
fish that then come to feed there.
    So I think it is worth us looking at trying to make this 
work better. Dr. Wilson, what is the good thing about having an 
essential fish habitat designated?
    Dr. Wilson. I think that for the first time we are actually 
focusing on--my original interpretation, when I was first 
looking into the Act, and we were talking about it in our 
class--for the first time, we are actually identifying those 
areas that are very critical to different life history stages 
of the fish that we depend on. Where is the red snapper habitat 
that is most critical for their survival?
    Unfortunately, it appears to be areas that shrimpers may or 
may not have an impact on. But that is a critical life history 
stage that we need to know more about, the rubbled, low relief 
bottom where the juvenile seem to occupy.
    Senator Breaux. Sometimes I think, looking out into the 
future, the designation of an essential fish habitat is a means 
of trying to use management tools other than excluder devices 
or quotas, by just closing up areas of essential fish habitat. 
Such EFH designations would pevent interference by people who 
are fishing in those areas. If you have an area that is more 
sensitive to a particular species that is threatened, for 
instance, you could keep your shrimpers away from there, but 
not require them to pull TED's.
    If you know an essential fish habitat for turtles, as a 
matter of fact, do not go shrimp over here, but you can shrimp 
everywhere else and you do not have to carry all kind of nets 
behind you with excluder devices on them. So I think that there 
is some potential in this method of designation.
    Now, I understand that Mr. Lyons's concern is that they 
already have to go through the permitting process. They can 
look at this. You go through it under one Act. You go through 
it under another Act. Do you have to do the same thing under a 
third act? It may not be necessary. So I think Senator Snowe 
and I certainly will be looking at ways to make it work, but 
without the unnecessary bureaucratic rules that are there.
    Mr. Loga and Mr. Miller, I am just glad to see you all at 
the same table. Normally, we have to put you guys at this end 
of the table and the other one on this end of the table, and 
about three or four witnesses in between you to keep the 
recreational and commercial fishermen from battling each other. 
But what you all have done is truly amazing. And that is the 
way it should be done. That is the way to solve these problems 
between recreational interests and legitimate commercial 
interests. Both of you have a legitimate interest in the Gulf 
of Mexico.
    And to come up with a plan that would allow your people to 
actually go out of business, to be compensated for it, but to 
get out of a business that may be a family tradition in order 
to help preserve and protect recreational fishing is an amazing 
achievement. Maybe that agreement made the--let me see who the 
plaintiffs were who sued NMFS--maybe it made the Earth Justice 
Legal Defense Fund happy.
    [Laughter.]
    Mr. Loga. Whoever they are.
    Senator Breaux. Whoever they are.
    But it did not make the people who sat at the table happy, 
who negotiated this bill, who are actually involved with the 
issues on a day-to-day basis, your recreational fishermen and 
people who actually are catching the tuna. So we are going to 
continue to push this.
    Mr. Miller. I would note for the record, Senator, that this 
joint motion for stay in this lawsuit is dated October 5, 1997, 
which was shortly after this memorandum of understanding went 
public.
    Senator Breaux. Your memorandum?
    Mr. Miller. Yes, Your Honor.
    [Laughter.]
    Mr. Miller. Yes, Senator.
    [Laughter.]
    Mr. Miller. Excuse me. I am an old lawyer. I call everybody 
that sits higher than me Your Honor.
    [Laughter.]
    Senator Breaux. We have been called a lot worse, I will 
tell you. We thank you for the compliment.
    [Laughter.]
    Senator Breaux. We accept it completely. We do not get 
called that a lot.
    We congratulate you and want you to continue. Do not get 
too disappointed. I think our proposal is ultimately going to 
happen, the way it should happen.
    Corky, do you want to come back to Louisiana, or are you 
all right over there?
    Mr. Perret. Everything is good in Mississippi.
    [Laughter.]
    Senator Breaux. Thank you for your continued long-time 
help. If anybody can be on the Council as long as you have, 
have voted as many times as you have, and still be liked by the 
industry, they have got to be doing something right. And I 
thank you for it.
    Mr. Perret. Thank you.
    Senator Breaux. I thank the whole panel.
    Senator Snowe. Yes, thank you all. Thank you very, very 
much.
    Senator Breaux. The chairman has said that she would be 
willing, and I would also, to hear other comments on the 
reauthorization and on the bill. I think we have had some great 
presentations and everybody, I think, has had a chance to be 
heard on this. But if there are some additional comments that 
can be summarized maybe by a comment or two, I think the 
chairman has indicated that she would be willing to take those. 
If anybody would like to come up to that microphone right 
there, we would be happy to hear from you.
    Just identify yourself for the record. I want to make sure 
the record has your name.

STATEMENT OF MAUMUS CLAVERIE, MEMBER, GULF OF MEXICO FISHERIES 
                       MANAGEMENT COUNCIL

    Dr. Claverie. Madam Chair, Senator Breaux, thank you for 
the opportunity to speak. I am Maumus Claverie. I am interested 
in this process.
    I am on the Gulf Council for the second go. The first go 
was in the early 1980's, when 90 percent of the effort was a 
turf battle between agency and civilians. Things have improved 
a bit.
    I wanted to comment on a few things. First is your longline 
bill, Senate Bill 1911. I just saw the map that NMFS has in 
their regulation. And in the Gulf of Mexico, their line is much 
worse than your line. So I do not think you will have much 
competition there. But on that bill, the last iteration I saw 
allowed the vessels that are bought out to participate in the 
charter fisheries in the Gulf or elsewhere, but not in any 
other commercial fishery.
    And I would urge that you not let them participate in the 
charter fishery in the Gulf. You have heard testimony today 
about how crowded that is already. And the Gulf Council was 
concerned about additional participation in that fishery 
through those vessels, which were described as possible charter 
boat candidates.
    On essential fish habitat, I think the degree of harm needs 
to be considered in all instances, such that a very important--
whatever you want to call it--habitat, something that is going 
to hurt that just a little bit may not be anywhere near as bad 
as something that hurts nonessential fish habit very much, or 
less essential, whatever you want to call it. So there has to 
be the ability to balance how much the net problem is going to 
be, not just what the category of habitat is.
    And one of the features of the council system is that 
people with an interest in what is going to be regulated can 
participate in the process. And you all, in the Act, have a 
procedure for doing that. If a council member lists a conflict 
of interest situation for fisheries management, then that 
council member, unlike in ordinary Federal law, but under a 
specific exemption in the Magnuson-Stevens Act, is allowed to 
participate in the discussions and the voting on the 
regulations that are going to impact the fact that I own a 
shrimp boat, for instance, if I am a shrimper on the council.
    That is one of the good features of the Magnuson-Stevens 
Act council system, because it gets the people who are going to 
be regulated involved in developing the regulations. And the 
theory is that there will be more cooperation and more 
acceptance of those regulations in an area of the world where 
it is very hard to enforce things at sea.
    The essential fish habitat has introduced a new problem. 
And that is if one of us voting members of the council has an 
interest in something that is essential fish habitat, i.e., 
owns stock in an oil company that is drilling in essential fish 
habitat or owns a piece of land or even owns something in a 
gambling boat, any number of ways, or own General Motors, 
because General Motors produces engines that drive oil wells or 
something, then that precludes that member, under Federal law, 
from participating in the discussions or voting.
    And my request is that you amend the Magnuson-Stevens Act 
so that an interest in essential fish habitat by a council 
member would be treated the same for conflict of interest 
purposes as an interest in fisheries operations would be. That 
would be a specific amendment you have to make somewhere in 
that Act. And I would encourage that.
    The other thing that I wanted to talk about is management 
of highly migratory species. Right now, since 1990, that is 
done by the National Marine Fisheries Service, not by the 
councils. Whereas, Senator Breaux, you pointed out earlier that 
the system of councils is localized development, so to speak, 
it is more than just that. It is done open to the public. 
Whereas, management by the agency, decisions are made actually 
behind closed doors. And that is a big, big difference. And the 
fishermen are not used to that.
    And so I would encourage that the management of the highly 
migratory species--my preference would be that they be turned 
back to the five councils. The problem was that if one council 
vetoed, nothing happened. That can be solved by saying that if 
not all the councils agree to a specific provision, that the 
total vote of the voting members at the next of each of the 
council meetings be added up and the majority rules, so that 
you do not get a veto situation.
    There is resistance to returning to the councils, because 
the councils feel, No. 1, they are already overloaded and, No. 
2, participants in highly migratory on an international level 
would like a one-stop-shopping situation, which would be a 
super-council. My suggestion would be, if that is considered, 
that that council be made of 11 voting members, one from NMFS 
and two members from each of the five councils.
    This would have the advantage of people that everybody is 
used to, and also the five councils then could use their public 
input systems, which all the official participants are familiar 
with, to get into the input part of that management, too. For 
instance, the council AP's and the SA's, the science and social 
and whatnot input situations. And those are the specifics that 
have not yet been covered here today that I would like to 
mention.
    But there is one question, Senator Snowe, that you raised. 
And that is about limiting participation in fisheries. I can 
tell you, from personal conversations, that at least two voting 
members of the Gulf Council are very concerned that if ITQs or 
limited entry is started in any fishery, i.e., a commercial 
fishery, that the worst thing would be for it to spread into a 
recreational private boat fishery. That that would be a 
compelling reason to not let it start.
    And I think you asked that question earlier. And I can tell 
you that that is a concern. Because at the present time, that 
is not seen to be the right way to manage a recreational 
fishery or to get as many participants as possible. And the 
traditional way to cause conservation to happen there is to say 
each participant can catch fewer and fewer and fewer fish, but 
you have the opportunity to catch at least one, rather than 
limiting the number of people who can participate. That would 
be my comments.
    Senator Snowe. Thank you very much.
    Next, please identify yourself for the record.

   STATEMENT OF ROBERT SPAETH, EXECUTIVE DIRECTOR, SOUTHERN 
               OFFSHORE FISHING ASSOCIATION, INC.

    Mr. Spaeth. Thank you, Senator Snowe, Senator Breaux. My 
name is Bob Spaeth. I am with the Southern Offshore Fishing 
Association, out of Madeira Beach, Florida, west-central 
Florida.
    I have an interest in a fish house. I also have an interest 
in boats. And I also represent about 100 vessels, 30 to 50 
feet. In Madeira Beach, we have 250 jobs, $8 million to $10 
million a year it brings into our small community, to give you 
a little oversight.
    This is an overview of what we see going on in the Gulf of 
Mexico. We have cumulative regulations that are affecting us 
that NMFS does not seem to be addressing. An example of a 
regulation is that they take sharks and they close sharks off, 
thus forcing the industry into another fishery. And then that 
impacts other fishermen in that fishery. And then maybe nobody 
can make any money. That is just one example.
    Another example is that one agency does not realize what 
the agency is doing. The Coast Guard came out with regulations 
that cost about $10,000 to $12,000 for safety, and some of 
these vessels only cost $30,000. So you are talking about a 
substantial investment into some of these small fleets, without 
any impact studies, et cetera, from those other agencies.
    The paperwork burden we see out there, we know it has to be 
done, but it is getting impossible. You have got size limits. 
You have got this. You have got that. You have got to have a 
Ph.D. to become a fisherman anymore. Or for me to go hire 
somebody with the fine system the way it is set, I would lose 
my boat because of a captain that broke the law, which I would 
not want him to do, but I really do not have any control over 
it.
    I heard somebody earlier mention insurance. I have heard 
70-80 percent of the vessels in the Gulf of Mexico do not have 
insurance and cannot afford insurance, some of it due to the 
impacts of these 10 years of regulations. Legally, the cost of 
litigation is expensive. It takes a lot of time. And there 
needs to be other alternatives put in that will give us a 
committee or something that maybe will let us go around all 
this litigation. The costs are expensive. I am sure NMFS would 
like that.
    Banking, you talk about how you want to have a viable 
commercial fishery, but there is no bankability. How can a bank 
or anybody in that business go lend a fisherman money on a boat 
or to improve his equipment when that banker does not know 
whether the guy is going to be in business tomorrow? And if you 
cannot capitalize an industry, you are going out of business. 
And that is what we have done. We have made it impossible to 
capitalize anything in this business.
    Vessel values, I have a vessel that was worth $200,000. I 
would be lucky if I could get $80,000 for it. And nobody wants 
it. And it happens to be a longline swordfish vessel.
    People, public hearings, this has gotten to be out of hand. 
The public has no respect for the process. When they do, they 
ignore it. You see public hearings on grouper, almost everybody 
testified that the stocks were getting better, recreational, 
commercial, the whole nine yards. But when you get done with 
all this, it is a preconceived notion of what they are going to 
do. And they are only holding these public hearings to abide by 
the law. And that is the impression that we have, that the 
public hearings are not of any substance anymore.
    Unfortunately, I do not know what we can do about it. I 
have been to several meetings where there are more government 
people than there is public testimony. And that can be found 
out if you want to investigate that.
    SFA, we have already talked enough about it today. I concur 
that it is a mess. The big question is: Do you want a 
commercial sector or not? If you truly want the non-fishing 
citizens to have a chance to eat our Nation's fresh fish, you 
need to step in now and help save this sector. You need to help 
us find a way out of this mess.
    The Department of Commerce has been mismanaging fisheries 
management plans in numerous areas. While their job is to 
manage stocks of fish, they have endeavored to take over and 
regulate how Americans run their business--when to fish, how to 
fish, where to fish, how many fish you can carry. The 
regulations are impossible to live with, and the commercial 
fishing industry is in much worse shape than many fish stocks 
as a result of the NMFS.
    The Southern Offshore Fishing Association feels that unless 
our elected representatives step in and straighten out this 
problem, thousands of jobs will be lost because many tax paying 
businesses will fail. Many already have. The food fish 
harvesting capabilities of America will be lost. Consumers will 
pay more for less quality of fish, and the balance of trade 
will further slip.
    One of the big problems is you cannot find a commercial 
fisherman and train them in a day. It takes years to become 
effective.
    A potential solution is you need to match the resource 
availability to the economics of the fishery. We understand 
that many vessels and thousands of jobs will be lost to 
accomplish this action. Individual and financial misery can be 
avoided with the government's proper help. Job training for 
those captains and crews is needed for those who will lose 
their jobs. Vessel and/or permit buyout programs are needed to 
reduce the fleet to optimum size.
    The other thing I heard today was ITQs mentioned. And the 
ITQ, I could support it. But I do not support it at the present 
time because I do not know what it is. We have a special 
instance in the Gulf with reef fish. I heard that mentioned. 
Shark fishing has been cut by 50 percent, 50 percent, after the 
Governor enticed us that were in the reef fishery to go into 
the sharks, to take pressure off reef fish. Now, those people 
do not have a history or a fishery they can fish in. How do we 
take care of those people?
    Those are the kind of questions I have before I could 
support an ITQ system. Thank you.
    [The prepared statement of Mr. Spaeth follows:]

       Prepared Statement of Robert Spaeth, Executive Director, 
              Southern Offshore Fishing Association, Inc.

    Testimony to the members of the U.S. Senate Commerce Committee 
meeting in New Orleans, Louisiana, December 14, 1999 concerning the re-
authorization of the Magnuson-Stevens Fishery Conservation and 
Management Act.
    My name is Robert Spaeth. I am the Executive Director of Southern 
Offshore Fishing Association, a non-profit commercial fishing industry 
corporation. Our headquarters are in Madeira Beach, Florida, which is 
the center of the US grouper fishing industry. Our members fish 
throughout the Gulf of Mexico, the South Atlantic and in international 
waters off Caribbean and South American countries. We are the non-
boating citizens access to offshore fishery products.
    In a few words, it is past time for Congress to halt the cumulative 
destruction of the US commercial fishing industry by actions and 
policies of the National Marine Fisheries Service.
    When Congress enacted the Sustainable Fisheries Act (SFA) it did so 
to establish a rational manner of maintaining not only the fisheries of 
the nation but maintaining those who harvest the fisheries of and for 
the nation. Congress did not pass SFA to give the Sustainable Fisheries 
Division of NMFS a license to close down as many fisheries as they 
possibly could in the shortest possible time frame. But close down 
fisheries is exactly what Dr. Gary C. Matlock seems to be all about.
    Bob Jones, Executive Director of Southeastern Fisheries Association 
since 1964 and who supports this statement has long maintained, and I 
quote him, ``Dr. Matlock has never seen a commercial fishery he didn't 
want to close, beginning with his early work in Texas on redfish & 
trout and continuing to this day in federal waters.''
    We hope and pray the information contained in the ongoing General 
Accounting Office (GAO) investigation will finally convince Congress to 
rein in an agency that has run amok. The Sustainable Fisheries section 
of NMFS is the epitome of what is wrong with the federal government in 
the eyes of the citizens who live under the NMFS regulatory process. We 
strongly recommend the Senate Commerce Committee hold Oversight 
Hearings on the SFA activities in NMFS as soon as the GAO Report is 
received. Create a proper forum where we can voice our concerns and 
present quantifiable information for the Senate Committee to study. 
Congress is our only hope for fairness in the management of fisheries 
as long as the Sustainable Fisheries division is constituted as it is 
at present.
    In this regard, we want the Committee to know this is not a 
criticism of Penny Dalton who has recently been brought in to run NMFS. 
She is a breath of fresh air in a stale house.
    Ms. Dalton probably doesn't have the authority to remove someone as 
entrenched as Dr. Matlock under civil service rules and he certainly is 
not without a political power base of his own. But members of the 
Committee, we shouldn't have to live under a system where the 
individual bias of one government employee can have such negative 
economic and social impacts on a particular group of fishermen. That 
kind of system is not democracy. It is a dictatorship and cannot be 
tolerated in the United States of America.
    Please keep in mind when you read this statement that NMFS has 
about 60 lawsuits going on at present. What a waste of taxpayer's money 
and how critical it speaks of the agency and their lack of ability to 
work for the benefit of all. We recommend someone create a chart on 
litigation before Dr. Matlock and litigation during his tenure. I think 
the Committee will be shocked by what they see.

Let me list 12 statements for your consideration.

  <bullet> Fishery regulations are so pervasive it almost requires 
        legal counsel to know when to fish, what kind of gear can be 
        used and where you can fish. NMFS is forcing the Management 
        Councils to make more and more regulations each time they meet. 
        Never does NMFS take a break from enacting rules or repeal 
        rules. NMFS law enforcement leaders are pushing the Councils 
        even harder to make law enforcement for them easier. The law 
        enforcement advisory committee of the Gulf Council, for 
        instance, wants to put an electronic vessel monitoring system 
        (VMS) on commercial longliner boats and shrimp vessels. This is 
        akin to an ankle bracelet mandate for people on parole and it 
        is absolutely unacceptable to the overwhelming majority of the 
        fishing industry. NMFS even wants the boats to buy the VMS 
        devices and pay for their maintenance. If VMS systems are 
        required on commercial boats then they must also be required on 
        recreational fishing boats as well.

  <bullet> Cumulative impacts of all the regulations in the Gulf of 
        Mexico and the South Atlantic regions have never been examined 
        by anyone who is concerned with such impacts. NMFS certainly 
        doesn't seem to care how many regulations the industry has to 
        live under nor do they care how much they cost. A 
        Congressionally authorized study by a blue ribbon commission of 
        experts should be created and funded immediately. There is 
        great concern among industry that once you get rid of boat 
        captains and crew it will be impossible to replace them.

  <bullet> The paperwork burden is horrendous. The volume of what is 
        required to file on a timely basis with NMFS and the confusing 
        nature of regulations makes it very difficult for traditional 
        fishermen to understand the legalese and mumbo jumbo of CFR 
        writing. No attempt is made by NMFS to educate the industry.

    Their philosophy is, ``We just write the regulations we don't have 
        to tell you all about them or explain them to you.''

  <bullet> Selective law enforcement is another problem with NMFS. We 
        feel NMFS and the Coast Guard enforce recreational fishing 
        differently than commercial fishing. NMFS certainly reports 
        differently as seen in the Law Enforcement Report given during 
        the November 1999 Gulf Council Meeting in Orlando, Florida.

  <bullet> A great deal of talk was heard about law enforcement of the 
        commercial fishing sector but not one word on the efforts to 
        enforce rules on recreational fishermen. Surely there must be 
        some law violators out of the million or so recreational 
        fishermen in the Gulf.

  <bullet> Litigation is the only way the commercial fishing industry 
        can get a fair hearing on fishery issues. Litigation is very 
        expensive for the industry but unlimited funds are available 
        for NMFS. We believe Dr. Matlock understands too well how to 
        use the ``presumption of correctness'' doctrine. He has used 
        this hammer in closing down commercial fisheries. He knows in 
        most instances if he can just provide even a scant paper trail 
        showing he tried to stay within the law, the court will rule in 
        his favor and against the industry. Even with all that power, 
        Dr. Matlock has been taken to task by two different federal 
        judges in the past year. I encourage the Committee to read the 
        Judge's Order in the flounder and shark litigation.

  <bullet> Both the District Judge in North Carolina (flounder issue) 
        and in Florida (shark issue) came down hard on the agency. This 
        evidently has no impact on Dr. Matlock as he has now indicated 
        in a sworn declaration, dated November 11, 1999, that if the 
        court doesn't get its act together, he will declare certain 
        sharks as endangered species and close them down and impact 
        more fishermen.

  <bullet> The role of NMFS as the research arm, review of the research 
        arm and enforcement arm of the Department of Commerce is 
        frightening. Our perception is NMFS sometimes makes their 
        science meet their preconceived goal. In one court case 
        pertaining to fish traps, Dr. William Fox, who was head of NMFS 
        at the time, came to the Southeast Region and forced his 
        regional staff to ``sequester'' certain science that was in 
        NMFS' possession but which did not help NMFS position in their 
        desire to ban fish traps. This was science developed by US 
        taxpayer dollars that was prevented from being put in the 
        record. This scandalous conduct is part of court records in the 
        lawsuit against the Department of Commerce by the Organized 
        Fishermen of Florida, I believe. It is a sad day when the 
        middle bureaucracy or ``keepers of the flame'' are forced to 
        look the other way in order to accomplish a personal agenda of 
        the agency head. I don't think the Senators know how subtle 
        pressure can be put on an underling who is just trying to do 
        his/her job and move forward on their chosen career path. The 
        Senate should take a hard look at the way some NMFS officials 
        do business.

  <bullet> Outside peer review of NMFS' science has been a bugaboo for 
        years and has even resulted in the National Academy of Science 
        being brought in on one occasion to take a look at NMFS' work. 
        Recently, our organization combined with the leadership of 
        Southeastern Fisheries Association and the Florida Offshore 
        Fishing Consortium to review gag grouper and red grouper 
        science. We engaged a certified Fishery Scientist and asked him 
        to review the science being used for grouper regulations and 
        write a report. That was our only direction to Dr. Trevor 
        Kenchington, of Nova Scotia, Canada, who had no ax whatsoever 
        to grind. His review was enlightening and pointed out some 
        problem areas of the NMFS science being used especially as it 
        pertained to genetics and stock size.

    Dr. Kenchington was invited to a summer meeting of the Gulf Council 
        in Key West, Florida and made his report in detail. He was 
        subsequently invited to the recent meeting in Orlando, Florida 
        and was almost prevented from making any comments at all 
        because a designee for a state director didn't want to hear his 
        presentation. As a result of all this clamor and confusion, the 
        Gulf Council has rewritten their policy on outside science 
        which calls for the science to be reviewed by the Stock 
        Assessment Panel and other panels before it is presented to the 
        Council. This will be a good policy if the dates and time 
        available for submitting the review is not manipulated by NMFS 
        to prevent the outside reviews from being properly considered 
        on a timely basis.

  <bullet> This brings up another point. Maybe it is time for the state 
        directors to be a non-voting member of the Councils. A case 
        could be made of conflicts between state and federal management 
        because of policies and statutes. The federal fishery resources 
        belong to all the people of the nation and should be available 
        to them. When states are successful in prohibiting commercial 
        harvest for distribution throughout the nation, they in effect 
        reserve the fish for those local folks and tourists who come 
        thereby denying a great number of citizens the opportunity to 
        share in the resource. Redfish is the classic example. Here is 
        a federal resource and a state resource that could produce a 
        modest harvest in federal waters but politically it cannot be 
        harvested in federal waters because it became a sacred fish and 
        no state director will even consider opening federal waters to 
        a harvest. This is a blatant violation of the M-SFCMA. That's 
        all I will say on redfish but the way that fish was taken away 
        from the non-boating citizens is a shame.

  <bullet> Another area of our concern is NMFS does not listen to the 
        constituents during the public hearing process. Public hearings 
        are a sham. In the most recent grouper hearings, 90 percent of 
        the citizens, both recreational and commercial testified that 
        the grouper and red snapper are coming back and the fish are 
        getting bigger but their comments are ignored. It seems NMFS 
        develops a model, absolutely full of assumptions, and refuses 
        to change or even consider changes no matter what is brought to 
        them. Additionally, NMFS has done a horrible job of explaining 
        or even trying to explain their models to the citizens. Its 
        like the science is in the nether world and mortal fishermen 
        are not permitted to see what is going on.

    If there is any doubt on what I am saying about the public hearing 
        process, get the public record from the Gulf Council on the gag 
        grouper hearings and read it. You will be amazed at how much 
        information is ignored.

  <bullet> NMFS has no programs to assist commercial fishing. Why? The 
        commercial fishing industry has vessels that are in the federal 
        waters every day but there is no cooperation between the 
        industry and NMFS in this region. It's like we are the enemy 
        and the designated target as well. We are under the gun from an 
        agency using our tax money to destroy us. Why? NMFS has gone 
        from turtles, to TEDs, to BRDs, to longlines to gear to 
        essential fish habitat etc., as a way of inflaming issues to 
        get media exposure which generates research money which keeps 
        the agency pumping out regulations.

    All of us know NMFS has to create a demon or create fishery 
collapse to be in a position to impose draconian regulations on the 
fishermen. When will this insanity end? When will Congress step in and 
say, ``Wait a minute, it is not now nor has it ever been our intent to 
destroy an important food producing segment of our national economy!!'' 
But destroying us is exactly what NMFS is doing through the Sustainable 
Fisheries division.
    Members of the Committee, there are many other points that need to 
be brought before you but I think I have brought enough for a start. 
Check with other industry people from Maine to Texas for similar views. 
The Pacific Coast might or might not have similar views and Alaska of 
course, has a very unique situation separate from the lower 48. They 
don't live under the NMFS heel like the rest of the country.
    Thank you for anything you can do to help America's First Industry 
survive and prosper in the new millennium.
Respectfully submitted,

Robert A. Spaeth, Executive Director
Southern Offshore Fishing Association
December 7, 1999

    Senator Snowe. Thank you very much.
    Senator Breaux. Thank you.

          STATEMENT OF FELIX COX, COMMERCIAL FISHERMAN

    Mr. Cox. Thank you, Senator Snowe, Senator Breaux, for the 
opportunity to testify before your subcommittee.
    I am Felix Cox. I am from Texas, Aransas Pass, Texas, a 
little small town close to Corpus Christi. And I own a fishing 
boat there. And I have been fishing all my life, I guess you 
might as well say. Trying to make a living out of it is a 
little difficult anymore.
    Anyway, I have got two or three points I would like to make 
that you might be able to help me, which is the reauthorization 
of the Magnuson-Stevens Act. The first and most important point 
is my support for individual transferable quotas. We have been 
through a derby fishery in our red snapper fishery now for 
eight years or so.
    And I guess you have heard testimony in support of the 
individual quotas, and so I would just like to add mine to 
that. We just cannot live any longer with the derby fishery. It 
has cut our profits. It endangers our lives. And bankruptcy is 
just right around the corner for many of us. And so I would ask 
you two Senators, if you would, to be supportive of lifting the 
moratorium on the individual quotas.
    The second concern that I have, and you have heard this 
voiced already today, is the recreational and commercial 
battle, the ongoing recreational and commercial battle. And 
having been a fisherman all my life, of course you are going to 
find me supportive of environmental fishing. I feel like people 
in the country who cannot come down to the coast and fish still 
ought to have some access to the fish. And I think it is 
probably up to the Senate and the House of Representatives to 
keep those opportunities available for people.
    Now, you will hear our council, unfortunately, our council 
has forever been tilted toward recreational interests. And that 
is unfortunate, because the balance of the people in the 
country just do not get a fair hearing. So I would appreciate 
it if you two Senators could maybe do something about that. I 
do not know what specifically, but maybe something, to make 
sure that we always have a viable commercial fishery.
    And I guess my last point would be some way to try to 
return some of the power that fishermen used to have and no 
longer have. We are told who we can sell to. We are told when 
we have to go fishing. We are told when we have to come back. 
And right around the corner I understand is a little thing 
called a VMS that will be attached to us, something similar to 
a leg band that prisoner wears, that will pinpoint where we are 
at all the time. So I am not sure where this is going to end.
    And if you two Senators could please address these little 
concerns that I have, I would be most appreciative. Thank you 
very much.
    Senator Snowe. Thank you.

    STATEMENT OF STEVE LOUP, RECREATIONAL FISHERMAN, GLENN, 
                           LOUISIANA

    Mr. Loup. Thank you, Senator Snowe and Senator Breaux, for 
allowing me to talk.
    My name is Steve Loup, and I am a recreational fisherman. I 
am here representing several dozen fishermen who do not have a 
voice and cannot come here. What I wanted to bring up was the 
Magnuson-Stevens Act, which is what you all are talking about. 
I would like to see National Standard 4 enforced. And by that, 
I would like to explain what I am talking about.
    The council had asked for a March 1st opening of the red 
snapper season, and they were turned down by NMFS. And in the 
Federal Register of September 1, it says: NMFS has disapproved 
this measure based upon finding it inconsistent with National 
Standard 4 of the Magnuson-Stevens Act, which requires an 
allocation of fishing privileges be fair and equitable.
    That is the reason they turned down the first season. Now 
the council asked for the season to be opened April 21st 
instead of March 1st. And now it looks like they are going to 
approve it. They are just disregarding Standard 4 of the 
Magnuson-Stevens Act.
    And the reason that I cannot fish in the summer and a lot 
of us cannot is because the red snapper comes from offshore, 40 
or 50 miles in, to within 15 or 20 miles of the shore. And the 
people with the 18- to 24-foot boats cannot go out 40 miles to 
fish. We have to fish in close. Not only that, it costs so much 
money to go fishing this red snapper, just for four fish.
    So the only time we can fish is when the fish come in close 
to shore. Which is when? November, December, January, February, 
and March. Those five months are being closed. We are being 
totally discriminated against. And I really consider myself to 
be a poor minority winter recreational red snapper fisherman. 
That is what I am. Seriously. And there are hundreds of us here 
in Louisiana who only fish in the winter. And the reason is 
because of the fish coming in. We cannot afford to go out in 
the summertime, 40 miles out, like these charter people do, 
with 60-foot boats.
    For 30 years I have been doing this. I am going to lose my 
fishing 100 percent. I am totally discriminated against. They 
are not following the law. And I think something ought to be 
done about it.
    And I have got a second point. I have sent several letters 
to the council. And they wrote back and told me that they could 
not consider my suggestions because the reason why we could not 
consider such changes as you recommended earlier is that the 
council is not allowed to submit more than one set of 
regulatory changes for the same management measure per year. 
Well, them asking for another season on April 22nd is a second 
change in one year. I do not see how that is legal. This is 
according to the Magnuson-Stevens Act. I would like to have an 
answer to that if somebody can answer me.
    Senator Snowe. I see the point. Can you respond to that?
    Mr. Cox. It is not a regulatory amendment?
    Senator Snowe. Can anybody respond to that?
    Senator Breaux. I think since he has made the request 
public and has also written me, rather than trying to do it all 
in this meeting, I think the question is very, very clear. And 
we would like to ask the National Marine Fisheries Service to 
get with him, get the exact question that he is talking about. 
And it is basically a question of discriminating between 
commercial and recreational fishing and the ability to catch 
the fish closer in shore when they get there in their boats 
instead of having to go further offshore. I think he feels that 
Standard 4 says you cannot discriminate against recreational or 
commercial fishermen, and he feels that currently there is 
discrimination. And so I think you all need to get together and 
talk about that.
    Mr. Cox. Well that is the reason they said in the Federal 
Register that they canceled the season the first time, at the 
request by the council. Now they are acting like it does not 
count anymore.
    Senator Breaux. That is a good point and it deserves an 
answer.
    Senator Snowe. Yes, exactly.
    Senator Breaux. We'll get you an answer.
    Senator Snowe. Thank you very much.
    Who is next?

   STATEMENT OF CHRIS DORSETT, GULF RESTORATION NETWORK, NEW 
                       ORLEANS, LOUISIANA

    Mr. Dorsett. Senator Snowe, Senator Breaux, my name is 
Chris Dorsett, with the Gulf Restoration Network, here in New 
Orleans, Louisiana. We are a network of 43 groups, dedicated to 
protecting and preserving the environment in the Gulf of Mexico 
and its natural resources.
    I have a written statement that I will hand to the 
Senators. And in the interest of time, I would like to discuss 
primarily essential fish habitat and its role in the Gulf of 
Mexico. Our network feels that this issue is a priority concern 
if we are to have productive fisheries in the Gulf of Mexico. 
You heard some facts and figures already about the region's 
productivity. I share those statistics. I have some more in my 
testimony.
    Essential fish habitat, in our opinion, it is really 
simple, if we truly want productive fisheries in this region, 
we must protect essential fish habitat. While the Act defines 
essential fish habitat, it is very important--if we are to go 
back and start dividing what is essential and what is not 
essential based on the scientific information we have right 
now--what level of productivity do we want from our fisheries?
    Are we going to draw a line and say, OK, this is a level of 
productivity that we want, here are the habitats we need to 
support it, the rest is fair game? That is a question that has 
to be answered before we go back and start drawing the line and 
saying what is essential and what is not essential.
    I urge everyone involved to review the council's amendments 
to its fishery management plan addressing essential fish 
habitat. For example, I have maps from the document of the 
three commercially important species in the Gulf of Mexico. The 
habitats utilized by these species are noted in this document. 
And I will submit this for the record. And a review of this 
will show the bays and estuaries and offshore habitats of the 
Gulf of Mexico are extremely important to our fisheries.
    This region is unique in that 95 percent of the commercial 
and recreationally important species utilize the bays and 
estuaries of the Gulf of Mexico, primarily as nursery grounds. 
And the larvae move from offshore areas into the bays and 
estuaries. It provides them shelter and food. When they grow to 
a size needed, they then migrate back offshore, and the process 
starts all over again, depending on the species.
    I would like to address a little bit the requirements, 
consultation requirements, in addressing non-fishing impacts in 
the Gulf of Mexico. The way I understand this Act and the 
interim final rule that implements the Act, the National Marine 
Fisheries Service produces these rules. The Federal agencies 
whose actions affect essential fish habitat must assess their 
impacts. That is what it requires them to do.
    The National Marine Fisheries Service does not have the 
authority to say, no, you will not complete this project 
because of its unacceptable adverse impacts on essential fish 
habitat. The most they can do is call for a meeting between the 
Secretary of Commerce, and let us use, for example, the Corps 
of Engineers so, Secretary of the Army.
    And let me start with this. We are very pleased that 
Congress recognized formally the importance of habitat in 
fishery management. If in fact the current processes, which I 
think the National Marine Fisheries Service has used very 
effectively to address essential fish habitat assessments, if 
they truly are duplicative, all you would need to do is write a 
statement: Here is our assessment of what this does to 
essential fish habitat. And then you would have no extra work 
at all.
    Again, I feel it is very important that the impacts be 
assessed. We have a choice here. And it is how much effort or 
how much inconvenience to maybe some other industries do we 
want to subject them to so that another industry can have 
benefits, the fishing industry of the Gulf of Mexico.
    I will end with those comments on essential fish habitat. I 
also address some other topics. And I have a copy of a report 
from Greenpeace that they sent me today. I have not read this 
yet, so I do not endorse it. But I just wanted to submit it for 
the record on their behalf.
    Senator Snowe. Thank you very much.
    Next.

         STATEMENT OF DONALD WATERS, PENSACOLA, FLORIDA

    Mr. Waters. Good afternoon. I appreciate the opportunity to 
speak here in front of this Senate subcommittee panel. Thank 
you, Mr. Breaux and Ms. Snowe.
    I come here today to ask you to lift the moratorium on ITQs 
so that the red snapper fishery can frame a limited entry ITQ 
system for the red snapper fishery in the Gulf of Mexico. The 
derby-type system we are currently participating in is not 
working for the historical dependents of this fishery.
    One of the reasons is the original qualifier was set too 
low, which allowed fishermen who landed red snapper only as a 
bycatch to participate in a directed fishery, which they had 
never participated in before. In other words, the creation of 
the current limited entry system in the directed red snapper 
fleet was more than doubled. Some vessels that could qualify 
only by catching 5,000 pounds a year are now producing over 
60,000 pounds, while the original highliners struggle to 
maintain their historical landings even though the quota has 
more than doubled. This is due to short seasons.
    The added number of vessels in the rapidly rebounding red 
snapper stock created large market gluts, thus creating an 
average drop in prices of 30 percent, coupled with a 2,000 
pound trip limit that increased our expenses by approximately 
30 percent. The only fair and equitable way to build a stock is 
an ITQ system based on fishermen's historical landings. It is 
not fair to reward some who take away from the historical 
dependents of this fishery, the ones who have suffered the most 
during long closed seasons.
    An ITQ system should be put in place to maximize the 
economic net benefits, increase the stability of the red 
snapper fishery in terms of fishing patterns and markets, to 
promote flexibility for the fishermen and their fishing 
operations, and minimize the release mortality associated with 
incidental bycatch after the commercial season has closed.
    Last, but most important, safety at sea. And this should 
not be a reallocation tool. As a historical participant in the 
council process, attending at least 50 percent of all council 
meetings in the last 10 years, I can honestly say it does not 
work. The recreational interests, which has a controlling vote, 
has gone as far as arrogantly voting to reallocate quota split, 
to increase TAC only when needed by the recreational fishery, 
to continuously ignore massive overruns in the recreational 
fishery, and totally avoid any kind of logbook reporting system 
for the charter boat/head boat industry. They do not want to 
know how many snapper they are landing, and they do not want 
you to know either.
    With the special interests involved, it would be hard to 
get a fair shake from the Gulf of Mexico Management Council. 
That is why it is so important to have as many fishermen as 
possible involved in developing a limited entry ITQ system, to 
protect themselves as well as the American consumer.
    Thank you.
    Senator Snowe. Thank you very much.
    Next.

  STATEMENT OF CHARLES ROBIN, III, COMMERCIAL FISHERMAN, ST. 
                       BERNARD, LOUISIANA

    Mr. Robin. Good morning, Senator Breaux and Senator Snowe. 
My name is Charles Robin, III. I am a fifth generation 
commercial fisherman. I have been doing it all my life.
    I come here today to talk about fishing and about turtles 
and things. Back in 1987, I did a study with LSU. A guy came on 
my shrimp boat. We did a study on turtles, to see if these 
devices were going to work in our areas.
    Well, I have a double-rig. I have two trawls. I put a TED 
on one side and one without. We went through the marshlands, 
because I fish inland waters, I do not fish offshore. We did 
the survey for five days. We compared the trawls, what I lost 
and how many turtles I caught. My survey came out that I lost 
30 percent of my profit out that one hole. So, through the 
whole trip, I never caught one turtle.
    Now, for five generations I have been fishing as a 
shrimper, from my grandfather, from my day. We never knew what 
a Kemp Ridley was because we never seen any in our area.
    I want to ask the National Marine Fisheries Service, what 
kind of scientific data do you all have that you all forced us 
to put these turtle devices to save this turtle? What 
scientific data do we have to go by? Here, you have got to do 
it. You have got to put this thing in your trawl, a 32-inch 
hole. And I am going to race and patch a one-half mesh, so I do 
not lose one shrimp. And I have got to rip this hole in my 
trawl.
    It is different if they would have the species in our area. 
Yes, I agree, I am one of the biggest conservationists they 
got. I have got to think about tomorrow. I have got to save my 
young fish to grow, so tomorrow I can feed my family. That is 
the way we are. That is the way I was brought up.
    But I want to know why they force us to do these things. We 
are talking about turtles and saving turtles. Yes, I agree. I 
agree with saving turtles. But why force it on us when these 
turtles do not even migrate in our area?
    I had to take my kids to the aquarium to show them what a 
Kemp Ridley was. I did not know what a Kemp Ridley was. That is 
how naive I was. Because it was not in my area. It might be 
some place else. But why shove it down our throats?
    Then they come around and talk about bycatch. The bycatch 
has been around here for hundreds of years. My people came from 
the Canary Islands back in the 1780's, and made a life for 
themselves down here. You have got to put a BRD in your trawl. 
What the hell is a BRD?
    But I have a device on my boat. It is called a test trawl, 
16-foot. I am a shrimper. I do not catch fish. I do not want 
fish. I want shrimp.
    I will get into an area, and some places have got fish 
here, shrimp here. I get into an area that has fish, and my 
little test trawl, I pick it up every 10 minutes to see what I 
am dragging on. If I get fish, I turn around, I go back where I 
caught shrimp. I do not want that.
    But I am going to tell you something. The fish, the bycatch 
that I catch in my trawl, 100 percent of it is gone. Everybody 
look at the movie, the Lion King, the cycle of life. Every year 
I go back shrimping, I catch the same thing every year.
    Back when I got my vessel in the 1980's, we had a shortage 
of pelicans. Well, now we have got so many pelicans, they 
follow us around. We depend on the pelicans to find fish to set 
on, to catch.
    But we have got to save all this. They did not realize that 
we feed the pelicans, the porpoises, crabs; 99 percent of the 
stuff that hit the bottom is gone. We only take what we need.
    Now, red fish and trout, we cannot even do this any more. A 
lot of people are tired of hearing this. This is something that 
my grandfather and my great grandfather did. We look at them 
pass and we cannot even catch them.
    But I have got my kids going for an education, to take one 
of these guys' jobs.
    [Laughter.]
    Mr. Robin. I guarantee you that. I am trying to preach to 
them. They are bred into this business. I am bred into it. You 
have got this, you have got shrimp and fish. The wife says, you 
ought to get a blood transfusion. I said, why? I might wind up 
with something that you might not like. But it is the truth. I 
mean our livings are swept out from under our feet, from 
generations, from generations, from generations. That is what 
we do.
    The bottoms over here where we fish with our trawls, the 
bottoms, they are not fit for these TEDs. A couple of these 
guys could tell you. We have got pictures. On normal 
conditions, I lose 15 percent out of each trawl. Normal. There 
is no normal conditions where we fish. None.
    The marshland is not a hard sand bottom. It is mush, 
oysters and shells. But we put up with this. My dad is 63 years 
old, healthy as a horse. You probably might know my dad. There 
is a tape made. Maybe somebody might have seen it. Have you 
seen it, Mr. Breaux?
    Some people think that was an act. It is not. You all ought 
to see that. You ought to come jump in my shrimp boots, walk in 
my shoes, to find out the way my life is. It is a hard life. I 
love it, though. If some people try to take it away from me, I 
get mad.
    This man here, he said you have got to put it in. All of 
his profits are going out the front end of his hole. When he 
lifts up his trawl, his tail, there is a couple hundred pounds 
of shrimp going out the front. It is supposed to go in the 
back. Everything usually goes to the tail. We sort our things 
out.
    But when your profit goes out the front or the tail, well, 
that is very stressful for you. That is like if you get your 
little paycheck, it kind of hurts at the end of the week. I 
think so.
    But this man, healthy as a horse, 6 months later has a 
heart attack. I wonder how in the heck my dad has a heart 
attack. This man is as healthy as can be. He is healthy as a 
horse. Stress. Head stress. My dad is almost 69 years old 
today. He is home. He does not want anything to do with it no 
more. The stress is too much on him now. Having his profits go 
out the hole. It is just tremendously bad. It is bad.
    So, just think about it. The people of the younger 
generation coming up. Once this generation is gone, I have got 
three sons coming up. They have been on a boat just like I was, 
since they were in diapers, bring them up and watching our 
industry. Our industry was a beautiful living at one time, a 
beautiful living. Some of these actors get into our business.
    To me personally, I do not care what they think. That is 
the way we was brought up. We think about tomorrow. But they 
try to stop us. They have so much fish out there right now, 
Senator Breaux, you would not believe it. We are out there all 
the time. We know what is going on. We are not here pushing a 
pencil. We are not here on paper. That is not my cup of tea. 
But I am out there. I see what is going on.
    There is so much fish, there is going to come a time that 
they are going to have one species of fish because every other 
one is going to eat out each other. They do not know that you 
have got to go and take. You have got to take from the land. If 
not, it is going to eat it out. You have got to take from it.
    I am 39 years old. I am hoping to do this the rest of my 
life. So try to be easy on us with these regulations, and think 
about the younger generation coming up. Because if we do not 
have our young kids, who is going to feed the country? We are 
going to have to depend on foreigners, the foreign lands, to 
get our seafood. And it is not going to be fresh.
    Thank you very much.
    Senator Snowe. Thank you. We hope we can do everything we 
can so that you can fish for the rest of your life.
    Next.

  STATEMENT OF GEORGE VARISICH, PRESIDENT, UNITED COMMERCIAL 
         FISHERMEN'S ASSOCIATION, CHALMETTE, LOUISIANA

    Mr. Varisich. I am George Varisich, the President of United 
Commercial Fishermen's Association. I am a third-generation 
commercial fisherman, and probably I will be the last in my 
family.
    On behalf of what is left of Louisiana's commercial shrimp 
industry, I want to thank you for, once again, affording me an 
opportunity to go on the record to attempt to invoke some 
reality to what has become the worst injustice that ever hit 
one of South Louisiana's oldest industries. And I am going to 
be talking about reality, so I want to pass you this for you to 
look at. This is reality. And you can pass it through the crowd 
after.
    This hearing makes over 50 meetings I have attended, 
fighting to educate the government on what really happens out 
there in the real fishing world. The problem is, up to now, 
hopefully, I have testified, been questioned and interrogated, 
and showed the government agencies how devastating the TED 
regulations have been to Louisiana's shrimp industry.
    Unfortunately for us, the government did not feel any of 
our information should be given any consideration. My only hope 
is that today will be different. It will not be just another 
exercise in futility.
    Even my mom, who is my strongest supporter, questioned me: 
Why was I going to lose another day's work to talk to people 
who seemed to be indifferent about our plight?
    My answer was: Remember, mom, about six years ago, when dad 
died? I promised him I would fight to preserve Louisiana's 
fishing heritage as long as there was air in my lungs. And I am 
still healthy.
    It has been 12 years since the devil first poked a hole in 
my net and in my ability to make a profitable living. 
Consequently, it seems fitting for us to look back and lay out 
some of the facts for this hearing.
    Fact Number 1: inshore Louisiana waters and considerable 
Louisiana offshore territorial waters were never established to 
be a critical nursery habitat for Kemp Ridley turtles. This is 
very important. It never was established, but we have got to 
pull these things.
    Fact Number 2: turtle populations have rebounded faster 
than predicted. They are up twice as fast as they thought they 
would be.
    Fact Number 3: although TED, if used successfully, allow 
turtles to escape if encountered, no data has been established 
linking turtle activity and recovery in Louisiana waters. 
Everyone close to the subject knows the efforts made in Mexico, 
the head start program and everything we have done on the beach 
over there, is what enhanced the turtle recovery--not 
necessarily TEDs.
    Several years ago, we had one reasonable researcher come up 
to one meeting, and we asked him about that. And he made a 
statement. He said it would take seven years of trawling 
offshore Louisiana just to see if we had had an impact. And 
that is enough right there to let you know we should not have 
to pull that stuff.
    Fact Number 4: and this is the big one, the 5 percent 
shrimp loss that NMFS adheres to is grossly inaccurate. The 
most reliable information we have from our research, from 
observers on boats like Charles', on real shrimping vessels in 
real shrimping areas is a range from 12 to 22 percent shrimp 
loss. At this real percentage, Louisiana's shrimpers are losing 
approximately 15 million pounds of shrimp a year, with a vast 
negative economic impact being felt in coastal communities.
    I wish you had time to come down and see our area and see 
how many boats are for sale, see how many boats are tied up, 
just laying there, see how many boats are sunk on the side of 
the bayou. It is pathetic.
    Fact Number 5: prior to TED regulations, the Louisiana 
shrimp industry supported 32,000 commercial trawlers. Now, 
after 10 years, we have plummeted to just around 15,000. Ladies 
and gentlemen, that is almost 60 percent in just 10 years that 
have fell out of the industry.
    The question is: How many of us have to fall before we 
qualify for protection under the Endangered Species Act?
    Seeing what NMFS has done to protect turtles that are not 
there, I sure would like to have them protect me.
    Fact Number 6: although the economic and socioeconomic 
impact study was done, as required by the Magnuson-Stevens Act, 
which did in fact predict how devastating the TED regulations 
would be, it never was acted upon. It just blew by. It is this 
thick. It is 452 pages, laying out how many problems we were 
going to have.
    OK, we have done it. So what. You are going to go out of 
business. Who cares?
    Fact Number 7: since we got the temporary TED exemption 
last year, after Hurricane Georges--thank you very much for 
your assistance--we got to do a lot of our own testing, which a 
lot of us took advantage to do: put one TED on one side and one 
on the other. And we discovered, in the large white shrimp--we 
thought for a while that Louisiana was not producing the 1015's 
anymore--but the day, the very day after we got the exemption, 
our white shrimp, large white shrimp, count went up 35 percent 
on our catches.
    And the second thing we also discovered was we have been 
having a lot of damage from porpoises and sharks. It has been 
increasing since the TED. So we did the same thing, put a TED 
on one side and one not on the other. What is happening, the 
sharks and the porpoises are just watching the fish come out 
the TED. So you have got bycatch. It is being released. And it 
is getting eaten.
    And the problem is, when there is no fish coming out of the 
TED, they go to hit the tail. They get hungry, they want lunch. 
So you have got another problem because of the TEDs.
    Fact Number 8: Louisiana shrimpers used to be one of the 
happiest and easy-going people on the water. But now, having to 
live with the fact that every day you are going to go out 
there, go to work and lose money has made most of us miserable 
and bitter, with no faith in your government to do anything to 
help us out.
    Fact Number 9: the Louisiana Department of Wildlife and 
Fisheries has been conducting testing since 1966, has looked 
over 48,000 samples, and has yet to catch a Kemp Ridley turtle. 
That is not my data. That is data for data purposes only. That 
should not be ignored anymore.
    I could go on, but I feel I will get too frustrated to 
remain objective. These are factors driving the past. My 
concern now is the future.
    Are you going to reauthorize this Act with survival of the 
commercial fishermen in mind? I sure hope so. If so, I have a 
simple solution: Let me, or us, the shrimp industry, fund a 
recovery program for the turtles. When I go back to work 
without this ball and chain I have been dragging around for 10 
years, the economy wins, the turtles come out on top, and 
everybody wins. It is a good solution, the same one I proposed 
to you 5 years ago.
    Last, I want to address Ms. Dalton on some statements she 
made. Mainly the fact that you and NMFS want to work with the 
fishermen to achieve some of these goals. Ms. Dalton, you 
inherited a host of problems. The main one is credibility. The 
people before you did a lot of bad stuff to commercial 
fishermen.
    They come on my boat, they took data, and the data showed 
what I proved and never made it. So there have been lies, years 
and years of lies. And every time they lie, they lie to cover 
up the other lies. So there is no credibility at all. So now 
you have inherited that problem. And I do not know how we are 
going to get past it.
    For example, how we are going to get past it, there is 
going to be a question right now. We are here today testifying 
and trying to educate you, to tell you that I am going out of 
business left and right. I am one of the best there is in my 
size class and I am barely making it. If it would not be for 
oysters in the wintertime, I would be out of business.
    So here I am educating you all. And tomorrow there is a 
meeting in Pascagoula to examine the possibility of making 
these damn holes bigger. So this is absurd. This is absurd. If 
you cannot see what is going on, unless that is your goal, your 
goal to kill us. I was told that by Dr. Andy Kimmer, who said, 
we want to get the fishermen out of the Gulf. Off the record. 
You cannot say that on the record.
    And I told him, I said, Andy, you close the Gulf; I want 
you to close it. And every shrimp dealer and processor, 
everybody will be on this man's case so bad, I guarantee you. 
He would not do it. I dared him to do it. But that was 2 years 
ago. So now he is no longer there. And I have got to educate 
another one of you all.
    [Laughter.]
    Mr. Varisich. Ms. Dalton, if you had to run NMFS like I 
have to run my boat right now, I believe the regulations would 
be a hell of a lot more reasonable. Once again, I am offering 
my experience and my knowledge for you to draw on. I sent you 
my card already and we have talked on the phone already.
    Senators, this is for you all: If NMFS does not get its act 
together and come to the real world, we will be asking you to 
sponsor legislation similar to what we passed in Louisiana last 
year, basically asking for area exemptions for TED use; that 
is, areas that have no history of critical turtle habitat or 
turtle existence.
    Number 2, seasonal exemptions; that is, cold-water months, 
like right now. In the boats fishing offshore, that water is so 
damn cold, there is not a turtle within 150 miles from here. 
Why do I have to pull this nonsense?
    Third, an industry funded recovery program for the Kemp 
Ridley turtle, provided that the turtles that we bring, you 
release them off of Mexico. Do not release them off of 
Louisiana, because you are putting them right in my trawls and 
making me look bad again.
    And if we do not get this done, I would like to see you all 
put some legislation in to where you pay me, NMFS or anybody, 
because they go through a hell of a lot of money, and I know 
they are getting their State funds and stuff like that, pay me 
for what I lose. I am taking a beating for this turtle 
recovery. Nobody else. The shrimp industry is. So you pay me 
for my 10 percent shrimp loss, and then I can survive.
    Senator Breaux and Senator Snowe, I extend to you an 
invitation next spring to come out on my boat, like we tried to 
do one time before, Senator, and you can come see for yourself 
what we have got to put up with.
    Thank you all very much.
    Senator Snowe. Thank you very much. We appreciate it.
    And we have one more witness. If anybody wants to provide 
additional testimony, statements, or questions, the legislative 
record will remain open for 10 legislative days.

    [Additional documents submitted for the record at the 
hearing are available upon request from the office of Public 
Information at the Senate Commerce Committee.]

   STATEMENT OF TIM TORRANCE, COMMERCIAL FISHERMAN, LAROSE, 
                           LOUISIANA

    Mr. Torrance. Thank you, Madam Chairman, Senator Breaux. I 
appreciate you all coming to this part of the world and giving 
us a chance to express our grievances and concerns.
    My name is Tim Torrance. I am from Larose, Louisiana. I am 
the owner-operator of the 39-foot commercial fishing vessel Sea 
Quest. I have served two terms on the Gulf Advisory Panel for 
Reef Fish. I am currently on my third term on the Advisory 
Panel for Coastal Pelagics.
    I retired from the United States Coast Guard in October 
1978, as a master chief bosun mate, after 20 years of active 
duty, 16 of which I served as officer in charge of search and 
rescue vessels. Besides being a commercial fisherman, I also 
have served as a vessel operations consultant to 26 law firms 
in Louisiana and Texas. I am accepted as an expert witness in 
this field in the United States Districts Courts of the Eastern 
and Western Districts Louisiana, and I am also qualified in 
this field in numerous Louisiana State courts. I hold a 500-ton 
master's license, an able-bodied seaman, any waters unlimited.
    I would like to address the desperate need for the end to 
derby fishing in the Gulf of Mexico. With the creation of derby 
fishing, we have established what is probably, in my 
professional opinion, one of the most hazardous and unsafe work 
environments that exists at sea in modern times. With vessels 
pitted against one another, fishing for their share of the 
quota, we have a situation where vessel operators are forced to 
work on a 24-hour-a-day basis, during any weather conditions 
that prevail while the season is open.
    The Coast Guard requires that licensed operators only 
operate 12 hours a day. There are very few fishing vessels with 
licensed personnel. Yet these vessels are operated on a 24-
hour-a-day basis, with unskilled, untrained personnel standing 
wheel watches after having worked long hours fishing.
    This leads to extreme fatigue and exhaustion, with a loss 
of mental alertness. It places the vessels and personnel in 
danger from adverse weather conditions, and often results in 
vessels proceeding to sea that are not seaworthy. Virtually 
every fishing season, vessels are involved with collisions with 
oil structures, groundings and men lost overboard.
    The operators are forced to sail into adverse weather 
conditions in an attempt to make a living, knowing that they 
could be found guilty of reckless and negligent operation 
should a mishap befall them. It is only a matter of time, if 
derby fishing continues, before the snapper fleet will be 
caught in an unprecedented storm or a fast developing low 
pressure system, with the loss of vessels and life.
    When the Act was last reauthorized, National Standard 10 
was included. This Standard promotes safety at sea. Derby 
fishing violates this Standard. We in the industry must have an 
individual transferable quotas system in order to survive. With 
derby fishing, we flood the market with one species of fish at 
a time. This results in depressed vessel prices and forces us 
to sell our fish for any price offered by the dealers.
    I would like to commend Ms. Dalton and Dr. Hogarth for 
their efforts with the snappers stakeholders meetings this year 
in an attempt to find a solution to the derby fishing problem. 
I attended the meeting held in New Orleans and the executive 
summary meeting in Biloxi, where the industry addressed these 
problems and made recommendations to the Gulf Council on what 
action could be taken to rectify the problems until an ITQ 
system could be put in place.
    At the November meeting of the council in Orlando, Florida, 
the results of the stakeholders meeting was addressed. The 
council recommended virtually every change the recreational/
for-hire sector wanted and none of the commercial industry's 
suggestions. All the commercial sector got was five days of our 
opening taken away from us, thus putting more pressure on us to 
fish in any and all weather conditions when the season opens in 
the dead of winter.
    The only rationale I can see for this action was the fact 
that the commercial sector has never, in my memory, had a 
commercial fin fisherman represent us on the council. The 
majority of the commercial allotted seats on the council are 
held by fish dealers, whose best interests are not necessarily 
the same as the fishermen.
    Thank you very much for your time and attention.
    Senator Snowe. Thank you. I want to thank all of you for 
your very helpful comments and constructive suggestions. This 
is not the end of the process, it is the beginning. So please 
feel free to submit any additional information that you think 
will be helpful as we proceed with the reauthorization of the 
Magnuson-Stevens Act.
    Senator Breaux. I would just echo Senator Snowe's comments. 
We have had some good comments today. We have had some very 
serious problems brought to our attention. Certainly Senator 
Snowe has a very sympathetic ear to some of the things that we 
have heard today. I am delighted that she has been able to come 
down here to this part of the country and listen to the 
problems of our fishermen in the Gulf of Mexico.
    We are committed to going back to Washington as we 
reauthorize this legislation, to try and address legislatively 
some of these problems that are not, I think, the intent of the 
Congress. I think some things get lost in the shuffle, and we 
intend to do everything we can to make this program work better 
for everybody that it was intended to work for. Thank you.
    Senator Snowe. Thank you. And I want to thank you for 
inviting me to be here today with all of you. I can say without 
any doubt that there is no finer person to represent you and 
there is no one more knowledgeable on these issues than Senator 
Breaux. We will do everything we can to reconcile some of the 
problems that have been raised today. And please do submit 
additional information that you think will be helpful to this 
process.
    With that, the hearing is adjourned. Thank you.
    [Whereupon, at 1:48 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Penelope Dalton

    Question 1. Recently, an industry group sponsored an independent 
stock assessment of red grouper in the Gulf of Mexico. This stock 
assessment conflicted with the NMFS assessment in several areas. As a 
result of this conflict and other problems with the NMFS assessment, 
the Scientific Committee of the Gulf Council rejected the stock 
assessment.
    How can you improve the Council stock assessment process so that 
stakeholders have more confidence in the outcome?

THE WITNESS DID NOT PROVIDE A RESPONSE.

    Question 2. At previous hearings, some witnesses have questioned 
whether it is appropriate to continue to use Maximum Sustainable Yield 
(MSY) as the target for fisheries management.
        a. Is MSY a reasonable goal and do you recommend any 
        modifications to the management process which would make 
        achieving such a goal more feasible?

THE WITNESS DID NOT PROVIDE A RESPONSE.

        b. How do you view ecosystem management as it relates to the 
        management of species at MSY?

THE WITNESS DID NOT PROVIDE A RESPONSE.

    Question 3. The agency has entered into a November 22, 1999 consent 
order with the plaintiffs in National Coalition for Marine Conservation 
v. Daley, requiring it to publish proposed regulations by December 15, 
1999, and final regulations by May 1, 2000, to address ``additional 
measures to reduce billfish and juvenile swordfish bycatch in the 
pelagic longline highly migratory species fishery, including 
considering whether certain areas in the United States' exclusive 
economic zone should be closed to pelagic longline fishing.''

        a. Is the December 15, 1999 proposed rule, which would close 
        areas in the south Atlantic and Gulf of Mexico, the only 
        proposal in response to the consent order?

THE WITNESS DID NOT PROVIDE A RESPONSE.

        b. If so, what other measures did you consider in addition to 
        those contained in the proposed rule?

THE WITNESS DID NOT PROVIDE A RESPONSE.

        c. The consent order requires a final rule to be published by 
        May 1, 2000. Does the consent order require an effective date 
        for the final rule? If so, what is it?

THE WITNESS DID NOT PROVIDE A RESPONSE.

        d. If the agency were to determine that it did not have 
        adequate information to publish a final rule, what, if 
        anything, does the consent order require the agency to do?

THE WITNESS DID NOT PROVIDE A RESPONSE.

        e. If the order requires the agency to publish final 
        regulations but the agency has the authority to delay the 
        effective date, what kind of information must be in the 
        administrative record to delay the effective date? Please 
        explain in detail.

THE WITNESS DID NOT PROVIDE A RESPONSE.

    Question 4. The agency is now collecting information through public 
hearings on its administrative proposal. To what extent does the agency 
propose to collect economic information, which would allow it to 
mitigate the displacement of the longline fleet as a result of the 
proposed closed areas? Please explain in detail.

THE WITNESS DID NOT PROVIDE A RESPONSE.

    Question 5. Will the information allow the agency to take into 
account the impact on shoreside processing, marine terminals and local 
communities? Please explain in detail.

THE WITNESS DID NOT PROVIDE A RESPONSE.

    Qustion 6. Will the agency also collect sufficient information to 
determine the social impact on families which might be dislocated? 
Please explain in detail.

THE WITNESS DID NOT PROVIDE A RESPONSE.

    Question 7. How does the agency intend to address the dislocation 
of vessels to the mid-Atlantic? Please explain in detail.

THE WITNESS DID NOT PROVIDE A RESPONSE.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              John Roussel

    Question 1. In 1995, the Council proposed the establishment of a 
red snapper Individual Transferable Quota (ITQ) system. The system was 
never implemented, however, due to the ITQ moratorium set by Congress 
in 1996. Those opposed to ITQs have argued that they would result in a 
consolidation of the fishery among a few big businesses, thereby 
forcing the traditional and smaller fishing operations out of the 
industry. Some proponents argue that ITQs can provide for improved 
management, increased safety, and better quality seafood over longer 
seasons.
    In your testimony, you supported lifting the moratorium on ITQs. 
How would the use of ITQs for red snapper stabilize the fishery?

    Answer. My support for lifting the moratorium on ITQs is based on 
my observation that with the moratorium in place, full study and debate 
of the appropriateness of ITQs is stifled. ITQs can produce some 
undesirable outcomes and I certainly share some of the concerns that 
initially led to Congress establishing a moratorium. However, I feel 
that fishery managers and the fishery participants should be afforded 
the opportunity to consider the entire suite of management tools when 
regulating fisheries.
    At this point I am not prepared to say that the ITQ program 
developed by the Council in 1995 is appropriate for the Gulf Red 
Snapper Fishery, nor am I prepared to propose an alternative ITQ 
program for the Gulf Red Snapper Fishery. However, if properly 
structured, ITQs may provide an opportunity to eliminate the race for 
fish, address overcapitalization, and create a safer fishery with a 
higher quality product. Each of these conditions exists to some extent 
in the Gulf Red Snapper Fishery.
    If the moratorium were to be lifted, it is my opinion that there 
should be substantial support from the fishery participants before 
implementing an ITQ program for a particular fishery. Additionally, the 
development of the specifics of the program should be careful and 
deliberate so as to minimize undesirable outcomes and if possible any 
ITQ program should be structured so as to not preclude the use of a 
non-ITQ approach in the future should conditions in the fishery change.

    Question 2. The National Marine Fisheries Service (NMFS) and the 
Councils have begun to identify a subset of essential fish habitat 
(EFH) called ``habitat areas of particular concern.'' This subset 
targets critical areas such as places of spawning aggregations. Should 
these ``habitat areas of particular concern'' be the true focus of 
NMFS' work on EFH or has NMFS implemented the EFH provisions 
appropriately?

    Answer. The recognition of the importance of habitat issues in the 
Act was a significant positive step. Undoubtedly the size and vitality 
of our estuarine and marine fish populations are dependent on the 
quantity and quality of their habitat. However, we have only a limited 
understanding of the ecological relationships that constitute this 
dependence. This limited understanding makes it difficult to 
effectively address habitat issues especially on a species by species 
basis.
    The ``essential fish habitat'' and ``habitat areas of particular 
concern'' concepts in my mind are both species based approaches. Since 
both rely heavily on a good understanding of the relationship between a 
species and its environment, they both share the same inherent 
weakness. What is most important is that the Act require that there be 
a mechanism for addressing non-fishing threats to healthy estuarine and 
marine ecosystems.

    Question 3. Many of our witnesses mentioned the need for increased 
participation of fishermen in the data collection process. Several also 
mentioned that we need to make management decisions that reflect a 
consensus within the region. Please explain how we can increase 
participation of fishermen in research when there are such different 
views on how to proceed?
    Answer. The barrier to increased participation of fishermen in the 
data collection process is the adversarial relationship that tends to 
exist between the regulated (fishermen) and the regulator (managers). 
History has shown that fishermen and managers can have a good and 
mutually beneficial relationship as has generally been the case when 
both groups have worked together to collect data in the development of 
new fisheries. Under this scenario the fishermen clearly see the 
benefits of working with the managers, however, in a highly regulated 
fishery the benefits are not clear to the fishermen and in fact what 
the fishermen often perceive is more data equals more regulations.
    In order to engage fishermen in data collection efforts in a highly 
regulated fishery some type of incentive will probably be necessary. 
The type of data collection as well as the type of incentive that may 
be effective would likely vary from fishery to fishery. Opportunities 
to incorporate incentives into the regulations are one area that I 
think should be further explored.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Dr. Robert Shipp

    Question 1. NMFS has been criticized for its implementation of 
National Standard 8 under the Magnuson-Stevens Act. Do you believe that 
NMFS has properly implemented National Standard 8 and would you suggest 
any changes to the Act to better protect traditional fishing 
communities?
    Answer. The problem with this standard is that the definition of 
``fishing communities'' is too vague. NMFS has tried to implement it, 
but there are no clear limits as to what constitutes a fishing 
community. Thus I don't think it can be properly implemented, and the 
Act must clearly specify what is intended by a ``fishing community'' 
and Senate-House staff should consult with NMFS as to the problems 
encountered when trying to interpret the congressional intent.
    Question 2. In 1995, the Gulf Council proposed the establishment of 
a red snapper Individual Transferable Quota (ITQ) system. The system 
was never implemented, however, due to the ITQ moratorium set by 
Congress in 1996. Would the use of ITQs for red snapper stabilize the 
fishery? Please explain.
    Answer. ITQs would absolutely stabilize the fishery. It would 
provide all harvesters, initially commercial, and eventually charter/
recreationals, with a plan to regulate themselves based on economic 
considerations of the present and future. It would eliminate the derby 
fishery which challenges common sense regarding safety and long term 
conservation. The problems of implementation have been exacerbated by 
the long delay, but the long term advantages far outweigh those 
problems.
    Question 3. The National Marine Fisheries Service (NMFS) and the 
Councils have begun to identify a subset of essential fish habitat 
(EFH) called ``habitat areas of particular concern.'' This subset 
targets critical areas such as places of spawning aggregations. Should 
these ``habitat areas of particular concern'' be the true focus of 
NMFS' work on EFH or has NMFS implemented the EFH provisions 
appropriately?
    Answer. The ``habitats of particular concern'' should certainly be 
the focus of NMFS' work on EFH. As it now stands, EFH has been diluted 
to a meaningless expanse, essentially including all waters of the EEZ 
and even adjacent nearshore and inshore habitats.
    Question 4. Many of our witnesses mentioned the need for increased 
participation of fishermen in the data collection process. Several also 
mentioned that we need to make management decisions that reflect a 
consensus within the region. Please explain how we can increase 
participation of fishermen in research when there are such different 
views on how to proceed?
    Answer. The only way participation by fishermen can be increased is 
by standardization and quality control of data gathering. Without this, 
their participation is anecdotal and generally useless; with it, their 
participation becomes empirical data and very useful. To accomplish 
this, specific protocols, including the use of observers when needed, 
would have to be adopted. Consensus within the region should not be a 
requirement for effective fisheries management.
    Question 5. At previous hearings, some witnesses have questioned 
whether it is appropriate to continue to use Maximum Sustainable Yield 
(MSY) as the target for fisheries management.
    a. Is MSY a reasonable goal and do you recommend any modifications 
to the management process which would make achieving such a goal more 
feasible?
    b. How do you view ecosystem management as it relates to the 
management of species at MSY?
    Answer. There needs to be far more latitude in implementation of 
MSY, especially as habitat dynamics change. For example, habitat 
increases for red snapper during the last half century have resulted in 
projections of MSY some ten times what has ever been harvested. To 
require NMFS to work toward this theoretical harvest is ludicrous and 
damaging to the credibility of NMFS and Magnuson. MSY definitely needs 
to be considered within the context of ecosystem management where MSY 
for all species is often an impossibility, and preferences and 
allowances need to be made based on economic, social, and long term 
ecological considerations.
    Question 6. Some groups have criticized other Fishery Management 
Councils for not using information and recommendations submitted by 
advisory committees. How does the Gulf Council incorporate the 
recommendations of its Scientific and other panels into the decision-
making process?
    Answer. The Gulf Council has always carefully considered advice of 
its panels, and in fact feels legally bound in most instances to the 
advice of its scientific and statistical panels.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Myron Fischer

    Question 1. Some recreational fishermen contend that the red 
snapper quota is flawed because it does not properly balance the social 
and economic values of the recreational and commercial fisheries. Do 
you believe that the recreational fishery deserves more quota? If so, 
please explain in detail how such an allocation would affect the supply 
and prices on domestic red snapper.
    Answer. The original quota was based on a 49 percent-51 percent 
historical catch divided between the recreational and commercial user 
groups respectively. Many caveats appear; one being that the MRFSS 
data, especially in this time frame, was suspect to precise accuracy. 
Secondly, much of the commercial red snapper catch was foreign 
(Mexican) and recreational interest contends that an incorrect portion 
was discarded, yielding a higher domestic commercial catch. Lastly, the 
socio-economic figures did not come into play regarding the impact of 
either category, commercial or recreational. Looking solely at the 
participants in this fishery, one can easily determine the vast 
quantity of recreational anglers engaged as opposed to the minimal 
population of the commercial sector. This figure, when added to the 
economic benefits of the recreational community, poses a realistic 
question as to whether the 49/51 percent split is justified. Many 
anglers sitting on the recreational side of this issue will contend, in 
the light of the three caveats mentioned above, that the percentage 
split should be addressed. My personal feelings on the issue are that 
this management scheme has evolved through expeditious annual framework 
changes to the point that both sectors are not sure of what are the 
regulations. This twisted menagerie of amendments leads me to the 
conclusion that the entire FMP concerning red snapper should be 
discarded and the council begin a new plan originating with a new 
``original'' stock assessment; an item whose validity has been debated 
vigorously.
    Addressing the percentage split between user groups should not have 
much bearing on commercial prices. The market seems to move at its own 
pace with imports and substitute species affecting prices in unknown 
manners. The actual problem may not be the user group split, but rather 
the science that dictates the TAC. A twenty percent increase in TAC 
would give both sectors more fish than any re-allocation would give to 
one group while taking away that portion from the other group. The 
congressionally mandated peer review of the red snapper management may 
have indicated that judgments were based on sound science, but most all 
reviewers also stated that the quality of the data going into the model 
was suspect. If the original stock size was mis-calculated, then all 
subsequent calculations and management decisions based on these 
calculations are in error. Possibly, if we are unable to count the 
original population of red snapper in the Gulf, then we should not rely 
on any management scheme that requires such a percise number to be 
known.
    Question 2. The National Marine Fisheries Service and Councils have 
begun to identify a subset of essential fish habitat called ``habitat 
areas of particular concern.'' This subset targets critical areas such 
as places of spawning aggregations. Should these ``habitat areas of 
particular concern'' be the true focus of NMFS' work on EFH or has NMFS 
implemented the EFH provisions appropriately?
    Answer. These habitat areas of particular concern are considered to 
be either the most fragile, most important, most critical, or some 
other adjective to indicate that they are to be considered at the top 
of the list. Of course, these areas should be the main focus of NMFS 
work on EFH, but let us make sure that they are actually ``areas of 
particular concern.'' How do we actually define such a term? I feel a 
commercial fisherman will differ from a recreational fisherman, who 
will differ from a scientist, who will differ from an environmental 
group in how the criteria are laid out for a habitat area of particular 
concern. The problem will not lie in how NMFS implements provisions but 
rather in what habitat areas are chosen and on what standards.

    Question 3. Many of our witnesses mentioned the need for increased 
participation in the data collection process. Several also mentioned 
that we need to make management decisions that reflect a consensus 
within the region. Please explain how we can increase participation of 
fishermen in research when there are such different views on how to 
proceed?
    Answer. The problem does not extend only to data collection, but 
rather to quality data collection. Mandatory programs are often not 
accepted unless the recreational sector is initially educated on the 
benefits of such a program. The fears of government intervention and 
further restrictions will be in the minds of fishermen participating in 
such programs. Education and earning trust through a partnership may 
shed more light than dictating a system to these fishermen. Science has 
to originate the scheme of what data are needed and on what basis. The 
anglers have to be sold into the system that the research is for their 
benefit. Many recreational anglers feel that fishing is their right, 
not a privilege. With this mindset, recreational anglers may look at 
big government as big bully pushing something else on them. Even 
allowing representatives of the recreational community in on the ground 
floor of data gathering decisions does not necessarily translate to the 
masses of recreational fishermen that the system is sound and in their 
best interest. The change needed will be based on education through a 
period of time. Trust is the largest hurdle to overcome and may just be 
the barrier that causes failure.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Peter Emerson

    Question 1. NMFS has been criticized for its implementation of 
National Standard 8 under the Magnuson-Stevens Act. Do you believe that 
NMFS has properly implemented National Standard 8? Please explain in 
detail, including whether or not you believe that the socioeconomic 
impacts of fisheries regulations should be adequately considered prior 
to finalizing these rules?
    Answer. It is essential that the long- and short-term socio-
economic impacts of fishery management options be better understood and 
considered by the Regional Councils and NMFS in managing the nation's 
fisheries. Fishery management decisions would benefit hugely from more 
comprehensive socio-economic data and complete analyses of short-term 
versus long-term effects of regulations early in the decision-making 
process.
    Question 2. Would you please provide examples of instances where an 
increase in the use of precautionary approach would not have had 
negative economic impacts on fishermen and fishing communities?
    Answer. Two examples of the ``precautionary approach'' in Gulf 
fisheries are: (1) using a ``constant fishing mortality rate'' instead 
of ``constant catch'' management; and (2) setting TAC and bycatch 
reductions goals that have a high (>50 percent) probability of 
achieving rebuilding targets. In the 1995 red snapper stock assessment, 
Goodyear projected--that given reductions in the TAC over five years--
the rebuilding goal would be reached by the target date and total 
allowable catch levels were estimated to rise and exceed current levels 
by nearly 50 percent in 2005. These precautionary options were not 
adopted. As a consequence, the stock continues to struggle, rebuilding 
targets have been pushed back, and fishermen are locked into a low TAC 
with no potential for improvement in the foreseeable future.
    Question 3. The National Marine Fisheries Service (NMFS) and the 
Councils have begun to identify a subset of essential fish habitat 
(EFH) called ``habitat areas of particular concern.'' This subset 
targets critical areas such as places of spawning aggregations. Should 
these ``habitat areas of particular concern'' be the true focus of 
NMFS' work on EFH or has NMFS implemented the EFH provisions 
appropriately?
    Answer. The Gulf Council has used narrowly-defined ``habitat area 
of particular concern'' (HAPC) designations since the early 1980's to 
prevent harm to selected bottom habitats from fishing gear. While 
additional HAPC designations need to be considered as fishing gear and 
techniques change and we learn more about their negative impacts, NMFS 
is taking the right approach in recognizing the need to address the 
broad array of both fishing and non-fishing activities (for example, 
pollution, oil and gas activities, dredging and filling of wetlands) 
that harm fish habitat and stocks.
    Question 4. Many of our witnesses mentioned the need for increased 
participation of fishermen in the data collection process. Several also 
mentioned that we need to make management decisions that reflect a 
consensus within the region. Please explain how we can increase 
participation of stakeholders in research when there are such different 
views on how to proceed?
    Answer. Existing logbook and observer programs should be expanded 
and improved, and new ones implemented where none exist, to gather 
crucial data and answer controversial questions.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            R. Michael Lyons

    Question 1. In his testimony, Dr. Wilson of Louisiana State 
University mentioned that reasonable progress has been made toward 
implementing essential fish habitat requirements. He also highlighted a 
problem that many others across the country have brought to our 
attention--the difference between essential and non-essential habitat. 
I know you have expressed similar concerns.
    a. Would you please comment on this issue and provide the 
Subcommittee with examples of how your business has been adversely 
impacted by the lack of distinction between essential and non-essential 
habitat and the resulting threat of burdensome regulations? Please be 
specific with your examples, if possible.
    b. Have you had any routine permit requests or other projects that 
have been delayed or otherwise adversely impacted by a threat of a 
``headquarters-level'' review based on the EFH consultation 
requirements? Again please be specific.
    Answer. a. The problem we have with the broad characterization of 
``essential fish habitat'' is that it subjects a significant percentage 
of the development activity in the State of Louisiana and the Gulf of 
Mexico to yet another scope of review. Virtually all of this activity 
affecting the broad area designated is currently subject to review 
under both the Corps of Engineer 404/Section 10 permit process and the 
Louisiana Coastal Zone Management permit process. The effects of 
habitat alteration are fully addressed under both these programs. The 
National Marine Fisheries Service (NMFS) currently participates in both 
these programs. We feel ``essential fish habitat'' concerns are 
adequately addressed by these existing habitat protection programs. If 
there are areas of particular or unique concern, which are not 
otherwise covered or which would benefit from some special review, 
perhaps we could understand. Unfortunately, the same areas now subject 
to habitat review and mitigation will be looked at again, by the same 
agency, for essentially the same purpose.
    b. I know of no permit actions delayed by threat of ``headquarters-
level'' review.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                      William S. ``Corky'' Perret

    Question 1. At the hearing, there was some discussion of the 
difference between essential and nonessential habitat. What statutory 
changes, if any, do you recommend to provide NMFS with the ability to 
identify and protect truly essential habitat?
    Answer. I do not believe that a statutory change can be made that 
would allow for better identification of EFH. Making a rule is not 
going to allow scientists to define EFH better than it has already been 
defined. As defined in the interim final rule (62 FR 66551), 
``Essential fish habitat means those waters and substrate necessary to 
fish for spawning, breeding, feeding, or growth to maturity. For the 
purpose of interpreting the definition of essential fish habitat: 
`Waters' include aquatic areas and their associated physical, chemical, 
and biological properties that are used by fish, and may include 
aquatic areas historically used by fish where appropriate; `substrate' 
includes sediment, hardbottom, structures underlying the waters, and 
associated biological communities; `necessary' means the habitat 
required to support a sustainable fishery and the managed species' 
contribution to a healthy ecosystem; and `spawning, breeding, feeding, 
or growth to maturity' covers a species' full life cycle.''
    To identify and describe EFH following the above definition, NMFS 
produced guidelines calling for analysis of existing information at 
four levels of detail. At Level 1 the presence/absence of 
distributional data are available for some or all portions of the 
geographic range of the species; at Level 2 habitat-related densities 
of the species are available; at Level 3 growth, reproduction, or 
survival rates within habitats are available; and at Level 4 production 
rates by habitat are available. The guidelines also call for applying 
this information in a risk-averse fashion to ensure adequate areas are 
protected as EFH of managed species.
    In order to more accurately define EFH, better science is needed. 
Level 3 and 4 information is not currently available. It will only 
become available through further scientific research, not statutory 
rulemaking. The Councils, however, are being forced to act on data that 
do not exist and lacks the funds to obtain the needed scientific 
information.
    Concerning essential and non-essential habitat. Yes, the entire 
E.E.Z. in the Gulf of Mexico has been defined as EFH. What you must 
consider is that the Gulf of Mexico is home to hundreds of different 
fish and shellfish species all utilizing different habitats. The Gulf 
of Mexico Fishery Management Council is responsible for managing almost 
60 fish and shellfish species and over three hundred coral species. 
When defining EFH for eggs, larvae, juveniles, and adults, an extensive 
area is defined for each species managed. The entire Gulf of Mexico is 
not defined as EFH for one single species. The entire Gulf of Mexico is 
defined as EFH only when all of the managed species' areas are 
combined. Every part of the Gulf of Mexico is essential to one species 
or another. You can label certain habitats as non-essential to some 
species, but that does not change the fact that the habitat is still 
essential to other species.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Larry B. Simpson

    Question 1. NMFS has been criticized for its implementation of 
National Standard 8 under the Magnuson-Stevens Act. Do you believe that 
NMFS has properly implemented National Standard 8 and would you suggest 
any changes to the Act to better protect traditional fishing 
communities?
    Answer. The NMFS has done an extraordinary job of advancing 
management measures which ensure the prevention of overfishing and 
rebuilding of stocks; however, this standard is broader than just that. 
National Standard 8 involves effects to fishing communities and 
minimizing adverse economic impacts on those communities. In the latter 
considerations, I think the NMFS has not adequately considered the 
impacts to those heavily-dependent fishing communities. As with much of 
management, the cumulative impacts are most heavily felt. It is not so 
much the single management measure that is felt but the cumulative 
effect of management as a whole. The problem is relatively easy to see; 
the solutions are much more difficult. Leaving management measures in 
place for longer periods of time (two to three years) will provide some 
stability to fishermen in the long-term; however, this is not the cure. 
It is accepted that when significant changes occur in management, all 
users will be impacted, but the extent of ``the hit'' needs to be 
weighed against the immediate benefits of the management measures 
themselves.
    Question 2. At previous hearings, some witnesses have questioned 
whether it is appropriate to continue to use Maximum Sustainable Yield 
(MSY) as the target for fisheries management.
    a. Is MSY a reasonable goal and do you recommend any modifications 
to the management process which would make achieving such a goal more 
feasible?
    b. How do you view ecosystem management as it relates to the 
management of species at MSY?
    Answer. I do not believe that MSY is nearly as useful as other 
population measures such as spawning potential ratios (SPRs). When a 
population reaches an overfished status, MSY is not really valid 
anymore. Recovery requires sustainability, and yield falls from the 
equation. In most cases the concept of MSY is still valid and useful, 
but these other approaches like SPR may provide more insight into the 
status of the population rather than the fishery. Those involved in 
population dynamics live and die by finite numbers which, when 
considered, often do not rise to a threshold of making a discernable 
difference. Yet, we change or are pressured to make changes that we all 
know intuitively cannot be measured properly under current data 
programs. I feel that heightened attention to better quality and 
quantity of fishery-dependent and independent data collection and 
administration will help tremendously. The solutions I feel are 
appropriate involve longer term goals and not so much single year 
changes which our data and models are really inadequate to be sensitive 
to.
    In a broader scope, multi-species or ecosystem management 
philosophies are useful given there is real effort to consider the 
various effects on multi-species interactions in closely related 
fisheries. While this approach is not new, it has not been widely 
examined. The work being done by the Atlantic States Marine Fisheries 
Commission should be watched carefully by all managers as they evaluate 
the feasibility of multi-species assessment techniques for future 
fishery management plans.
    Question 3. The National Marine Fisheries Service (NMFS) and the 
Councils have begun to identify a subset of essential fish habitat 
(EFH) called ``habitat areas of particular concern.'' This subset 
targets critical areas such as places of spawning aggregations. Should 
these ``habitat areas of particular concern'' be the true focus of 
NMFS' work on EFH or has NMFS implemented the EFH provisions 
appropriately?
    Answer. Yes, the NMFS definition of EFH is on the right track in 
the critical areas it is identifying (spawning habitat, nursery 
habitat, etc). The Commission agrees with and endorses the EFH 
provisions fully.
    Question 4. Many of our witnesses mentioned the need for increased 
participation of fishermen in the data collection process. Several also 
mentioned that we need to make management decisions that reflect a 
consensus within the region. Please explain how we can increase 
participation of fishermen in research when there are such different 
views on how to proceed?
    Answer. The NMFS suffers from an intense public relations problem. 
Most fishermen distrust the fisheries service and naively feel that if 
they could just show the scientist their side, the scientist would 
understand--and everything would be fine. Most of the fishermen do not 
understand the importance of research rigor or the relative importance 
in collecting and comparing both fishery-independent and fishery-
dependent data sets. Clearly, both the NMFS and the fishery user groups 
need to communicate more often and freely to bring fishermen into the 
process. Some, not all, of what a fisherman knows about their fishery 
is useful; however, their perception is that the NMFS has very little 
knowledge regarding the fishery. In fact, the NMFS already knows much 
of what the fishermen have to offer. Unfortunately, many of the 
management recommendations provided by fishermen, while logical, are 
impractical or simply too costly to implement. Again, communication 
between the NMFS and user groups would reduce the sense of being 
ignored that many fishermen complain about. We in the Gulf of Mexico 
have cooperative research projects which actively involve the 
fishermen. For example, observers and charter boat research platforms 
obtain data on that sector. Public perception and involvement is a 
constant strain for the NMFS and an area in need of increased priority.
                                 ______
                                 
              Written Questions of Hon. John B. Breaux to 
                            Penelope Dalton
Best Available Science

    Question 1. National Standard 2 states that management plans must 
be based upon the best scientific information available. Yet NMFS 
acknowledges that we don't have enough information to determine the 
status of 64 percent of species we manage. Long-term, dependable 
scientific information seems critical to making good management 
decisions. What is the biggest hurdle you face in getting the data and 
scientific analyses needed for important management decisions?
    Question 2. Will better scientific information on Gulf fisheries 
lead to better management decisions? Why or why not?
    Question 3. How is NMFS helping the Councils appropriately 
incorporate scientific advice into the decision making process under 
the Magnuson-Stevens Act? Please address situations in which scientific 
advice provided to the Council admits a high degree of uncertainty with 
respect to stock status or other projections--how should a Council use 
this information?
    Question 4. Do we need to modify any provisions of Magnuson-Stevens 
Act to ensure that Councils are relying upon the ``best available 
scientific information''?
MSY-based Management
    Question 5. I understand that NMFS regulations interpreting the SFA 
require the Councils to determine whether a stock is overfished using 
both fishing rate (F) and stock size (biomass) criteria. While 
fisheries have traditionally been managed using fishing rate criteria, 
Councils are now required to use stock size (biomass) as an overfishing 
criterion. I understand that biomass estimates are calculated using a 
concept called ``maximum sustainable yield'' (MSY), and that 
calculating MSY is difficult in species for which we do not adequately 
understand the relationship between the stock and its recruitment 
potential.
    Red snapper are one such stock for which the stock recruitment 
relationship remains unclear. As the Council attempts to implement the 
SFA, I'm wondering how they can manage based on MSY in a situation 
where the available data make it difficult to use this to estimate 
stock biomass reliably using MSY. They seem to think they have no 
choice but to use MSY. Do your rules provide the Councils any way to 
use other means of estimating stock biomass based on the biology and 
information available for the stock being managed, or must all FMPs be 
based on MSY?
    Question 6. If there is flexibility, please explain how the 
Councils can (or do) exercise it.
    Question 7. If Councils are not taking advantage of this 
flexibility, how is NMFS planning to communicate this information to 
them?
Essential Fish Habitat
    Question 8. We heard from a few witnesses of some examples of 
essential fish habitat designations that were of questionable merit. 
Please provide us the following information with respect to these 
concerns. What were the facts behind the two permit notices mentioned 
by Mr. Lyons and Mr. Perret? Were these NMFS EFH designations and 
consultations?
    Question 9. Of the total number of Federal permits processed in the 
State of Louisiana to date, how many and what percentage have gone 
through the NMFS EFH consultation process? Please provide these 
statistics for other states, and the entire nation, if currently 
available.
    Question 10. Have these consultations resulted in any permitting 
delays?
    Question 11. I'd like to follow up on a statement made at the 
hearing by Larry Simpson. He expressed some confusion concerning the 
funding needs identified in the NMFS report to Congress, ``Proposed 
Implementation of a Fishing Vessel Registration and Fisheries 
Information System.'' My questions deal solely with the Fisheries 
Information System (FIS) portion of the report. Of the funding 
requirements identified to establish and operate the FIS, how much is 
already being provided to NMFS? Please use as an example the FY1999 and 
FY2000 funding levels and identify the activities and amounts provided 
for such activities (include budget account for each activity). How 
much more annual funding will be required, and for what activities, to 
put the FIS into operation?
    Question 12. Of the funding requirements identified for states or 
regional marine fisheries commissions (such as the Gulf States 
Fisheries Commission), how much is already being provided to them? 
Again, please use as a point of reference the FY1999 and FY2000 funding 
levels. What activities are they already performing? How much more will 
these commissions annually need to perform the work identified in the 
FIS?

The witness did not provide a response.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John B. Breaux to 
                           Frederic L. Miller

    Question 1. Mr. Miller, you mentioned that recreational fishermen 
are not an easily regulated group, that recreational catches are very 
difficult and expensive to count accurately, and that existing data on 
recreational fisheries are poor. Do you think the data we have on 
commercial fishing are more or less complete than the data we have on 
recreational fishing?
    Answer. Yes, Senator, I think the data on commercial fishing are 
more complete than the data on recreational fishing. Additionally, I 
think that data on commercial fishing in the Gulf of Mexico are going 
to improve over the next year as each state in the Gulf gets its Trip 
Ticket system up and running. Louisiana is fully operational, Florida 
is almost there. Texas is in the process of converting its system. 
Mississippi and Alabama are making progress and should be up and 
running by year end.
    The fundamental difference between the data gathered in the Gulf 
for commercial and recreational fisheries is that the commercial data 
have the design potential to be real time data. The recreational data, 
relying on the NMFS MRFSS system, are flawed in both its design and 
NMFS' attempted use of the data. There is no way MRFSS data can be 
accurate, nor can it be utilized to make management decisions.
    Question 2. Please describe the specific recreational fishery data 
gaps that need to be filled. Please be sure to identify information you 
think necessary to allow the existing recreational quota management 
requirements to work.
    Answer. The recreational data gaps that need to be filled are very 
large. NMFS' focus is entirely upon commercial fisheries and its data 
gathering is geared to obtaining commercial data. NMFS has attempted to 
impose its management paradigm for commercial fisheries onto 
recreational fisheries and it simply does not work. NMFS cannot manage 
recreational fisheries utilizing its present data or the data it 
gathers under the present system. The states in the Gulf are the best 
source of recreational fishing data. They are closest to the 
recreational fisheries and to the recreational fishermen who dock in 
state waters.
    I do not believe that adequate data can be realistically and 
economically procured to support recreational quota management. Fishery 
managers all over the Gulf tell me that quotas are not the proper way 
to manage a recreational fishery. No state agency in the Gulf manages 
any recreational fishery in its jurisdiction through a quota. There are 
too many recreational fishermen on the water at any given time, who 
launch from their homes/camps or at public/private launch facilities or 
who utilize for hire vessels. To accurately count the recreational 
catch is virtually impossible. Therefore, managers rely upon limits--
numbers and sizes--and seasons to manage the recreational fishery.
    Question 3. What sectors should be involved in the data collection 
effort, and how would you advocate structuring the data collection for 
each sector?
    Answer. The states simply must be involved in recreational data 
collection. The states conduct the MRFSS now, but their effort is small 
and a great number of recreational fishermen are never surveyed. As a 
recreational fisherman who spends more than 60 days on the water each 
year, but who lives outside of the coastal parishes, I have never been 
surveyed. Further, none of my friends who live in Shreveport have ever 
been surveyed. The data collection effort must focus on the two sectors 
of the recreational fishing community that fish in federal waters:

        1. The purely recreational fisherman who fishes in his own boat 
        or with friends. Aggressive dockside sampling is the key to 
        obtaining these data.

        2. The ``for hire fleet'' that services the recreational 
        fisherman who fishes only occasionally and hires the services 
        of a guide, charter boat or headboat. Logbooks, report forms 
        and dockside sampling can all be utilized in the ``for hire'' 
        fishery as the numbers are finite and the owners are used to 
        record keeping.

    Question 4. Are any of these gaps already identified and addressed 
in NMFS' report to Congress, ``Proposed Implementation of a Vessel 
Registration and Fishery Information System''?
    Answer. No, not really. The VHS/FIN as proposed is primarily 
addressed to the commercial fishing industry.
    Question 5. Are NMFS or the states already attempting to address 
these gaps?
    Answer. Yes, but again the attempts are primarily directed at the 
commercial fishing industry.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John B. Breaux to 
                              John Roussel
State Based Law Enforcement

    Question 1. Mr. Roussel, I agree 100 percent that we must solve the 
current need for fisheries enforcement through the use of state-based 
programs. I understand that South Carolina has had a highly successful 
cooperative enforcement program between NMFS and SCDNR, and it is 
unfortunate that we don't have such a program in the Gulf.
    Would the state based law enforcement program be similar to the one 
in South Carolina?
    Answer. The South Carolina cooperative enforcement program involves 
only one state. I would propose that Congress consider a Gulf-wide 
program. Although the South Carolina program has been extremely 
successful as an isolated example of what can be accomplished along a 
portion of the East Coast, a region-wide approach would have a much 
greater chance of success in achieving a sufficient level of compliance 
with ongoing management efforts.
    The South Carolina cooperative enforcement program was funded from 
moneys within the Department of Commerce. It is my understanding there 
are currently no funds available within the Department of Commerce for 
a region-wide program in the Gulf of Mexico. A region-wide program 
would require a new and reoccurring funding mechanism.
    Question 2. Can you explain how such a program might work?
    Answer. The Program itself could be implemented as a ``Joint 
Project Agreement.'' These types of programs have been accomplished in 
the past in other states. The agreements would authorize state law 
enforcement officers with marine law enforcement responsibilities to 
perform duties of the Secretary of Commerce relating to enforcement of 
the provisions of the Act by providing a framework for joint 
enforcement and prosecution of Federal and state marine resource laws. 
The key features of the program to be implemented by the agreement 
would be overt presence by state law enforcement officers, voluntary 
compliance activities, and efficient cooperative prosecution procedures 
that will serve as an adequate violation deterrent. The NOAA Fisheries 
Office for Enforcement has had experience in drafting and executing 
such agreements.
    Question 3. How much annual funding do you estimate would be 
necessary to run such a program in the Gulf region? Please include both 
state and federal share.
    Answer. A successful Gulf-wide program would cost approximately 18 
million dollars annually. Each state's share would be based on the 
volume of the industry located within its jurisdiction. Although the 
states would not likely be unable to provide any new funding on match 
type bases, as I indicated in my testimony, state enforcement agencies 
currently produce more than seventy percent of all the cases initiated 
for violations of the Act. The current state enforcement efforts 
related to the Act should be recognized as state match. It is my 
understanding that some law enforcement estimates of the economic loss 
to the economies of the Gulf States due to unlawful taking of living 
marine resources run in excess of one billion dollars annually. 
Increased and more efficient funding of cooperative law enforcement 
efforts has the potential to provide significant economic returns to 
the nation.
                                 ______
                                 
      Written Questions of Hon. John B. Breaux to Dr. Robert Shipp
Multi-Species Management
    Question 1. It is becoming increasingly apparent that single-
species management can't take into account ecosystem issues, most 
notably the relationship of disparate fisheries through predator-prey 
and competitive relationships. This is particularly true of the reef 
fish complex in the Gulf, where species overlap and interact with each 
other during most stages of their life histories. Fishing affects those 
relationships in ways that need to be taken into consideration in 
fishery conservation and management plans.
    While some scientists and environmentals recommend the development 
of Fishery Ecosystem Plans as a first step towards ecosystem or multi-
species management, others, including the National Academy of Sciences, 
recommend not moving away from single-species stock assessment. This 
debate seems extremely pertinent to management of reef fish in the 
Gulf, and in fisheries like the Gulf shrimp fishery, where the industry 
has struggled with the incidental catch of juvenile red snapper. Are 
our scientific and management capabilities ready to make the leap from 
single-species management to multi-species or ecosystem based 
management?
    Question 2. Should we make such a change, and if so, how should we 
proceed?
IFQ Program for the Gulf
    Question 3. I heard loud and clear from the hearing tht we must 
stop the increasing derby fishery for red snapper. However, I 
understand that even if an IFQ system is available for the Gulf, it 
would take some time to come to agreement on, as well as to actually 
design and implement. Assuming the IFQ moratorium expires in 2000, how 
long would it take to get agreement on the structure of an IFQ program 
in the Gulf Council? How long would it take to design a program and 
implement it? When is the earliest it could take effect through the 
Council process?
    Question 4. What other types of management approaches would allow 
us to address the red snapper derby right now? Is it possible to put 
these approaches into place now so that we can start dealing with the 
issue before an IFQ program is established?

The witness did not provide a response.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John B. Breaux to 
                            Dr. Chuck Wilson

    Question 1. Dr. Wilson, I appreciate your very constructive 
comments and proposals relating to EFH. I understand that you are 
involved in some pioneering scientific research attempting to 
quantitatively link habitat to fisheries using acoustic technology. 
Could you elaborate on your research and what sort of information it 
could provide us?
    Answer. Several researchers at Louisiana State University have 
combined their interests in fisheries acoustics (myself), geological 
acoustics (Dr. Harry Roberts), and oyster habitat (Dr. John Supan), to 
establish MHACS (Marine Habitat Acoustic Characterization System). This 
system utilizes state of the art side scan sonar and sub-bottom 
acoustic imaging to establish the acoustic geo-technical properties of 
the surface and shallow sub-bottom in coastal Louisiana. At the same 
time, we use dual-beam hydroacoustics to establish the density and 
size-frequency distribution of fish overlying these different habitat 
types. The side scan sonar identifies areas of high reflectance, and in 
Louisiana this is either man-made objects or oysters. By establishing 
where the oyster reefs are located, the fish communities associated 
with those oyster reefs, and the subsurface geotechnical properties, we 
can then quantitatively describe Essential Fish Habitat in Louisiana 
shallow water bottoms, as well as elsewhere in the world. This 
technology was originally stimulated by the various Breaux Act projects 
and Corps of Engineers-sponsored river diversion projects to track the 
impact of river diversion on our resident oyster fishery. In the 
process of perfecting the use of this technology, we have come to 
realize that it has major implications for documenting Essential Fish 
Habitat. The reason this will be so important in the future is due to 
new technology in positioning; our data are accurate to within 20cm, 
and the new digital side scan technology provides a resolution of 10-
20cm. Consequently, we can identify very small objects and pinpoint 
those objects over and over again.
    Over time, we hope to develop bottom acoustic images of coastal 
Louisiana that can be used in the future to accurately track the 
impacts of river diversion, hurricanes, trawling, dredging, and oil and 
gas activities. This imagery is very important and will have the same 
type of value and application as some of the early 1900 aerial 
photographs that are so valuable today in tracking things like 
shoreline retreat. I envision this type of technology will be fairly 
commonplace in the next ten years to describe and model essential fish 
habitat, particularly for those species that are dependent upon 
specific bottom types.

    Question 2. Through identification of ``habitat areas of particular 
concern,'' will we be able to avoid the potential over-regulation that 
you mentioned, while maintaining the ability to consider habitat as an 
important component of fisheries management? If not, do you have any 
other suggestions?
    Answer. The concept of habitat areas is of particular concern as a 
step in the right direction for delineation of, for lack of better 
words, high-value and low-value essential fish habitat. However, as we 
are going to be faced with government agencies such as the Corps of 
Engineers and/or developers seeking permission to disrupt certain types 
of habitat; will the resultant designations (Essential Fish Habitat and 
Habitat Areas of Particular Concern) be sufficient?
    I am sure if you asked five scientists you would get five different 
answers as to how a continuum should be structured. For starters, I 
think it is important that we identify habitat that is critical to 
bottleneck stages of fish life history. For example, in red snapper, it 
appears that the habitat upon which juvenile red snapper depend is the 
bottleneck. We think this habitat is where they are most vulnerable to 
over-fishing activity (at the current time we believe this to be shrimp 
trawls). As for salmon, essential fish habitat appears to be the access 
to the spawning grounds. In the development of legislation, if we 
declare the spawning grounds for the salmon which are upriver, as well 
as the passage through the river to the Habitat Areas of Particular 
Concern, it may lead to regulation that may prevent any damage to both 
types of habitat. Currently the most important habitat is the spawning 
grounds, industries (e.g power companies) have developed ladder system 
to restore passageways that allow fish access to those critical 
spawning grounds. I am not sure I have the entire answer, but thinking 
out loud I might propose that we identify Critical Fisheries Habitat, 
(specific habitat types that are critical to bottleneck life stages of 
the species of concern), Habitat Areas of Particular Concern, (not 
quite as important to the survival of the species), and Essential Fish 
Habitat, (that habitat that that species occupies during some part of 
its life history).

    Question 3. Do you think the existing statute needs modification? 
If so, what do you recommend we change?
    Answer. I believe the existing statute is fine, although I would 
like to see language in interpretation to encourage consideration of my 
answer to Question 2.
                                 ______
                                 
    Letter in Response to Senator Snowe's Post Hearing Questions to 
                           Frederic L. Miller
                                                  February 13, 2001

Ms. Melissa Murphy,
Committee on Commerce, Science and Transportation,
United States Senate,
Washington, D.C.
        Via Facsimile No. 202-228-0326

Re: Senator Snowe's Post Hearing Questions

Dear Melissa:

    In response to your facsimile of February 13, 2001, enclosing 
Senator Snowe's post hearing questions, I am pleased to respond as 
follows.
    Essential Fish Habitat. In my opinion, what is truly needed is a 
clear working definition of Essential Fish Habitat (EFH). However, the 
problem faced with EFH in Louisiana is one closely akin to the chicken 
and the egg. Louisiana's coastal habitat is the most fertile estuarine 
system in the Gulf and perhaps in the nation. Louisiana's estuaries are 
undergoing assault daily from a number of environmental forces--
subsidence, salt-water intrusion, wind and wave erosion. The leveeing 
and channeling of the rivers that feed the estuaries have served to 
deprive the estuaries of much of the nutrient laden silt needed to 
replenish the estuarine eco-systems. The pollutants in the waters 
flowing from the northern reaches of the watershed--agricultural, 
industrial and household--have exacerbated the decline of estuarine 
health.
    The point may have been reached that damage to the estuaries is 
irreversible. If that is so, then the decline in habitat will reflect 
directly upon the productivity of estuary.
    Thus, where to draw the line between essential habitat and habitat 
that is non-essential is most troublesome. Yes, funds are needed to 
protect truly essential habitat, but what is needed most is a unified 
national effort aimed at restoration of what has been lost and the 
protection of what remains
    Individual Transferrable Quotas (ITQs). If ITQs were allowed in the 
Gulf of Mexico, it is the stated position of Coastal Conservation 
Association (CCA) that the ITQs should be truly transferrable on a 
willing buyer/willing seller basis. It is equally important that the 
quota purchased may not be removed from the TAC allowed in the directed 
Red Snapper fishery. The recreational sector would entertain the notion 
of purchasing a portion of the ITQ and transfer the purchased portion 
of the quota to the recreational quota.
    The impact of an ITQ system in the Red Snapper fishery in the Gulf 
of Mexico on consumer prices is unknown at this time. It is thought 
that prices might decline because commercial fishermen can time their 
catch to seasons and markets, rather than engage in a derby fishery 
that holds ex vessel prices down.
    Inasmuch as the Charter Boat sector, or the ``For Hire Fleet,'' is 
classed as a segment of the recreational sector and share in the 
recreational quota of Red Snapper in the Gulf of Mexico, an ITQ or 
other limited entry system for them makes little sense to me. CCA 
opposes any scheme that arbitrarily restricts access of recreational 
fishermen to fisheries resources. However, if the For Hire Fleet were 
to be allocated its own quota, separate from either the commercial or 
recreational quota, perhaps an ITQ or limited entry system might work.

With my best regards, I am

Very truly yours,

Frederic L. Miller
                                 ______
                                 
   Prepared Statement of Bob Jones, Executive Director, Southeastern 
                         Fisheries Association

    My name is Bob Jones. I have been the Executive Director of 
Southeastern Fisheries Association (SFA) since 1964. SFA is a 501c6, 
non-profit commercial fishing association. We are located at 1118-B, 
Thomasville Road, Tallahassee, Florida. We were founded in 1952 in 
Jacksonville, Florida and have members from North Carolina to Texas. 
SFA represents fishing companies in all segments of the seafood 
industry. We are organized into the following sections: Shrimp, Fish, 
Crab, Lobster, Oyster/Clam, Baitfish, Import/Export, Charterboat, 
Seafood Restaurant Alliance & Florida Offshore Fishing Consortium. We 
have over 450 company members that employ at least 10,000 people in the 
seafood industry.
    First of all, we support the statement presented by the Southern 
Offshore Fishing Association. If there has ever been a group of 
fishermen who were mistreated by their government it would have to be 
the shark fishermen. They were encouraged to enter the shark business 
by NMFS and are now being savaged by NMFS. Only through the actions of 
a U.S. Federal Court are they still somewhat economically alive. 
Please, if you don't read anything else on fisheries, read the record 
of the District Court in Tampa, Florida, and see how it feels about the 
abuse of power by the Office of Sustainable Fisheries.
    We submit the following issues for your review.
    1. Have your staff provide you with a graph of what has happened to 
food fish landings in the Gulf of Mexico since M-SFCMA.
    2. Determine the cumulative impact of the never ending NMFS 
regulations for fisheries. We had robust fisheries in the Gulf before 
M-SFCMA. We had a healthy industry. We had 500 shrimp boats unloading 
in Key West during the pink shrimp season before M-SFCMA and now are 
lucky if we have 50.
    3. Encourage NMFS to enforce fishery regulations equitably across 
the board. Do not allow NMFS to put vessel monitoring systems on 
commercial fishing boats without the full support of the sector of the 
industry for which NMFS wants to monitor. Keep Big Brother at bay for 
as long as possible.
    4. Don't let NMFS use the Essential Fish Habitat policy to further 
close down commercial fishing. Watch what NMFS is doing on marine 
preserves. Make them work with all affected citizens and not just the 
environmentalists.
    5. Force NMFS to heed comments made at public hearings. Many 
citizens have lost faith in this part of the process and figure why 
come to one when the decisions have already been made.
    6. Conduct more oversight hearings on NMFS policies and actions. 
Give Dr. Gary Matlock a chance to be heard before your Subcommittee at 
the same time you hear testimony by others who either support or oppose 
his relentless zeal to close commercial fishing. You could draw a crowd 
to such a hearing.
    The red snapper fish management plan is a prime example of how not 
to manage a federal fishery resource. NMFS actions keep the industry, 
both commercial and recreational, in a state of confusion. They 
indicate an opening date for the season will be this and it ends up 
being that. The litigation is ongoing and the horrid science has caused 
a fight between the shrimpers and charterboat fishermen that might not 
be able to be healed.
    Shrimp bycatch is the new poster child but great strides have been 
made by the industry in reducing the non-targeted species and even more 
can be accomplished if the industry can ever convince NMFS that the 
Andrews soft TEDS in most instance can reduce bycatch as much as 70 
percent. We know it is harder for the law enforcement officers to 
measure a soft TED but do we want to reduce more bycatch and make 
measurement a bit harder or do we want to force easy to measure gear on 
the industry which kills more fish? Shrimping has been taking place in 
many areas for over 75 years and the biomass is still robust and the 
shrimp are still there each year. Don't let NMFS use the bycatch demon 
as a tool to further stop commercial fishing. One NMFS document I 
believe says shrimpers catch 88 percent of the juvenile red snapper. We 
very strongly dispute that scientific fact. We don't think we could 
catch 88 percent of anything in a directed manner. We wish NMFS and the 
USCG would help us stop the stealing that goes on when other boats come 
alongside our shrimp trawlers and trade a case of beer for 20 or 30 
pounds of shrimp. The boat owners prohibit alcohol on the vessels but 
sometimes the captains and crew want some beer and trade the owners 
shrimp. They are at fault but so are the boaters and yachtsmen who are 
on the receiving end of an illegal transaction. It has become so 
rampant in some ports around the Fort Myers Beach area that some 
boaters come back and sell their contraband shrimp at flea markets. Its 
stealing when you trade beer for shrimp unless you make the trade from 
a boat owner who happens to be on board. There are not any owner 
captains that will trade $200 worth of shrimp for $6 worth of beer.
    We recommend a moratorium on all new regulations until Congress 
reviews NMFS operations in depth. There are no fisheries in dire need 
of more management, there is no fishery about to collapse and there are 
no unregulated fisheries demanding NMFS attention. It's time to just 
stop and look at what has happened to the seafood industry in the past 
almost quarter of a century since a federal fishing zone was created 
and since a federal agency was given the power to control it.
    We echo what Bob Spaeth asks of Congress which is for it to say, 
``Wait a minute, it is not now nor has it ever been our intent to 
destroy an important food producing segment of our national economy!'' 
He continues saying, ``But destroying us is exactly what NMFS is doing 
through the Sustainable Fisheries division.'' Help us. The burden of 
this governmental yoke known as NMFS is unbearable even for strong men 
and women.
    Thank You for your time.


</pre></body></html>
